                        SIGTARP: Quarterly Report to Congress | April 20, 2010
                                                                                                            CT
                                                                                                       INSPE OR GE
                                                                                                AL                        N
                                                                                              CI




                                                                                                                          ER
                                                                                         E
                                                                                        SP




                                                                                                                             A L
                                                                                       TRO




                                                                                                                               M
                                                                                                                               RA
                                                                                        UB
                                                                                             LE




                                                                                                                          OG
                                                                                                  D
                                                                                                      ASS                 PR
                                                                                                            E T R ELIEF




SIGTARP
SIG-QR-10-02
                         Q2
                        2010
                                                                                 SIGTARP                                            Office of the Special Inspector General
                                                                                                                                    for the Troubled Asset Relief Program
                                                                                 Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                                Quarterly Report to Congress
SIGTARP@do.treas.gov                                                                                                                                               April 20, 2010
www.SIGTARP.gov
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) and amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@do.treas.gov
www.SIGTARP.gov
Contents


Executive Summary 	                                                         3
	   Program Updates and Financial Overview	                                 8
	   Oversight Activities of SIGTARP	                                        9
	   SIGTARP Recommendations on the Operation of TARP	                      11
	   Report Organization	                                                   12

Section 1
The Office of the Special Inspector General for the
	Troubled asset relief program	                                            13
	 SIGTARP Creation and Statutory Authority	                                15
	 SIGTARP Oversight Activities Since the January 2010 Quarterly Report	    15
	 The SIGTARP Organization	                                                29
	
Section 2 	
TARP overview	                                                             31
	 TARP Funds Update 	                                                      33
	 Financial Overview of TARP	                                              33
	 Homeowners Support Program	                                              49
	 TARP Tutorial: What Do “Underwater” Homeowners Do?	                      64
	 Financial Institution Support Programs	                                  74
	 Asset Support Programs	                                                  95
	 TARP Tutorial: Federal Support for Small-Business Lending	              107
	 Automotive Industry Support Programs	                                   114
	 Executive Compensation	                                                 117
	
Section 3 	
tarp operations and administration	                                       121
	 TARP Administrative and Program Expenditures	                           123
	 Current Contractors and Financial Agents	                               124	
  Internal Controls	                                                      129	
Section 4      	
SIGTARP Recommendations	                                            131	
  Update on Treasury’s Adoption of SIGTARP’s Use of
  	 Funds Recommendation 	                                          133
	 Recommendations from SIGTARP’s Audit Report on the Implementation
  	 of the Home Affordable Modification Program (“HAMP”)	           134
	 Recommendations Concerning Treasury’s Newly Announced
  	 Foreclosure Mitigation Initiatives	                             135
	 Tracking the Implementation of Recommendations in
  	 Previous Reports	                                               145

	 Endnotes	                                                            153

appendices
A. 	 Glossary	                                                         165
B. 	 Acronyms and Abbreviations	                                       168
C. 	 Reporting Requirements	                                           170
D.	  Transaction Detail	                                               174
E.	  Cross Reference of Report to the Inspector General Act of 1978	   219
F. 	 Public Announcement of Audits	                                    220
G. 	 Key Oversight Reports and Testimonies	                            221
H. 	 Correspondence	                                                   226
I. 	 Organizational Chart	                                             236
J.	  UST/TCW Fund Holdings	                                            237
		
      quarterly report to congress I april 20, 2010   3




 investigations
EXECUTIVE SUMMARY
4   special inspector general I troubled asset relief program
                                                                                quarterly report to congress I april 20, 2010   5




There are clear signs that some aspects of the financial system may well be on the
path to recovery. Many of the large banks and Wall Street firms propped up by
unprecedented taxpayer support in the fall of 2008 — including massive infusions
under the Troubled Asset Relief Program (“TARP”) — have returned to profitability,
attracted private-sector capital, and enjoyed substantially rebounded stock prices.
Many of those firms have been able to repay TARP far sooner than anyone reason-
ably would have anticipated, resulting in a profit on those particular investments
for the Treasury Department (“Treasury”), and thus the American taxpayer. Even
Citigroup Inc. (“Citigroup”) and Bank of America Corporation (“Bank of America”),
firms that appear to have survived only with extraordinary TARP assistance, have
rebounded, with Bank of America repaying its TARP bailouts in full and Citigroup
on the verge of doing the same. All told, as of March 31, 2010, $205.9 billion has
come back to the taxpayer through repayment of principal, interest, dividends,
cancellation of guarantees, and warrant sales. As a result, although TARP is still
expected to result in a large loss to taxpayers ($127 billion according to the Office
of Management and Budget, as of February 2010), the expected loss is far lower
than previous estimates, and is concentrated in the programs designed to support
American International Group, Inc. (“AIG”) ($50 billion), the automotive industry
($31 billion), and housing ($49 billion).
    Even as Wall Street regains its footing, however, signs of distress on Main Street
remain disturbingly persistent. Although unemployment has eased slightly in recent
months, it still remains much higher than at any time since 1983. In addition,
the long-term nature of unemployment is unprecedented in recent history — the
March 2010 figure for the average duration of unemployment, 31.21 weeks, is the
highest since such measurement began in 1948. Meanwhile, smaller and regional
banks continue to struggle (with 50 closed so far in 2010), small-business lending
remains substantially depressed from pre-recession levels, and the real estate mar-
kets, both residential and commercial, continue to suffer at crisis proportions in
many areas of the country. Questions remain as to whether the real estate markets
have truly found bottom or are headed for further decline. In sum, notwithstanding
that the financial system appears to be stabilizing and record profits are returning
to Wall Street, the plain fact is that too many Americans on Main Street are still in
imminent danger of losing their businesses, their jobs, and their homes.
    In light of these circumstances, Treasury has shifted much of TARP’s focus to
initiatives intended to offer economic relief to the broader public. A year ago this
March, Treasury introduced the Making Home Affordable (“MHA”) initiative,
which was designed to address the growing wave of home foreclosures ravag-
ing many areas of the country. The centerpiece of MHA is the Home Affordable
Modification Program (“HAMP”), which was intended to result in millions of sus-
tainable mortgage modifications that would allow homeowners to remain in their
6   special inspector general I troubled asset relief program




                                           homes by reducing their monthly payments to affordable levels. The Administration
                                           has allocated $75 billion to HAMP, including $50 billion of TARP funds.
                                               Despite Treasury’s efforts, however, the home foreclosure crisis has not abated;
                                           indeed, the situation has continued to deteriorate since HAMP’s rollout. Nearly 2.8
                                           million foreclosures were initiated in 2009.2 More ominously, 2010 is on pace to be
                                           even worse: there were more than 932,000 foreclosure filings during the first three
                                           months — a 16% increase from the already staggering rate for the first quarter of
                                           2009. Similarly, for the first quarter of 2010, actual bank repossessions rose 35%
                                           from 2009 levels to nearly 258,000.3 Unfortunately, HAMP has made very little
                                           progress in stemming this onslaught, resulting in only 230,000 permanent modifi-
                                           cations initiated over the approximately 12 months of the program’s existence. That
                                           figure represents only 8.2% of the foreclosures initiated in 2009 and fewer than just
                                           the most recent quarter’s actual bank repossessions.
                                               A SIGTARP audit report published on March 25, 2010, examined the design
                                           and operation of HAMP in detail. The audit first found that Treasury’s publicly
                                           touted measure of success, the number of short-term trial modification offers that
                                           have been made to struggling homeowners, was largely meaningless, and that
                                           Treasury needs to clearly identify the total number of homeowners it actually in-
                                           tends to help stay in their homes through sustainable permanent mortgage modifi-
                                           cations. The audit also found that the limited results to date stemmed from, among
                                           other things, flaws in HAMP’s design, rollout, and marketing that diminished the
                                           program’s effectiveness in providing sustainable relief to at-risk homeowners. In
                                           its original version, HAMP involved frequent and time-consuming revisions of
                                           guidelines that created confusion and delay; permitted reliance on unverified verbal
                                           borrower data that slowed down conversions to permanent modifications; suffered
                                           from insufficient outreach to the American public about eligibility and benefits; and
                                           did not fully address risk factors for re-defaults among participating borrowers, in-
                                           cluding negative equity and high total debt levels even after modification. As noted
                                           in the report, without addressing the dangers of re-default, HAMP risks merely
                                           spreading out the foreclosure crisis at significant taxpayer expense. While this
                                           may benefit financial institutions that would not have to recognize the losses from
                                           immediate foreclosures, it would do little to accomplish the Emergency Economic
                                           Stabilization Act’s explicit purpose to “help families keep their homes.”
                                               Although Treasury was initially reluctant to address the issues raised in the
                                           audit report regarding re-default, including a suggestion that only modest changes
                                           would be made to the program to address negative equity, just days after the publi-
                                           cation of SIGTARP’s audit report and a subsequent Congressional hearing discuss-
                                           ing the report’s findings, Treasury changed course and introduced major revisions
                                           to HAMP, including new provisions designed to address the plight of unemployed
                                           homeowners and to require consideration of principal write-downs for borrowers
                                           with negative equity. To Treasury’s credit, the program changes appear intended to
                                                                                    quarterly report to congress I april 20, 2010   7




expand HAMP participation and improve the rate of permanent modifications, as
well as to address the significant re-default risk driven by homeowners’ negative eq-
uity. On the whole, the revisions to HAMP constitute a potentially important step
forward in addressing some of the flaws identified in SIGTARP’s audit report.
    However, the program changes, as announced, also raise several issues that
could impede HAMP’s effectiveness and efficiency. Treasury’s urgency in rolling out
the new initiatives, laudable as it is, risks significant costs in the form of ill-defined
goals, incomplete program guidelines, increased vulnerability to fraud, incentives
that may prove ineffective, and the potential for arbitrary treatment of participating
borrowers. SIGTARP has made a series of recommendations designed to address
these issues as discussed more fully in Section 4: “SIGTARP Recommendations” in
this report:

•	 Treasury should identify its participation goals and anticipated costs for each
   HAMP program and subprogram and measure success against those expecta-
   tions in its monthly reports.
•	 Treasury should launch a broader based fraud awareness campaign for HAMP
   and include fraud warnings when it makes program announcements.
•	 To protect against fraud, Treasury should abandon its differing valuation
   standards across HAMP and adopt the Federal Housing Authority’s appraisal
   standard for all HAMP principal reduction and short sale programs.
•	 Treasury should reevaluate the voluntary nature of its principal reduction pro-
   gram, considering changes to maximize effectiveness, to ensure to the greatest
   extent possible consistent treatment of similarly situated borrowers, and to ad-
   dress potential servicer conflicts of interest.
•	 Treasury should reconsider the length of the three-month minimum term of its
   unemployment forbearance program.

    In sum, until Treasury fulfills its commitment to provide a thoughtfully de-
signed, consistently administered, and fully transparent program, HAMP risks be-
ing remembered not for catalyzing a recovery from our current housing crisis, but
rather for bold announcements, modest goals, and meager results.
8               special inspector general I troubled asset relief program




                                                                PROGRAM UPDATES AND FINANCIAL OVERVIEW
                                                                TARP consists of 13 announced programs, all of which have been implemented.
                                                                Six are closing or have already been wound down. As of March 31, 2010, Treasury
                                                                had announced programs involving potential spending of $537.1 billion of the
                                                                $698.8 billion maximum available for the purchase of troubled assets under TARP
CUMULATIVE PLANNED TARP                                         as authorized by Congress. Of this amount, Treasury had expended or committed
EXPENDITURES, REPAYMENTS,                                       to expend approximately $496.8 billion through the 13 implemented programs to
AND REDUCTIONS IN EXPOSURE                                      provide support for U.S. financial institutions, the automobile industry, the markets
AS OF 3/31/2010
$ Billions                                                      in certain types of asset-backed securities (“ABS”), and homeowners. As of March
                                                                31, 2010, 77 TARP recipients had paid back all or a portion of their principal or
                                                                repurchased shares for an aggregate total of $180.8 billion of repayments and
                                                                a $5 billion reduction in exposure to possible further liabilities, leaving $387.8
                                                 $387.8
                                                                billion, or 55.5%, of TARP’s allocated $698.8 billion available.
                                 $185.8                              In addition to the principal repayments, Treasury has received interest and
 $698.8
                                                                dividend payments on its investments, as well as revenue from the sale of its war-
                 $496.8
                                                                rants. As of March 31, 2010, $14.5 billion in interest, dividends, and other income
                                                                had been received by the Government, and $5.6 billion in sales proceeds had
                                                                been received from the sale of warrants and preferred stock received as a result of
Total TARP      Planned TARP TARP          TARP
Available       Expendituresa Repayments Balance
                                                                exercised warrants. At the same time, some TARP participants have missed divi-
                              and          Remaining            dend payments: among participants in the Capital Purchase Program (“CPP”), 104
                              Reductions
                              in Exposureb                      have missed dividend payments to the Government, although some of them made
Notes: Numbers affected by rounding. The “planned
                                                                the payments on a later date. As of March 31, 2010, there was $188.9 million in
expenditures” referenced throughout this report represent the   outstanding unpaid CPP dividends. In addition, three TARP recipients have failed
funds Treasury currently plans to expend for each program,
and a majority of those are committed funds (e.g., signed       and several others have restructured their agreements with Treasury, increasing the
agreements with TARP fund recipients).
a Treasury experienced a $2.3 billion loss on some              potential for further losses.
  investments under the Capital Purchase Program (“CPP”) .
b Repayments include $135.8 billion for CPP, $40 billion for
  the Targeted Investment Program, $4.6 billion for Auto
  Programs, and a $5 billion reduction in exposure under the
  Asset Guarantee Program.

Sources: Treasury, Transactions Report, 4/2/2010; Treasury,
response to SIGTARP data call, 4/12/2010.
                                                                               quarterly report to congress I april 20, 2010   9




OVERSIGHT ACTIVITIES OF SIGTARP
Since SIGTARP’s Quarterly Report to Congress dated January 30, 2010, SIGTARP
has actively sought to fulfill its vital investigative and audit functions.
   SIGTARP’s Investigations Division continues to develop into a sophisticated
white-collar investigative agency. Through March 31, 2010, SIGTARP has 84
ongoing criminal and civil investigations. Highlights from the last quarter include
important developments in several cases that have been brought as the result of
SIGTARP’s investigations.

The Park Avenue Bank
On March 15, 2010, Charles Antonucci, the former President and Chief Executive
Officer of The Park Avenue Bank, was charged by the United States Attorney’s
Office for the Southern District of New York with offenses including self-dealing,
bank bribery, embezzlement of bank funds, and bank, mail and wire fraud, among
others. In particular, Antonucci allegedly attempted to steal $11 million of TARP
funds by, among other things, making fraudulent claims about the bank’s capi-
tal position. These charges mark the first time an individual has been criminally
charged with attempting to steal TARP funds.
    According to the allegations, Antonucci falsely represented that he had person-
ally invested $6.5 million in The Park Avenue Bank to improve its capital position.
As set forth in the charges, however, the funds were actually borrowed from
The Park Avenue Bank itself and reinvested as part of an undisclosed “round-trip”
transaction. The complaint further alleges that this fraudulent transaction was
touted by The Park Avenue Bank in support of its application for TARP funds as
evidence of its supposedly improving capital position.

Bank of America
On February 4, 2010, the New York Attorney General charged Bank of America, its
former Chief Executive Officer Kenneth D. Lewis, and its former Chief Financial
Officer Joseph L. Price with civil securities fraud. According to the allegations, in
order to complete a merger between Bank of America and Merrill Lynch & Co.,
Inc. (“Merrill Lynch”), the defendants failed to disclose to shareholders spiraling
losses at Merrill Lynch. Additionally, after the merger was approved, it is alleged
that Bank of America made misrepresentations to the Federal Government in order
to obtain tens of billions of dollars in TARP funds. The investigation was conducted
jointly by the New York Attorney General’s Office and SIGTARP, and the case
remains pending in New York state court.
    SIGTARP also assisted the Securities and Exchange Commission (“SEC”) with
its Bank of America investigation. On February 22, 2010, the Honorable Jed S.
Rakoff, United States District Judge for the Southern District of New York, ap-
proved a $150 million civil settlement between the SEC and Bank of America to
settle all outstanding SEC actions against the firm.
10   special inspector general I troubled asset relief program




                                            Nations Housing Modification Center
                                            On March 19, 2010, Glenn Steven Rosofsky was arrested by agents from
                                            SIGTARP and the Internal Revenue Service, Criminal Investigation Division and
                                            charged by the U.S. Attorney’s Office for the Southern District of California with
                                            one count of conspiracy to commit wire fraud and money laundering and one
                                            count of money laundering. A separate information the same day charged Michael
                                            Trap with conspiracy to commit fraud and money laundering. As set forth in the
                                            charges, Rosofsky, Trap, and others operated a telemarketing firm, ostensibly to
                                            assist delinquent homeowners with loan modification services. Operating under the
                                            names “Nations Housing Modification Center” and “Federal Housing Modification
                                            Department,” Rosofsky and Trap took advantage of the publicity surrounding the
                                            Administration’s mortgage modification efforts under the TARP-supported MHA
                                            program and are alleged to have used fraudulent statements to induce customers
                                            to pay $2,500 – $3,000 each to purchase loan modification services that were not
                                            actually provided. It is alleged in court documents that the fraud grossed more than
                                            $1 million. Trap pled guilty to the charges listed in his March 19 information the
                                            following day. The case against Rosofsky remains pending.
                                                Section 1: “The Office of the Special Inspector General for the Troubled Asset
                                            Relief Program” in this report describes these cases, other cases brought over the
                                            last quarter, and SIGTARP’s other Investigations Division activities in more detail.
                                                On the audit side, as noted above, SIGTARP released its latest audit report on
                                            March 25, 2010, which examined the “Factors Affecting Implementation of the
                                            Home Affordable Modification Program.” SIGTARP has 12 other ongoing audit
                                            projects, including 2 new audits that have been initiated over the past quarter:

                                            •	 Application of the HAMP Net Present Value (“NPV”) Test: This audit,
                                               which will be conducted in response to a request from Senator Jeff Merkley and
                                               eight other Senators, will assess: whether the participating loan servicers are
                                               correctly applying the NPV test under the program; the extent to which Treasury
                                               ensures that servicers are appropriately applying the NPV test per HAMP
                                               guidelines when assessing borrowers for program eligibility; and the procedures
                                               servicers follow to communicate to borrowers the reasons for NPV test failure,
                                               as well as to identify the full range of loss mitigation options available to such
                                               borrowers.
                                                                              quarterly report to congress I april 20, 2010   11




•	 Material Loss Review of United Commercial Bank: SIGTARP is partici-
   pating in a Material Loss Review of United Commercial Bank, based in San
   Francisco, with the Office of the Inspector General of the Federal Deposit
   Insurance Corporation (“FDIC OIG”). In November 2008, United Commercial
   Bank received $298.7 million of TARP funds through CPP. On November 6,
   2009, the California Department of Financial Institutions closed the bank and
   appointed FDIC as receiver. The objectives of the audit are: determining the
   causes of the financial institution’s failure and resulting material loss to the
   Deposit Insurance Fund; evaluating FDIC’s supervision of the institution; and
   determining whether FDIC and Treasury followed applicable procedures in
   recommending the bank for CPP funding and in monitoring its compliance with
   the securities purchase agreement.

   Section 1: “The Office of the Special Inspector General for the Troubled Asset
Relief Program” in this report describes the HAMP audit in detail and discusses
continuing and recently announced SIGTARP audits.


SIGTARP RECOMMENDATIONS ON THE
OPERATION OF TARP
One of SIGTARP’s oversight responsibilities is to provide recommendations to
Treasury so that TARP programs can be designed or modified to facilitate effec-
tive oversight and transparency and to prevent fraud, waste, and abuse. Section
4: “SIGTARP Recommendations” in this report provides updates on existing
recommendations and summarizes implementation measures for previous rec-
ommendations. As noted above, this report makes a series of recommendations
concerning the new HAMP initiatives. It also discusses Treasury’s introduction,
on February 3, 2010, of the Community Development Capital Initiative (“CDCI”),
a new TARP initiative designed to provide up to $1 billion in additional capital to
Community Development Financial Institutions to incentivize lending. Section 2:
“TARP Overview” in this report reviews CDCI’s provisions in detail, and Section 4:
“SIGTARP Recommendations” in this report details a number of SIGTARP recom-
mendations designed to improve the transparency of CDCI investments and better
safeguard them against fraud or the failure of participating institutions.
    Over the past quarter, Treasury has also announced another new initiative de-
signed to spur small-business lending, the Small Business Lending Fund (“SBLF”).
As announced, although SBLF will be funded with $30 billion that will be rescind-
ed from TARP, SBLF will not be part of TARP, but rather will be operated outside
of TARP and thus will not be subject to the executive compensation restrictions
and perceived stigma associated with TARP. However, many of the characteristics
of SBLF are the same or very similar to the TARP’s CPP and CDCI: the economic
12   special inspector general I troubled asset relief program




                                            structure is basically the same, with Treasury providing capital in the form of pre-
                                            ferred equity, and, like CPP and CDCI, the maximum amount of capital available
                                            under SBLF will be a percentage of the institution’s risk-weighted assets. It would
                                            also appear that the application and approval process for new participants will be
                                            similar and will involve the same primary regulators. Even many of the same banks
                                            will be participants — SBLF is expressly being designed so that many CPP partici-
                                            pants will be able to convert their CPP capital into SBLF capital. SIGTARP has
                                            estimated that up to 95% of CPP participants could be eligible to convert to SBLF.
                                                In sum, the funds being utilized, the core mechanics, the economic terms of
                                            the program and even many of the participants all stem from TARP’s CPP. Because
                                            SIGTARP has developed considerable experience and expertise in its oversight of
                                            the very similar (and similarly complex) CPP, particularly in reporting, monitor-
                                            ing, deterring, and investigating fraud, SIGTARP has strongly encouraged that
                                            SIGTARP be included in the oversight provisions of Treasury’s legislative proposal
                                            concerning SBLF. SIGTARP’s letter to Treasury, objecting to its stated intent
                                            not to include SIGTARP in the proposed legislation, is included in Appendix H:
                                            “Correspondence.”


                                            REPORT ORGANIZATION
                                            The report is organized as follows:

                                            •	 Section 1: “The Office of the Special Inspector General for the Troubled Asset
                                               Relief Program” in this report discusses the activities of SIGTARP.
                                            •	 Section 2: “TARP Overview” in this report details how Treasury has spent TARP
                                               funds thus far and contains an explanation or update of each program, both
                                               implemented and announced.
                                            •	 Section 3: “TARP Operations and Administration” in this report describes the
                                               operations and administration of the Office of Financial Stability, the office
                                               within Treasury that manages TARP.
                                            •	 Section 4: “SIGTARP Recommendations” in this report states SIGTARP’s rec-
                                               ommendations to Treasury with respect to the operation of TARP.

                                                The report also includes numerous appendices containing, among other things,
                                            figures and tables detailing all TARP investments through March 31, 2010.
                                                The goal is to make this report a ready reference on what TARP is and how it
                                            has been used to date. In the interest of making this report as understandable as
                                            possible, and thereby furthering general transparency of the program itself, certain
                                            technical terms are highlighted in the text and defined in the adjacent margin. In
                                            addition, portions of Section 2 are devoted to tutorials explaining the alternatives
                                            available to “underwater” homeowners and reviewing Federal support for small-
                                            business lending.
                         quarterly report to congress I aPRIL 20, 2010   13




            The Office of the Special
section 1
               investigations
            Inspector General for the
            Troubled Asset Relief Program
14   special inspector general I troubled asset relief program




                                                                 exec summ endnote1
                                                                 exec summ endnote2
                                                                 exec summ endnote3
                                                                               quarterly report to congress I aPRIL 20, 2010   15




SIGTARP CREATION AND STATUTORY AUTHORITY
The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) was created by Section 121 of the Emergency Economic Stabilization
Act of 2008 (“EESA”). Under EESA, SIGTARP has the responsibility, among
other things, to conduct, supervise, and coordinate audits and investigations of the
purchase, management, and sale of assets under the Troubled Asset Relief Program
(“TARP”) and, with certain limitations, any other action taken under EESA.
SIGTARP is required to report quarterly to Congress to describe SIGTARP’s activi-
ties and to provide certain information about TARP over that preceding quarter.
EESA gives SIGTARP the authorities listed in Section 6 of the Inspector General
Act of 1978, including the power to obtain documents and other information from
Federal agencies and to subpoena reports, documents, and other information from
persons or entities outside of Government.
    The Special Inspector General, Neil M. Barofsky, was confirmed by the Senate
on December 8, 2008, and sworn into office on December 15, 2008.


SIGTARP OVERSIGHT ACTIVITIES SINCE THE
JANUARY 2010 QUARTERLY REPORT
SIGTARP has continued to fulfill its oversight role on multiple parallel tracks: from
auditing various aspects of TARP and TARP-related programs and activities; to
investigating allegations of fraud, waste, and abuse in TARP programs; to coordi-
nating closely with other oversight bodies; all while trying to promote transparency
in TARP programs.

SIGTARP’s Investigations Activity
SIGTARP’s Investigations Division continues to develop into a sophisticated white-
collar investigative agency. Through March 31, 2010, SIGTARP has 84 ongoing
criminal and civil investigations. These investigations concern suspected TARP
fraud, accounting fraud, securities fraud, insider trading, bank fraud, mortgage
fraud, mortgage servicer misconduct, fraudulent advance-fee schemes, public
corruption, false statements, obstruction of justice, theft of trade secrets, money
laundering, and tax-related investigations. Although the majority of SIGTARP’s
investigative activity remains confidential, over the past quarter there have been
significant public developments in several of SIGTARP’s investigations.

The Park Avenue Bank
On March 15, 2010, Charles Antonucci, the former President and Chief Executive
Officer of The Park Avenue Bank, was charged by the United States Attorney’s
Office for the Southern District of New York with offenses including self-dealing,
bank bribery, embezzlement of bank funds, and bank, mail, and wire fraud, among
16   special inspector general I troubled asset relief program




                                            others. In particular, Antonucci allegedly attempted to steal $11 million of TARP
                                            funds by, among other things, making fraudulent claims about the bank’s capi-
                                            tal position. These charges mark the first time an individual has been criminally
                                            charged with attempting to steal TARP funds.
                                                 According to the allegation, Antonucci falsely represented that he had person-
                                            ally invested $6.5 million in The Park Avenue Bank to improve its capital position.
                                            As set forth in the charges, however, the funds were actually borrowed from The
                                            Park Avenue Bank itself and reinvested as part of an undisclosed “round-trip”
                                            transaction. The complaint further alleges that this fraudulent transaction was
                                            touted by The Park Avenue Bank in its application for TARP funds as evidence of
                                            its supposedly improving capital position, a key factor regulators consider when
                                            awarding TARP funds. In addition, Antonucci allegedly made false representations
                                            to bank regulators about the source of the $6.5 million. The ongoing SIGTARP in-
                                            vestigation is being conducted in partnership with U.S. Immigration and Customs
                                            Enforcement (“ICE”), the Superintendent of the Banks of New York, the Federal
                                            Bureau of Investigation (“FBI”), and the Office of the Inspector General of the
                                            Federal Deposit Insurance Corporation (“FDIC OIG”).

                                            Bank of America
                                            On February 4, 2010, the New York Attorney General charged Bank of America
                                            Corporation (“Bank of America”), its former Chief Executive Officer Kenneth D.
                                            Lewis, and its former Chief Financial Officer Joseph L. Price with civil securities
                                            fraud. According to the allegations, in order to complete a merger between Bank
                                            of America and Merrill Lynch & Co., Inc. (“Merrill Lynch”), the defendants failed
                                            to disclose to shareholders spiraling losses at Merrill Lynch. Additionally, after the
                                            merger was approved, it is alleged that Bank of America made misrepresentations
                                            to the Federal Government in order to obtain tens of billions of dollars in TARP
                                            funds. The investigation was conducted jointly by the New York Attorney General’s
                                            Office and SIGTARP, and the case remains pending in New York state court.
                                                SIGTARP also assisted the Securities and Exchange Commission (“SEC”) with
                                            its Bank of America investigation. On February 22, 2010, the Honorable Jed S.
                                            Rakoff, United States District Judge for the Southern District of New York, ap-
                                            proved a $150 million civil settlement between the SEC and Bank of America to
                                            settle all outstanding SEC actions against the firm. The court found that Bank of
                                            America failed to disclose adequately to its shareholders, prior to their approval of
                                            a merger with Merrill Lynch, the extent of additional material losses that Merrill
                                            Lynch had suffered. Additionally, the court found that the proxy statement sent to
                                            shareholders in November 2008 failed to disclose adequately Bank of America’s
                                            agreement to allow the payment of bonuses to Merrill Lynch employees prior to the
                                            merger. In addition to the $150 million payment, Bank of America also agreed to
                                            the following settlement requirements:
                                                                                 quarterly report to congress I aPRIL 20, 2010   17




•	 engaging an independent auditor to assess and report on the effectiveness of the
   company’s disclosure controls and procedures
•	 furnishing management certifications signed by the chief executive officer and
   chief financial officer with respect to proxy statements
•	 retaining disclosure counsel to the audit committee of the company’s board of
   directors
•	 adopting independence requirements beyond those already applicable for all
   members of the compensation committee of the company’s board of directors
•	 retaining an independent compensation consultant to the compensation
   committee
•	 implementing and disclosing written incentive compensation principles on the
   company’s website and providing the company’s shareholders with an advisory
   vote concerning any proposed changes to such principles
•	 providing the company’s shareholders with an annual “say on pay” advisory vote
   regarding the compensation of executives

   Finally, SIGTARP continues to investigate, in partnership with the FBI and
U.S. Attorneys’ Offices for the Southern District of New York and Western District
of North Carolina, the circumstances of Bank of America’s merger with Merrill
Lynch and its receipt of additional TARP funds through the Targeted Investment
Program.

Omni National Bank
Omni National Bank (“Omni”) was a national bank headquartered in Atlanta with
branch offices in seven states. Omni failed and was taken over by the Federal
Deposit Insurance Corporation (“FDIC”) on March 27, 2009. Before its failure,
Omni had applied for, but did not receive, TARP funds under the Capital Purchase
Program (“CPP”). SIGTARP has participated in several investigations concerning
Omni that have led to criminal charges as part of a mortgage fraud task force that
includes SIGTARP, the U.S. Attorney’s Office for the Northern District of Georgia,
FDIC OIG, the Office of the Inspector General of the Department of Housing and
Urban Development (“HUD OIG”), the U.S. Postal Inspection Service (“USPIS”),
and the FBI.
    The Omni investigation yielded two convictions in the first quarter of 2010.
On January 14, 2010, Jeffrey Levine, Omni’s former Executive Vice President,
pled guilty in Federal district court to charges of causing material overvaluations of
bank assets in the books, reports, and statements of Omni. On March 23, 2010,
Brent Merriell pled guilty in Federal district court to charges of making false state-
ments to the FDIC and six counts of aggravated identity theft in connection with a
scheme to prompt Omni to forgive $2.2 million in loans. Sentencing for both men
is scheduled for May 25, 2010.
18   special inspector general I troubled asset relief program




                                                SIGTARP’s involvement in the investigations, including whether the various
                                            frauds had an impact on Omni’s CPP application, is ongoing.

                                            Mount Vernon Money Center
                                            On March 11, 2010, the U.S. Attorney’s Office for the Southern District of New
                                            York indicted Robert Egan, president, and Bernard McGarry, chief operating of-
                                            ficer, of the Mount Vernon Money Center (“MVMC”) with bank fraud for allegedly
                                            stealing $50 million entrusted to their company. MVMC engaged in various cash
                                            management businesses, including replenishing cash in more than 5,300 auto-
                                            mated teller machines owned by banks and other financial institutions. According
                                            to the charges, from 2005 through February 2010, Egan and McGarry solicited
                                            and collected hundreds of millions of dollars from MVMC’s clients on the false
                                            representations that they would not commingle clients’ funds or use the money for
                                            purposes other than those specified in the various contracts with their clients. Egan
                                            and McGarry misappropriated their clients’ money — including the funds of several
                                            institutions in which the American taxpayer was an investor through TARP — to
                                            fund tens of millions of dollars in operating losses in MVMC’s businesses, to repay
                                            outstanding client obligations, and to enrich themselves at their clients’ expense.
                                            SIGTARP agents assisted with the investigation. A trial date remains to be set.

                                            Nations Housing Modification Center
                                            On March 19, 2010, Glenn Steven Rosofsky was arrested by agents from
                                            SIGTARP and the Internal Revenue Service, Criminal Investigation Division
                                            (“IRS-CI”) and charged by the U.S. Attorney’s Office for the Southern District of
                                            California with one count of conspiracy to commit wire fraud and money laun-
                                            dering and one count of money laundering. A separate information the same day
                                            charged Michael Trap with conspiracy to commit fraud and money laundering.
                                            As set forth in the charges, Rosofsky, Trap, and others operated a telemarketing
                                            firm, ostensibly to provide delinquent homeowners with loan modification services.
                                            Operating under the names “Nations Housing Modification Center” and “Federal
                                            Housing Modification Department,” Rosofsky and Trap took advantage of the
                                            publicity surrounding the Administration’s mortgage modification efforts under
                                            the TARP-supported Making Home Affordable (“MHA”) program and are alleged
                                            to have used fraudulent statements to induce customers to pay $2,500 - $3,000
                                            each to purchase loan modification services that were not actually provided. The
                                            charges allege that the solicitation letters were mailed in envelopes that deceptively
                                            bore a Capitol Hill return address (in fact, it was merely a post office box) and were
                                            designed to mimic official Federal correspondence. It is alleged in court documents
                                            that the fraud grossed more than $1 million. Trap pled guilty to the charges listed
                                            in his March 19 information the following day. The case against Rosofsky remains
                                            pending.
                                                                                quarterly report to congress I aPRIL 20, 2010   19




    The criminal charges follow the September 16, 2009, civil injunction obtained
by the Federal Trade Commission (“FTC”), in connection with an investigation
conducted in partnership with SIGTARP, against Rosofsky, Trap, and others, alleg-
ing violations of the FTC Act and telemarketing sales rules through misrepresenta-
tions about their organization as a Federal Government agency or affiliate and false
claims that they would obtain mortgage modifications for consumers for a fee.

United Law Group
On March 11, 2010, SIGTARP, along with the USPIS, FBI, ICE, and the Orange
County District Attorney’s Office, executed a publicly filed search warrant obtained
by the U.S. Attorney for the Central District of California at the offices of United
Law Group, LLC (“ULG”) in Irvine, California. This investigation focuses on alle-
gations that ULG, taking advantage of the climate created by the TARP-supported
MHA programs, engaged in a mortgage modification advance fee scheme. The
company allegedly charged struggling homeowners fees ranging from $1,500 to
$12,000 without performing services while advising victims to stop paying their
mortgages and terminate contact with their lenders. Many ULG customers subse-
quently lost their homes to foreclosure.

Board of Governors of the Federal Reserve System/Federal Reserve
Bank of New York
As disclosed to Congress in connection with the January 22, 2010 hearing en-
titled “Federal Bailout of AIG” before the House Committee on Oversight and
Government Reform, SIGTARP has initiated several investigations relating to the
decision of the Federal Reserve Bank of New York (“FRBNY”) to pay certain AIG
swap counterparties the equivalent of par for certain distressed securities, includ-
ing issues related to FRBNY’s cooperation with SIGTARP during the course of
SIGTARP’s audit into the payments and to certain disclosures made by AIG in
relation to the payments.


SIGTARP Chairs Inaugural Meeting of the Rescue
Fraud Working Group of the President’s Financial Fraud
Enforcement Task Force

On February 24, 2010, SIGTARP hosted the inaugural meeting of the Rescue
Fraud Working Group. As previously reported, President Obama established the
Financial Fraud Enforcement Task Force (“FFETF”) “to investigate and prosecute
significant financial crimes and other violations relating to the current financial
crisis and economic recovery efforts, recover the proceeds of such crimes and viola-
tions, and ensure just and effective punishment of those who perpetrate financial
crimes and violations.” A component of FFETF is the Rescue Fraud Working
20   special inspector general I troubled asset relief program




                                            Group, co-chaired by Special Inspector General Neil M. Barofsky, Assistant
                                            Attorney General Lanny A. Breuer of the Criminal Division of the Department
                                            of Justice (“DOJ”), and Timothy G. Massad, chief counsel of Treasury’s Office of
                                            Financial Stability (“OFS”). Attendees at the inaugural meeting included offi-
                                            cials from agencies across the Federal Government, including OFS; DOJ (Civil,
                                            Criminal, and Tax Divisions); the U.S. Attorneys’ Offices for the Northern and
                                            Central Districts of California, the Eastern District of Virginia, the Eastern and
                                            Southern Districts of New York, and the District of New Jersey; the Office of
                                            the Comptroller of the Currency; the Office of Thrift Supervision; the Financial
                                            Crimes Enforcement Network; USPIS; the Board of Governors of the Federal
                                            Reserve; the SEC; and the FBI.

                                            SIGTARP Hotline
                                            One of SIGTARP’s primary investigative priorities is to operate the SIGTARP
                                            Hotline, thus providing a simple, accessible way for the American public to report
                                            concerns, allegations, information, and evidence of violations of criminal and civil
                                            laws in connection with TARP. From its inception in February 2009 through March
                                            31, 2010, the SIGTARP Hotline has received and analyzed more than 12,000
                                            Hotline contacts. These contacts run the gamut from expressions of concern about
                                            the economy to serious allegations of fraud involving TARP. A substantial number
                                            of SIGTARP’s investigations were generated in connection with Hotline tips. The
                                            SIGTARP Hotline can receive information anonymously, and the confidential-
                                            ity of whistleblowers is protected to the fullest extent possible. SIGTARP honors
                                            all applicable whistleblower protections. SIGTARP urges anyone aware of waste,
                                            fraud, or abuse relating to TARP programs or funds, whether it involves the Federal
                                            Government, state and local entities, private firms, or individuals, to contact its
                                            representatives at 877-SIG-2009 or www.sigtarp.gov.

                                            SIGTARP Audit Activity
                                            SIGTARP has initiated a total of 20 audits since its inception. Since SIGTARP’s
                                            Quarterly Report to Congress dated January 30, 2010 (the “January 2010 Quarterly
                                            Report”), SIGTARP has released an additional audit report and announced two
                                            new audit projects. Five other previously announced audits are nearing completion,
                                            and SIGTARP anticipates releasing reports on those audits in the coming months.

                                            Factors Affecting Implementation of the Home Affordable Modification
                                            Program
                                            On March 25, 2010, SIGTARP released its audit report entitled “Factors Affecting
                                            Implementation of the Home Affordable Modification Program.” Announced
                                            on March 4, 2009, the Home Affordable Modification Program (“HAMP”) was
                                                                                   quarterly report to congress I aPRIL 20, 2010   21




designed to help homeowners stay in their homes by making their mortgages more
affordable. Allocations for HAMP totaled $75 billion, including $50 billion of
TARP funds. Loan servicer participation is voluntary, but HAMP encourages it by
sharing some modification-related costs and offering incentive payments for suc-
cessful modifications. HAMP targets owner-occupants who are in default on their
pre-2009 mortgage loans or are deemed at risk of imminent default.
     Using funds from TARP, among other sources, HAMP offers financial incen-
tives for parties to mortgage modifications. First, if a servicer’s modifications reduce
a borrower’s first mortgage debt to 38% of gross income, HAMP assumes half of
the marginal cost of further reducing that ratio to 31%. Second, under a pay-for-
success structure, HAMP provides fixed-dollar incentive payments to servicers, bor-
rowers, and lenders for successful loan modifications. Under HAMP, Treasury does
not pay incentives during a trial period of several months; only after trial modifica-
tions convert successfully to permanent modifications will Treasury make incentive
payments.
     SIGTARP’s audit examined HAMP’s status and whether the program has met
participation goals thus far. It also discussed the challenges that have confronted
Treasury in implementing the program.
     When HAMP was launched in early 2009, Treasury justified the program by
stating that it would “help up to three to four million at-risk homeowners avoid
foreclosure,” doing so “by reducing monthly payments to sustainable levels.”
Notwithstanding this laudable aspiration that the program would actually help that
number of homeowners avoid losing their homes, Treasury has stated that its nu-
merical goal is not tied to how many homeowners actually receive sustainable relief
and avoid foreclosure. Rather, its goal was that three to four million homeowners
would receive offers for trial modifications. The audit report concluded that mea-
suring trial modification offers, or even actual trial modifications, for that matter, is
not particularly meaningful. The more significant measure is the number of people
helped, through permanent modifications, to avoid foreclosure and stay in their
homes. Transparency and accountability principles require that Treasury establish
meaningful goals and that it report its progress in meeting those goals on a monthly
basis. Continuing to frame HAMP’s success around the number of offers extended
is simply not sufficient.
     A year into the program, although more than a million trial modifications have
been initiated, the number of permanent modifications, as of the time the audit
was issued, 168,708, has been, even according to Treasury, “disappointing.” One
Treasury official’s estimate for how many permanent modifications would result
from HAMP as it was designed at the time of the audit — 1.5 to 2 million over the
course of the four-year program — may be only a small fraction of the total number
of foreclosures that will occur during that period. The audit concluded that any
22   special inspector general I troubled asset relief program




                                            assessment of whether HAMP is worth the resources being expended or whether
                                            the program needs to be revamped to actually help more borrowers should be based
                                            on the projected estimate of permanent modifications, not Treasury’s figure of
                                            three- to four-million “offers.”
                                                There are several reasons that the audit identified for the disappointing results
                                            to date:
                                            •	 Repeated changes to program guidelines caused confusion and delay.
                                               Treasury attempted to roll out HAMP as fast as possible and, although it may
                                               have made substantial progress in meeting its servicer participation goals quick-
                                               ly, the program’s rules were not fully developed by the time the program began.
                                               As a result, Treasury has had to revise guidelines repeatedly, often causing
                                               confusion and delay. Treasury’s initial haste may have impaired the longer-term
                                               objective of delivering more permanent modifications quickly and efficiently.
                                            •	 Permitting unverified verbal modifications was counterproductive. To pur-
                                               sue fixed goals for trial modifications, Treasury permitted servicers to initiate
                                               trial modifications without document verification. This proved to be a mistake
                                               that impaired more meaningful relief, i.e., the conversion of trial modifications
                                               to permanent ones. Servicers have reported that weeding out ineligible bor-
                                               rowers among those who entered the program through verbal information is
                                               resource intensive, diverting time and effort that could have been devoted to
                                               processing eligible borrowers’ completed written applications. Moreover, the
                                               policy may have caused actual harm to homeowners placed into trial modifica-
                                               tions that had no chance of becoming permanent. Treasury corrected this error
                                               and changed the rule for all trial modifications initiated after April 15, 2010.
                                            •	 Marketing efforts concerning HAMP have been limited. As of the time
                                               of the audit, Treasury had marketed HAMP to the public using an informa-
                                               tional website, community outreach events, and a telephone hotline. However,
                                               Treasury has not provided sufficient guidance or metrics to support loan
                                               servicers’ own HAMP outreach efforts. It has also taken more than a year to
                                               produce unique public service announcements to educate the public about
                                               HAMP’s benefits and eligibility criteria and to warn against the dangers of fraud.
                                            •	 Re-defaults threaten the long-term success of the program. Even if HAMP
                                               resulted in the estimated 1.5 to 2 million permanent modifications, the audit
                                               noted that the program will fail if large numbers of those borrowers re-default
                                               and face foreclosure anyway. Treasury estimates that 40% of HAMP modi-
                                               fied mortgages (both trial and permanent) will re-default during the program.
                                               Several aspects of HAMP’s design make it particularly vulnerable to re-defaults:
                                               •	     Debt-to-income ratios: Borrowers’ other debts aside from first-lien mort-
                                                      gages (e.g., car payments, student loans, credit card obligations, and sec-
                                                      ond liens on the home) do not figure into determining HAMP eligibility or
                                                      its calculation of affordable debt service, which likely overestimates many
                                                                                quarterly report to congress I aPRIL 20, 2010   23




         borrowers’ financial resilience. As a result, HAMP borrowers carry a me-
         dian debt-to-income ratio of 61.3% even after modification.4 This stands
         in contrast to Federal Housing Administration (“FHA”) requirements for
         its own programs, including the newly announced TARP-related program
         intended to refinance loans with high negative equity.
   •	    Interest rate increases post-modification: If the interest rate on a HAMP
         modification is adjusted to below market rates, after five years the rate can
         “step up” to prevailing market levels by up to 1% per year, capped at the
         30-year conforming fixed rate on the day the modification was drafted.
         Borrowers, however, may be unable to meet the higher monthly payments
         after the step-up feature is invoked.
   •	    Second liens: Up to 50% of at-risk mortgages are backed by second liens.
         Although borrowers may receive a HAMP permanent modification on
         their first-lien loan, the total monthly mortgage payments might still
         be unaffordable if the second lien is not also modified or extinguished.
         Treasury has instituted a second-lien program to address this issue, but
         participation to date has been limited. With the recent signing of Bank of
         America, Wells Fargo & Company, JPMorgan Chase & Co., and Citigroup
         Inc. (“Citigroup”), participation is improving.
   •	    Negative equity and strategic defaults: At the time of the audit, HAMP did
         not require servicers to address negative equity (i.e., when the borrower
         owes more than the house is worth), which has been called by an industry
         expert the “most important predictor of default.” In light of the negative
         equity in many mortgages under trial modifications, the audit warned that
         resulting re-defaults could become a factor in HAMP’s difficulties as bor-
         rowers decide that it makes more economic sense to walk away from their
         mortgages and rent at a lower cost.

    In light of these conclusions, SIGTARP made the following recommendations,
which are discussed in more detail in Section 4: “SIGTARP Recommendations” in
this report:
•	 Given its previously ambiguous statements concerning goals and metrics for
   HAMP, Treasury should clearly and prominently disclose, on an ongoing basis,
   its goals and estimates for the number of homeowners who will be helped
   through permanent modifications and report monthly on progress thereto.
•	 Treasury should devise and publish additional performance metrics to gauge
   the success of HAMP. For example, Treasury could establish goals and report
   its progress in meeting those goals for key metrics such as servicer processing
   times, modifications as a proportion of defaulted loans or foreclosures, rates of
   borrower attrition prior to permanent loan modification, and rates of HAMP
   participants’ regression to default.
24   special inspector general I troubled asset relief program




                                            •	 Treasury should undertake a sustained public service campaign to reach ad-
                                               ditional borrowers who could be helped by the program and to equip the public
                                               with complete, accurate information about HAMP in order to prevent confu-
                                               sion, fraud, or abuse.
                                            •	 Treasury should reconsider its position that allows servicers to substitute alter-
                                               native forms of income verification based on the subjective determination of
                                               the servicer, such as whether such documents are “appropriate” or relying on
                                               the servicer’s “good business judgment consistent with the judgment employed
                                               when modifying mortgage loans held under their own portfolio.”
                                            •	 Treasury should examine the program’s structure with an eye to minimizing the
                                               prospect of re-default. As constituted at the time of the audit, HAMP did not
                                               appear to address adequately risk factors such as negative equity, second-lien
                                               and non-mortgage debt service, and interest rate resets.

                                                Treasury concurred with SIGTARP’s first three recommendations. However,
                                            Treasury initially declined to adopt SIGTARP’s last two recommendations, claiming
                                            that the documentary guidelines were not intended to be a “comprehensive under-
                                            writing guide” and the prospect that “alternative modification structures that could
                                            lower re-default rates” would mean either decreased participation or increased cost.
                                            As a result, Treasury suggested that it would only consider program adjustments
                                            that would “modestly” address unemployed and underwater borrowers. In response,
                                            SIGTARP encouraged Treasury to reconsider its refusal to address more deeply the
                                            issues that fuel re-default, noting that under then-current Congressional Budget
                                            Office estimates, only $20 billion of the allocated $50 billion would be spent on
                                            permanent modifications. The audit stressed the importance for the success of the
                                            program of putting borrowers into sustainable permanent modifications.
                                                After the issuance of SIGTARP’s audit report, Treasury announced its plans to
                                            make dramatic and substantial revisions to HAMP’s structure that appear designed
                                            to address some of SIGTARP’s recommendations, including our previously rejected
                                            recommendation regarding the danger of negative equity, as follows:
                                            •	 requiring that servicers consider principal write-downs as part of the loan modi-
                                               fication process, with increased incentives for successful principal write-downs
                                            •	 a new program funded with $14 billion in TARP funds that will be run by FHA
                                               and Treasury that will enable borrowers who are severely underwater to refi-
                                               nance their mortgages so that the total amount that they owe on their homes
                                               will be no greater than 115% of the home’s value
                                            •	 temporary payment reductions for unemployed borrowers for periods from three
                                               to six months while they seek new employment
                                            •	 increased incentives for servicers to provide permanent loan modifications in or-
                                               der to compensate them for costs associated with the revisions to the program,
                                               including assistance to unemployed homeowners
                                            •	 expansion of HAMP to include borrowers with FHA-guaranteed loans and,
                                               upon request, borrowers in active bankruptcy proceedings
                                                                                quarterly report to congress I aPRIL 20, 2010   25




•	 improved requirements for borrower solicitations, stating performance time-
   frames for all parties and prohibiting new foreclosure referrals during the
   HAMP modification process
•	 additional assistance for homeowners who lose their homes through short sales
   or deeds-in-lieu of foreclosure, including financial assistance for moving and
   incentives to servicers and second-lien holders for use of foreclosure alternatives

    Although SIGTARP appreciates Treasury’s willingness to reconsider its op-
position to more than modest changes to the program so promptly, the newly
announced revisions raise several significant concerns that are addressed through
additional recommendations set forth in Section 4: “SIGTARP Recommendations”
in this report.

Audits Underway
SIGTARP has previously announced audits on 10 topics, and expects to issue
reports covering those topics in the near future.
    CPP Warrant Valuation and Disposition Process: This audit, which is be-
ing conducted in response to requests by Senator Jack Reed and Representative
Maurice Hinchey, seeks to determine what processes and procedures Treasury has
established to ensure that the Federal Government receives fair market value for
the warrants and the extent to which Treasury has controls in place to facilitate a
transparent and well-documented decision-making process. SIGTARP is scheduled
to release this audit at a hearing before the House Financial Services Committee
scheduled for May 11, 2010.
    Automobile Dealership Closures: This audit, undertaken at the requests of
Senator Jay Rockefeller and Representative David Obey, examines the process used
by GM and Chrysler to identify the more than 2,000 automobile dealerships that
were slated for closure in connection with the recent GM and Chrysler bankrupt-
cies. Its objectives are to determine whether GM and Chrysler developed and fol-
lowed a fair, consistent, reasonable, and documented approach; to understand the
role of the Federal Government in these decisions; and to review the cost savings or
other benefits to GM and Chrysler.
    Governance Issues Where U.S. Holds Large Ownership Interests:
SIGTARP received a request from Senator Max Baucus to undertake a body of
audit work examining Federal Government oversight of, and interaction with, the
management of institutions such as American International Group, Inc. (“AIG”),
General Motors Company (“GM”), Chrysler Holding LLC (“Chrysler”), and
Citigroup, in which the Government has or is approaching majority owner status.
The audit, which is being conducted jointly with the Government Accountability
Office (“GAO”), will also examine the Federal National Mortgage Association
(“Fannie Mae”) and the Federal Home Loan Mortgage Corporation (“Freddie
Mac”), which are under Government conservatorship.
26   special inspector general I troubled asset relief program




                                                Status of the Federal Government’s Asset Guarantee Program with
                                            Citigroup: This review, requested by Representative Alan Grayson, addresses a
                                            series of questions about the Government’s guarantee of certain Citigroup assets
                                            through the Asset Guarantee Program such as: the basis on which the decision
                                            was made to provide asset guarantees to Citigroup and the process for selecting
                                            the loans and securities to be guaranteed; the characteristics of the assets deemed
                                            acceptable for inclusion in the program and how those assets differed from other
                                            Citigroup assets; whether adequate risk-management controls were in place to
                                            mitigate the risks to the taxpayer; and what safeguards existed to protect taxpayer
                                            interests and what the losses were on the portfolio.
                                                CPP Applications Receiving Conditional Approval: This audit examines
                                            those CPP applications that received preliminary approval from the Treasury
                                            Investment Committee conditioned upon the institutions meeting certain require-
                                            ments before funds were disbursed. One example was The Colonial BancGroup
                                            (“Colonial”), which received CPP approval for $553 million conditioned on
                                            Colonial raising $300 million in private capital. (As discussed in the January 2010
                                            Quarterly Report, SIGTARP’s Investigations Division executed a search warrant of
                                            Colonial’s offices in Florida, and Colonial, now shut down, has announced it is the
                                            subject of an ongoing criminal investigation.) The audit will assess the basis for the
                                            decision to grant such conditional approvals and the bank regulators’ role in such
                                            decisions; whether and how timeframes are established for meeting such condi-
                                            tions; and whether internal controls are in place to ensure that the conditions are
                                            met before funds are disbursed.
                                                Selection of Asset Managers for the Legacy Securities Program: This audit
                                            will examine the process Treasury followed to select fund managers to raise private
                                            capital for joint investment programs with Treasury through the Public-Private
                                            Investment Program (“PPIP”). It will examine the criteria used by Treasury to se-
                                            lect Public-Private Investment Fund (“PPIF”) managers and minority partners, and
                                            the extent to which Treasury consistently applied established criteria when select-
                                            ing fund managers and small, veteran- , minority- , and women-owned businesses.
                                                Internal Controls for the Legacy Securities Program: This audit will examine
                                            the internal controls in place for both Treasury and each of the PPIF managers for
                                            the Legacy Securities Program under PPIP. It will also assess the extent to which
                                            Treasury’s internal controls mitigate PPIF manager conflicts of interest and ensure
                                            overall program compliance.
                                                Term Asset-Backed Securities Loan Facility (“TALF”) Collateral Monitors’
                                            Valuation: This audit will examine the Federal Reserve’s valuation determinations
                                            used to issue loans under TALF. It will assess how the Federal Reserve made valu-
                                            ation determinations, including the role of the collateral monitors, when making
                                            decisions regarding the eligibility of the collateral and the appropriateness of the
                                            requested loan amounts.
                                                                                 quarterly report to congress I aPRIL 20, 2010   27




    Office of the Special Master Decisions on Executive Compensation: This
audit will examine the Special Master’s decisions on executive compensation at
firms receiving exceptional assistance from the Federal Government. This audit will
assess the criteria used by the Special Master to evaluate executive compensation
and whether the criteria were consistently applied.
    CPP Exit Strategy: This audit will examine the process that OFS and Federal
banking regulators have established for banks to repay Treasury and exit CPP.

New Audits Underway
Over the past quarter, SIGTARP has announced two new audits on which work has
begun:
   Application of the HAMP Net Present Value (“NPV”) Test: This audit,
which will be conducted in response to a request from Senator Jeff Merkley and
eight other Senators, will assess:

•	 whether the participating loan servicers are correctly applying the NPV test
   under the program
•	 the extent to which Treasury ensures that servicers are appropriately apply-
   ing the NPV test per HAMP guidelines when assessing borrowers for program
   eligibility
•	 the procedures servicers follow to communicate to borrowers the reasons for
   NPV test failure, as well as to identify the full range of loss mitigation options
   available to such borrowers

    Material Loss Review of United Commercial Bank: SIGTARP is participat-
ing in a Material Loss Review of United Commercial Bank, based in San Francisco,
with FDIC OIG. In November 2008, United Commercial Bank received $298.7
million of TARP funds through CPP. On November 6, 2009, the California
Department of Financial Institutions closed the bank and appointed FDIC as
receiver. The objectives of the audit are: determining the causes of the financial
institution’s failure and resulting material loss to the Deposit Insurance Fund; eval-
uating FDIC’s supervision of the institution; and determining whether the FDIC
and Treasury followed applicable procedures in recommending the bank for CPP
funding and in monitoring its compliance with the securities purchase agreement.
    Materials related to SIGTARP’s audits, including the engagement letters de-
scribing the audits at the outset and the actual final audit reports, can be found on
SIGTARP’s website, www.SIGTARP.gov. Specific recommendations from the audit
released last quarter and an update on prior audit recommendations are discussed
more fully in Section 4: “SIGTARP Recommendations” of this report.
28   special inspector general I troubled asset relief program




                                            Communications with Congress
                                            One of the primary functions of SIGTARP is to ensure that members of Congress
                                            are kept adequately and promptly informed of developments in TARP initiatives
                                            and of SIGTARP’s oversight activities. To fulfill that role, the Special Inspector
                                            General and his staff meet regularly with and brief members and Congressional
                                            staff. Over the past quarter:

                                            •	 On January 22, 2010, Special Inspector General Barofsky testified before the
                                               House Committee on Oversight and Government Reform, during a hearing
                                               entitled, “The Federal Bailout of AIG.” The hearing focused on the Federal
                                               Government’s response to AIG’s collapse and on SIGTARP’s audit report on the
                                               decision to pay AIG’s credit default swap counterparties effectively at face value
                                               following AIG’s near-bankruptcy.
                                            •	 On February 2 and 3, 2010, SIGTARP Chief of Staff Christy Romero pre-
                                               sented open briefings for House and Senate staff. The focus of the briefing was
                                               SIGTARP’s January 2010 Quarterly Report, which included, in addition to the
                                               typical subjects covered, an overview of Federal Government support for the
                                               residential mortgage market.
                                            •	 On March 25, 2010, Special Inspector General Barofsky testified before the
                                               House Committee on Oversight and Government Reform, during a hearing en-
                                               titled, “Foreclosure Prevention: Is the Home Affordable Modification Program
                                               Preserving Homeownership?” The hearing focused on the execution and impact
                                               of Treasury’s foreclosure prevention efforts, with particular attention to HAMP,
                                               and featured the release of SIGTARP’s HAMP audit.

                                                Copies of all the Special Inspector General’s written testimony, hearing tran-
                                            scripts, and a variety of other materials associated with Congressional hearings
                                            since SIGTARP’s inception are posted at www.SIGTARP.gov/reports.

                                            Constitutionality of the Special Master
                                            On November 2, 2009, SIGTARP sent a letter to Treasury inquiring about the
                                            constitutionality of its appointment of the Special Master for TARP Executive
                                            Compensation, pursuant to the Interim Final Rule on TARP Standards for
                                            Compensation and Corporate Governance. On March 26, 2010, Treasury respond-
                                            ed in a letter that set forth its arguments that the Special Master’s appointment is
                                            constitutional. SIGTARP has requested additional information from Treasury and
                                            is continuing to review the issue.
                                                                               quarterly report to congress I aPRIL 20, 2010   29




THE SIGTARP ORGANIZATION
From the day the Senate confirmed the Special Inspector General, SIGTARP has
worked to build its organization through various complementary strategies, includ-
ing hiring experienced senior executives who can play multiple roles during the ear-
ly stages of the organization, leveraging the resources of other agencies, and, where
appropriate and cost effective, obtaining services through SIGTARP’s contracting
authority. Since the January 2010 Quarterly Report, SIGTARP has continued to
make substantial progress in building its operation.

Hiring
Each of SIGTARP’s divisions has continued the process of filling out its ranks. As
of April 15, 2010, SIGTARP had 116 full-time personnel, including one detailee
from another agency.
    SIGTARP’s employees hail from many Federal agencies, including DOJ, the
FBI, IRS-CI, the Air Force Office of Special Investigations, GAO, Department
of Transportation, Department of Energy, HUD, the SEC, U.S. Secret Service,
U.S. Postal Service, U.S. Army Criminal Investigation Command, Naval Criminal
Investigative Service, Treasury-Office of the Inspector General, Department of
Energy-Office of the Inspector General, Department of Transportation-Office
of the Inspector General, Department of Homeland Security-Office of the
Inspector General, FDIC OIG, Office of the Special Inspector General for Iraq
Reconstruction, and HUD OIG. Hiring is ongoing, building to SIGTARP’s goal of
approximately 160 full-time employees. The SIGTARP organizational chart, as of
April 20, 2010, is included in Appendix I: “Organizational Chart.”

Budget
SIGTARP was established pursuant to Section 121 of EESA. SIGTARP com-
menced operations on December 15, 2008, with the swearing in of the Special
Inspector General. Section 121(j) of EESA, as amended, provided $50 million in
initial operating funds to SIGTARP. In the late spring of 2009, SIGTARP deter-
mined that its initial operating funds would be expended during the second quarter
of fiscal year 2010, and that an additional $28.3 million would be needed to fund
operations throughout the fiscal year. In light of $15 million made available to
SIGTARP by the Ensign-Boxer Amendment, which SIGTARP expects to spend
over three years (i.e., $5 million per year), SIGTARP requested additional fiscal
year 2010 funding of $23.3 million. On December 16, 2009, the President signed
Public Law No. 111-117, the Consolidated Appropriations Act for 2010. The
Appropriations Act, at Division C, Title 1, provided SIGTARP with the
$23.3 million requested. SIGTARP’s budget as submitted in the fiscal year
30             special inspector general I troubled asset relief program




 Figure 1.1

 SIGTARP FY 2011 PROPOSED BUDGET                          2011 President’s budget request is $54.6 million. For a detailed breakdown of
 $ Millions, percent of $54.6 Million                     SIGTARP’s fiscal year 2011 budget, see Figure 1.1.


 Other $2.7   4.9%                                        Physical and Technical SIGTARP Infrastructure
 Transportation
                                                          SIGTARP occupies office space at 1801 L Street, NW, in Washington, D.C., the
 $3.4 6.2%                                                same office building in which most Treasury officials managing TARP are located.
       Advisory                                           SIGTARP has begun to occupy a portion of its permanent quarters in that building
       $6.5     11.9%
                                                          while the renovation process is completed in the remainder. Primarily to facilitate
                                        54.0% Personnel
                                               $29.5
                                                          investigative activities in those cities, SIGTARP has also opened a branch office
 Rent, Services
 $12.5             22.9%                                  at 290 Broadway in New York City, and is in the process of opening offices in Los
                                                          Angeles and San Francisco.
                                                              SIGTARP has a website, www.SIGTARP.gov, on which it posts all of its reports,
                                                          testimony, audits, contracts, and more. Since its inception, SIGTARP’s website has
                                                          had more than 42 million web “hits,” and there have been more than 2.4 million
                                                          downloads of SIGTARP’s quarterly reports, which are available on the site.5
                                                              The website prominently features SIGTARP’s Hotline, which can also be
                                                          accessed by phone at 877-SIG-2009 (877-744-2009).
section 2   tarp overview
                                                                               quarterly report to congress I aPRIL 20, 2010   33




This section summarizes the activities of the U.S. Department of the Treasury
(“Treasury”) in its management of the Troubled Asset Relief Program (“TARP”).
It includes a discussion of Treasury’s programs for homeowner relief under the
Making Home Affordable initiative. Additionally, it outlines Treasury’s intended
legislative proposal to remove $30 billion from TARP and re-appropriate it to fund
a small-business lending program. This section also reviews TARP’s overall financ-
es, provides updates on established TARP programs, and gives the status of TARP
executive compensation restrictions.


TARP Funds Update
On October 3, 2008, Congress passed the Emergency Economic Stabilization Act
of 2008 (“EESA”), which created TARP and appropriated $700 billion to “restore
liquidity and stability to the financial system of the United States,” in the midst
of a deepening economic crisis.6 On December 9, 2009, the Treasury Secretary
extended EESA until October 3, 2010, to “enable [Treasury] to continue to imple-
ment programs that address housing markets and the needs of small businesses,
and to maintain the capacity to respond to unforeseen threats.”7 The Treasury
Secretary said TARP’s focus would shift to addressing the foreclosure crisis and
small-business and community lending initiatives, and that it may increase Term
Asset-Backed Securities Loan Facility (“TALF”) commitments. Subsequently,
Treasury indicated that it planned to submit a legislative proposal to Congress that
would transfer $30 billion from TARP “to a new program outside of TARP to sup-
port small-business lending.”8 That could reduce overall available TARP funding
from its current level of $698.8 billion to $668.8 billion.


Financial Overview of TARP
As of March 31, 2010, Treasury planned to allocate $537.1 billion of its $698.8
billion TARP maximum to buy troubled assets as authorized by Congress in EESA.9
Of this amount, Treasury plans TARP expenditures of approximately $496.8 billion
(of which $382.2 billion had been disbursed) through 13 implemented programs
to support U.S. financial institutions, companies, and individual mortgage bor-
rowers.10 The Administration also announced plans to launch the Community
Development Capital Initiative (“CDCI”) and the non-TARP Small Business
Lending Fund (“SBLF”) to help small businesses.11 These programs will leverage
up to approximately $1 billion of TARP funds for capital infusions in Community
Development Financial Institutions (“CDFIs”) and another $30 billion in commu-
nity banks.
34                 special inspector general I troubled asset relief program




     Figure 2.1
                                                                           As of March 31, 2010, 77 TARP recipients had repaid all or a portion of their
      CUMULATIVE PLANNED TARP                                         principal or repurchased shares, for a total of $180.8 billion returned to Treasury
      EXPENDITURES, REPAYMENTS,
      AND REDUCTIONS IN EXPOSURE                                      and a $5 billion reduction in Government exposure, leaving $387.8 billion, or
      AS OF 3/31/2010                                                 55.5% of TARP’s allocated $698.8 billion, available for distribution.12 Figure 2.1
      $ Billions
                                                                      provides a snapshot of the cumulative expenditures, repayments, and exposure
                                                                      reductions as of March 31, 2010.
                                                                           Treasury also collected interest and dividends on its investments, as well as
                                                       $387.8
                                                                      revenue from the sale of its warrants, all of which goes toward offsetting increases
                                       $185.8
       $698.8
                                                                      in the Federal deficit and cannot be re-issued by Treasury.13
                       $496.8
                                                                           As of March 31, 2010, the Government received $14.5 billion in interest, divi-
                                                                      dends, and other income and $5.6 billion in proceeds from the sale of warrants and
                                                                      preferred stock received as a result of exercised warrants.14 As of March 31, 2010,
      Total TARP      Planned TARP TARP          TARP                 $311 billion of the $496.8 billion planned TARP expenditures were outstanding
      Available       Expendituresa Repayments Balance
                                    and          Remaining            (i.e., had not been repaid or repurchased).15 Moreover, Treasury’s new plans to bol-
                                    Reductions                        ster small-business lending and help small businesses, for which Treasury has not
                                    in Exposureb
                                                                      finalized the funding source or amount associated with the programs, may increase
      Notes: Numbers affected by rounding. The “planned
      expenditures” referenced throughout this report represent the   TARP expenditures.
      funds Treasury currently plans to expend for each program,
      and a majority of those are committed funds (e.g., signed            Most outstanding TARP funds are in the form of equity ownership in troubled,
      agreements with TARP fund recipients).
      a Treasury experienced a $2.3 billion loss on some
                                                                      or previously troubled, companies. Treasury (and therefore taxpayers) remain share-
        investments under the Capital Purchase Program (“CPP”) .
      b Repayments include $135.8 billion for CPP, $40 billion for
                                                                      holders in the companies that have not yet paid back the Government. Treasury’s
        the Targeted Investment Program, $4.6 billion for Auto
        Programs, and a $5 billion reduction in exposure under the    equity ownership is largely in two forms — common and preferred stock — and it
        Asset Guarantee Program.
                                                                      has also received senior subordinated debentures.
      Sources: Treasury, Transactions Report, 4/2/2010; Treasury,
      response to SIGTARP data call, 4/12/2010.                            TARP consists of 13 programs, all of which have been implemented. Of these
                                                                      programs, six are already closed or winding down: the Capital Purchase Program
                                                                      (“CPP”), the Capital Assistance Program (“CAP”), the Targeted Investment
                                                                      Program (“TIP”), the Asset Guarantee Program (“AGP”), the Auto Supplier Support
                                                                      Program (“ASSP”), and the Auto Warranty Commitment Program (“AWCP”). The
                                                                      13 programs fall into 4 categories, depending on the type of assistance offered:



     Warrant: The right, but not the obligation,                      Preferred Stock: Equity ownership that usually     Senior Subordinated Debenture: A sub-
     to purchase a certain number of shares of                        pays a fixed dividend prior to distributions for   ordinated debenture is a debt instrument
     common stock at a fixed price. Because                           common stock owners but only after pay-            ranking below senior debt but above
     warrants rise in value as the company’s                          ments due to holders of debt and depositors.       equity with regard to investors’ claims
     share price rises, Treasury (and the tax-                        It typically confers no voting rights. Preferred   on company assets or earnings. Senior
     payer) can benefit from a firm’s potential                       stock also has priority over common stock          debt holders are paid in full before sub-
     recovery.                                                        in the distribution of assets when a bankrupt      ordinated debt holders are paid. There
                                                                      company is liquidated.                             may be additional distinctions of priority
     Common Stock: Equity ownership entitling                                                                            among subordinated debt holders. CPP
     an individual to share in corporate earnings                                                                        invests in senior subordinated debt.
     and voting rights.
                                                                                  quarterly report to congress I aPRIL 20, 2010                               35




                                                                                               Figure 2.2

                                                                                               PLANNED TARP EXPENDITURES
•	 Homeowner Support Program — This program and its initiatives were de-
                                                                                               OUTSTANDING, REPAYMENTS, AND
   signed to help homeowners facing difficulty paying their mortgages by subsidiz-             REDUCTIONS IN EXPOSURE BY
   ing loan modifications, loan servicer costs, and potential equity declines.                 SUPPORT CATEGORY,
•	 Financial Institution Support Programs — These programs share a common,                     AS OF 3/31/2010
                                                                                               $ Billions
   stated goal of stabilizing the financial markets to avoid disruption and provide
   for a healthy economy.                                                                      300                     $180.8
•	 Asset Support Programs — These programs attempt to support asset values
   and liquidity in the market by providing funding to certain holders or purchasers
                                                                                               200
   of assets.
•	 Automotive Industry Support Programs — These programs were intended
                                                                                                                       $139.9
   to stabilize the American automotive industry, promoting market stability and a             100                                                     $4.6
   vigorous economy.                                                                                                                   $0.4          $80.2
                                                                                                                                      $50.9
                                                                                                       $39.9
                                                                                                 0
   Figure 2.2 provides a breakdown showing how TARP funding is distributed                            Homeowner Financial   Asset                   Automotive
                                                                                                      Support   Institution Support                 Industry
between the four categories of programs.                                                              Programa  Support     Programsc               Support
                                                                                                                Programsb                           Programsd

Homeowner Support Program                                                                                   Planned Expenditures Outstanding
This program and its initiatives strive to help homeowners and financial institutions                       Repayments and Reductions in Exposure

holding troubled housing-related assets.                                                       Notes: Numbers affected by rounding. The “planned
                                                                                               expenditures” referenced throughout this report represent the
                                                                                               funds Treasury currently plans to expend for each program, and a
•	 Making Home Affordable (“MHA”) Program — According to Treasury, this                        majority of those are committed funds (e.g., signed agreements
                                                                                               with TARP fund recipients).
   foreclosure mitigation effort should “help bring relief to responsible homeown-             a

                                                                                               b
                                                                                                 Includes MHA.
                                                                                                 Includes CPP, CDCI, SSFI, TIP, and AGP. Repayments include
   ers struggling to make their mortgage payments while preventing neighborhoods                 $135.8 billion for CPP, $40 billion for TIP, and a $5 billion
                                                                                                 reduction in exposure under AGP.
   and communities from suffering the negative spillover effects of foreclosure,               c
                                                                                                 Includes TALF, PPIP, and UCSB.
                                                                                               d
                                                                                                 Includes AIFP, ASSP, and AWCP. Repayments include
   such as lower housing prices, increased crime, and higher taxes.”16 MHA has                   $3.5 billion for AIFP, $413 million for ASSP, and $642 million for
                                                                                                 AWCP.
   three major components, only one of which involves TARP funds: the Home
                                                                                               Sources: Treasury, Transactions Report, 4/2/2010; Treasury,
   Affordable Modification Program (“HAMP”). HAMP helps homeowners with                        response to SIGTARP data call, 4/12/2010.

   mortgage modifications and foreclosure prevention efforts. Treasury allocated
   up to $50 billion of TARP money for this $75 billion program.17 As of March 31,
                                                                                                Systemically Significant: A term used
   2010, HAMP had expended $39.9 billion in TARP funds and disbursed $90.9
                                                                                                for any financial institution whose
   million in incentives on 65,482 permanent modifications offered by servicers.18
                                                                                                failure would impose significant losses
   See the “Making Home Affordable” discussion in this section for more detailed
                                                                                                on creditors and counterparties, call
   information.                                                                                 into question the financial strength of
                                                                                                similar institutions, disrupt financial
Financial Institution Support Programs                                                          markets, raise borrowing costs for
To date, Treasury has primarily invested capital directly in the financial institutions         households and businesses, and re-
it has aided. Financial institutions, for TARP purposes, include banks, bank hold-              duce household wealth (also commonly
ing companies, and, if deemed critical to the financial system, certain systemically            used to describe institutions known as
significant institutions.                                                                       “too big to fail”).
36             special inspector general I troubled asset relief program




                                                      •	 Capital Purchase Program (“CPP”) — Under CPP, Treasury directly purchas-
                                                         es preferred stock or subordinated debentures in qualifying financial institutions
                                                         (“QFIs”). Treasury created CPP to provide funds to “stabilize and strengthen the
                                                         U.S. financial system by increasing the capital base of an array of healthy, viable
                                                         institutions, enabling them [to] lend to consumers and business[es].”19 Treasury
                                                         invested $204.9 billion in 707 institutions through CPP, and $135.8 billion has
                                                         been repaid as of March 31, 2010.20 CPP closed December 29, 2009, and will
                                                         not disburse any new funds.21 See the “Capital Purchase Program” discussion in
                                                         this section for more detailed information.
                                                      •	 Community Development Capital Initiative (“CDCI”) — Under CDCI,
                                                         TARP money is used to purchase preferred stock in Community Development
     Community Development Financial Insti-              Financial Institutions (“CDFIs”). Treasury created CDCI to “improve access to
     tutions (“CDFIs”): Financial institutions           credit for small businesses.”22 Through March 31, 2010, Treasury had not be-
     eligible for Treasury funding to serve a            gun investing through CDCI.23 The deadline for applications under the program
     targeted demographic under the CDFI                 was extended to April 30, 2010.24
     Fund. CDFIs were created in 1994 by
                                                      •	 Small Business Lending Fund (“SBLF”) — Treasury intends to propose legis-
     the Riegle Community Development
                                                         lation to redirect $30 billion of TARP funding to create a new program outside
     and Regulatory Improvement Act.
                                                         TARP to stimulate small-business lending. Under SBLF, Treasury would give
     Senior Preferred Stock: Shares that
                                                         small banks capital in return for preferred shares in a manner similar to CPP
     give the stockholder priority dividend              and CDCI. See the “Small Business Lending Fund” discussion in this section
     and liquidation claims over junior pre-             for more detailed information.
     ferred and common stockholders.                  •	 Systemically Significant Failing Institutions (“SSFI”) Program/AIG
                                                         Investment Program — The SSFI program allowed Treasury to invest in sys-
                                                         temically significant institutions to prevent them from failing.25 Through March
                                                         31, 2010, only one firm received assistance under SSFI: American International
                                                         Group, Inc. (“AIG”). There were two TARP-AIG transactions: on November 25,
                                                         2008, Treasury bought $40 billion of AIG’s preferred stock to repay a portion of
                                                         AIG’s debt to the Federal Reserve; and, on April 17, 2009, Treasury committed
                                                         approximately $29.8 billion to an equity capital facility on which AIG can draw,
                                                         as needed.26 As of March 31, 2010, AIG had drawn down $7.5 billion of the fa-
                                                         cility and had not repaid any TARP funds, leading to total outstanding TARP as-
                                                         sistance of $47.5 billion.27 See the “Systemically Significant Failing Institutions”
                                                         portion of this section for a detailed discussion of the AIG transactions.
                                                      •	 Targeted Investment Program (“TIP”) — Through TIP, Treasury helped
                                                         financial institutions it deemed critical to the financial system.28 There were two
                                                         expenditures under this program totaling $40 billion — the purchase of $20
                                                         billion worth of senior preferred stock in both Citigroup and Bank of America
                                                         Corporation (“Bank of America”).29 Treasury also accepted warrants of com-
                                                         mon stock from both. Because both Citigroup and Bank of America fully repaid
                                                         Treasury for those investments, TIP is effectively closed. Treasury auctioned its
                                                                                quarterly report to congress I aPRIL 20, 2010             37




   Bank of America warrants March 3, 2010, but still holds its Citigroup warrants.
   See the “Targeted Investment Program and Asset Guarantee Program” portion
   of this section for more information on these two transactions. See the “Capital
   Purchase Program” discussion in this section for a more detailed description of
   Treasury’s sale of the warrants it received from Bank of America as part of TIP.
•	 Asset Guarantee Program (“AGP”) — AGP was designed to provide insur-
   ance-like protection on a select pool of mortgage-related or similar assets held
   by participants whose portfolios of distressed or illiquid assets threatened mar-          Illiquid Assets: Assets that cannot be
   ket confidence.30 Treasury, the Federal Deposit Insurance Corporation (“FDIC”),            quickly converted to cash.
   and the Federal Reserve offered certain loss protections with respect to $301
   billion in troubled Citigroup assets.31 On December 23, 2009, in connection                Trust Preferred Securities: Securities
   with Citigroup’s repayment of Treasury’s TIP investment, the bank and the                  that have both equity and debt charac-
   Government terminated the AGP agreement. The Government made no pay-                       teristics created by establishing a trust
   ments and retained $5.2 billion of preferred shares to compensate it for the pro-          and issuing debt to it.
   tection that AGP extended (approximately $4 billion of which went to Treasury).
                                                                                              Asset-Backed Securities (“ABS”): Bonds
   Subsequently, Treasury converted its preferred shares to trust preferred securi-
                                                                                              backed by a portfolio of non-mortgage
   ties on a dollar-for-dollar basis and later agreed to cancel $1.8 billion of its $4
                                                                                              consumer or corporate loans, e.g.,
   billion in trust preferred securities.32 See the “Targeted Investment Program and
                                                                                              credit card, auto, or small-business
   Asset Guarantee Program” discussion in this section for more information on                loans. Financial companies typically
   this program.                                                                              issue ABS backed by existing loans
                                                                                              in order to fund new loans for their
Asset Support Programs                                                                        customers.
The purpose of these programs is to support the liquidity and market value of assets
owned by financial institutions. These assets may include various classes of asset-           Commercial Mortgage-Backed Securi-
backed securities (“ABS”) and several types of loans. Treasury’s asset support pro-           ties (“CMBS”): A type of bond backed
grams seek to bolster the balance sheets of financial firms and help free up capital          by one or more mortgages on commer-
so that these firms can extend more credit to support the U.S. economy.                       cial real estate (e.g., office buildings,
                                                                                              rental apartments, hotels) rather than
                                                                                              by residential real estate loans.
•	 Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was origi-
   nally designed to increase the credit available for consumer and small-business
   loans through a TARP-backed Federal Reserve loan program. TALF provides
   non-recourse loans to investors secured by certain types of ABS, including credit
   card receivables, auto loans, equipment loans, student loans, floor plan loans,
   insurance-premium finance loans, loans guaranteed by the Small Business
   Administration (“SBA”), residential mortgage servicing advances, and commer-
   cial mortgage-backed securities (“CMBS”). Treasury estimates using up to $20
   billion of TARP funds to support this program in the form of loss protection to
   the loans extended by the Federal Reserve Bank of New York (“FRBNY”).33 As
   of March 31, 2010, FRBNY had facilitated 13 TALF subscriptions of non-
   mortgage-related ABS, totaling approximately $58 billion, with $36.9 billion of
   TALF borrowings outstanding.34 As of March 31, 2010, FRBNY had conducted
38             special inspector general I troubled asset relief program




                                                         10 CMBS subscriptions totaling $12 billion, with $10.3 billion in loans out-
                                                         standing.35 On March 31, 2010, TALF was closed to all but non-recourse loans
                                                         backed by newly issued CMBS. It is scheduled to close completely in June.
                                                         “Term Asset-Backed Securities Loan Facility,” later in this section, provides more
                                                         information on these activities.
     Legacy Assets: Commonly called                   •	 Public-Private Investment Program (“PPIP”) — PPIP’s goal was to thaw
     troubled or toxic assets, these are                 frozen credit markets by purchasing legacy assets, e.g., CMBS and residential
     real estate-related loans and securities
                                                         mortgage-backed securities (“RMBS”).36 Under the program, Public-Private
     issued before the financial crisis that
                                                         Investment Funds (“PPIFs”) buy real estate-related securities. The PPIFs were
     remain on financial institutions’ balance
                                                         operated by nine fund managers, eight of which remain, and can receive up to
     sheets. Legacy assets lost significant
                                                         a total of $30 billion of debt and equity financing from TARP.37 See the “Public-
     value at the onset of the crisis and
     were difficult to price because of mar-             Private Investment Program” discussion later in this section for details about the
     ket disruption.                                     program structure and fund manager terms.
                                                      •	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business
     Residential Mortgage-Backed Securi-                 Administration Loan Support Initiative — In March 2009, Treasury officials
     ties (“RMBS”): A type of bond backed                said they would buy up to $15 billion in securities backed by SBA loans under
     by a pool of mortgages for residential              UCSB.38 On March 2, 2010, Treasury entered into an agreement with Coastal
     real estate (e.g., home mortgages                   Securities Inc. (“Coastal”) as the sole pool assembler participating to date in the
     for residences occupied by up to four               UCSB program. Under the agreement, Earnest Partners, on behalf of Treasury,
     families) rather than by commercial real            can anonymously purchase SBA pool certificates from Coastal.39 Treasury
     estate loans.
                                                         reduced its commitment under this program to $1.0 billion in TARP funding,
                                                         and has made initial purchases of $21.4 million in securities. See the discussion
     SBA Pool Certificate: An ownership
                                                         of “Unlocking Credit for Small Businesses/Small Business Administration Loan
     interest in a bond backed by SBA-
                                                         Support” in this section for more information on the program.
     guaranteed loans.

                                                      Automotive Industry Financing Program (“AIFP”)
                                                      TARP’s automotive industry support aimed to “prevent a significant disruption of
                                                      the American automotive industry, which would pose a systemic risk to financial
                                                      market stability and have a negative effect on the economy of the United States.”40
                                                          Treasury made emergency loans to Chrysler, Chrysler Financial Services
                                                      Americas LLC (“Chrysler Financial”), and General Motors Corporation (“GM”).
                                                      Additionally, Treasury bought senior preferred stock from GMAC Inc. (“GMAC”)
                                                      and provided assistance to Chrysler and GM during their restructuring under bank-
                                                      ruptcy. As of March 31, 2010, $84.8 billion in AIFP investments were committed,
                                                      $4.6 billion of which was repaid. Treasury received a 9.9% equity stake in New
                                                      Chrysler (an amount that could be diluted should certain performance metrics be
                                                      reached), and a 61% equity stake in New GM (an amount that could be diluted
                                                      should GM’s bondholders exercise their warrants). See “Automotive Industry
                                                      Financing Program” later in this section for a detailed discussion of these compa-
                                                      nies. AIFP also included two subprograms:
                                                                               quarterly report to congress I aPRIL 20, 2010      39




•	 Auto Supplier Support Program (“ASSP”) — This subprogram’s purpose was
   to provide “[auto] suppliers with the confidence they need to continue shipping
   their parts and the support they need to help access loans to pay their employ-
   ees and continue their operations.”41 By March 31, 2010, its original allocation
   of $5.0 billion was reduced to $3.5 billion — $1.0 billion for Chrysler and $2.5
   billion for GM.42 After emerging from bankruptcy, the automakers assumed the
   debts associated with ASSP.43 By March 31, 2010, ASSP recipients repaid all
   $413 million actually disbursed under the program; $290 million from GM and
   $123 million from Chrysler, plus interest. The program terminated on April 5,
   2010, for GM and April 7, 2010, for Chrysler.44 See “Auto Supplier Support              For more information on AWCP, see
   Program” in this section for more information.                                          SIGTARP’s October 2009 Quarterly Report,
•	 Auto Warranty Commitment Program (“AWCP”) — The AWCP subprogram                         page 91.
   was designed to bolster consumer confidence by guaranteeing Chrysler and
   GM vehicle warranties during the period of uncertainty surrounding the GM
   and Chrysler bankruptcies. It ended in July 2009 after Chrysler fully repaid its
   AWCP loan with interest and GM repaid just the principal.45

    The following figures and tables provide a status summary on TARP and TARP-
related initiatives:

•	 total potential funds subject to SIGTARP oversight as of March 31, 2010 (Table
   2.1)
•	 planned programmatic expenditures as of March 31, 2010 (Table 2.2)
•	 planned programmatic cumulative expenditures (Figure 2.3)
•	 planned expenditures outstanding, repayments, and reductions in exposure, by
   program, as of March 31, 2010 (Figure 2.4)
•	 summary of TARP terms and agreements (Table 2.3 and Table 2.4)
•	 summary of largest warrant positions held by Treasury, by program, as of March
   31, 2010 (Table 2.5)
•	 summary of dividends, interest payments, and distributions received, by pro-
   gram, as of March 31, 2010 (Table 2.6)

For a reporting of all purchases, obligations, expenditures, and revenues of TARP,
see Appendix C: “Reporting Requirements.”
40                special inspector general I troubled asset relief program




     Table 2.1

      TOTAL POTENTIAL FUNDS SUBJECT TO SIGTARP OVERSIGHT, AS OF 3/31/2010                                                                      ($ BILLIONS)

                                                                                                                                                                                               Potential
                                                                                                                                                                 Total Potential                  TARP
     Program                                                      Brief Description or Participant                                                                  Funding ($)             Funding ($)a
     Capital Purchase Program (“CPP”)                             Investments in 707 banks to date; received $135.8 billion in capital                                    $204.9                  $204.9
     CLOSED                                                       repayments                                                                                             ($135.8)                ($135.8)
     Automotive Industry Financing Program                        GM, Chrysler, GMAC, Chrysler Financial; received $3.6 billion in loan                                      80.7                    80.7
     (“AIFP”)                                                     repayments                                                                                                  (3.6)                   (3.6)
     Auto Suppliers Support Program (“ASSP”)                      Government-backed protection for auto parts suppliers                                                        3.5b                    3.5b
     CLOSED                                                                                                                                                                   (0.4)                   (0.4)
     Auto Warranty Commitment Program                             Government-backed protection for warranties of cars sold during the                                          0.6                     0.6
     (“AWCP”) CLOSED                                              GM and Chrysler bankruptcy restructuring periods.                                                           (0.6)                   (0.6)
     Unlocking Credit for Small Businesses                        Purchase of securities backed by SBA loans                                                                   1.0                     1.0
     (“UCSB”)
     Systemically Significant Failing Institutions                AIG Investment                                                                                             69.8a                   69.8a
     (“SSFI”)/ AIG Investment Program
     Targeted Investment Program (“TIP”)                          Citigroup, Bank of America Investments                                                                     40.0                     40.0
     CLOSED                                                                                                                                                                 (40.0)                   (40.0)
     Asset Guarantee Program (“AGP”) CLOSED                       Citigroup, ring-fence asset guarantee                                                                     301.0                      5.0
                                                                                                                                                                           (301.0)                    (5.0)
     Term Asset-Backed Securities Loan Facility                   FRBNY non-recourse loans for purchase of asset-backed securities                                         200.0                     20.0d
     (“TALF”)
     Making Home Affordable (“MHA”) Program                       Modification of mortgage loans                                                                             75.0d                   50.0
     Community Development Capital Initiative                     Investments in Community Development Financial Institutions (“CDFIs”)                                        1.0                     1.0
     (“CDCI”)
     Public-Private Investment Program (“PPIP”)                   Disposition of legacy assets; Legacy Securities Program                                                    40.0                    30.4
                                                                                                                                                                              (0.4)                   (0.4)
     Small Business Lending Fund                                  Investments in small community banks — potentially TARP funding                                            30.0c                   30.0c
     New Programs, or Funds Remaining for                         Capacity to respond if financial conditions worsen and threaten                                          347.7                    347.7
     Existing Programs                                            economy
     Totale                                                                                                                                                              $913.8                  $698.8
     Notes: Numbers affected by rounding.
     a
       Actual TARP expenditures as of 3/31/2010.
     b
       Treasury’s original commitment under this program was $5 billion, it was but subsequently reduced to $3.5 billion effective 7/1/2009.
     c
       Treasury intends to propose legislation that would rescind $30 billion in TARP funds for support to small community banks.
     d
       $75 billion is for mortgage modification.
     e
       According to Treasury, TARP expenditures are not expected to exceed $537.1 billion.

     Sources: Treasury, Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009; Treasury, Transactions Report, 4/2/2010, www.financialstability.gov/docs/transaction-
     reports/4-2-10%20Transactions%20Report%20as%20of%203-31-10.pdf, accessed 4/2/2010; Treasury, response to SIGTARP data call, 4/12/2010; Treasury, “Auto Supplier Support Program: Stabilizing
     the Auto Industry in a Time of Crisis,” 3/19/2009, www.treas.gov/press/releases/docs/supplier_support_program_3_18.pdf, accessed 3/19/2009; Treasury, “Treasury, Federal Reserve, and FDIC Provide
     Assistance to Bank of America,” 1/16/2009, www.treas.gov/press/releases/hp1356.htm, accessed 1/16/2009; Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in
     November,” 1/16/2009, www.financialstability.gov/latest/hp1358.html, accessed 6/8/2009; Treasury, “Financial Stability Plan Fact Sheet,” 2/10/2009, www.financialstability.gov/docs/fact-sheet.pdf, ac-
     cessed 6/8/2009; Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed 6/10/2009; Treasury,
     “Public-Private Investment Program,” 4/6/2009, www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 6/9/2009.
                                                                                                   quarterly report to congress I aPRIL 20, 2010             41




Table 2.2

 EXPENDITURE LEVELS BY PROGRAM, AS OF 3/31/2010                               ($ BILLIONS)

                                                                   Amount                Percent (%)
Authorized Under EESA                                             $700.0
  Released Immediately                                                      $250.0            35.8%
  Released Under Presidential Certificate of Need                            100.0            14.3%
  Released Under Presidential Certificate of Need &
                                                                             350.0            50.1%
   Resolution to Disapprove Failed
Helping Families Save Their Homes Act of 2009                                 (1.2)            -0.2%
Total Released                                                              $698.8           100.0%
                                                                                       Planned          Repaid/
                                                                        Planned Expenditure as         Reduced
Less: Expenditures by Treasury under TARPa                           Expenditure % of Released         Exposure Outstanding         Section Reference
Capital Purchase Program (“CPP”):
                                                                                                                                    “Financial Institution
  Investments                                                               $204.9            29.3%
                                                                                                                                    Support Programs”
  Repayments
CPP Total Gross                                                             $204.9            29.3%    ($135.8)        $69.1
                                                                                                                                    “Financial Institution
Community Development Capital Initiative (“CDCI”)                             $1.0
                                                                                                                                    Support Programs”
CDCI Total                                                                    $1.0             0.1%          —          $1.0
Systemically Significant Failing Institutions (“SSFI”) Program:                                                                     “Financial Institution
  American International Group, Inc. (“AIG”)                                 $69.8             10.0%                                Support Programs”
SSFI Total                                                                   $69.8            10.0%          —         $69.8
Targeted Investment Program (“TIP”):
  Bank of America Corporation                                                $20.0             2.9%                                 “Financial Institution
  Citigroup                                                                   20.0             2.9%                                 Support Programs”
  Repayments
TIP Total                                                                    $40.0             5.7%     ($40.0)           —
Asset Guarantee Program (“AGP”):
                                                                                                                                    “Financial Institution
  Citigroupb                                                                  $5.0             0.7%
                                                                                                                                    Support Programs”
  Repayments
AGP Total                                                                     $5.0             0.7%      ($5.0)           —
Term Asset-Backed Securities Loan Facility (“TALF”):                                                                                  “Asset Support
  TALF LLC                                                                   $20.0             2.9%                                     Programs”
TALF Total                                                                   $20.0             2.9%          —         $20.0
                                                                                                                                      “Asset Support
Unlocking Credit for Small Businesses (“UCSB”)                                $1.0             0.1%
                                                                                                                                        Programs”
UCSB Total                                                                    $1.0             0.1%          —          $1.0
Automotive Industry Financing Program (“AIFP”):
  General Motors Corporation (“GM”)                                          $49.5             7.1%
  General Motors Acceptance Corporation LLC (“GMAC”)                          17.2             2.5%                                 “Automotive Industry
  Chrysler Holding LLC                                                        12.5             1.8%                                  Support Programs”
  Chrysler Financial Services Americas LLCc                                    1.5             0.2%
  Repayments
AIFP Total                                                                   $80.7            11.6%      ($3.6)        $77.2
Automotive Supplier Support Program (“ASSP”):
  GM Suppliers Receivables LLCd                                               $2.5             0.4%                                 “Automotive Industry
  Chrysler Holding LLCd                                                        1.0             0.1%                                  Support Programs”
  Repayments
ASSP Total                                                                    $3.5             0.5%      ($0.4)         $3.1
Automotive Warranty Commitment Program (“AWCP”):
  General Motors Corporation (“GM”)                                           $0.4             0.1%                                 “Automotive Industry
  Chrysler Holding LLC                                                         0.3             0.0%                                  Support Programs”
  Repayments
AWCP Total                                                                    $0.6             0.1%      ($0.6)           —
                                                                                                                                        Continued on next page.
42                special inspector general I troubled asset relief program




      EXPENDITURE LEVELS BY PROGRAM, AS OF 3/31/2010                                                 ($ BILLIONS) (cont.)
                                                                                                            Planned                      Repaid/
                                                                                             Planned Expenditure as                     Reduced
                                                                                          Expenditure % of Released                     Exposure Outstanding                       Section Reference
     Legacy Securities Public-Private Investment Program
     (“PPIP”):
       Invesco Legacy Securities Master Fund, L.P.                                                   $3.7                    0.5%
       Wellington Management Legacy Securities PPIF Master
         Fund, LP                                                                                      3.8                   0.5%
       AllianceBernstein Legacy Securities Master Fund, L.P.                                           3.3                   0.5%
       Blackrock PPIF, L.P.                                                                            3.7                   0.5%                                              “Asset Support Programs”
       AG GECC PPIF Master Fund, L.P.                                                                  3.8                   0.5%
       RLJ Western Asset Public/Private Master Fund, L.P.                                              3.7                   0.5%
       Marathon Legacy Securities Public-Private Investment
         Partnership, L.P.                                                                             3.7                   0.5%
       Oaktree PPIP Fund, L.P.                                                                         3.7                   0.5%
       Repayments
     PPIP Total                                                                                    $30.0                    4.3%             $(0.4)             $30.0
     Making Home Affordable (“MHA”):
       Countrywide Home Loans Servicing LP                                                         $8.1                    1.2%
       Wells Fargo Bank, NA                                                                         7.1                    1.0%
       J.P.Morgan Chase Bank, NA                                                                    4.9                    0.7%
       OneWest Bank                                                                                 2.3                    0.3%
       GMAC Mortgage, Inc.                                                                          2.1                    0.3%                                            “Homeowner Support Programs”
       CitiMortgage, Inc.                                                                           1.8                    0.3%
       Litton Loan Servicing LP                                                                     1.6                    0.2%
       Bank of America, NA                                                                          1.6                    0.2%
       American Home Mortgage Servicing, Inc                                                        1.6                    0.2%
       Other Financial Institutions                                                                 8.8                    1.3%
     MHA Total                                                                                    $39.9                    5.7%                   —             $39.9
     TARP Expenditures Subtotal                                                                  $496.8                   71.1%
     TARP Repayments/Reductions in Exposure Subtotal                                                                                     ($185.8)
     TARP Outstanding Subtotal                                                                                                                                $311.1
     Balance Remaining of Total Funds Made Available as
     of 3/31/2010                                                                                                                                             $387.8
     Notes: Numbers affected by rounding.					
     a
       From a budgetary perspective, what Treasury has committed to spend (e.g., signed agreements with TARP fund recipients).					
     b
       Treasury committed $5 billion to Citigroup under AGP; however, the funding was conditional based on losses that could potentially be realized and may potentially never be expended. This amount was not an actual
       outlay of cash.					
     c
       Treasury’s $1.5 billion loan to Chrysler Financial represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.	
     d
       Represents a special purpose vehicle (“SPV”) created by the manufacturer. Balance represents the maximum loan amount, which will be funded incrementally. Treasury’s original commitment under this program
       was $5 billion, but it was subsequently reduced to $3.5 billion effective 7/1/2009.					
     					
     Sources: Emergency Economic Stabilization Act, P.L. 110-343, 10/3/2008; Library of Congress, “A joint resolution relating to the disapproval of obligations under the Emergency Economic Stabilization Act of
     2008,” 1/15/2009, www.thomas.loc.gov, accessed 1/25/2009; Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009; Treasury, Transactions Report, 4/2/2010; Treasury, response to
     SIGTARP data call, 4/12/2010.					
                                                                                                                                     quarterly report to congress I aPRIL 20, 2010                               43


Figure 2.3
PLANNED EXPENDITURES OUTSTANDING, BY PROGRAM, CUMULATIVE
$ Billions

$400

                                                                                                                                                                          $1.0 CDCI
                                                                                                                                                                          $1.0 UCSB
                                                                                                                                                                         $30.0 PPIP
 300
                                                                                                                                                                                a
                                                                                                                                                                          $0.0 AGP
                                                                                                                                                                         $35.5 MHA
                                                                                                                                                                         $30.0 TALF                   CDCI
                                                                                                                                                                              b
 200                                                                                                                                                                      $0.0 TIP                    UCSB
                                                                                                                                                                              c
                                                                                                                                                                         $81.6 Auto                   PPIP
                                                                                                                                                                                Programs              AGP
                                                                                                                                                                                                      MHA
 100                                                                                                                                                                     $69.8 SSFI                   TALF
                                                                                                                                                                                                      TIP
                                                                                                                                                                                                      Auto
                                                                                                                                                                                d
                                                                                                                                                                                                      Programs
                        0                                                                                                                                                $83.0 CPP                    SSFI
   0                                                                                                                                                                                                  CPP
       10/31 11/30 12/31 1/31 2/28                  3/31      4/30     5/31 6/30 7/31 8/31                 9/30 10/31 11/30 12/31 1/31 2/28 3/31
                 2008                                                                  2009                                                              2010

       Notes: Numbers affected by rounding. The “planned expenditures” referenced throughout this report represent the funds Treasury currently plans to expend for each program, and a majority of
       those are committed funds (e.g., signed agreements with TARP fund recipients).
       a
         Treasury committed $5 billion to Citigroup under AGP; however, the funding was conditional based on losses that could potentially be realized and may potentially never be expended. This
         amount was not an actual outlay of cash. It was never disbursed and the agreement was terminated.
       b
         TIP funding of $40 billion had been repaid.
       c
         Auto programs include AIFP, ASSP, and AWCP. The following auto-related funding had been repaid: $3.6 billion for AIFP, $0.6 billion for AWCP, and $413 million for ASSP.
       d
         CPP funding of $135.8 billion had been repaid.

       Sources: Treasury, Transactions Report, 4/2/2010; Treasury, response to SIGTARP data call, 4/12/2010.

Figure 2.4
PLANNED EXPENDITURES
OUTSTANDING, REPAYMENTS,
AND REDUCTIONS IN EXPOSURE
BY PROGRAM
$ Billions, % of $496.8 Billion


             AIFPb $84.8
                            $4.6
                                            SSFI $69.8
               $80.2

                                             TIP $40.0
    $135.8a                                  AGP $5.0
                                           TALF $20.0

                                           MHA $39.9
                 $69.1
                                   PPIP $30.0 $30.4
CPP $204.9                               $0.4

                                             CDCI $1.0
                                            UCSB $1.0

   Planned Expenditures Outstanding
   Repayments and Reductions in Exposure

Notes: Numbers affected by rounding. As of March 31, 2010.
TIP and AGP are excluded.
a
  As of 3/31/2010, $135.8 billion of CPP funding had been
  repaid.
b
  As of 3/31/2010, $4.6 billion related to AIFP loans had been
  repaid (including $641 million for AWCP and $413 million for
  ASSP).

Sources: Treasury, Transactions Report, 4/2/2010,
www.financialstability.gov/docs/transaction-reports/4-2-
10%20Transactions%20Report%20as%20of%203-31-10.pdf,
accessed 4/2/2010; Treasury, response to SIGTARP data call,
4/12/2010.
44             special inspector general I troubled asset relief program




     Table 2.3

      Debt Agreements
     TARP            Date of               Cost            Description of                                                  Interest /                Term of
     Program Company Agreement             Assigned        Investment           Investment Information                     Dividends                 Agreement
     CPP —       53 QFIs     1/14/2009a    $0.5 billion    Senior               Each QFI may issue senior securities       7.7% for first 5 years;   30 years
     S-Corps                                               Subordinated         with an aggregate principal amount of      13.8% thereafter
                                                           Securities           1% – 3% of its risk-weighted assets,
                                                                                but not to exceed $25 billion.
                                                           Senior               Treasury will receive warrants to       13.8%                        30 years
                                                           Subordinated         purchase an amount equal to 5% of the
                                                           Security Warrants    senior securities purchased on the date
                                                           that are exercised   of investment.
                                                           immediately
     AIFP        General     12/31/2008 $19.8 billionb Debt Obligation   This loan was funded incrementally;               For General Advances — 12/29/2011
                 Motors                                with Warrants and $4 billion funded on 12/31/2008,                  (i) the greater of (a) 3-
                                                       Additional Note   $5.4 billion funded on 1/21/2009,                 Month LIBOR or (b) 2%
                                                                         $4 billion funded on 2/17/2009.                   plus (ii) 3%; For Warrant
                                                                         Subsequently, this loan was then                  Advances (i) the greater
                                                                         amended; $2 billion on 4/22/2009                  of (a) 3-Month LIBOR for
                                                                         and $4 billion on 5/20/2009 (General              the related Interest Period
                                                                         Advances). In addition, on 5/27/2009,             or (b) 2% plus (ii) 3.5%
                                                                         $361 million was set aside in an SPV for
                                                                         the AWCP (Warranty Advances).
     AIFP        General     1/16/2009     $0.9 billion    Debt Obligation      This loan was exchanged for a portion 3-Month LIBOR + 3%             1/16/2012
                 Motors                                                         of GM’s common equity interest in GMAC
                                                                                LLC on 5/29/2009. See Table 2.4 for
                                                                                more information.
     AIFP        Chrysler    1/2/2009c     $4.8 billionb   Debt Obligation      Loan of $4 billion; Additional note of     For General Advances — 1/2/2012
                                                           with Additional      $267 million (6.67% of the maximum         (i) the greater of (a)
                                                           Note                 loan amount). Subsequently, this loan      3-Month LIBOR or (b) 2%
                                                                                was then amended; $500 million on          plus (ii) 3%; For Warrant
                                                                                4/29/2009, this amount was never           Advances (i) the greater
                                                                                drawn and subsequentlly de-obligated       of (a) 3-Month LIBOR for
                                                                                (General Advances). In addition, on        the related Interest Period
                                                                                4/29/2009, $280 million was set aside      or (b) 2% plus (ii) 3.5%
                                                                                in SPV for the AWCP, and this advance
                                                                                was repaid (Warrant Advances).
     AIFP        Chrysler    1/16/2009     $1.5 billion    Debt Obligation      Loan was funded incrementally at $100      LIBOR + 1% for first      1/16/2014
                 Financial                                 with Additional      million per week until it reached the      year
                                                           Note                 maximum amount of $1.5 billion on          LIBOR + 1.5% for
                                                                                4/9/2009. Additional note is $75 million   remaining years
                                                                                (5% of total loan size), which vests 20%
                                                                                on closing and 20% on each anniversary
                                                                                of closing.
     AIFP        Chrysler    5/1/2009      $3.8 billion    Debt Obligation      Loan of $3 billion committed to Chrysler (i) the greater of (a)      9/30/2009,
                                                           with Additional      for its bankruptcy period. Subsequently, 3-Month Eurodollar or       subject
                                                           Note                 this loan was amended; $757 million      (b) 2% plus (ii) 3.0%       to certain
                                                                                was added on 5/20/2009. Treasury                                     conditions
                                                                                funded $1.9 billion during bankruptcy
                                                                                period. The remaining amount will be
                                                                                de-obligated.


                                                                                                                                           Continued on next page.
                                                                                                                         quarterly report to congress I aPRIL 20, 2010                               45




 Debt Agreements (CONT.)
TARP            Date of                          Cost               Description of                                                               Interest /                       Term of
Program Company Agreement                        Assigned           Investment               Investment Information                              Dividends                        Agreement
AIFP          Chrysler       5/27/2009           $6.6 billion       Debt Obligation          Commitment to New CarCo Acquisition                 For $2 billion: (i) The          For $2
                                                                    with Additional          LLC (renamed Chrysler Group LLC on or               3-Month Eurodollar Rate,         billion note:
                                                                    Note, Equity             about 6/10/2009) of up to $6.6 billion.             plus (ii) (a) 5% or, on          12/10/2011;
                                                                    Interest                 The total loan amount is up to                      loans extended past the          provided
                                                                                             $7.1 billion including $500 million                 original maturity date,          that issuer
                                                                                             of debt assumed from Treasury’s                     (b) 6.5%. For $5.142             may extend
                                                                                             1/2/2009 credit agreement with                      billion note: (i) The            maturity for
                                                                                             Chrysler Holding LLC. The debt                      3-Month Eurodollar Rate          up to $400
                                                                                             obligations are secured by a first                  plus 7.91% and (ii) an           million of
                                                                                             priority lien on the assets of New CarCo            additional $17 million in        principal to
                                                                                             Acquisition LLC (the company that                   PIK interest per quarter.        6/10/2017. 
                                                                                             purchased Chrysler LLC’s assets in a                For other notes: 3-Month         For other
                                                                                             sale pursuant to section 363 of the                 Eurodollar Rate plus             notes:
                                                                                             Bankruptcy Code).                                   7.91%.                           6/10/2017.
AIFP          General        6/3/2009,           $30.1 billion Debt Obligation               Original $30.1 billion funded. Amended              Originally, (i) the greater      Originally
              Motors         amended                           with Additional               loan documents provided that $986                   of (a) 3-Month Eurodollar        10/31/2009;
                             7/10/2009                         Note                          million of the original DIP loan was left           or (b) 2% plus (ii) 3.0%.        for amounts
                                                                                             for the old GM. In addition $7.1 billion            For amounts assumed              assumed by
                                                                                             was assumed by New GM of which                      by New GM, the interest          New GM, June
                                                                                             $0.4 billion was repaid resulting in                rates became (i) the             10, 2015,
                                                                                             $6.7 billion remaining outstanding.                 greater of (a) 3-Month           subject to
                                                                                                                                                 Eurodollar or (b) 2% plus        acceleration.
                                                                                                                                                 (ii) 5%
ASSP          GM          4/9/2009               $2.5 billion       Debt Obligation          The original amount was $3.5 billion,               (i) the greater of (a) LIBOR 4/9/2010
              Supplier                                              with Additional          but it was decreased permanently to                 for the related interest
              Receivables                                           Note                     $2.5 billion effective 7/1/2009.                    period or (b) two percent
              LLC                                                                                                                                (2%) plus (ii) three and five-
                                                                                                                                                 tenths percent (3.5%)
ASSP          Chrysler    4/9/2009               $1.0 billion       Debt Obligation          The original amount was $1.5 billion,               (i) the greater of (a) LIBOR 4/9/2010
              Receivables                                           with Additional          but it was decreased permanently to                 for the related interest
              SPV LLC                                               Note                     $1.0 billion effective 7/1/2009.                    period or (b) two percent
                                                                                                                                                 (2%) plus (ii) three and five-
                                                                                                                                                 tenths percent (3.5%)
PPIP          All PPIF       “9/30/2009          $20 billion        Debt obligation          Each of the loans will be funded       LIBOR + 1%                                    The debt
              Managers       and later”                             with contingent          incrementally, upon demand by the fund                                               obligation for
                                                                    interest                 manager.                                                                             each fund
                                                                    promissory                                                                                                    matures at
                                                                    note                                                                                                          the earlier
                                                                                                                                                                                  of the
                                                                                                                                                                                  dissolution of
                                                                                                                                                                                  the fund or
                                                                                                                                                                                  10 years.
Notes: Numbers affected by rounding.
a
  Announcement date of CPP S-Corporation Term Sheet.
b
  Amount includes AWCP commitments.
c
  Date from Treasury’s 1/27/2009 Transaction Report. The Security Purchase Agreement has a date of 12/31/2008.

Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,”
12/31/2008. Treasury, “General Motors Corporation, Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/2008; Treasury, “General Motors Promissory Note,” 1/16/2009; Treasury, “Loan
and Security Agreement By and Between Chrysler Holding LLC as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,” 12/31/2008; Treasury, “Chrysler,
Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/2008; Treasury, “Chrysler LB Receivables Trust Automotive Industry Financing Program, Secured Term Loan, Summary of Terms,”
1/16/2009; OFS, response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 4/2/2010; Treasury, response to SIGTARP data call, 4/7/2010.
46             special inspector general I troubled asset relief program




     Table 2.4

      Equity Agreements (cont.)
     TARP            Date of                Cost             Description of                                                                     Term of
     Program Company Agreement              Assigned         Investment                Investment Information                 Dividends         Agreement
                                                                                                                              “5% for first
                                                                                       1-3% of risk-weighted assets, not to
                                                             Senior Preferred Equity                                          5 years, 9%       Perpetual
     CPP –                   “10/14/2008a                                              exceed $25 billion for each QFI
                 286 QFIs                 $200.1 billion                                                                      thereafter”
     Public                  and later”
                                                             Common Stock
                                                                                       15% of senior preferred amount         —                 Up to 10 years
                                                             Purchase Warrants
                                                                                                                              “5% for first
                                                                                       1-3% of risk-weighted assets, not to
                                                             Preferred Equity                                                 5 years, 9%       Perpetual
                                                                                       exceed $25 billion for each QFI
                                                                                                                              thereafter”
     CPP –                   “11/17/2008b
                 368 QFIs                    $4.0 billion “Preferred Stock
     Private                 and later”
                                                          Purchase Warrants
                                                                                       5% of preferred amount                 9%                Perpetual
                                                          that are exercised
                                                          immediately”
                                                             Non-Cumulative            $41.6 billion aggregate liquidation
                                                                                                                              10%               Perpetual
                                                             Preferred Equity          preference
                                                                                       2% of issued and outstanding
                                                                                       common stock on investment date
     SSFI         AIG        4/17/2009      $41.6 billionc                             of 11/25/2008; the warrant was
                                                             Common Stock              originally for 53,798,766 shares
                                                                                                                              —                 Up to 10 years
                                                             Purchase Warrants         and had a $2.50 exercise price, but
                                                                                       after the 6/30/2009 split, it is for
                                                                                       2,689,938.30 shares and has an
                                                                                       exercise price of $50.
                                                                                       Up to $29.8 billion aggregate
                                                             Non-Cumulative            liquidation preference. As of                            Perpetual (life of the
                                                                                                                            10%
                                                             Preferred Equity          9/30/2009, the aggregate liquidation                     facility is 5 years)
     SSFI         AIG        4/17/2009      $29.8 billiond
                                                                                       preference was $3.2 billion.
                                                             Common Stock              150 common stock warrants
                                                                                                                            —                   Up to 10 years
                                                             Purchase Warrants         outstanding; $0.00002 exercise price
                                                             Trust Preferred
                                                                                       $20 billion                            8%                Perpetual
                                                             Securities
     TIP         Citigroup   12/31/2008     $20.0 billione

                                                                                       10% of total preferred stock issued;
                                                             Warrants                                                         —                 Up to 10 years
                                                                                       $10.61 exercise price
                                                                                                                                                Converts to common
                                                             Mandatorily Convertible
                                                                                     $5 billion                               9%                equity interest after
                                                             Preferred Stockf
                                                                                                                                                7 years
     AIFP        GMAC Inc. 12/29/2008        $5.0 billion Preferred Stock
                                                                                                                                                Converts to common
                                                          Purchase Warrants
                                                                                       5% of original preferred amount        9%                equity interest after
                                                          that are exercised
                                                                                                                                                7 years
                                                          immediately
                                                                                                                                                Converts to common
                                                             Mandatorily Convertible
                                                                                     $4.5 billion                             9%                equity interest after
                                                             Preferred Stockg
                                                                                                                                                7 years
                                                          Preferred Stock
                                                                                                                                                Converts to common
     AIFP        GMAC Inc. 5/21/2009         $7.5 billion Purchase Warrants
                                                                                       5% of original preferred amount        9%                equity interest after
                                                          that are exercised
                                                                                                                                                7 years
                                                          immediately
                                                             Common Equity
                                                                                       $3.0 billion                           —                 Perpetual
                                                             Interestg
                                                                                                                                              Continued on next page.
                                                                                                                           quarterly report to congress I aPRIL 20, 2010                                   47




 Equity Agreements (cont.)
TARP            Date of                             Cost               Description of                                                                                       Term of
Program Company Agreement                           Assigned           Investment                      Investment Information                             Dividends         Agreement
                                                                                                       This equity interest was obtained by
                                                                       Common Equity                   exchanging a prior debt obligation
AIFP          GMAC Inc. 5/29/2009                     $0.9 billion                                                                                        —                 Perpetual
                                                                       Interest                        with General Motors. See Table 2.3
                                                                                                       for more information.
                                                                                                                                                                            Redeemable upon
                                                                       Trust Preferred
                                                                                                       $2.5 billion                                       8%                the repayment of the
                                                                       Securities
                                                                                                                                                                            debenture
AIFP          GMAC Inc. 12/30/2009                    $2.5 billion Trust Preferred
                                                                   purchase warrants
                                                                                                       5% of trust preferred amount
                                                                   that are exercised
                                                                   immediately
                                                                                                                                                                            Converts to common
                                                                       Mandatorily Convertible
                                                                                               $1.3 billion                                               9%                equity interest after
                                                                       Preferred Stock
                                                                                                                                                                            7 years
AIFP          GMAC Inc. 12/30/2009                    $1.3 billion Preferred Stock
                                                                   Purchase Warrants
                                                                                                       5% of preferred amount
                                                                   that are exercised
                                                                   immediately
                                                                       Trust Preferred
AGP           Citigroup       12/23/2009              $2.2 billion
                                                                       Securities with warrants
                                                                                                                                                                            8 years with the
                                                                                                       Each of the membership interests will
              All PPIF        “9/30/2009            $10.0 billion Membership interest                                                                                       possibility of
PPIP                                                                                                   be funded upon demand from the fund
              Managers        and later”                          in a partnership                                                                                          extension for 2
                                                                                                       manager.
                                                                                                                                                                            additional years.
Notes: Numbers affected by rounding.
a
  Announcement date of CPP Public Term Sheet.
b
  Announcement date of CPP Private Term Sheet.
c
  AIG exchanged Treasury’s $40 billion investment in cumulative preferred stock (obtained on 11/25/2008) for non-cumulative preferred stock, effectively cancelling the original $40 billion investment.
d
  The Equity Capital Facility was announced as a $30 billion commitment, but Treasury reduced this amount by the value of the AIGFP Retention Payment amount of $165 million.
e
  Citigroup exchanged its $20 billion senior preferred equity (obtained on 12/31/2008) for trust preferred securities.
f
  On December 30, 2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatory convertible preferred stock (“MCP”).
g
  On December 30, 2009, Treasury converted $3.0 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of GMAC increased from 35% to 56% because
  of this conversion.

Sources: “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Program Agreement, (Non-
Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agreement dated as of November 25, 2008 between
American International Group, Inc. and United States Department of Treasury,” 11/25/2008; Treasury, “TARP AIG SSFI Investment, Senior Preferred Stock and Warrant, Summary of Senior Preferred Terms,”
11/25/2008; Treasury, “Securities Purchase Agreement dated as of January 15, 2009 between Citigroup, Inc. and United States Department of Treasury,” 1/15/2009; Treasury, “Citigroup, Inc. Summary of
Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase Agreement dated as of January 15, 2009 between Bank of America Corporation and United States Department of Treasury,” 1/15/2009;
Treasury, “Bank of America Summary of Terms, Preferred Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program, Preferred Membership Interests, Summary of Preferred
Terms,” 12/29/2008; Treasury, Transactions Report, 4/2/2010; Treasury, response to SIGTARP data call, 4/7/2010.
48   special inspector general I troubled asset relief program




           Table 2.5

            LARGEST POSITIONS IN WARRANTS HELD BY TREASURY, BY PROGRAM, AS OF 3/31/2010
                                                                                                                                                                                   Amount
                                                                                                                                                                   “In” or “In the Money”
                                                                                           Current Number               Stock Price                                 “Out” or “Out of the
                                                                     Transaction               of Warrants      Current       as of                                of “the   Money” as of
           Participant                                               Date                      Outstanding Strike Price 3/31/2010                                Money?”a      3/31/2010
           Capital Purchase Program (“CPP”):
           Citigroup Inc.                                            10/28/2008                  210,084,034                  $17.85                 $4.05               OUT          ($13.80)
           Wells Fargo & Company                                     10/28/2008                  110,261,688                  $34.01               $31.12                OUT             ($2.89)
           Flagstar Bancorp, Inc.                                    1/30/2009                    64,513,790                    $0.62                $0.60               OUT             ($0.02)
           Hartford Financial Services Group, Inc.                   6/26/2009                    52,093,973                    $9.79              $28.42                 IN             $18.63
           Systemically Significant Failing
           Institutions (“SSFI”) Program:
            AIGb                                                     11/25/2008                     2,689,938                 $50.00               $34.14                OUT          ($15.86)
            AIG  b
                                                                     4/17/2009                                150               $0.00              $34.14                 IN             $34.14
           Targeted Investment Program (“TIP”):
            Citigroup Inc.                                           12/31/2008                  188,501,414                  $10.61                 $4.05               OUT             ($6.56)
           Asset Guarantee Program (“AGP”):
            Citigroup Inc.                                           1/16/2009                    66,531,728                  $10.61                 $4.05               OUT             ($6.56)
           Notes: Numbers affected by rounding.
           a
             When a stock’s current price rises above the warrant’s strike price, it is considered “in the money.” Otherwise, it is considered “out of the money.”
           b
             All warrant and stock data for AIG are based on the 6/30/2009 reverse stock split of 1 for 20.

           Sources: Treasury, Transactions Report, 4/2/2010; Treasury, response to SIGTARP data call, 4/8/2010; Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com.




                                                           Table 2.6

                                                           Dividend, Interest Payments, and Distributions by Program                                                           ($ Millions)

                                                                                              Dividends                        Interest              Distributions                         Total
                                                           AGP                          $321,366,667                                    —                            —         $321,366,667
                                                           AIFPa,b                     1,138,641,016                  $583,820,931                                   —         1,722,461,947
                                                           ASSP                                          —                14,874,984                                 —           14,874,984
                                                           CPP                         8,955,944,812                      28,340,210                                 —         8,984,285,021
                                                           PPIP                                          —                  9,671,733                $15,170,521                 24,842,254
                                                           TIP                         3,004,444,444                                    —                            —         3,004,444,444
                                                           Total                 $13,420,396,938                     $636,707,858                  $15,170,521            $14,072,275,317
                                                           Notes: Numbers affected by rounding. Data as of 3/31/2010. These numbers were calculated using dividend and interest payments by
                                                           TARP recipients provided by Treasury on 3/31/2010. This information does not reconcile to the “TARP Budget” provided by Treasury on
                                                           4/12/2010. Distributions are investment proceeds from the PPIF’s trading activities allocated to the partners, including Treasury, not
                                                           later than 30 days after the end of each quarter.
                                                           a
                                                             Includes $13 million fee received as part of the Popular exchange.
                                                           b
                                                             Includes AWCP.

                                                           Source: Treasury, response to SIGTARP data call, 4/8/2010.
                                                                               quarterly report to congress I aPRIL 20, 2010            49




Homeowners Support Program
                                                                                             Private-Label Mortgages: Loans that
Making Home Affordable Program
                                                                                             are not owned or guaranteed by
According to Treasury, “millions of workers have lost their jobs or had their hours          Fannie Mae, Freddie Mac, or a Federal
cut, and are now struggling to stay current on their mortgage payments.”46 There             agency.
were nearly 2.8 million foreclosures initiated in 2009, and 2010 forecasts are even
higher.47 In response to this crisis, the Administration created the Making Home             Short Sale: A sale of a home, typically
Affordable (“MHA”) program on February 18, 2009, to help struggling homeown-                 for less than mortgage value, by which
ers reduce their monthly mortgages, thereby preventing avoidable foreclosures.               the borrower sells the home and the
With recently announced changes, MHA will be composed of several major initia-               investor collects the sales proceeds
tives: a loan modification program, a loan refinancing program, and additional sup-          as satisfaction of the unpaid mortgage
port for reductions in mortgage principal for underwater borrowers.48                        balance, thus avoiding foreclosure (the
                                                                                             costly legal process by which the inves-
    TARP funds support MHA programs, including the largest component of MHA:
                                                                                             tor would otherwise assume ownership
the Home Affordable Modification Program (“HAMP”).49 According to Treasury,
                                                                                             of the home).
HAMP and the parallel programs at the Federal National Mortgage Association
(“Fannie Mae”) and the Federal Home Loan Mortgage Corporation (“Freddie                      Deed-in-Lieu of Foreclosure: Instead of
Mac”) together comprise a $75 billion initiative that will, among other things, lower        going through the process of foreclo-
homeowners’ monthly mortgage debt through incentive payments to loan servicers,              sure, the borrower surrenders the deed
borrowers, and loan holders (i.e., lenders or investors — referred to as investors in        to the home voluntarily to the investor,
this section), and protect against further loss of collateral value.50 MHA now also          often as satisfaction of the unpaid
includes foreclosure alternatives for those unable to complete a HAMP modifica-              mortgage balance.
tion. Of the $75 billion reserved for HAMP and parallel GSE programs, $50 billion
will be funded through TARP and used largely to modify, write down or extinguish             Forbearance: A temporary postpone-
private-label mortgages.                                                                     ment of loan payments approved by
    Of the $50 billion earmarked for TARP-funded mortgages, $10 billion is allo-             the servicer. Postponing the payments
                                                                                             gives the borrower time to make up for
cated to the Home Price Decline Protection (“HPDP”) program, which is purport-
                                                                                             missed payments that were caused by
edly designed to “encourage additional [investor] participation and HAMP modi-
                                                                                             financial hardship.
fications in areas with recent price declines by helping to offset any incremental
collateral loss on modifications that do not succeed.”51
    Treasury allocated $5.7 billion to the Second Lien Modification Program
(“2MP”), through which participating servicers must modify second-lien mortgages
when a corresponding first lien is modified under HAMP. Treasury also allocated
$4.6 billion for foreclosure alternatives under the Home Affordable Foreclosure
Alternatives (“HAFA”) program, previously referred to as short-sales/deeds-in-lieu
of foreclosure (“SS/DIL”).52                                                                 For more information on HPDP
    On March 26, 2010, Treasury announced several new efforts or program revi-               and HAFA, see SIGTARP’s October
                                                                                             2009 Quarterly Report, page 97, and
sions: temporary mortgage forbearance for unemployed homeowners; new guide-
                                                                                             SIGTARP’s January 2010 Quarterly
lines for servicers to consider writing down principal on first mortgages greater            Report, page 98.
than 115% of the home’s value; pay-for-performance incentives for borrowers and
servicers who modify loans guaranteed by the Federal Housing Administration
50             special inspector general I troubled asset relief program




     Underwater Mortgage: A situation in              (“FHA”); additional incentives to encourage full or partial write downs of second
     which a homeowner owes more on                   mortgages in conjunction with first-mortgage HAMP modifications; and increased
     the mortgage than the home is worth,             incentives through HAFA.53 Treasury and HUD also jointly announced another
     typically the result of a decline in the         new $14 billion HAMP-funded program for FHA refinancing of existing underwa-
     home’s value.                                    ter first-lien mortgage loans.54
                                                          With these expansions of MHA, Treasury expects to use the full $50 billion in
     Government-Sponsored Enterprises
                                                      TARP funding allocated.55 Before the changes, CBO estimated that, as of January
     (“GSEs”): Private corporations
                                                      31, 2010, the program would cost no more than $22 billion, compared to OMB’s
     created and chartered by the
                                                      estimated cost of $49 billion.56
     Government to reduce borrowing costs,
     the liabilities of which are not officially          TARP money is not used with respect to loans owned or guaranteed by two
     considered direct taxpayer obligations.          Government-sponsored enterprises (“GSEs”) Fannie Mae and Freddie Mac.
                                                      Instead, Fannie Mae or Freddie Mac pays incentives from its operating funds.
     Permanent Modification: Under HAMP,              When HAMP was announced in February 2009, the Administration estimated that
     a permanent modification lasts five              the GSEs would contribute up to $25 billion to modify GSE-owned or guaranteed
     years, after which the interest rate can         mortgages.57
     increase incrementally by up to 1% per
     year, capped at the 30-year conform-             Status of Funds
     ing fixed rate at the date of the initial        As of March 31, 2010, Treasury had signed agreements with 115 loan
     modification.
                                                      servicers58 worth up to $39.9 billion.59 Of that $39.9 billion, $90.9 million was
                                                      spent on incentives for 65,482 TARP-funded permanent modifications.60 Of that
     Trial Modification: Under HAMP, a trial
                                                      $90.9 million, approximately $68.4 million was used for incentive payments to
     modification is generally intended to
                                                      servicers and $22.5 million went to investor payments.61 Because borrowers only
     last three months.
                                                      receive incentive payments (applied directly as a reduction in principal) after they
                                                      have participated in the program for at least a year, no payments toward borrowers’
                                                      principal reductions have been made.62
                                                          The amounts allocated for servicer incentives are not immediately paid. Rather,
                                                      each allocation is the maximum amount, or cap, Treasury approved for each ser-
                                                      vicer based on the servicer’s eligible loan portfolio. The average allocation was $347
                                                      million.63 To date, the largest allocation is to Countrywide Home Loans Servicing
                                                      LP, owned by Bank of America, which is eligible for up to $8.1 billion in TARP
                                                      funds.64 Table 2.7 provides details regarding the five largest HAMP allocations as of
                                                      March 31, 2010.
                                                          As of March 31, 2010, 1,008,873 active mortgages were modified permanently
                                                      or on a trial basis. Of those, 227,922 were active permanent modifications and
                                                      780,951 were trial modifications. A snapshot of HAMP modifications is shown in
                                                      Table 2.8. The breakdown of incentive payments is shown in Table 2.9.
                                                                                                                                 quarterly report to congress I aPRIL 20, 2010                                51




Table 2.7                                                                                                                                    Table 2.8

 FIVE LARGEST Hamp FUNDING ALLOCATIONS, AS OF 3/31/2010 ($ Billions)                                                                         HAMP SNAPSHOT, AS OF 3/31/2010
                                                                                                               Adjusted                      Number of HAMP Trials Started
Institution                                                Ultimate Parent Company                             Funding Capa                  Since Program Inception                            1,166,925
Countrywide Home Loans Servicing LP                        Bank of America Corporation                         $8.1                          Active Permanent Modifications                        227,922
Wells Fargo Bank, NA                                       Wells Fargo & Company                                 7.1   b
                                                                                                                                             Number of Trial Modifications
J.P. Morgan Chase Bank, NA                                 JPMorgan Chase & Co.                                  4.9                         Cancelled                                             155,173

OneWest Bank                                               OneWest Bank Group, LLC                               2.3                         Number of Permanent
                                                                                                                                             Modifications Cancelled                                   2,879
GMAC Mortgage, Inc.                                        GMAC, Inc.                                            2.1
                                                                                                                                             Notes: Survey data provided by servicers. Trial and permanent
Notes: Numbers affected by rounding.                                                                                                         modifications as reported by the HAMP system of record.
a
  Funding cap amounts represent the funding allocated to each institution. Funds are not spent until successful completion of certain loan
  modification milestones.                                                                                                                   Source: Treasury, “Making Home Affordable Program Servicer
b
  Amount increased because of Wachovia’s merger with Wells Fargo Bank, NA.                                                                   Performance Report through March 2010,” no date,
                                                                                                                                             www.financialstability.gov/docs/report.pdf, accessed
Sources: Treasury, Transactions Report, 4/2/2010; Factiva website, http://fce.factiva.com/pcs/default.aspx, accessed 4/7/2010;               4/14/2010.
Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 4/7/2010.


                                                                                                                                             Table 2.9

                                                                                                                                             breakdown of incentive payments,
                                                                                                                                             AS OF 3/31/2010 ($ Millions)
HAMP
                                                                                                                                             Servicer Incentive Payment ($1,000)                        $65.5
According to Treasury, it designed HAMP “to help as many as three to four mil-
                                                                                                                                             Servicer Current Borrower Incentive
lion financially struggling homeowners avoid foreclosure by modifying loans to a
                                                                                                                                             Payment ($500)                                                  2.9
level that is affordable for borrowers now and sustainable over the long term.”65
                                                                                                                                             Investor Current Borrower Incentive
The Administration envisions a “shared partnership” between the Government                                                                   Payment ($1,500)                                                8.3
and investors to bring borrowers’ monthly payments down to an “affordable” level                                                             Investor Monthly Reduction Cost
— defined as a 31% monthly mortgage payment ratio, which is the ratio of the bor-                                                            Sharea                                                       14.2

rower’s monthly mortgage payment on the first lien to the borrower’s monthly gross                                                           Total                                                     $90.9
                                                                                                                                             Notes: Numbers affected by rounding.
income.                                                                                                                                      a Investor monthly reduction cost share is considered an incentive

                                                                                                                                               payment.
    Under the existing program, the private-sector investor is responsible for all
                                                                                                                                             Source: Treasury, response to SIGTARP data call, 4/7/2010.
payment reductions necessary to bring a borrower’s monthly payment down to
38% of the borrower’s monthly gross income. The additional reductions needed to
bring the monthly payment down to a 31% ratio will be shared equally between the
                                                                                                                                                 For more information on HAMP, see
investor and the Government.66 Under the anticipated changes to the program, in                                                                  SIGTARP’s April 2009 Quarterly Report,
addition to compensating lenders for the reduction of payments from a 38% to a                                                                   page 114.
31% monthly mortgage payment ratio, Treasury will also compensate lenders for
reducing principal on certain underwater mortgages.67
52                  special inspector general I troubled asset relief program




                                                                       HAMP Documentation Requirements
                                                                       Under HAMP’s initial guidance, much of the paperwork borrowers had to submit
                                                                       in order to qualify for a permanent modification was non-standardized, and did
                                                                       not have to be provided prior to the servicer initiating a trial modification, which
                                                                       could be offered based on unverified verbal information provided by the borrower.68
                                                                       Subsequently, on October 8, 2009, Treasury created a standard MHA request for
                                                                       modification and affidavit form (“RMA”), which incorporates a borrower’s income
                                                                       and expense information, a revised hardship affidavit, a fraud notice, and portions
                                                                       of the HAMP trial-period plan.69 On January 28, 2010, Treasury directed that ver-
                                                                       bal trial modifications would no longer be permitted, and that full documentation
                                                                       be required for every trial modification offered after April 15, 2010.70 Thereafter,
                                                                       the servicer will need to receive the following documents, referred to as the “initial
                                                                       package:”71

                                                                       •	 financial information from borrowers and co-borrowers, including the source of
Figure 2.5
                                                                          the hardship
HAMP TRIAL AND PERMANENT                                               •	 signed and completed requests for tax return transcripts (or the most recent
MODIFICATIONS STARTED
                                                                          federal income tax return, including all schedules and forms)
9/2009 −3/2010
                                                                       •	 income verification documentation (employment income, unemployed benefits,
1,200,000
                                                                          rental income, etc.)
1,000,000

 800,000
                                                                       Servicer Performance Report
                                                                       The Administration released its first monthly servicer performance report on August
 600,000
                                                                       4, 2009, to “document the number of struggling homeowners already helped
 400,000                                                               under the [MHA] program, provide information on servicer performance and
 200,000                                                               expand transparency around the initiative.”72 Beginning with the November report,
                                                                       representing HAMP activity through September 30, 2009, Treasury added certain
           0
               Sept          Oct   Nov   Dec    Jan      Feb    Mar    loan-level data from servicers.73
               (and prior)


                  HAMP Trial Modifications (Cumulative)                Overall Performance
                  HAMP Permanent Modifications (Cumulative)
                                                                       Figure 2.5 shows the monthly increases in HAMP trial and permanent modifica-
Notes: All trial modifications started are reported on the month the   tions started.
first payment is posted. Data based on numbers reported by
servicers to the HAMP system of record.

Source: Treasury, “Making Home Affordable Program Servicer             Servicer Metrics
Performance Report Through March 2010,” no date,
http://financialstability.gov/docs/report.pdf, accessed 4/14/2010.     Activity by the five servicers initiating the most permanent HAMP modifications is
                                                                       shown in Table 2.10. Figure 2.6 shows the trial and permanent modifications start-
                                                                       ed by each servicer as a percentage of that servicer’s estimated eligible mortgages.
                                                                                                                                                                                                                                                                                  quarterly report to congress I aPRIL 20, 2010   53




Table 2.10

 top 5 hamp servicers by NUMBER OF permanent modificationS
                                                                                                                                                                                                                                                                 Active Trials and
                                                                               Estimated                                            Active                                                                                                                      Permanents as a
                                                                                 Eligible                                              Trial                                                             Permanent                                            Share of Estimated
Servicer                                                                      Mortgagesa                                     Modificationsb                                                             Modifications                                         Eligible Mortgages
Bank of America, NAc                                                                        1,085,894                                            250,658                                                                32,900                                                     26%
J.P. Morgan Chase
                                                                                             431,341                                             129,992                                                                31,460                                                     37%
Bank, NAd
Wells Fargo Bank, NAd                                                                        378,480                                             114,918                                                                30,014                                                     38%
CitiMortgage, Inc.                        e
                                                                                             246,582                                                92,597                                                              22,455                                                     47%
GMAC Mortgage, Inc.                                                                             66,750                                              14,742                                                              17,102                                                     48%
Notes:
a
  Estimated eligible mortgages with 60+ day delinquencies are as of 2/28/2010.
b
  Active trial and permanent modifications as reported into the HAMP system of record by servicers are as of 3/31/2010.
c
  Bank of America, NA includes Bank of America, NA, BAC Home Loans Servicing LP, Home Loan Servicers and Wilshire Credit Corporation.
d
  J.P. Morgan Chase Bank, NA includes EMC Mortgage Corporation.
e
  Wells Fargo Bank, NA includes a portion of the loans previously included in Wachovia Mortgage, FSB.

Source: Treasury, “Making Home Affordable Program Servicer Performance Report Through March 2010,” no date,
www.financialstability.gov/docs/report.pdf, accessed 4/14/2010.




 Figure 2.6

 TRIAL AND PERMANENT MODIFICATION TRACKER:
 TRIAL MODIFICATION STARTS AS A SHARE OF ESTIMATED
 ELIGIBLE MORTGAGES

 50%

  40

  30

  20

  10

   0
       GMAC
              CitiMortgage
                             Bayview
                                       Select Portfolio
                                                          Wells Fargo
                                                                        J.P. Morgan Chase
                                                                                            Saxon
                                                                                                    Green Tree
                                                                                                                 Aurora
                                                                                                                          OneWest
                                                                                                                                    Nationstar
                                                                                                                                                 Ocwen
                                                                                                                                                         Bank of America
                                                                                                                                                                           Bank United
                                                                                                                                                                                         PNC Mortgage
                                                                                                                                                                                                        US Bank
                                                                                                                                                                                                                  CCO
                                                                                                                                                                                                                        Litton
                                                                                                                                                                                                                                 American Home
                                                                                                                                                                                                                                                 Carrington
                                                                                                                                                                                                                                                              Wachovia
                                                                                                                                                                                                                                                                         HomeEq




 Notes: Numbers affected by rounding. Treasury combines trial and permanent modifications when reporting the
 data shown above. Includes active trial and permanent modifications. March trials as a share of 60+ day
 delinquencies on 2/28/2010.

 Source: Treasury, “Making Home Affordable Program Servicer Performance Report Through March 2010,” no date,
 www.financialstability.gov/docs/report.pdf, accessed 4/14/2010.
54   special inspector general I troubled asset relief program




                                            MHA Update
                                            During this quarter, Treasury introduced new MHA-related programs to help
                                            underwater and unemployed homeowners and provide pay-for-performance incen-
                                            tives for modification of FHA-guaranteed loans. Treasury also enhanced HAMP
                                            borrower protections and offered increased incentives on second-lien modifications
                                            and foreclosure alternative programs. The changes are expected to be fully imple-
                                            mented by fall.74

                                            Assistance for Unemployed Homeowners
                                            Under the new program, qualified homeowners who are otherwise HAMP eligible
                                            will receive temporary forbearance of a portion of their payments for a minimum of
                                            three and a maximum of six months.75 Participating servicers are required to offer
                                            assistance if the homeowner:76

                                            •	 is otherwise HAMP eligible
                                            •	 can demonstrate that he or she is receiving unemployment insurance benefits
                                            •	 requests temporary assistance within the first 90 days of delinquency

                                                For qualifying homeowners, the mortgage payments will be adjusted to no more
                                            than a maximum of 31% of their monthly income, including their unemployment
                                            benefits.77 If a borrower becomes employed at any time during the forbearance
                                            period, the forbearance ends and he or she will be responsible for the difference
                                            between the scheduled payments and the lesser payments made during the modi-
                                            fication. The terms of repayment for this difference will be negotiated between the
                                            servicer and the borrower and, according to Treasury, will likely result in either a
                                            short-term payment plan or a permanent forbearance that will not have to be paid
                                            back until the home is sold or the loan is fully repaid. If the period expires before
                                            the borrower gets a job, the homeowner might be eligible for HAMP foreclosure
                                            alternatives, such as HAFA.78 It is also possible that the borrower may qualify for a
                                            HAMP modification.
                                                The unpaid interest during the time of the borrower’s participation in the un-
                                            employment forbearance program will be added to the total amount the borrower
                                            owes, reducing any equity the borrower may have had or increasing the amount
                                            of negative equity, forcing the loan even further underwater. In a press release an-
                                            nouncing the program, Treasury stated that this program would result in “no cost
                                            to government or taxpayers.” However, Treasury officials informed SIGTARP that
                                            a planned increase in servicer incentive payments was designed in part to compen-
                                            sate them for additional costs resulting from the program revisions, including the
                                            unemployment forbearance program.79
                                                                                                      quarterly report to congress I aPRIL 20, 2010   55




Unemployment Assistance Example
In 2005, Family A took out a 30-year 9% fixed $250,000 mortgage and earned
$6,500 a month. The monthly mortgage payment was $2,012 per month.
    Today, all of Family A has been out of work for two months and is using savings to
stay current. They are collecting total unemployment benefits of $2,000 per month.
    Temporarily, Family A’s mortgage will drop to 31% of its monthly unemployment
income, reducing it by $1,380 per month while they look for new jobs. As shown in
Table 2.11, a total of $8,280 in payments is thus postponed.
    After six months of forbearance, all of Family A get jobs and resume paying
$2,012 per month. The postponed amount is either repaid through a short-term
plan or carried by the servicer as a long-term forbearance due when the loan is paid
off. If Family A’s new jobs pay less or other financial hardship continues, it will be
considered for HAMP.


Table 2.11

 unemployment temporary assistance example
                                                        Existing                     Six Month Temporary
                                                       Mortgage                                Assistance
Balance                                                $239,700                                    $239,700
Remaining Years                                                26                                           26
Interest Rate                                                9.0%                                       9.0%
Monthly Payment                                           $2,012                                        $620
                        $1,380 per month, for a total of $8,280 over six months. This amount must
Savings                 eventually be repaid by the borrower. The servicer will decide the disposition of
                        the unpaid amount.
Note: Numbers affected by rounding.




Alternative Principal Write-Down Approach 		
On March 26, 2010, Treasury released a broad outline for a significant revision to
HAMP to encourage servicers and investors to write down principal on underwater
loans. The Principal Forgiveness program is expected to be operational by the fall.
To be considered for principal write-down, the borrower must be HAMP eligible
and owe more than 115% of his or her home’s current value.80 For such borrowers,
56             special inspector general I troubled asset relief program




                                                      the servicer must run two different Net Present Value (“NPV”) tests. The original
                                                      NPV test calculates investor return if the mortgage is modified per standard HAMP
     Net Present Value Test: This test is
                                                      procedure, which relies primarily on interest rate deductions as the first step in the
     used by the servicer to determine
                                                      modification process to reach a 31% debt-to-income ratio (“DTI”), followed by term
     whether it will modify the mortgage,
     seek a foreclosure alternative or pursue         extensions and, finally, forbearance. Next, the servicer would run a second NPV
     foreclosure. The test compares inves-            test putting principal reduction at the beginning of the procedure and calculating
     tor returns if the mortgage is modified          the return to investors if the mortgage is modified through principal reductions,
     versus if nothing is done. If the result is      including payments from Treasury.81 If the expected cash flow to the investor of
     positive, the investor would expect to           a modification with principal forgiveness is both positive and greater than that
     receive a higher return from modifying           from the original HAMP NPV test, servicers have the option of offering principal
     the mortgage than from doing nothing.            forgiveness.
                                                           When forgiveness is offered in conjunction with HAMP, the investor will ini-
                                                      tially postpone, or forbear, the principal amount owed above 115% in order to bring
                                                      monthly payments down to 31% of the borrower’s monthly mortgage payment ratio.
                                                      For homeowners who remain current on their payments, one-third of the forborne
                                                      amount is permanently forgiven every year for three years.82
                                                           Investors will be compensated for a percentage of the dollar value of the prin-
                                                      cipal forgiven in the same three year increments. According to Treasury, incentives
                                                      potentially range from 6 to 21 cents on the dollar, depending on the extent of the
                                                      delinquency or the loan to value ratio.83 In addition, investors will still receive the
                                                      regular incentive payments available through HAMP for reducing payments from
                                                      38% to 31% of the borrower’s monthly mortgage payment ratio. 	
                                                           Treasury will also require servicers to consider retroactively applying the ben-
                                                      efits of this program for homeowners who previously received HAMP modifications
                                                      and remained current.84
                                                           Table 2.12 indicates the schedule under which investors will be compensated to
                                                      forgive principal. Although Treasury’s chart includes compensation for principal that
                                                      is reduced below 115%, as of March 31, 2010, Treasury had not determined whether
                                                      it would make incentive payments to investors to reduce principal below 115%.
                                                      Similarly, Treasury has not determined whether it will compensate investors who
                                                      decrease principal to a level that lowers borrowers’ monthly payments to less than a
                                                      31% ratio.85
                                                           According to Treasury, investors will be paid $0.06 per dollar of the unpaid prin-
                                                      cipal balance that were six months or more delinquent in the previous year.

                                                      Table 2.12

                                                       Incentives to Investors for every dollar of loan principal reduced
                                                      Reduction of Principal
                                                                                                                 < 115                115 to 140                   > 140
                                                      (percentage)
                                                      Incentive Amount                                            $0.21                      $0.15                 $0.10
                                                      Note: Treasury has not committed to funding incentives for write-downs below 115% of the mortgage’s value.

                                                      Source: Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010,
                                                      http://makinghomeaffordable.gov/docs/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
                                                                                                         quarterly report to congress I aPRIL 20, 2010   57




Example of a HAMP Modification with Alternative Principal Write-
Down Approach
In 2005, Family B took out a 30-year 9% fixed $250,000 mortgage and had month-
ly income of $6,500. The monthly mortgage payment was $2,012.
    Since then, home prices have dropped nearly 30% and Family B’s home is only
worth $180,000. A family member’s illness reduced its income to $4,000.
    Under HAMP, the servicer would first forbear principal to bring the loan down
to 115% loan-to-value, or $207,000. This alone would not bring payments down to
31% DTI, so the servicer would then drop the interest rate from 9% to 5.4%, result-
ing in a monthly payment of $1,240, representing 31% DTI. The borrower then
forgives the forborne principal over the course of three years (as long as the family
remains current). As shown in Table Table 2.13, the reduction in principal and
interest rate will reduce Family B’s monthly payments by $772. After three years,
Family B’s principal reduction totals $32,700 and the investor’s incentive payment,
because the loan value was 133% of the home’s value, is $4,900.

Table 2.13

 hamp modification with alternative principal write-down example
                                                                                          Reduced Principal
                                                   Existing Mortgage                          After 3 Years
Balance                                                       $239,700                               $207,000
Remaining Years                                                       26                                       23
Interest Rate                                                      9.0%                                   5.4%
Monthly Payment                                                  $2,012                                $1,240
                                  $32,700 in principal reduction; $772 monthly payment reduction.
                                  The balance is reduced to $207,000 to reflect 115% of market value
Savings
                                  and additionally the interest rate is reduced to 5.4%, in order to reach a
                                  monthly payment of $1,240.
Note: Numbers affected by rounding.




HAFA
HAFA enables servicers and borrowers to pursue short sales or deeds in lieu of
foreclosure in cases where the borrower meets basic HAMP eligibility criteria but
does not qualify or cannot complete the three-month trial period. HAFA provides
financial incentives and reimbursements to borrowers, servicers, and investors in
the form of relocation assistance incentives, “pay-for-success” incentives, and the
release of subordinate liens. The program went into effect on April 5, 2010.
58   special inspector general I troubled asset relief program




                                                According to Treasury’s March 26, 2010 guidance, the incentive payments for
                                            borrowers who agree to relinquish their homes increased from $1,500 to $3,000.
                                            Additionally, servicer incentives increased from $1,000 to $1,500 for each suc-
                                            cessful short sale or deed-in-lieu transaction. In the case of a short sale only, for
                                            the release of subordinate liens, the servicer “will authorize the settlement agent to
                                            allow a portion of the gross sale proceeds as payment(s) to subordinate mortgage/
                                            lien holder(s) in exchange for a lien release and full release of borrower liability.”86
                                            Investors will be reimbursed for moneys used to extinguish second liens. The
                                            maximum allowable reimbursement increased to 6% of the outstanding loan bal-
                                            ance, subject to an aggregate cap of $6,000.87 For such short sales, HAFA will pay
                                            reimbursements for subordinate lien releases to a maximum of $2,000 per lien,
                                            which is to be earned on a one-for-three matching basis (for each $3 an investor
                                            pays to secure release of a subordinate lien, the investor gets $1, up to the $2,000
                                            maximum).

                                            2MP
                                            2MP is purportedly designed to work in tandem with HAMP and includes ho-
                                            meowner relief for borrowers with second mortgages serviced by a participating
                                            2MP servicer. As of March 31, 2010, Bank of America Corporation, Wells Fargo &
                                            Company, JPMorgan Chase & Co., and Citigroup Inc. all executed agreements to
                                            participate in the second lien program.88 Collectively, these servicers represent 50%
                                            of all second liens. Under the program, if the first lien is modified under HAMP,
                                            a participating servicer must modify and/or extinguish the second lien as well. For
                                            a modification, the servicer will first reduce the interest rate, which is determined
                                            by the nature of the loan. If it is an interest-only loan (not-amortizing), the interest
                                            rate decreases to 2%, while the interest rate for amortizing second liens (those that
                                            require payments of both interest and principal) decreases to 1%.89 When modify-
                                            ing the second lien, the servicer will also match the extension of the term of years
                                            for the modified first lien, and to the extent that there is forbearance and/or princi-
                                            pal reduction for the modified first lien, the second lien will forbear a proportional
                                            amount.
                                                The servicer will receive a $500 incentive payment at the time of modification.
                                            Additionally, the servicer will receive an annual pay-for-success fee of $250 for up
                                            to three years if a borrower’s monthly second-lien payment is reduced by 6% or
                                            more and the borrower stays current on his payments. If that occurs, the borrower
                                            will receive an annual “pay for performance” principal balance reduction payment
                                            of up to $250 for up to five years.90 Investors will receive a modification incen-
                                            tive payment equal to an annualized amount of 1.6% of the unmodified unpaid
                                            principal balance, paid on a monthly basis for up to five years. If the borrower
                                            misses three consecutive payments on his or her modified second lien, no further
                                                                               quarterly report to congress I aPRIL 20, 2010   59




incentives payments will be made to the servicer. If the second lien is fully or par-
tially extinguished, the investor will receive a payment of a percentage of the amount
extinguished using the same schedule shown in Table 2.12, with a maximum pay-
ment of 6% for liens that have been in default for more than six months.

Expanded Borrower Protections in HAMP Programs
The new guidelines issued on March 26, 2010, changed certain HAMP provisions
for offering expanded protection for borrowers. The new guidelines contain the fol-
lowing provisions:91

•	 require proactive outreach to borrowers who have missed two or more mortgage
   payments
•	 require servicers to consider a borrower in bankruptcy for HAMP
•	 prohibit referral to foreclosure for borrowers who are evaluated and found eligible
   for HAMP or until a borrower has been evaluated and found ineligible for HAMP

Implementation of FHA-HAMP
FHA-HAMP, which applies to borrowers with loans guaranteed by FHA, is similar
to its TARP counterpart in that it reduces borrowers’ monthly mortgage payments to
31% of their gross monthly income and requires the borrower to complete a three-
month trial payment plan before permanently modifying the loan.92 Under the new
guidance, when a loan is modified under the FHA-HAMP program, borrowers and
servicers will be eligible for pay-for-success incentive payments. Unlike HAMP, no
payments under FHA-HAMP will be made to investors because those investors al-
ready have the benefit of the FHA insurance guarantee program. TARP funds will be
used to pay the same pay-for-success incentive payments to borrowers and servicers
as those made under HAMP.

Federal Housing Administration (“FHA”) Refinance Program — TARP
Interaction
FHA implemented a Refinance Program in the early 1980s. Under this program, a
mortgage could be refinanced if, among other things, it was an existing FHA-insured
mortgage, the borrower was current, and no cash was taken out after the mortgage
was refinanced.93 On March 26, 2010, Treasury and HUD announced program revi-
sions that will give investors the option of refinancing underwater, non-FHA insured
mortgages into an FHA-insured mortgage at 97.75% of the home’s value, supported
with up to $14 billion from TARP.94 The FHA refinance option is voluntary for the
servicers; therefore, not all underwater mortgage borrowers who qualify may benefit
from a refinanced loan. Moreover, it is only available to borrowers with mortgages
60   special inspector general I troubled asset relief program




                                            not currently insured by the FHA.95 The $14 billion in TARP funds will go toward
                                            purchasing first-loss coverage (in the form of a “letter of credit”) on certain mort-
                                            gages, payments to holders of existing second liens for principal extinguishments,
                                            and $1,000 upfront servicer-incentive payments for each mortgage placed into the
                                            program.96
                                               In order to qualify for an FHA refinance loan, homeowners must meet the fol-
                                            lowing eligibility requirements:97

                                            •	   be current on their existing mortgage
                                            •	   occupy the home as their primary residence
                                            •	   fully document their income
                                            •	   qualify under standard FHA underwriting guidelines
                                            •	   have at least a 500 FICO credit score
                                            •	   have a DTI of less than 55%
                                            •	   have a DTI for all housing-related debt (including second liens) of less than 31%
                                                 after refinancing

                                                 The FHA refinanced loan will have the following characteristics:98

                                            •	 The aggregate FHA insurance and TARP-supported loss coverage for the refi-
                                               nanced loan will be 97.75% of the current value of the home.
                                            •	 The borrower’s combined mortgage debt (including all liens) must be written
                                               down to a maximum of 115% of the current value of the home.
                                            •	 The borrower’s original first lien mortgage must be written down by at least
                                               10%.
                                            •	 The original first-lien investor has the option of converting any amount of the
                                               original mortgage that is greater than 97.75% of the value of the home to a
                                               subordinated second lien, up to 115% of the current value of the home. The
                                               balance of the mortgage above 115% would have to be forgiven. If a second lien
                                               already exists, the total combined mortgage amount after the refinance must not
                                               exceed 115% of the home’s value.

                                                The current value of the home will be determined consistent with FHA un-
                                            derwriting standards that, among other things, require third-party appraisal by a
                                            HUD-approved appraiser. By obtaining an FHA-guaranteed loan, the homeowner
                                            will receive a new monthly mortgage payment at a fixed interest rate. The total
                                            monthly mortgage payment (including all payments on subordinate liens) must not
                                                                                 quarterly report to congress I aPRIL 20, 2010   61




be greater than 31% of the borrower’s monthly gross income.99 Under the program,
borrowers benefit from a lower monthly payment, a fixed interest rate, and for-
giveness of principal that is more than 115% of the value of the home. Although
investors will have to recognize a loss as a result of the mortgage write-down, they
will receive cash payment for 97.75% of the current home value, and may maintain
a subordinate second lien for up to 17.25% of the home’s value (for a total balance
of 115% of the home’s value). Preexisting second-lien holders will receive incen-
tive payments to extinguish their debts consistent with the schedule set forth in
Table 2.12 or they may negotiate with the first lien holder for a portion of the new
subordinate loan.100
    According to Treasury, FHA will publish data on the number of loans refi-
nanced on a quarterly basis. The published data will include the average percentage
of write downs and the quantity of mortgage principal reduced.101
    If a refinanced loan under this program defaults, it is anticipated that the letter
of credit purchased by TARP will approximately compensate the refinancing inves-
tor for the first 7.75% of losses on each defaulted mortgage up to the maximum
amount specified by the program guidelines. FHA will thus be responsible for the
remaining approximately 90% of potential loss on each mortgage. Treasury has not
publicly stated what portion of the $14 billion allocated to this program will be
used for the three TARP expenses in the program: servicer incentives, payments to
relinquish preexisting second liens, and first loss protection for FHA.

Example of an FHA Refinance
In 2005, Family C took out a 30-year 9% fixed $250,000 mortgage. The monthly
mortgage payment was $2,012. Since then, home prices dropped nearly 30% and
Family C’s home is now worth $180,000.
    Under the program, the investor will write down Family C’s loan balance by
approximately $32,700, resulting in $207,000 in total debt, which is 115% of the
value of the home. A new FHA-arranged refinancing of that amount will pay the
investor $175,950, or 97.75% of the home’s value. The original investor will also
receive a second lien for $31,050, or 17.25%, to bring the total mortgage debt to
115% of the home’s value. The investor then writes off the remaining $32,700.
62            special inspector general I troubled asset relief program




                                                     Table 2.14 shows that Family C’s total monthly payment will fall to about $1,308
                                                     per month, for a savings of $8,448 per year.

                                                     Table 2.14
                                                      fha refinance example

                                                                                      Existing Mortgage            FHA Refinance
                                                                                     Terms         Loan to Value   Terms            Loan to Value
                                                     Balance                         $239,700      133%            $207,000         115%
                                                     Remaining Years                 26                            30
                                                      First Lien                     $239,700      133%            $175,950         97.75%
                                                      Second Lien                    —                             $31,050          17.25%
                                                     Interest Rate                   9.0%                          6.5%
                                                     Monthly Payment                 $2,012                        $1,308


                                                     Borrower saves in principal and interest                      $704 per month
                                                     Investor writes down principal amount                         $32,700
                                                     Note: Numbers affected by rounding.




     What are HFAs and what do they do?              Housing Finance Agency (“HFA”) — The Hardest-Hit Fund
     HFAs are agencies or authorities cre-           On February 19, 2010, the Administration announced that $1.5 billion in TARP
     ated by state law that are charged with         money will be allocated to develop foreclosure prevention programs to help families
     helping persons and families of low             in the five states hit hardest by declining home prices.102 On March 29, 2010, the
     or moderate income attain affordable            Administration expanded this program to include five more states and increased
     housing. HFAs provide responsible               the potential subsidy by $600 million.103 The $1.5 billion in initial funding will be
     and affordable housing resources to             provided to those states (Arizona, California, Florida, Michigan, and Nevada) in
     low- and moderate-income borrowers              which the average home price fell more than 20% from the peak.104 The additional
     who might not be served elsewhere.              $600 million will be allocated to Ohio, North Carolina, South Carolina, Oregon,
     The primary activities of HFAs are as
                                                     and Rhode Island because of those states’ high unemployment rates.105 Each state’s
     follows:
                                                     Housing Finance Agency (“HFA”) will design programs tailored to that state. The
                                                     first five states were to submit proposals to Treasury by April 16, 2010. Treasury’s
     • financing mortgages at low rates
                                                     review period then begins.106 The five new states’ proposals are due June 1.107
     • funding the development of
      affordable rental properties                   Treasury will determine whether the proposals meet EESA’s requirements and the
     • refinancing or modifying mortgage             program’s published guidelines. If Treasury approves, HFAs may be able to begin
      loans for at-risk borrowers.                   drawing down funds within four to six weeks. Treasury outlined categories of trans-
                                                     actions that might be acceptable under EESA:108
                                                                              quarterly report to congress I aPRIL 20, 2010                             63




•	 Mortgage Modifications — Programs may provide for mortgage modification                Table 2.15

   of loans held by HFAs or other financial institutions or provide incentives for        Amount Allocated to each state
                                                                                          ($ Millions)
   servicers / investors to modify loans.
•	 Mortgage Modifications with Principal Forbearance — Programs may                       California                                          $699.6

   provide for paying down all or a portion of an underwater loan and taking              Florida                                               418.0
   back a note from the borrower for that amount in order to facilitate additional        Ohio                                                  172.0
   modifications.
                                                                                          North Carolina                                        159.0
•	 SS/DIL Foreclosures — Programs may provide for assistance with short sales
   and deeds in lieu of foreclosure in order to prevent avoidable foreclosures.           Michigan                                              154.5

•	 Principal Reduction Programs for Borrowers with Severe Negative 	                      South Carolina                                        138.0
   Equity — Programs may provide incentives for financial institutions to write
                                                                                          Arizona                                               125.1
   down a portion of the unpaid principal balance for homeowners with severe
   negative equity.                                                                       Nevada                                                102.8

•	 Unemployment Programs — Programs may provide for assistance to unem-                   Oregon                                                  88.0
   ployed borrowers to help them avoid preventable foreclosures.
                                                                                          Rhode Island                                            43.0
•	 Second Lien Reductions — Programs may provide incentives to reduce or
   modify second liens.                                                                   Total                                            $2,100.0


                                                                                          Sources: Treasury, “HFA Hardest-Hit Fund FAQs,” 3/5/2010,
   As of March 31, 2010, Treasury had not determined how it will evaluate HFA             www.makinghomeaffordable.gov/docs/HFA%20FAQ%20%20
                                                                                          030510%20FINAL%20(Clean).pdf, accessed 3/8/2010;
proposals. SIGTARP will monitor and document the program’s developments in                Treasury, “Update to HFA Hardest-Hit Fund FAQs,” 3/29/2010,
                                                                                          www.financialstability.gov/docs/Hardest%20Hit%20public%20
future quarterly reports.                                                                 QA%200%2029%2010.pdf, accessed 3/29/2010.

   Table 2.15 shows the $2.1 billion allocation by state.
64             special inspector general I troubled asset relief program




                                                      TARP Tutorial: WHAT DO “UNDERWATER”
                                                      HOMEOWNERS DO?

                                                      Introduction
                                                      The bursting of the real estate bubble left many homeowners owing more on their mort-

     Underwater Mortgage: A situation in              gages than their homes were worth, a situation known as being “underwater” or “upside

     which a homeowner owes more on                   down.” These homeowners have “negative equity.”

     the mortgage than the home is worth,                 Recent data on negative equity homes indicates that 11.3 million U.S. homes had

     typically the result of a decline in the         negative equity at the end of the fourth quarter of 2009 — approximately 24% of all resi-

     home’s value.                                    dential mortgages.109 This tutorial summarizes actions taken both by underwater
                                                      homeowners and some of the problems raised by such actions.

                                                      Whom Does Negative Equity Affect?
                                                      With so many homeowners underwater, almost everyone has been hurt, including:
                                                      •	 Borrowers: Borrowers become exposed when their home equity turns negative.
                                                         Refinancing or moving becomes nearly impossible because they cannot make enough
                                                         money selling the house to pay off the mortgage.
                                                      •	 Lenders/Investors: Some studies show that underwater borrowers are much more
                                                         likely to default, and negative equity has been described as the greatest predictor
                                                         of default. Foreclosure in this situation is usually very costly to lenders and investors
                                                         because they are forced to sell the property for less than they lent the borrower.
                                                      •	 Communities: When properties with negative equity are concentrated in one area,
                                                         that neighborhood or community suffers because those property owners have both
                                                         fewer resources and less incentive to maintain their own homes. Homeowners might
                                                         not make basic repairs or maintain their houses because they have no equity and think
                                                         eventually the lender will foreclose on them. Additionally, the distressed sales that often
                                                         accompany foreclosed underwater mortgages drag down the values of all homes in
                                                         the neighborhood. Lenders who foreclose upon homes, but are unable to sell them,
                                                         may not make the necessary repairs or maintenance. Vacant homes also attract van-
                                                         dals, squatters, and criminal activity.


                                                          According to Treasury, the states with the hardest-hit housing markets are Nevada,
                                                      California, Florida, Arizona, and Michigan.110 See Figure 2.7 for the geographic distribution
                                                      of underwater mortgages for the top five states. In these five states, average property
                                                      values have declined more than 20%.111 These states had the highest number of negative
                                                      equity residential properties at the end of 2009.112
                                                                                                                              quarterly report to congress I aPRIL 20, 2010   65




 Figure 2.7

 GEOGRAPHIC DISTRIBUTION OF UNDERWATER MORTGAGES
 FOR TOP FIVE STATES




 California
      35%
   Nevada
     70%
   Arizona                                                                        Michigan
      51%                                                                             39%
                                                                                     Florida
                                                                                       48%




Note: Percentages represent number of underwater mortgages as a percentage of total residential mortgages as of 12/31/2009.

Source: Real Estate Channel, “24% of All U.S. Residential Mortgages Now Underwater, Says CoreLogic Q-4 Report, ” 2/23/2010,
www.realestatechannel.com/us-markets/residential-real-estate-1/real-estate-news-first-american-corelogic-underwater-mortgages-
negative-equity-mortgages-upside-down-home-equity-home-foreclosures-loan-defaults-2075.php, accessed 3/31/2010.



    Some question the link between negative equity and default rates. In 2009, a senior
Treasury official remarked: “Data from past cycles suggest negative equity alone is unlike-
ly to be sufficient to cause default, and though this cycle could be different, there is little
evidence suggesting a dramatic change in behavior.”113 However, others have described
negative equity as “the most important predictor of default,”114 and Treasury’s modifica-
tions to the Home Affordable Modification Program (“HAMP”) appear to acknowledge the
66            special inspector general I troubled asset relief program




                                                     dangers presented by negative equity. When borrowers have negative equity, unemploy-
                                                     ment often acts as a catalyst increasing the probability for default.115
                                                         A study published in 2008 by the Federal Reserve Bank of Boston found that, dur-
                                                     ing the downturn of housing prices in the early 1990s, negative equity had only a weak
                                                     influence on a borrower’s decision to default. The study concluded that the overwhelm-
                                                     ing majority of negative equity households will not lose their homes. More than 100,000
                                                     homeowners who had negative equity were examined, and the study found that fewer than
                                                     10% of these owners eventually lost their homes to foreclosure.116
                                                         More recent market observers believe that the current financial crisis is different
                                                     because the amount of negative equity is larger; one recent report published by First
                                                     American CoreLogic estimated that, as an owner-occupant’s negative equity approaches
                                                     25%, owners begin to default on their loans.117 It has also been widely reported that
                                                     defaults based on negative equity are becoming more widespread as the social stigma of
                                                     defaulting decreases. Recent reports have also indicated that homeowners, for the first
                                                     time, prioritize paying other debts, such as credit cards, before paying their mortgages.118
                                                         The deeper underwater the homeowner sinks, the greater the incentive to default on
                                                     the loan. It can be expected that the tipping point for defaulting is even lower for absentee
                                                     investor-owners and “house flippers.”


                                                     What Options Do Underwater Homeowners Have?
                                                     Every situation in which a homeowner is underwater on his or her mortgage is likely to
     Recourse Loan: A loan in which the bor-
                                                     be different. An underwater borrower’s best course of action will require a cost-benefit
     rower is legally liable to repay a debt
     even if the asset mortgaged cannot be           analysis, one that balances personal factors against financial factors. The following are
     liquidated to cover the loan balance.           illustrative.
     In a default, a recourse loan gives the
     lender the right to seize and sell the
                                                     Financial Factors:
     mortgaged asset, in addition to other
     assets or property of the borrower, up          •	 How far underwater is the property?
     to the value of the loan.                       •	 Can the borrower meet current payments successfully?
                                                     •	 How painful are the financial and non-financial costs, such as an impact on the bor-
     Non-recourse Loan: A secured loan
                                                         rower’s credit rating?
     whereby the borrower is relieved of the
                                                     •	 What levels of assistance are available from the Government, lender, family, or others?
     obligation to repay the loan upon sur-
     render of the collateral.                       •	 Is the mortgage loan recourse or non-recourse?
                                                                                        quarterly report to congress I aPRIL 20, 2010           67




Personal Factors:
•	 How strongly does the borrower feel a moral obligation to pay back the loan?
•	 How much attachment does the owner have to the house?
•	 How attractive are alternative housing options?


Some statistics illustrate these concepts:
•	 The average mortgage in the U.S. is about $200,000.119
•	 The average negative equity share for underwater properties in the U.S. during the
   fourth quarter of 2009 was 23.8%.120 This will present an approximate $47,600 gross
   negative equity position.
•	 Although there is a connection between being underwater and subsequently fall-
   ing delinquent on a mortgage, most underwater homeowners are current on their
   mortgages.


Option #1: Wait It Out
Underwater borrowers frequently focus on the magnitude of their theoretical losses. A
23.8% difference between value and mortgage principal can seem daunting. But it may
not be so daunting when compared with the costs of taking other actions, including the
costs of moving, the impairment of the borrower’s credit rating after defaulting on a
mortgage, and the possibility of being legally pursued by the lender if the mortgage loan
provides recourse to the borrower’s other assets.


Option #2: Seek Offsetting Revenue or Value
A classic tactic to meet a financial shortfall is to bring in more revenue. For example, the
borrower may rent out a room in the house.

Option #3: Obtain a Loan Modification                                                                 Loan Modification: Involves making
                                                                                                      a permanent change in one or more
The lender may be willing to rewrite the terms of the original mortgage loan to address the
                                                                                                      terms of the existing loan, such as the
homeowner’s current financial situation, such as through TARP’s HAMP. A borrower’s credit             interest rate, the term, or converting
rating may be harmed, however, from a mortgage modification.                                          from an adjustable-rate mortgage to a
   Changes to the loan may include reducing the interest rate, extending the number                   fixed-rate mortgage.

of years to repay the loan, and forbearing or reducing the amount of the loan.121 Recent
changes to HAMP, as well as new state and local programs financed through the “HFA
Hardest-Hit Fund,” will require that lenders consider alternative modification approaches
68             special inspector general I troubled asset relief program




                                                      that will emphasize principal write-downs for underwater homeowners. Treasury will
                                                      also be offering incentives to lenders to write down second liens in the HAMP Second
                                                      Lien Modification Program.122 Private lenders may also consider principal write-downs
                                                      outside Government programs, such as Bank of America’s recent announcement that it
                                                      will write down a total of $3 billion of principal for certain qualifying mortgages in its own
                                                      portfolio.123


                                                      Option #4: Refinance
     Refinancing: Paying off an existing
     mortgage and replacing it with a new             Home refinancing involves paying off the existing mortgage of a home and replacing it with
     mortgage. Typically, the proceeds from           a new mortgage.124 Refinancing a loan may be difficult if a home is underwater,125 although
     the new loan are used to pay off the             the Government’s Home Affordable Refinance Program (“HARP”) will permit certain bor-
     debt of the old loan.
                                                      rowers to refinance to up to 125% of the value of the loan. In addition, recently announced
                                                      Federal Housing Administration (“FHA”) program adjustments supported by TARP will
                                                      support refinancing for underwater homeowners if certain criteria are met. Under this
                                                      program, which is expected to be available to underwater homeowners by fall 2010,126
                                                      lenders may voluntarily write down the principal of the original first mortgage on the
                                                      underwater home by at least 10%. Lenders will also be provided with incentives to write
     For more information about loan modifi-
     cations, refinancing, and principal write-       down the principal balance owed on second liens so that both the first and second lien on
     down options available to homeowners,            the underwater property total no more than 115% of the current value of the home.127 In
     see “MHA Update” and “Federal Housing            order to qualify, homeowners must be current on their existing mortgage, must occupy
     Administration (“FHA”) Refinance
     Program – TARP Interaction” in this              the home as the principal residence, and must have a qualifying credit score.128
     section.                                             Reasons to consider refinancing are as follows:
                                                      •	 lowering the interest rate (refinancing can result in a lower interest rate and a lower
                                                         monthly payment)129
                                                      •	 adjusting the terms of the mortgage130
                                                      •	 switching from an adjustable-rate mortgage (“ARM”) to a fixed-rate mortgage131
                                                      •	 securing an ARM with better terms132
     Private Mortgage Insurance (“PMI”):
     Mortgage insurance provided by
     non-Government insurers to protect               Option #5: Make a Partial Payment
     a lender against losses if a borrower            If the homeowner’s mortgage is insured by private mortgage insurance (“PMI”), the insurer
     defaults. Lenders may require borrow-
                                                      may provide a one-time, interest-free loan to bring the delinquent account up to date. The
     ers to purchase this if the loan-to-value
     ratio of the loan is 80% or higher.
                                                      interest-free loan becomes due and payable when the homeowner is able to refinance, pay
                                                      off the mortgage, or sell the property.133
                                                                                          quarterly report to congress I aPRIL 20, 2010            69




Option #6: Offer a Short Sale
If the property cannot be sold for the full amount of the outstanding loan balance, the
homeowner may be able to work with the lender so that the lender will accept, as full
payment of the loan, whatever the home actually sells for, even if it is less than what is
                                                                                                        Short Sale: A sale of a home, typically
owed on the property. Such an arrangement is known as a “short sale,” or “pre-foreclosure
                                                                                                        less than mortgage value, by which the
sale.”134 In a short sale, the bank agrees to release the borrower from owing the difference            borrower sells the home and the lender
between what the home sells for and the outstanding amount of the mortgage (an amount                   collects the sales proceeds as satisfac-
typically termed a “deficiency payment”).                                                               tion for the unpaid mortgage balance,
                                                                                                        thus avoiding foreclosure (which is the
   Although the lender must write off the resulting loss, the lender avoids the costs and
                                                                                                        legal process by which the lender as-
complications associated with foreclosure. A borrower’s credit rating will typically suffer             sumes ownership of the home).
from a short sale, and there also may be income tax consequences in such a situation135
because some states may require the homeowner to recognize as income the amount of                      Deficiency Payment: A payment made
                                                                                                        by the borrower to the lender in an
the forgiven deficiency payment.
                                                                                                        amount usually equal to the difference
   Under HAMP’s Home Affordable Foreclosure Alternatives (“HAFA”) program, Treasury                     between what the lender is able to sell
provides incentives to qualifying borrowers who complete a short sale.                                  the home for in a foreclosure sale and
                                                                                                        what was owed by the borrower on the
Option #7: Offer a Deed-In-Lieu of Foreclosure                                                          loan.

In this approach, the borrower offers the lender the deed to the house in exchange for
                                                                                                        Deed-in-Lieu of Foreclosure: Instead of
release from all or a portion of any difference between the loan amount and the collateral              going through the process of foreclo-
value.                                                                                                  sure, the borrower surrenders the deed
    Similar to a short sale, this approach enables the lender to avoid the time and expense             to the home voluntarily to the lender,
of pursuing a legal case for months or even years. If agreed to, the borrower generally is              often as satisfaction of the unpaid
                                                                                                        mortgage balance.
required to move out of the house, although it might be possible to stay in the house as a
renter. Similar to short sales, there are incentives in HAFA to facilitate these transactions.
    There may also be income tax consequences in such a situation136 similar to those in
a short sale. Although this option does not save the homeowner’s home, it is typically less
damaging to the homeowner’s credit rating than a bankruptcy or a foreclosure.137
70            special inspector general I troubled asset relief program




                                                     Option #8: Pursue Leaseback
                                                     In a leaseback, the borrower transfers the deed to the house to the lender, who then im-
                                                     mediately leases the house back to the original borrower/occupant. Both Fannie Mae and
                                                     Freddie Mac have implemented such programs, which are available to certain borrowers
                                                     whose houses have been foreclosed upon and whose loans were owned by Fannie Mae or
                                                     Freddie Mac.138


                                                     Option #9: Declare Bankruptcy

     Deficiency Judgment: A court order              Filing for bankruptcy potentially provides the underwater homeowner with the option of
     that authorizes a lender of a recourse          surrendering the home and walking away from the debt without a resulting deficiency judg-
     loan to collect part of an outstanding          ment and without incurring any tax consequences.139 A bankruptcy will, however, have a
     debt resulting from the foreclosure
                                                     severe impact on the borrower’s credit report.140
     and sale of a homeowner’s property or
                                                         According to U.S. Bankruptcy Law, “a bankruptcy discharge releases the debtor from
     from the repossession of a property
     securing a debt. A deficiency judgment          personal liability for certain specified types of debts. In effect, the debtor is no longer
     will take place after the foreclosed or         legally required to pay any debts that are discharged.”141 The discharge is a permanent
     repossessed property is sold and the            order prohibiting the creditors of the debtor from taking any form of collection action on
     proceeds collected are insufficient to
                                                     discharged debts, including legal action and communications with the debtor, such as
     pay the mortgage in full.
                                                     telephone calls, letters, and personal contacts. Secured debts, such as debt secured by
                                                     collateral or real property (a home mortgage), are generally not extinguished in a bank-
                                                     ruptcy filing.142 Depending on the type of bankruptcy the homeowner files, the debtors’
                                                     personal liability may be discharged; however, the lender can still repossess the property
                                                     because the bankruptcy discharge does not release the lien on the property.143
                                                         According to the Internal Revenue Service, in the case of a discharged mortgage debt,
                                                     the Mortgage Forgiveness Debt Relief Act of 2007, enacted on December 20, 2007,
                                                     allows taxpayers to exclude, for Federal tax purposes, income realized as a result of the
     For more information about bankruptcy, see      discharge of a debt resulting from the modification of the terms of the mortgage, or fore-
     SIGTARP’s July 2009 Quarterly Report to         closure on a homeowner’s principal residence.144 This relief is effective for calendar years
     Congress, “TARP Tutorial: Bankruptcy,”
                                                     2007 through 2012.145
     page 97.
                                                                                           quarterly report to congress I aPRIL 20, 2010   71




Option #10: Default
The last option for underwater homeowners is to stop making the mortgage payments
— defaulting. If no other option is available, this will typically lead to a foreclosure on the
home. In cases of negative equity, some borrowers may choose to default “strategically”
as they decide that it makes more economic sense for them to walk away from their
mortgages. Renting at a lower price may be a more economically rational decision than
continuing to make payments on a severely underwater home.
    Typically, in a foreclosure, the bank will seize the property, the homeowner will be
evicted, and the home will be sold at auction. In a foreclosure, the period between when a
homeowner stops making payments until such time as he or she is evicted can last up to
two years.146 During this period, the homeowner essentially can remain in the home rent-
free.147 Foreclosure may result in a deficiency judgment against the homeowner.148
    After a foreclosure, the homeowner’s credit will be impaired for 5 to 10 years. As with
short sales, if a deficiency judgment is not pursued, the forgiven debt may be considered
income to the homeowner in certain states and therefore reported as taxable income.149

Options Available to Underwater Commercial Property Owners
The credit crisis is also affecting the commercial property market. According to a report
published on February 10, 2010, by the Congressional Oversight Panel (“COP”), more than
half a trillion dollars’ worth of commercial real estate loans set to come due between now
and 2014 are considered underwater. Commercial property values have fallen more than
40% since the beginning of 2007; vacancy rates have increased about 8% for multifamily
housing and 18% for commercial office space.150 Rents have also declined 40% for office
space and 33% for retail space.151 These conditions are leading to an increase in commer-
cial mortgage delinquencies.
    Figure 2.8 published by the Mortgage Bankers Association illustrates delinquency
rates on the various categories of commercial mortgage-backed investor groups from
the first quarter of 1996 through the fourth quarter of 2009. The chart demonstrates that
72             special inspector general I troubled asset relief program




                                                      Figure 2.8

                                                      COMMERCIAL/MULTIFAMILY MORTGAGE DELIQUENCY RATES AMONG MAJOR
                                                      INVESTOR GROUPS

                                                      6.0%

                                                      5.0%

                                                      4.0%

                                                      3.0%


                                                      2.0%

                                                      1.0%

                                                      0
                                                            Q1       Q4       Q1       Q1       Q1       Q1       Q1       Q1       Q1       Q1        Q1       Q1       Q1       Q1
                                                            1996     1997     1998     1999     2000     2001     2002     2003     2004     2005      2006     2007     2008     2009

                                                                     CMBS (30+ days and REO)                     Freddie Mac (60+/90+ days)
                                                                     Life Companies (60+ days)                   Banks and Thrifts (90+ days)
                                                                     Fannie Mae* (60+ days)

                                                      Notes: Selected delinquency rates at the end of the period. Delinquency rates shown are not comparable between investor groups.
                                                      These rates show how performance of loans for each investor groups has varied over time, but cannot be used to compare one
                                                      investor group to another.

                                                      Source: Q4 2009, MBA Commercial/Multifamily, Mortgage Delinquency Rates for Major Investor Groups,
                                                      www.mortgagebankers.org/files/Research/CommercialNDR/4Q09CommercialNDR.pdf, accessed 3/12/2010. Chart taken
                                                      verbatim from Mortgage Banker’s Association.



                                                      delinquency rates among commercial mortgage-backed securities (“CMBS”) loan portfo-
                                                      lios and loan portfolios held by Federal Deposit Insurance Corporation-insured banks and
     Commercial Mortgage-Backed Securi-               thrifts are at their highest levels since the beginning of the report.152 These delinquencies
     ties (“CMBS”): A type of bond backed
                                                      appear to be on an upward trend.
     by one or more mortgages on commer-
                                                           Data published in RealPoint Research’s March 2010 “Monthly Delinquency Report”
     cial real estate (e.g., office buildings,
     rental apartments, hotels) rather than           forecasts CMBS delinquencies to grow to between 8% and 9% by mid-2010. According to
     by residential real estate loans.                the report, delinquency rates on CMBS could grow as high as 11% to 12% by the end of
                                                      2010.


                                                      What Happens to Underwater Commercial Properties?
                                                      Many of the options available to underwater commercial property owners are similar to the
                                                      traditional options available to underwater residential property owners discussed above,
                                                      other than relief through TARP or HARP. As set forth in COP’s report, the typical options for
                                                      resolving defaulting or non-performing commercial loans are as follows:153
                                                                                          quarterly report to congress I aPRIL 20, 2010            73




•	   The lender or servicer proceeds with foreclosure on the property.
•	   The lender and owner participate in a “workout” arrangement in which the principal
     balance or interest rate, or both, are reduced.
•	   The lender can agree to modify the terms of the loan so that it can be repaid over a
     longer period of time on the same terms.


     Lenders proceeding to foreclose on a property in default may use alternatives to
“hostile foreclosure,” such as accepting a deed-in-lieu of foreclosure, agreeing with the
property owner to a “friendly foreclosure” (in which the owner does not fight the foreclo-
sure process), or a short sale.154
     Resolving underwater commercial properties may differ slightly from resolving under-
water residential mortgages in three ways:
•	   An underwater commercial property owner who declares bankruptcy may temporar-
     ily forestall the foreclosure process. In such a bankruptcy, unlike in residential real
     estate, the bankruptcy court may order a write-down of the loan balance.155
•	   Commercial mortgages typically are non-recourse,156 so that there are fewer
     repercussions for borrowers if they default because they will not be liable for the
     unrecovered amounts of the loan.157 Also, commercial real estate is typically owned
     by corporate entities created for the sole purpose of holding the subject property,                Write-down: A reduction in the principal
     insulating the shareholders from the effects of a default.158                                      balance of a loan. Write-downs may
                                                                                                        reduce the incentive for a borrower
•	   In contrast to residential mortgage foreclosures, in which foreclosed properties
                                                                                                        to default because the new principal
     often sit vacant for many months, in a commercial property foreclosure, the lender                 balance usually is lower than what the
     can more readliy arrange for a new borrower to step in and purchase the foreclosed                 property would sell for.
     property.159


     Historically, commercial property owners are more likely to walk away from underwa-
ter properties than are residential homeowners, in part because it is strictly a business
decision that may have few consequences to the borrower.159
74                special inspector general I troubled asset relief program




                                                              Financial Institution Support Programs
                                                              Treasury created five TARP programs in which it made capital investments or
                                                              asset guarantees in exchange for equity in financial institutions. Two, the Capital
                                                              Purchase Program (“CPP”) and Capital Assistance Program (“CAP”), were open
                                                              to all qualifying financial institutions (“QFIs”). The other three, the Systemically
                                                              Significant Failing Institutions program (“SSFI”), the Targeted Investment Program
                                                              (“TIP”), and the Asset Guarantee Program (“AGP”), were available on a case-
                                                              by-case basis to institutions needing assistance beyond what is available through
                                                              CPP. Treasury does not expect to make new investments through these established
                                                              programs, although it is launching new ones to support small-business lending that
                                                              mirror CPP.160 Treasury may also alter the terms of its existing CPP investments
                                                              by converting the preferred shares that it originally received into common shares
                                                              of stock or other forms of equity to help improve the capital structure of struggling
                                                              CPP recipients.161
                                                                  As of March 31, 2010, CPP, CAP, TIP, and AGP were effectively closed to new
                                                              investment. For further information on the closing of these programs, see previous
                                                              SIGTARP Quarterly Reports.

 Figure 2.13
                                                              Capital Purchase Program
 SNAPSHOT OF CPP FUNDS                                        Treasury’s goal for CPP was to invest in healthy, viable banks as a way of promoting
 OUTSTANDING AND REPAID,                                      financial stability, maintaining confidence in the financial system, and permitting
 BY QUARTER
 $ Billions                                                   lenders to meet the nation’s credit needs.162 Through CPP, $204.9 billion of TARP
                                                              money was invested in 707 different QFIs.163
                   $198.8
 $200
                     $0.4 $203.2 $204.6 $204.9 $204.9             The Treasury Secretary announced on December 9, 2009, that TARP will wind
           $177.5 $198.4    $70.1    $70.7 $121.9 $135.8
                                                              down, saying that CPP, “through which the majority of TARP investments in banks
     150 $177.5
                                                              have been made, is effectively closed.”164 However, Treasury announced plans to
                           $133.1 $133.9
     100                                                      launch a structurally similar program to stimulate small-business lending through
                                              $83.0           capital investments in small banks.
      50                                              $69.1
                                                                  As of March 31, 2010, CPP recipients had paid approximately $8.96 billion in
       0
           Q408    Q109    Q209 Q309         Q409 Q110        dividends, $28.3 million in interest, and repurchased approximately $2.9 billion in
                                                              warrants. Additionally, Treasury received approximately $1.5 billion from the sale of
              CPP Funds Outstanding at Quarter’s End
              CPP Funds Repaid at Quarter’s End               warrants through public Treasury warrant auctions.165 For a summary of CPP funds
                                                              outstanding and associated repayments, see Figure 2.13.
 Notes: Numbers affected by rounding. Data as of 3/31/2010
 and reflected in calendar quarters.                              As of February 17, 2010, the Congressional Budget Office (“CBO”) estimates
 Source: Treasury, Transactions Report, 4/2/2010.             that CPP will generate $2 billion in gains, while the Office of Management and
                                                              Budget (“OMB”) estimates that CPP will cost $1 billion.166
                                                                                                                quarterly report to congress I aPRIL 20, 2010                                      75




 Status of Funds
 By March 31, 2010, Treasury had purchased $204.9 billion in preferred stock
 and subordinated debentures from 707 different QFIs in 48 states, the District of
 Columbia, and Puerto Rico. Figure 2.14 shows the geographical distribution of
 funded QFIs. Although the eight largest investments accounted for $134.2 billion
 of the program, CPP also had many more modest investments: 331 of 707 recipi-
 ents received $10 million or less. Table 2.16 and Table 2.17 show the distribution
 of the investments by amount.

 Table 2.16                                                                                        Table 2.17

 CPP investment summary BY TRANSACTION                                                             CPP investment size by institution
                                                    Originala                          Currentb                                                   Originala                 Outstandingb
 Total Investment                             $204.9 Billion                       $66.7 Billion   $10 Billion or More                                       6                                1
 Largest Capital Investment                       $25 Billion                        $25 Billion   $1 Billion to $10 Billion                               19                                 9
 Smallest Capital Investment                        $301,000                          $301,000     $100 Million to $1 Billion                              57                               43
 Average Capital Investment                  $277.6 Million                     $103.9 Million     Less than $100 Million                                625                              589
 Median Capital Investment                     $10.3 Million                      $10.2 Million    Total                                                 707                             642
 Notes: Numbers affected by rounding. Data as of 3/31/2010.                                        Notes: Numbers affected by rounding. Data as of 3/31/2010. Data is based on the institu-
 a
   These numbers are based on total Treasury CPP investment since 10/28/2008.                      tions’ total CPP investments. There are more than 30 institutions that have received multiple
 b
   Amount does not include those investments that have already been repaid and is based on total   transactions through CPP.
   investments outstanding.                                                                        a
                                                                                                     These numbers are based on total Treasury CPP investment since 10/28/2008.
                                                                                                   b
                                                                                                     Current amount does not include those investments that have already been repaid and is
 Source: Treasury, Transactions Report, 4/2/2010.                                                    based on total investments outstanding.
                                                                                                   Source: Treasury, Transactions Report, 4/2/2010.


 Figure 2.14

TRACKING CAPITAL PURCHASE PROGRAM INVESTMENTS ACROSS THE COUNTRY




                                                                                                               $10 Billion or More
                                                                                                               $1 Billion to $10 Billion
                                                                                                               $100 Million to $1 Billion
                                                                                                               $10 Million to $100 Million
                                                                                                               Less than $10 Million
                                                                                                               $0



                                                                                                            Note: Banks in Montana and Vermont did not receive any
                                                                                                            CPP funds.

                                                                                                            Source: Treasury, “Local Impact of the Capital Purchase
                                                                                                            Program,” 12/9/2009, www.financialstability.gov,
                                                                                                            accessed 1/7/2010.
76   special inspector general I troubled asset relief program




                                            Table 2.18

                                             cpp sHARE REPURCHASES Greater than $1 billion, AS OF 3/31/2010
                                            Repurchase Date                Institution                               Amount of Repurchase
                                            6/17/2009                      JPMorgan Chase & Co.                                     $25.0
                                            12/23/2009                     Wells Fargo & Company                                     25.0
                                            12/09/2009                     Bank of America Corporation                               25.0
                                            6/17/2009                      Morgan Stanley                                            10.0
                                            6/17/2009                      The Goldman Sachs Group, Inc.                             10.0
                                            2/10/2010                      The PNC Financial Services Group Inc.                      7.6
                                            6/17/2009                      U.S. Bancorp                                               6.6
                                            6/17/2009                      Capital One Financial Corporation                          3.6
                                            6/17/2009                      American Express Company                                   3.4
                                            3/31/2010                      Hartford Financial Services Group, Inc.                    3.4
                                            6/17/2009                      BB&T Corp.                                                 3.1
                                            6/17/2009                      The Bank of New York Mellon Corporation                    3.0
                                            3/17/2010                      Comerica Inc.                                              2.3
                                            6/17/2009                      State Street Corporation                                   2.0
                                            6/17/2009                      Northern Trust Corporation                                 1.6
                                            Total                                                                                 $131.6
                                            Notes: Numbers affected by rounding. Data as of 3/31/2010.

                                            Source: Treasury, Transactions Report, 4/2/2010.




                                            Repayment of Funds
                                            As of March 31, 2010, 74 banks had repaid CPP investments by repurchasing from
                                            Treasury some or all of their preferred shares, including seven of the eight largest
                                            CPP investments.167 Treasury received approximately $135.8 billion in principal
                                            repayments, leaving approximately $69.1 billion outstanding.168 Table 2.18 shows
                                            the amount of outstanding CPP funds, adjusting for repayments. For a full listing
                                            of CPP share repurchases, see Appendix D: “Transaction Detail.”

                                            Program Administration
                                            As previously discussed, Treasury does not anticipate investing more in QFIs
                                            or small banks under CPP. However, the program still requires administering.
                                            Ongoing responsibilities include:

                                            •	   managing the portfolio of assets acquired through the program
                                            •	   collecting dividends and interest payments on outstanding investments
                                            •	   disposing of warrants as CPP investments are repaid
                                            •	   overseeing the program’s wind-down
                                            •	   restructuring the investments for certain troubled financial institutions
                                                                               quarterly report to congress I aPRIL 20, 2010        77




Dividends and Interest
As of March 31, 2010, Treasury collected $8.98 billion in both dividends and inter-
est from its CPP investments.169 Meanwhile, 104 QFIs missed scheduled dividend
                                                                                             Non-cumulative Dividends: Dividends
payments to Treasury totaling $188.98 million.170 Approximately $5.2 million of
                                                                                             that do not accrue when a company
the $188.98 million in missed CPP dividend payments are non-cumulative, and
                                                                                             does not make a dividend payment.
Treasury has no legal right to missed dividends that are non-cumulative. Of the 104
QFIs missing the deadline, 17 have since paid their outstanding dividends. One
has not paid the Government any dividends over the last five quarters.171 If a QFI
misses six quarterly payments, Treasury has the right to appoint two members of              For more information on CPP repayment,
the institution’s board of directors.172 As of March 31, 2010, only five quarters had        see SIGTARP’s July 2009 Quarterly Report,
passed; thus, no such appointments have occurred.                                            page 48.
    Table 2.19 lists banks missing one or more payment as of March 31, 2010. For
a complete listing of CPP recipients and institutions making dividend or interest
payments, see Appendix D: “Transaction Detail.”



Table 2.19

 CPP-ReLATED MISSED DIVIDEND PAYMENTS, AS OF 3/31/2010
                                                                              Number of                        Value of
                                                                              Missed Dividend         Missed Dividends
Institution                                               Dividend Type       Payments                   ($ Thousands)
Alliance Financial Services Inc.                          Cumulative                1                           $251.7
Anchor BanCorp Wisconsin, Inc.                            Cumulative                4                           5,729.2
Beach Business Bank                                       Non-Cumulative            2                             163.5
Bern Bancshares, Inc.*                                    Cumulative                1                              13.4
Blue Valley Ban Corp                                      Cumulative                4                           1,087.5
BNCCORP, Inc.                                             Cumulative                1                             273.8
Cascade Financial Corporation                             Cumulative                2                             974.3
Cecil Bancorp, Inc.                                       Cumulative                1                             144.5
Central Pacific Financial Corp.                           Cumulative                3                           5,062.5
Central Virginia Bankshares, Inc.                         Cumulative                1                             142.3
Centrue Financial Corporation                             Cumulative                3                           1,225.1
CIT Group Inc.                                            Cumulative                2                          58,250.0
Citizens Bancorp                                          Cumulative                3                             425.1
Citizens Bancshares Co.                                   Cumulative                1                             340.5
Citizens Bank & Trust Company                             Non-Cumulative            3                              98.1
Citizens Commerce Bancshares, Inc.                        Cumulative                2                             171.7
Citizens Republic Bancorp, Inc.                           Cumulative                1                           3,750.0
City National Bancshares Corporation                      Cumulative                1                             117.9
                                                                                                  Continued on next page
78             special inspector general I troubled asset relief program




      CPP-ReLATED MISSED DIVIDEND PAYMENTS, AS OF 3/31/2010
                                                                                            Number of                      Value of
                                                                                            Missed Dividend       Missed Dividends
     Institution                                                           Dividend Type    Payments                 ($ Thousands)
     Commerce National Bank                                                Non-Cumulative        3                            150.0
     Commonwealth Business Bank                                            Non-Cumulative        4                            419.7
     Community Bank of the Bay                                             Non-Cumulative        4                             72.5
     Community First Bank                                                  Non-Cumulative        2                             45.9
     Congaree Bancshares, Inc.**                                           Cumulative            2                             89.5
     Corning Savings and Loan Association*                                 Non-Cumulative        1                              8.6
     DeSoto County Bank*                                                   Non-Cumulative        1                             25.6
     Dickinson Financial Corporation II                                    Cumulative            3                          5,969.9
     Duke Financial Group, Inc. (Peoples Bank of Commerce)                 Cumulative            1                            251.7
     Exchange Bank                                                         Non-Cumulative        1                            585.9
     Farmers & Merchants Bancshares, Inc.*                                 Cumulative            1                            149.9
     FC Holdings, Inc. (First Community Bank, National Association)        Cumulative            2                            573.4
     Fidelity Federal Bancorp                                              Cumulative            1                             89.7
     First BanCorp                                                         Cumulative            2                         15,000.0
     First Banks, Inc.                                                     Cumulative            3                         12,074.5
     First Federal Bancshares of Arkansas, Inc.                            Cumulative            1                            206.3
     First Security Group, Inc.                                            Cumulative            1                            412.5
     First Sound Bank                                                      Non-Cumulative        1                             92.5
     First Southwest Bancorporation, Inc.                                  Cumulative            1                             74.9
     FPB Bancorp, Inc.                                                     Cumulative            1                             72.5
     Fresno First Bank                                                     Non-Cumulative        2                             33.4
     Georgia Primary Bank                                                  Non-Cumulative        3                            193.5
     Goldwater Bank, N.A.*                                                 Non-Cumulative        1                             70.0
     Grand Mountain Bancshares, Inc.                                       Cumulative            3                            119.2
     Green Circle Investments, Inc. / Peoples Trust & Savings Bank*        Cumulative            1                             32.7
     Hampton Roads Bankshares, Inc.                                        Cumulative            2                          2,008.7
     Harbor Bankshares Corporation                                         Cumulative            1                             85.0
     Heartland Bancshares, Inc.                                            Cumulative            1                             93.1
     Heritage Commerce Corp.                                               Cumulative            2                          1,000.0
     IA Bancorp, Inc / Indus American Bank*                                Cumulative            1                             49.9
     Idaho Bancorp                                                         Cumulative            3                            282.0
     Independent Bank Corporation                                          Cumulative            2                          1,800.0
     Integra Bank Corporation                                              Cumulative            2                          2,089.7
     Intermountain Community Bancorp/Panhandle State Bank                  Cumulative            1                            337.5
     Intervest Bancshares Corporation                                      Cumulative            1                            312.5
     Investors Financial Corporation of Pettis County, Inc. (Excel Bank)   Cumulative            1                             83.9
                                                                                                              Continued on next page
                                                                          quarterly report to congress I aPRIL 20, 2010              79




 CPP-ReLATED MISSED DIVIDEND PAYMENTS, AS OF 3/31/2010
                                                                                      Number of                        Value of
                                                                                      Missed Dividend         Missed Dividends
Institution                                                      Dividend Type        Payments                   ($ Thousands)
Lone Star Bank                                                   Non-Cumulative              4                              171.6
Maryland Financial Bank                                          Non-Cumulative              2                                46.3
Midtown Bank & Trust Company*                                    Non-Cumulative              1                                71.1
Midwest Banc Holdings, Inc.                                      Cumulative                  4                             4,239.2
Millennium Bancorp, Inc.*                                        Cumulative                  1                                98.9
Monarch Community Bancorp, Inc.                                  Cumulative                  1                                84.8
Northeast Bancorp*                                               Cumulative                  1                                52.8
Northern States Financial Corporation / Norstates Bank           Cumulative                  2                              430.3
Omega Capital Corp./ Front Range Bank                            Cumulative                  2                                76.7
One Georgia Bank                                                 Non-Cumulative              3                              230.6
One United Bank                                                  Non-Cumulative              4                              603.2
OSB Financial Services, Inc.                                     Cumulative                  2                              255.9
Pacific Capital Bancorp                                          Cumulative                  4                             9,031.7
Pacific City Financial Corporation/ Pacific City Bank            Cumulative                  3                              662.2
Pacific Coast National Bancorp                                   Cumulative                  4                              224.5
Pacific Commerce Bank**                                          Non-Cumulative              2                                87.3
Pacific International Bancorp Inc                                Cumulative                  3                              243.8
Pathway Bancorp                                                  Cumulative                  2                              101.5
Patterson Bancshares, Inc                                        Cumulative                  3                              150.9
Peninsula Bank Holding Co.                                       Cumulative                  4                              312.5
Pierce County Bancorp                                            Cumulative                  2                              185.3
Popular, Inc.                                                    Cumulative                  1                            11,687.5
PremierWest Bancorp                                              Cumulative                  2                             1,035.0
Premier Service Bank                                             Non-Cumulative              4                              215.0
Presidio Bank                                                    Non-Cumulative              1                              134.4
Redwood Capital Bancorp*                                         Cumulative                  1                                51.8
Regent Bancorp, Inc*                                             Cumulative                  1                              136.0
Ridgestone Financial Services, Inc. / Ridgestone Bank            Cumulative                  2                              297.0
Rising Sun Bancorp                                               Cumulative                  2                              163.0
Rogers Bancshares, Inc.                                          Cumulative                  2                              681.3
Royal Bancshares of Pennsylvania, Inc.                           Cumulative                  3                             1,140.3
Saigon National Bank                                             Non-Cumulative              5                                96.6
Seacoast Banking Corporation of Florida/Seacoast National Bank   Cumulative                  4                             2,500.0
Seacoast Commerce*                                               Non-Cumulative              1                                14.2
Security State Bank Holding-Company (Bank Forward)               Cumulative                  1                              225.5
Sonoma Valley Bancorp                                            Cumulative                  1                              118.0
                                                                                                          Continued on next page
80             special inspector general I troubled asset relief program




                    CPP-ReLATED MISSED DIVIDEND PAYMENTS, AS OF 3/31/2010
                                                                                                                                              Number of                                   Value of
                                                                                                                                              Missed Dividend                    Missed Dividends
                   Institution                                                                                Dividend Type                   Payments                              ($ Thousands)
                   South Financial Group, Inc./ Carolina First Bank                                           Cumulative                               1                                       4,337.5
                   Sterling Financial Corporation/Sterling Savings Bank                                       Cumulative                               3                                     11,362.5
                   Syringa Bancorp                                                                            Cumulative                               2                                         218.0
                   Tennessee Valley Financial Holdings, Inc.                                                  Cumulative                               1                                           40.9
                   The Bank of Currituck                                                                      Non-Cumulative                           1                                           54.8
                   The Connecticut Bank and Trust Company                                                     Non-Cumulative                           3                                         178.6
                   The Freeport State Bank                                                                    Non-Cumulative                           2                                             8.2
                   TIB Financial Corp/TIB Bank                                                                Cumulative                               2                                         925.0
                   Tri-State Bank of Memphis*                                                                 Non-Cumulative                           1                                           69.8
                   TriState Capital Holdings, Inc.*                                                           Cumulative                               1                                         313.4
                   UCBH Holdings, Inc.                                                                        Cumulative                               3                                     11,202.6
                   United American Bank                                                                       Non-Cumulative                           4                                         467.6
                   U.S. Century Bank                                                                          Non-Cumulative                           1                                         684.5
                   US Metro Bank*                                                                             Non-Cumulative                           2                                           81.9
                   Total                                                                                                                                                                   $188,980
                   Notes: Numbers affected by rounding. Approximately $5.2 million of the $188.98 million in missed CPP dividend payments are non-cumulative and Treasury has no legal right to missed
                   dividends that are non-cumulative.
                   *CPP recipients that have since fully paid missed dividends.
                   **CPP recipients that have partially paid missed dividends.

                   Source: Treasury, response to SIGTARP data call, 4/6/2010.




                                                                    Warrant Disposition
     Warrant: The right, but not the obliga-                        EESA mandates that Treasury receive warrants when it invests in troubled assets,
     tion, to purchase a certain number of                          with exceptions for certain small institutions. Warrants give Treasury the right to
     shares of common stock at a fixed                              purchase, at a predetermined price, shares of common stock for publicly traded in-
     price. Because warrants rise in value                          stitutions or preferred stock or debt for private institutions.173 CPP warrants expire
     as the company’s share price rises,
                                                                    10 years from the date of the CPP investment. As of March 31, 2010, Treasury had
     they permit Treasury (and the tax-
                                                                    not exercised its right under the warrants to purchase common shares in any of the
     payer) to benefit from a firm’s potential
                                                                    program’s publicly traded institutions.174 For private institutions, warrants are im-
     recovery.
                                                                    mediately exercised upon closing of the initial investment.175

                                                                    Repurchase of Warrants by Financial Institutions
                                                                    QFIs that repaid their CPP investments have the option of buying back their war-
                                                                    rants. As of March 31, 2010, 34 public institutions bought back warrants for a total
                                                                    of $2.92 billion, and 6 private institutions, the warrants of which were immediately
                                                                                                                               quarterly report to congress I aPRIL 20, 2010          81




Table 2.20

 tOP 10 CPP WARRANT REPURCHASES (PUBLIC), AS OF 3/31/2010
                                                                                             Number of                  Amount of
Repurchase                                                                                    Warrants                Repurchase
Date                 Institution                                                           Repurchased                 ($ Millions)
7/22/2009            The Goldman Sachs Group, Inc.                                            12,205,045                  $1,100.0
8/12/2009            Morgan Stanley                                                           65,245,759                       950.0
7/29/2009            American Express Company                                                 24,264,129                       340.0
7/15/2009            U.S. Bancorp                                                             32,679,102                       139.0
8/05/2009            The Bank of New York Mellon Corporation                                  14,516,129                       136.0
8/26/2009            Northern Trust Corporation                                                 3,824,624                        87.0
7/22/2009            BB&T Corp.                                                               13,902,573                         67.0
7/08/2009            State Street Corporationa                                                  2,788,104                        60.0
12/30/2009           Trustmark Corporation                                                      1,647,931                        10.0
5/27/2009            FirstMerit Corporation                                                        952,260                         5.0
Total                                                                                      172,025,656                   $2,894.0
Notes: Numbers affected by rounding. This table represents warrants for common stock issued to Treasury by publicly traded TARP
recipients.
a
  State Street Corporation reduced its original amount of warrants issued through a qualified equity offering.

Source: Treasury, Transactions Report, 4/2/2010.


Table 2.21

 CPP REPURCHASES of preferred shares resulting from immediate
 exercise of warrants (private), AS OF 3/31/2010
                                                                                            Number of                  Amount of
Repurchase                                                                                   Warrants                Repurchase
Date                Institution                                                           Repurchased              ($ Thousands)
4/15/2009           Centra Financial Holdings, Inc.                                                     750                   $750.0
                                                                                                                                             Qualified Equity Offering: A cash sale
                                                                                                                                             in an amount at least equal to Trea-
4/22/2009           First ULB Corp.                                                                     245                    245.0
                                                                                                                                             sury’s original investment of common
5/27/2009           First Manitowoc Bancorp, Inc.                                                       600                    600.0
                                                                                                                                             stock or certain types of preferred
11/10/2009          Midwest Regional Bancorp, Inc.                                                        35                     35.0
                                                                                                                                             stock that qualify as Tier 1 capital.
11/18/2009          1st United Bancorp, Inc.                                                            500                    500.0
12/23/2009          Midland States Bancorp, Inc.                                                        509                    509.0
Total                                                                                               2,639                 $2,639.0
Notes: Numbers affected by rounding. This table represents the preferred shares held by Treasury as a result of the exercise of warrants
issued by non-publicly traded TARP recipients. These warrants were exercised immediately upon the transaction date.

Source: Treasury, Transactions Report, 4/2/2010.




exercised as additional preferred share purchases, bought back those shares for a
total of $2.6 million.176 Table 2.20 lists public institutions that paid back TARP and
repurchased warrants. Table 2.21 lists private institutions that had done so as of
                                                                                                                                                 For more information on CPP warrant
March 31, 2010.177
                                                                                                                                                 disposition, see SIGTARP’s January 2010
    December 31, 2009, marked the last day under CPP when an institution could                                                                   Quarterly Report, page 58.
cancel as many as half its outstanding warrants through a qualified equity offer-
ing that repaid the TARP funds. Table 2.22 lists 38 institutions that successfully
completed the qualified equity offering. For a full listing of all warrant repurchases,
see Appendix D: “Transaction Detail.”
82                special inspector general I troubled asset relief program




     Table 2.22

      CPP-ReLATED Qualified equity offerings, AS OF 3/31/2010
                                                                                                  Investment                       Investment              Warrant
                                                                            Investment                    Size       Repurchase   Outstanding              Exercise     Adjusted Number
     Institution                                                                  Date            ($ Millions)             Date    ($ Millions)               Price    of Warrant Shares
     State Street                                                          10/28/2008                      2000       6/17/2009                —            Warrants Repurchased
     East West Bancorp                                                       12/5/2008                    306.5             N/A            306.5             15.15             1,517,555
     PrivateBancorp, Inc.                                                    1/30/2009                    243.8             N/A            243.8             28.35                 645,013
     SVB Financial Group                                                   12/12/2008                        235     12/23/2009                —             49.78                 354,058
     Umpqua Holdings Corp.                                                 11/14/2008                     214.2       2/17/2010                —             14.46             1,110,898
     MB Financial Inc.                                                       12/5/2008                       196            N/A              196             29.05                 506,024
     First Niagara Financial Group                                         11/21/2008                        184      5/27/2009                —            Warrants Repurchased
     United Community Banks, Inc.                                            12/5/2008                       180            N/A              180             12.28             1,099,542
     National Penn Bancshares, Inc.                                        12/12/2008                        150            N/A              150              15.3                 735,294
     Western Alliance Bancorporation                                       11/21/2008                        140            N/A              140             13.34                 787,107
     CVB Financial Corp                                                      12/5/2008                       130       9/2/2009                —            Warrants Repurchased
     F.N.B. Corporation                                                        1/9/2009                      100       9/9/2009                —             11.52                 651,042
     First Busey Corporation                                                   3/6/2009                      100            N/A              100             13.07                 573,833
     Pinnacle Financial Partners, Inc.                                     12/12/2008                          95           N/A                95            26.64                 267,455
     Iberiabank Corporation                                                  12/5/2008                         90     3/31/2009                —            Warrants Repurchased
     First Financial Bancorp                                               12/23/2008                          80     2/24/2010                  0            12.9                 465,117
     Columbia Banking System Inc.                                          11/21/2008                       76.9            N/A             76.9             14.49                 398,023
     Flushing Financial Corporation                                        12/19/2008                          70    10/28/2009                —            Warrants Repurchased
     Nara Bancorp, Inc.                                                    11/21/2008                          67           N/A                67             9.64                 521,266
     First Financial Holdings Inc.                                           12/5/2008                         65           N/A                65            20.17                 241,696
     Union Bankshares Corporation                                          12/19/2008                          59    11/18/2009                —            Warrants Repurchased
     Lakeland Financial Corporation                                          2/27/2009                         56           N/A                56             21.2                 198,269
     Center Financial Corporation                                          12/12/2008                          55           N/A                55             9.54                 432,390
     Home Bancshares, Inc.                                                   1/16/2009                         50           N/A                50            26.03                 144,065
     Seacoast Banking Corporation of Florida                               12/19/2008                          50           N/A                50             6.36                 589,623
     The Bancorp, Inc.                                                     12/12/2008                       45.2      3/10/2010                —              3.46                 980,203
     First Community Bancshares Inc.                                       11/21/2008                       41.5       7/8/2009                —             35.26                  88,273
     OceanFirst Financial Corp.                                              1/16/2009                      38.3     12/30/2009                —            Warrants Repurchased
     Eagle Bancorp, Inc.*                                                    12/5/2008                      38.2     12/23/2009             23.2              7.44                 385,434
     Centerstate Banks of Florida Inc.                                     11/21/2008                       27.9      9/30/2009                —            Warrants Repurchased
     Washington Banking Company                                              1/16/2009                      26.4            N/A             26.4              8.04                 246,082
     Heritage Financial Corporation                                        11/21/2008                          24           N/A                24            13.04                 138,037
     Middleburg Financial Corporation                                        1/30/2009                         22    12/23/2009                —             15.85                 104,101
     MidSouth Bancorp, Inc.                                                    1/9/2009                        20           N/A                —             14.37                 104,384
     Bar Harbor Bankshares**                                                 1/16/2009                      18.8      2/24/2010                —             26.81                  52,455
     Monarch Financial Holdings, Inc.                                      12/19/2008                       14.7     12/23/2009                —            Warrants Repurchased
     Center Bancorp, Inc.                                                      1/9/2009                        10           N/A                10             8.65                  86,705
     Central Valley Community Bancorp                                        1/30/2009                           7          N/A                  7            6.64                  79,067
     Total                                                                                             5,327.4                                                                      280.1
     Notes: Numbers affected by rounding.
     *Eagle Bancorp has partially redeemed the CPP preferred.
     ** Bar Harbor has not yet provided an official notice of its qualified equity offering for Treasury approval.

     Source: Treasury, Warrant Disposition Report, 1/20/2010, Treasury, Respone to SIGTARP data call, 4/8/2010, Treasury, Transactions Report, 4/2/2010.
                                                                                                                 quarterly report to congress I aPRIL 20, 2010                            83




Treasury Warrant Auctions
When a CPP recipient decides not to buy back its warrants directly from Treasury
or cannot reach agreement on a repurchase price, Treasury holds a modified Dutch                                                   Dutch Auction: For Treasury’s warrant
auction to sell the warrants publicly. Potential investors submit bids to the auc-                                                 auctions (buyers bid for different quanti-
tion agent (Deutsche Bank) at specified increments above a minimum price. Once                                                     ties at once) the accepted price is set
Deutsche Bank receives all bids, it determines the final price and distributes the                                                 at the lowest bid of the group of high
warrants to the winning bidders.                                                                                                   bidders whose collective bids fulfill the
    As of March 31, 2010, Treasury had successfully auctioned all its warrants                                                     amount offered by Treasury.
in Bank of America, Washington Federal, Inc., Signature Bank, Texas Capital
                                                                                                                                   Auction Agent: A firm (such as an
Bancshares, Inc., Capital One, JP Morgan Chase, and TCF Financial after each
                                                                                                                                   investment bank) that buys a series of
opted not to buy back its warrants directly after repaying TARP.178 Since January 1,
                                                                                                                                   securities from one institution for resale
2010, Treasury has held five public auctions in all (including two different classes                                               — also called an “underwriter.”
of Bank of America warrants) raising approximately $1.6 billion. The auction of
Bank of America A warrants was for the warrants Treasury received for its invest-
ment in Bank of America under TIP, and the B warrant auction was for the war-                                                      For more information on CPP warrant
rants it received under CPP. Final closing information for all auctions is shown in                                                auctions, see SIGTARP’s January 2010
                                                                                                                                   Quarterly Report, page 60.
Table 2.23.




Table 2.23


 Treasury Auctions, As of 3/31/2010
                                                    Date of        # of Warrants               Minimum                 Minimum            Clearing                      Proceeds to
                                                    Auction              Offered               Bid Price                Bid Size             Price                         Treasury
Texas Capital Bancshares, Inc.                  3/11/2010                 758,086                  $ 6.50          100 warrants              $6.50                        $6.7 million
Signature Bank                                  3/10/2010                 595,829                  16.00           100 warrants              19.00                        11.3 million
Washington Federal, Inc                          3/9/2010              1,707,456                     5.00          100 warrants                5.00                       15.6 million
Bank of America
                                                 3/3/2010           150,375,940                      7.00          100 warrants                8.35                   1,255.6 million
A Auction (TIP)
Bank of America B Auction (CPP)                  3/3/2010           121,792,790                      1.50          100 warrants                2.55                     310.6 million
TCF Financial                                 12/15/2009               3,199,988                     1.50          100 warrants                3.00                        9.6 million
JP Morgan Chase                               12/10/2009              88,401,697                     8.00          100 warrants              10.75                      950.3 million
Capital One                                     12/3/2009             12,657,960                     7.50          100 warrants              11.75                      148.7 million
Note: Numbers affected by rounding.

Sources: Signature Bank, “Prospectus Supplement,” 3/10/2010, http://files.shareholder.com/downloads/SBNY/865263367x0x358381/E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_
Offering_Circular.pdf, accessed 3/11/2010; Texas Capital Bancshares, Inc, “Prospectus Supplement,” 3/11/2010, www.sec.gov/Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.
htm, accessed 3/12/2010; Bank of America, “Form 8-K,” 3/3/2010, www.sec.gov/Archives/edgar/data/70858/000119312510051260/d8k.htm, accessed 3/4/2010; Bank of America, “Pro-
spectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510044940/d424b7.htm, accessed 3/4/2010; Bank of America, “Prospectus Supplement,” 3/1/2010,
www.sec.gov/Archives/edgar/data/70858/000119312510044945/d424b7.htm, accessed 3/4/2010; Washington Federal, “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/edgar/
data/936528/000119312510052062/d424b5.htm, accessed 3/10/2010;TCF Financial, “Prospectus Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/
a2195869z424b5.htm, accessed 12/29/2009; JP Morgan Chase, “Prospectus Supplement,” 12/11/2009, www.sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.htm, accessed
12/29/2009; Capital One Financial, “Prospectus Supplement,” 12/3/2009, www.sec.gov/Archives/edgar/data/927628/000119312509247252/d424b5.htm, accessed 12/4/2009; Treasury, Transactions
Report, 4/2/2010, www.financialstability.gov/docs/transaction-reports/4-2-10%20Transactions%20Report%20as%20of%203-31-10.pdf, accessed 4/2/2010.
84             special inspector general I troubled asset relief program




                                                      CPP Recapitalizations and Restructurings
     Undercapitalized: A condition in which           If a CPP bank is undercapitalized and in danger of becoming insolvent, it may
     a financial institution does not meet its        propose a restructuring (or recapitalization) plan in “an attempt to preserve value”
     regulator’s requirements for sufficient          and stabilize itself. Under this process, the bank asks Treasury to conduct a formal
     capital to operate under a defined level         review of its proposal. The bank’s proposal will discuss its recapitalization plan at
     of adverse conditions.                           length, may estimate how much capital it plans to raise from private investors, and
                                                      may include discussion of a discount on Treasury’s shares.179
                                                          According to Treasury, after it receives a restructuring proposal, an external
                                                      asset manager performs due diligence on the bank and analyzes the proposal.180
                                                      The external asset manager interviews bank managers, gathers non-public informa-
                                                      tion, and conducts loan loss estimates and capital structure analysis. The manager
                                                      submits its evaluation to Treasury, which in turn decides whether to restructure its
     For more information on CPP recipi-              CPP investment. According to Treasury, CPP-recipient restructuring may result
     ent restructurings approved by Treasury,         in accepting less than par for the original CPP security, in effect resulting in a loss
     see SIGTARP’s October 2009 Quarterly             to Treasury. Treasury is willing to engage in these transactions however, because it
     Report regarding Banco Popular, page             believes that inaction may lead to the bank failing, resulting in a total loss to the
     61, and SIGTARP’s July 2009 Quarterly
                                                      taxpayer.181
     Report regarding Citigroup, page 66.

                                                      Citigroup Common Stock Sale
                                                      On March 29, 2010, Treasury announced its intention to sell the approximately
                                                      7.7 billion shares of Citigroup common stock that it held after converting the $25
                                                      billion in preferred stock shares that it had received under CPP. Treasury agreed
                                                      to a 90-day lockout period, which ended March 16, 2010 to facilitate Citigroup’s
                                                      December 22, 2009, equity offering. In exchange for the 90-day lockout period,
                                                      Citigroup agreed to pay all the costs associated with a sale of any securities is-
     For more information on Citigroup’s
                                                      sued to Treasury by Citigroup or any of its subsidiaries in connection with TARP.
     December 22, 2009, equity offering,
                                                      Treasury hired Morgan Stanley as its capital markets advisor in connection with its
     see SIGTARP’s January 2010 Quarterly
     Report, page 73.                                 Citigroup position. Treasury announced its intention to sell its Citigroup common
                                                      shares into the market through various means in an orderly and measured fashion
                                                      over the course of 2010, subject to market conditions pursuant to a prearranged
                                                      written trading plan.182
                                                                                quarterly report to congress I aPRIL 20, 2010           85




Midwest Banc Holdings Exchange
As part of a Federal Reserve Board-approved capital plan, Midwest Banc Holding,
Inc. (“Midwest”) asked Treasury on October 15, 2009, to convert into com-                     Mandatorily Convertible Preferred
mon stock the $84.4 million in preferred shares Treasury received for its CPP                 Stock (“MCP”): A type of preferred
investment.                                                                                   share that can be converted to com-
    The capital plan required Midwest to: convert into common stock all of its                mon stock at the issuer’s discretion if
Series A preferred shares and approximately $78.8 million of its senior and subor-            specific criteria are met by a certain
dinated debt; raise at least $125 million in private capital; and make anti-dilution          date.
adjustments as necessary.183
    On January 4, 2010, Midwest converted all of its Series A preferred stock to              Prompt Corrective Action Order: A
common stock at 11% of par value (or an 89% discount), thereby completing the                 federal law that requires Federal bank
                                                                                              regulators to take necessary actions to
first part of its capital plan.184 Subsequently, on February 25, 2010, Treasury agreed
                                                                                              resolve the problems of insured deposi-
to exchange its full CPP investment ($84.8 million in preferred stock and $4.5
                                                                                              tory institutions at the least possible
million in unpaid dividends) in Midwest for mandatorily convertible preferred stock
                                                                                              long-term loss to the Deposit Insurance
(“MCP”).185 The new stock’s liquidation preference is similar to the original’s and           Fund.
will have the same 5% annual dividend rate from the issue date until February 15,
2014, after which the rate becomes 9%.186 Treasury’s new MCP is worth approxi-
mately 16% of the par value of the previous preferred shares resulting in an 84%
loss in value.187 Treasury may convert the new MCP into common stock at any time
but Midwest can convert the MCP to common stock only if it completes its capital
plan. Unless otherwise converted, the new MCP automatically converts seven
years from the issue date. Additionally, Midwest agreed with Treasury to revise the
exercise price of its 4.3 million outstanding warrants issued through CPP from
$2.97 to approximately $0.31 per share.188
    As of March 31, 2010, Midwest had not completed two steps of the capital
plan. It had neither converted its senior and subordinated debt to common stock at
a price less than 25% of the par value of such debt nor raised new equity capital. As
a result of its poor financial position, the Federal Reserve issued Midwest a prompt
corrective action order.189

Sterling Financial Corporation Exchange
In a letter dated March 16, 2010, Treasury tentatively agreed to exchange its entire
CPP investment ($303 million)190 in Sterling Financial Corporation (“Sterling”) for
MCP. The MCP will have the same 5% annual dividend rate from the issue date
until December 5, 2013, after which the rate becomes 9%.191
    However, before Sterling receives final approval for the exchange from Treasury
it needs to meet several criteria, including acquiring the consent of a substantial
number of its trust preferred securities holders to buy back those securities, rais-
ing at least $650 million by issuing new common equity, and reaching a definitive
conversion agreement with Treasury.192
    After Sterling meets all the criteria set by Treasury and the exchange is
86            special inspector general I troubled asset relief program




                                                     completed, Sterling will be able to convert the MCP to common stock at its
                                                     discretion.193

                                                     First Merchants Corporation Exchange
                                                     On March 23, 2010, Treasury consented to a partial exchange with First
                                                     Merchants Corporation, in which Treasury would convert up to $58 million of
                                                     its $116 million in First Merchants preferred stock for up to $58 million in First
                                                     Merchants trust preferred securities.194
     Direct Private Placement: Sale of se-               The exchange is contingent on First Merchants maintaining its current Tier 1
     curities to investors meeting minimum           capital ratio, paying Treasury all accrued and unpaid dividends on the preferred
     net worth and sophistication require-           stock, and entering into definitive documentation that is acceptable to Treasury.
     ments, thus receiving an exception              The exchange is also subject to First Merchants raising capital through a registered
     from normal Securities and Exchange             direct private placement of between 2.1 and 4.2 million common shares.195 On
     Commission securities registration
                                                     March 30, 2010, First Merchants announced it had completed a direct private
     requirements.
                                                     placement of 4.2 million common shares, raising $24.1 million.196

                                                     Use of Funds
                                                     As reported in the January 2010 Quarterly Report, Treasury finally adopted
                                                     SIGTARP’s longstanding recommendation that it collect and report data concern-
                                                     ing TARP recipients’ use of TARP funds in December 2009. Specifically, Treasury
                                                     agreed to obtain and report publicly qualitative data from each TARP recipient
                                                     on its use of TARP funds, backed by data from the institutions’ regulators and
                                                     Treasury’s own analysis. In March 2010, Treasury sent its use of funds survey to
                                                     TARP recipients. Responses are due before April 19, 2010.

                                                     Small-Business Lending Initiatives
                                                     During the past quarter, Treasury unveiled two new small-business related ini-
                                                     tiatives that are similar to TARP’s Capital Purchase Program (“CPP”) in that
                                                     both exchange capital for shares of the approved institutions’ preferred stock or
                                                     subordinated debt. The first, the Community Development Capital Initiative
                                                     (“CDCI”), will directly use TARP funds. According to Treasury’s description of its
                                                     intended legislative proposal, the other initiative, the Small Business Lending Fund
                                                     (“SBLF”), will operate outside of TARP, although it will use $30 billion in previous-
                                                     ly authorized TARP money.197 As of March 31, 2010, the Administration’s proposal
                                                     had not been formally introduced in Congress.
                                                                                   quarterly report to congress I aPRIL 20, 2010              87




Community Development Capital Initiative
Under CDCI, TARP will make capital investments in the preferred stock or
subordinated debt of eligible banks and credit unions certified as Community                     Community Development Financial
Development Financial Institutions (“CDFIs”). In general, these organizations pro-               Institutions (“CDFIs”): Financial institu-
vide financial services to under-served communities.198 The Obama Administration                 tions eligible for Treasury funding to
announced CDCI on February 3, 2010, as an initiative to “improve access to                       serve the CDCI’s targeted demographic
                                                                                                 under the CDFI Fund. CDFIs were cre-
credit for small businesses.”199 The “CDFI” designation is a certification granted by
                                                                                                 ated in 1994 by the Riegle Community
Treasury’s CDFI Fund division. There had not been any transactions under CDCI
                                                                                                 Development and Regulatory Improve-
as of March 31, 2010.200 Treasury announced that it would invest up to $1 billion
                                                                                                 ment Act.
in the program.201 As of February 17, 2010, CBO estimated that the program will
cost the Government less than $500 million; OMB did not have an estimated pro-                   Under-Served Communities: Either
gram cost, as the agency’s cutoff date for analysis was December 31, 2009.202                    geographic areas or demographic
    CDCI has two components: one for banks and one for credit unions. In ex-                     groups that Treasury’s CDFI Fund divi-
change for Treasury’s investment, the Government will earn annual dividends or                   sion determines lack adequate access
effective interest of 2% (which is lower than CPP’s 5%) on the instruments issued                to financial services.
by CDFIs. In the eighth year, the dividend rises to 9%. Under this program, TARP
can invest up to a total of 5% of an institution’s total risk-weighted assets.203 Credit         Total Risk-Weighted Assets: A bank’s
unions are member-owned, non-profit entities that have a different capital struc-                total assets after making adjustments
ture than banks, which are shareholder-owned, for-profit entities.204 Credit unions              based on each individual asset’s risk
                                                                                                 factor.
may apply for Government funds totaling up to 3.5% of their total assets — ap-
proximately matching the 5% of risk-weighted assets for banks. Participating credit
                                                                                                 Dividend: Distributions of cash or stock
unions, S-corps, electing institutions, and mutual banks will issue subordinated
                                                                                                 to shareholders as announced by the
debt in lieu of preferred stock issued by banks, bank holding companies, thrifts,
                                                                                                 company’s board of directors.
and savings and loan holding companies.205

Terms for Senior Securities and Dividends
CDCI is open to qualifying financial institutions certified as CDFIs or that have ap-
plied for CDFI status by April 30, 2010. The original deadline for both existing and
prospective CDFIs to receive funds was extended from April 2, 2010, to April 30,
2010.206 The applications for new funding must be reviewed and approved by each
financial institution’s regulator.207
    Under CPP, Treasury funded 22 CDFIs (see Table 2.15); however there
are a total of 61 CDFIs and 141 credit unions that are eligible to participate in
CDCI.208 A CDFI that is already utilizing CPP may request to convert those shares
into CDCI shares, thereby reducing the dividend percentage it must pay the
Government from 5% to 2%.209 According to Treasury, CDFIs will not be required
to issue warrants, due to the de minimus exception in the Emergency Economic
Stabilization Act of 2008 (“EESA”), which grants Treasury the authority to waive
the warrant requirements for qualifying institutions in which Treasury has invested
88   special inspector general I troubled asset relief program




                          Table 2.24

                           CPP PARTICIPANTS ELIGIBLE FOR CDCI, AS OF 4/2/2010
                                                                                                       Investment            Investment
                          Name of Institution                                City              State   Description              Amount
                          Broadway Financial Corporation                     Los Angeles       CA      Preferred Stock      $15,000,000
                          Carver Bancorp, Inc.                               New York          NY      Preferred Stock       18,980,000
                          Citizens Bancshares Corporation                    Atlanta           GA      Preferred Stock        7,462,000
                          City National Bancshares Corporation Newark                          NJ      Preferred Stock        9,439,000
                          Community Bank of the Bay                          Oakland           CA      Preferred Stock        1,747,000
                          First American International Corp.                 Brooklyn          NY      Preferred Stock       17,000,000
                          First Independence Corporation                     Detroit           MI      Preferred Stock        3,223,000
                                                                                                       Subordinated
                          Guaranty Capital Corporation                       Belzoni           MS                            14,000,000
                                                                                                       Debentures
                          Harbor Bankshares Corporation                      Baltimore         MD      Preferred Stock        6,800,000
                                                                                                       Subordinated
                          IBC Bancorp, Inc.                                  Chicago           IL                             4,205,000
                                                                                                       Debentures
                          IBW Financial Corporation                          Washington        DC      Preferred Stock        6,000,000
                          Legacy Bancorp, Inc.                               Milwaukee         WI      Preferred Stock        5,498,000
                          Liberty Financial Services, Inc.                   New Orleans       LA      Preferred Stock        5,645,000
                          M&F Bancorp, Inc.                                  Durham            NC      Preferred Stock       11,735,000
                          Mission Community Bancorp                          San Luis Obispo   CA      Preferred Stock        5,116,000
                          Mission Valley Bancorp                             Sun Valley        CA      Preferred Stock        5,500,000
                          OneUnited Bank                                     Boston            MA      Preferred Stock       12,063,000
                          PGB Holdings, Inc.                                 Chicago           IL      Preferred Stock        3,000,000
                                                                                                       Subordinated
                          Premier Bancorp, Inc.                              Wilmette          IL                             6,784,000
                                                                                                       Debentures
                          Southern Bancorp, Inc.                             Arkadelphia       AR      Preferred Stock       11,000,000
                          Tri-State Bank of Memphis                          Memphis           TN      Preferred Stock        2,795,000
                                                                                                       Subordinated
                          University Financial Corp, Inc.                    St. Paul          MN                            11,926,000
                                                                                                       Debentures
                          Total                                                                                           $184,918,000
                          Note: Numbers affected by rounding.

                          Source: Treasury, Transactions Report, 4/2/2010.




                                                   $100 million or less.210 Table 2.24 lists all CPP participants that are currently
                                                   eligible for CDCI.
                                                       If, during the application process, a CDFI bank’s primary regulator deems it
                                                   undercapitalized, Treasury will match private investments on a dollar-for-dollar
                                                   basis up to 5% of the bank’s risk-weighted assets, but only if the combined invest-
                                                   ment is enough to give the institution adequate capitalization leading the regulator
                                                   to deem it healthy and viable.211 The private capital must be junior to Treasury’s
                                                   investment.212 The following examples are illustrative.
                                                                                quarterly report to congress I aPRIL 20, 2010   89




    Example A: A CDFI needs additional capital equaling 4% of its risk-weighted
assets to reach the standard set by its regulator. If it raises 2% (of risk-weighted
assets) from private investors, Treasury would match the investment so that the in-
stitution reaches its viability standard.213 This provides the CDFI with a 4% capital
infusion.
    Example B: A CDFI needs additional capital equaling 4% of its risk-weighted
assets to reach the standard set by its regulator. If it raises 3% (of risk-weighted
assets) from private investors, Treasury would match the investment, thereby push-
ing the institution above its viability standard. This provides the CDFI with a 6%
capital infusion, and the institution exceeds its minimum capital requirement.
    Example C: A CDFI needs additional capital equaling 4% of its risk-weighted
assets to reach the standard set by its regulator. If it raises 6% (of risk-weighted
assets) from private investors, Treasury would match 5% (of risk-weighted assets),
the maximum the program allows. This provides the CDFI with an 11% capital
infusion, and it exceeds its minimum capital requirement.
    Example D: A CDFI needs additional capital equaling 11% of its risk-weighted
assets to reach the standard set by its regulator. Unless the CDFI can raise at least
6% from private investors, the capital requirement cannot be met and the CDFI
cannot participate in the program.

   As of April 2, 2010, OFS received the following from current CPP
participants:214

•	 20 applications to exchange CPP capital for CDCI capital from current CDFIs
•	 four applications to exchange CPP capital for CDCI capital from bank/thrifts
   that are not currently CDFIs
•	 one application for increased funding under CDCI for a current CPP CDFI
   (which CDFI also filed a CPP/CDFI exchange application)

Small Business Lending Fund (“SBLF”)
On February 2, 2010, the Administration announced it will seek new legislation to
create the Small Business Lending Fund (“SBLF”) to provide up to $30 billion to
stimulate small-business lending.215
    As described in Treasury’s “Summary Response to SIGTARP’s Outstanding
Recommendations” in Appendix H: “Correspondence,” Treasury does not intend to
include TARP oversight mechanisms in its proposed legislation. SIGTARP’s objec-
tion to possibly being excluded from SBLF oversight can be found in Appendix H.
According to Treasury, SBLF would be structured as follows:216

•	 SBLF would not be an EESA- or TARP-related program.
•	 SBLF would be funded with $30 billion that special legislation would transfer
   from TARP’s original allocation.
90            special inspector general I troubled asset relief program




                                                     •	 Under SBLF, banks increasing small-business lending above 2009 levels would
                                                        receive incentives through reduced dividend or interest obligations.

                                                          The proposal includes two different incentives for lenders to increase small-
                                                     business lending. First, eligible financial institutions would be able to receive capi-
                                                     tal investments in amounts up to 3% or 5% of their risk-weighted assets, based on
                                                     each institution’s size. Banks with $1 billion or less in assets could receive capital
                                                     investments of up to 5% of risk-weighted assets, whereas banks with assets between
                                                     $1 billion and $10 billion would be eligible for up to 3%.217
                                                          Second, Treasury would decrease dividend or interest rates from an initial 5%
                                                     by 1% for every 2.5% increase in small-business lending made within the next two
                                                     years above the 2009 levels. Through this arrangement, the dividend or interest
                                                     rate could be reduced to as little as 1%. Because the dividend rate a bank pays is
                                                     based on its percentage increase in small-business lending, it would be required to
                                                     report the increase from its 2009 baseline.218
                                                          Example:  Bank A, with $500 million in risk-weighted assets, held $250 million
                                                     in business loans at the end of every quarter of 2009. In 2010 it earns approval to
                                                     draw capital equal to 5% of its risk-weighted assets from SBLF (the maximum) —
                                                     $25 million. It then boosts small-business lending to $275 million after two years
                                                     (a 10% increase). As a result, although it received capital with an initial dividend
                                                     rate of 5%, the rate would drop to 1%.
                                                          Because Treasury’s proposed legislation for SBLF would be outside of TARP,
     Executive Compensation: Payments to             participants would not be subject to the executive compensation limits or the
     a corporation’s employees, particularly         requirements to issue warrants to Treasury or other restrictions required under
     those executives who have policymak-            EESA, nor, as Treasury currently contemplates SBLF, would the administration
     ing authority at the corporation, in            of the program or its participants be subject to TARP oversight, including that of
     exchange for their services. These              SIGTARP.219 According to Treasury, eligible banks that have previously received
     payments often include base salary,             CPP funds will be able to convert into SBLF. Under the Treasury proposal for
     bonuses, grants of shares and stock             SBLF, CPP recipients would be allowed to refinance CPP securities for SBLF
     options, and other company benefits             securities. Because the SBLF proposal is still pending, the final terms for such
     (including, for example, health care and        refinancing have not been determined.220 Due to the removal of executive oversight
     retirement benefits).
                                                     restrictions, lower potential interest rates, and, apparently, less oversight, SIGTARP
                                                     anticipates that most eligible banks will choose to convert.

                                                     Systemically Significant Failing Institutions Program/AIG
                                                     Investment Program
                                                     According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
                                                     program was established to “provide stability and prevent disruptions to finan-
                                                     cial markets from the failure of institutions that are critical to the functioning
                                                     of the nation’s financial system.”221 The Government has allocated $69.8 billion
                                                     through SSFI in American International Group, Inc. (“AIG”), the program’s sole
                                                                                 quarterly report to congress I aPRIL 20, 2010            91




participant.222 As of February 17, 2010, CBO estimated that SSFI will ultimately
cost Treasury $36 billion; OMB estimated a cost of approximately $50 billion.223

Status of SSFI Funds
On November 25, 2008, Treasury made its initial investment in AIG with the
purchase of $40 billion of cumulative preferred AIG stock and common stock war-
rants. In addition to this equity investment, on April 17, 2009, Treasury committed            Cumulative Preferred Stock: A type of
to fund an equity capital facility under which AIG could draw up to $29.8 billion              stock that requires a defined dividend
in exchange for more preferred stock and additional common stock warrants. As                  payment. If the company does not pay
of March 31, 2010, AIG had drawn down $7.54 billion from the equity capital                    the dividend, it still owes the missed
facility.224                                                                                   dividend to the stock’s owner.


AIG Update                                                                                     Equity Capital Facility: A commitment
On February 26, 2010, AIG reported a net loss of $8.9 billion for the quarter end-             to invest equity capital in a firm under
                                                                                               certain future conditions.
ing December 31, 2009 — its first quarterly loss following profits of $455 million
and $1.8 billion, respectively, for each of the two previous quarters.225

Dividend Payments
As of March 31, 2010, AIG had not paid dividends for five consecutive quarters
(bringing its total arrears to $4.2 billion226). As a result, under the documents gov-
erning Treasury’s preferred AIG shares, Treasury has the right to elect the greater
of two directors and a number of directors (rounded upward) equal to 20% of the
total number of directors of AIG after giving notice to such election to AIG’s board.
On April 1, 2010, Treasury executed and delivered a written consent to AIG which
appointed, at Treasury’s direction, Donald H. Layton and Ronald A Rittenmeyer as
directors of AIG.227
    The term of these directors will extend until the earlier of (i) AIG’s next an-
nual meeting of shareholders (or special meeting called for that purpose), (ii) the
removal of such directors as provided for in the Certificates of Designations for
Treasury’s preferred stock, or (iii) dividends payable on Treasury’s preferred stock
have been declared and paid in full for four consecutive quarterly dividend peri-
ods. At the next annual meeting of shareholders of AIG (scheduled for May 2010),
Treasury can re-elect these directors or elect replacements.
    Because, at present, AIG’s board consists of 12 members, Treasury has the right
to elect an additional individual as director. Treasury continues to move forward
with a process to identify additional potential candidates to fill that position.228

Use of Funds Report
As part of AIG’s equity capital facility agreement with Treasury, it must submit a re-
port describing how it plans to use the facility’s proceeds.229 As of March 31, 2010,
the funds drawn down on the equity capital facility have been used to meet capital
92             special inspector general I troubled asset relief program




                                                      solvency requirements resulting from declines in the value of investments and to
                                                      purchase shares of United Guaranty Corporation (“UGC”), an AIG subsidiary. In
                                                      addition, funds have been used to provide capital support to UGC and to settle pay-
                                                      ments for UGC.230 Additional drawdowns totaling approximately $2.2 billion were
                                                      made on February 19, 2010, and March 16, 2010. These drawdowns were used to
                                                      fund three transactions:231

                                                      •	 AIG’s redemption of 100% of its preferred shares held by National Union Fire
                                                         Insurance Company of Pittsburgh (“NUFI”) for approximately $1.94 billion
                                                      •	 continued capital support for UGC totaling approximately $48 million
                                                      •	 purchase of AIG shares from AIA subsidiaries AIA(B) and Philam Life AIG
                                                         and purchase of AIG shares held by the ALICO (Japan) unit for approximately
                                                         $213.5 million

                                                      Federal Reserve Credit Facility Reduction
                                                      As discussed in SIGTARP’s January 2010 Quarterly Report, on December 1, 2009,
                                                      FRBNY received $25 billion in preferred equity interests in two special purpose
     Revolving Credit Facility: A line of credit      vehicles (“SPVs”) established to hold the outstanding stock of AIG’s largest for-
     for which the borrower pays a commit-            eign insurance subsidiaries, American Life Insurance Company (“ALICO”) and
     ment fee and is then allowed to use up           AIA Group, Limited (“AIA”), as satisfaction for $25 billion owed by AIG under the
     to a guaranteed maximum amount of
                                                      Revolving Credit Facility (a Federal Reserve facility not involving TARP funds) and
     funds when they are needed.
                                                      a corresponding reduction in the amount available under the facility. This transac-
                                                      tion decreased AIG’s outstanding principal balance on the facility from $42 billion
     Special Purpose Vehicle (“SPV”): An
                                                      to $17 billion and reduced its total borrowing capacity under the facility from $60
     off-balance-sheet legal entity that holds
     the transferred assets presumptively             billion to $35 billion.232 As of March 31, 2010, AIG’s total outstanding principal
     beyond the reach of the entities provid-         balance under the facility was $21.7 billion.233
     ing the assets and is legally isolated.
                                                      Sale of Business and Assets
     Face Value: The nominal value or dollar          On March 1, 2010, AIG announced the signing of an agreement to sell its AIA
     value of a security stated by the issuer.        unit to Prudential plc for approximately $35.5 billion, including approximately
                                                      $25 billion in cash, $8.5 billion in face value of equity and equity-linked securities,
                                                      and $2.0 billion in face value of Prudential preferred stock. AIG will use the cash
                                                      portion of the proceeds to redeem FRBNY’s approximately $16 billion of preferred
                                                      interests in the AIA SPV and to repay approximately $9 billion of its debt under the
                                                      Revolving Credit Facility. AIG will sell the $10.5 billion of Prudential securities,
                                                      subject to minimum holding periods and market conditions. The proceeds will be
                                                      used to repay outstanding debt under the Revolving Credit Facility.234
                                                          On March 8, 2010, AIG announced the signing of an agreement to sell ALICO
                                                      to MetLife, Inc., for approximately $15.5 billion, including $6.8 billion in cash and
                                                      the remainder in equity securities of MetLife, subject to closing adjustments. AIG
                                                                               quarterly report to congress I aPRIL 20, 2010   93




will use the cash portion of the proceeds to redeem approximately $6.8 billion of
the preferred interests held by FRBNY in the ALICO SPV. AIG will sell the remain-
ing MetLife securities over time, subject to minimum holding periods and market
conditions. The net cash proceeds from this sale will be used first to redeem the
remainder of the preferred shares in the ALICO SPV held by FRBNY and then to
repay outstanding debt under the Revolving Credit Facility.235 In addition to these
two transactions, AIG continues to explore opportunities to sell other non-core
assets and raise capital. AIG must pay off its FRBNY debt before it can repay
Treasury for the TARP investments.236
     AIG is continuing to make progress in the “wind down” of its financial prod-
ucts unit. The unit’s notional exposure is now under $1 trillion, as compared to $2
trillion in September 2008. In addition, the number of employees at the financial
products unit has been reduced from more than 400 to less than 250. It is now
anticipated that the wind-down process will be substantially completed by the end
of 2010.237

Targeted Investment Program and Asset Guarantee Program
Through the Targeted Investment Program (“TIP”), Treasury invested $40 billion
of TARP funds in Citigroup, Inc. (“Citigroup”) and Bank of America Corporation
(“Bank of America”). Treasury invested $20 billion in Citigroup on December 31,
2008, and $20 billion in Bank of America on January 16, 2009.238 By December
2009, both banks had repaid the TIP investments.239 The program is effectively
closed.240
    Under the Asset Guarantee Program (“AGP”), Treasury, the FDIC, the Federal
Reserve, and Citigroup agreed to share losses on a pool of Citigroup assets val-
ued at approximately $301 billion. Although Treasury’s asset guarantee was not a
direct cash investment, it exposed taxpayers to a potential TARP loss of $5 billion.
In return, Treasury received approximately $4 billion in Citigroup trust preferred
securities. This program was terminated without any TARP losses on December 23,
2009.241 Treasury still holds the $2.2 billion in Citigroup trust preferred shares it
acquired through the termination of AGP. As of February 17, 2010, CBO estimates
that the additional assistance given to Bank of America and Citibank under TIP
and AGP will result in a $5 billion gain to taxpayers; OMB projects a $7 billion
gain.242

Bank of America
94   special inspector general I troubled asset relief program




                                            Bank of America repaid the $45 billion in TARP assistance it received under the
                                            TIP and CPP programs by December 31, 2009. After Bank of America repaid its
                                            principal balance, Treasury still owned warrants of the institution’s shares.
                                            On March 3, 2010, Treasury auctioned two groups of Bank of America warrants
                                            with net proceeds of approximately $1.56 billion.243 (For more information on the
                                            auction of Bank of America warrants, see the “Capital Purchase Program” section
                                            of this report.) This auction effectively disposed of Treasury’s remaining holdings in
                                            the company and ended Bank of America’s participation in CPP and TIP.244
                                                                                   quarterly report to congress I aPRIL 20, 2010   95




Asset Support Programs
Three programs under TARP have been designed to support markets for spe-
cific asset classes: the Term Asset-Backed Securities Loan Facility (“TALF”), the
Public-Private Investment Program (“PPIP”), and the Unlocking Credit for Small
Businesses (“UCSB”) program.
    TALF provides up to $200 billion in Federal Reserve financing through the
Federal Reserve Bank of New York (“FRBNY”), backed by up to $20 billion in
TARP loss protection, to support asset-backed securities (“ABS”) transactions.245
TALF closed its lending program for non-mortgage-backed ABS and legacy com-
mercial mortgage-backed securities (“CMBS”) on March 31, 2010; the last sub-
scription closed on March 11, 2010.246 The last scheduled subscription for newly
issued CMBS is June 18, 2010, which will mark the close of the program.247
    PPIP utilizes equity and debt financing provided by Treasury through TARP to
facilitate purchases of legacy mortgage-backed securities (“MBS”) held by various
financial institutions.
    Finally, through the UCSB/Small Business Administration (“SBA”) loan support
initiatives, Treasury launched a program to purchase SBA 7(a) securities and pro-
posed that Congress transfer $30 billion of TARP money to a non-TARP initiative
intended to extend credit to small businesses.

Term Asset-Backed Securities Loan Facility (“TALF”)
In November 2008, the Federal Reserve and Treasury announced TALF, under
which FRBNY would issue up to $200 billion in loans collateralized by ABS, with
the ultimate goal to make credit available to consumers and small businesses; up
to $20 billion of TARP money would be used to fund the purchase by a special
purpose vehicle, TALF LLC, of any surrendered collateral.248
    Under TALF, FRBNY issues loans secured by ABS collateral on a non-recourse
basis. Because TALF loans are non-recourse, borrowers may walk away, surrender
the collateral to FRBNY, and have no further obligations (unless the borrower
breaches any of its representatives, warranties or covenants).
    As of March 31, 2010, there had been no surrender of collateral and therefore,
no loss of TARP funds.249 Through that same date, TALF LLC incurred approxi-
mately $824,000 in administrative expenses since its formation on February 4,
2009.250 CBO projects TALF will cost Treasury approximately $1 billion, while
OMB projects it will produce a $1 billion gain.251

   Eligible collateral assets for TALF loans are:

•	 non-mortgage-backed ABS — certain ABS backed by collateral other than
   commercial or residential real estate loans (eligibility criteria are discussed in
96           special inspector general I troubled asset relief program




                                                       detail in SIGTARP’s Quarterly Report to Congress dated October 21, 2009,
                                                       pages 75–76).
                                                    •	 legacy CMBS — CMBS issued before January 1, 2009
                                                    •	 newly issued CMBS — CMBS issued on or after January 1, 2009

                                                       The program, however, is now closed to loans with non-mortgage-backed ABS
                                                    and legacy CMBS as collateral. Therefore, the only eligible collateral for new TALF
                                                    loans are newly issued CMBS.

                                                    Program Updates
                                                    The following program-related developments occurred over the last quarter, which
                                                    are discussed in greater detail in this section:
                                                    •	 Final subscriptions have been placed for ABS and legacy CMBS.
                                                    •	 A third collateral monitor was hired to analyze TALF’s CMBS portfolio.
                                                    •	 FRBNY announced the rejection of 29 legacy CMBS CUSIPs during the first
                                                       quarter of 2010.

                                                    Final Quarter for Subscriptions of ABS and Legacy CMBS
                                                    When TALF was extended on August 17, 2009, from its original December 31,
                                                    2009 termination date because markets still had not recovered, the Federal Reserve
                                                    Board extended the availability of TALF loans collateralized by newly issued ABS
                                                    and legacy CMBS through March 31, 2010; TALF loans collateralized by newly
                                                    issued CMBS were made available through June 30, 2010, in order to provide the
                                                    market enough time to arrange newly issued CMBS transactions.252 The Federal
                                                    Reserve does not anticipate further extension of the program.

                                                    Third Collateral Monitor Added for CMBS Portfolio
     For more information on the TALF
     risk assessment process, see SIGTARP’s
                                                    FRBNY previously hired two TALF collateral monitors — Trepp, LLC (“Trepp”)
     October 2009 Quarterly Report, page 78,        and Pacific Investment Management Company (“PIMCO”).253 The collateral moni-
     and SIGTARP’s January 2010 Quarterly           tors are independent third parties engaged by FRBNY to assess the riskiness of the
     Report, page 78.                               pools of assets collateralizing the ABS and CMBS and to provide other analytical
                                                    and reporting services related to the TALF portfolio. Trepp is engaged to support
                                                    CMBS asset classes; PIMCO is supporting all asset classes.
                                                        On February 16, 2010, FRBNY hired BlackRock Financial Management, Inc.
                                                    (“BlackRock”) as a third collateral monitor to provide an independent, qualitative
                                                    viewpoint on selected assets of legacy CMBS CUSIPs and to analyze FRBNY’s en-
                                                    tire TALF CMBS portfolio of collateral.254 In addition to the stress valuations per-
                                                    formed by Trepp and PIMCO, BlackRock used a different methodology to evaluate
                                                    TALF-eligible legacy CMBS that are collateralizing outstanding TALF loans.255 The
                                                    BlackRock contract expired on March 31, 2010.256
                                                                              quarterly report to congress I aPRIL 20, 2010              97




Conflict-of-Interest Mitigation
BlackRock is one of the eight fund managers participating in PPIP and is also
the primary provider of risk and analytical support for FRBNY’s MBS Purchase
Program.257 A separate BlackRock business division worked with FRBNY in manag-
ing portfolios for Maiden Lane LLC (regarding the Bear Stearns and J.P. Morgan
merger) and for Maiden Lane II LLC and Maiden Lane III LLC (which involved
the AIG restructuring).258 The collateral monitor agreement includes specific provi-
sions restricting information sharing and mitigating conflicts of interest between
the two entities:259

•	 FRBNY approved all collateral monitor staff members engaged in TALF, and all
   were required to execute acknowledgment agreements regarding their confiden-
   tiality requirements and complete compliance training.
•	 TALF team members were physically separated from PPIP team members.
•	 Collateral monitors were required to identify and provide mitigation plans
   for potential conflicts of interest. SIGTARP is entitled to review the TALF-
   specific inspection results and audit reports produced by FRBNY, the Board of
   Governors of the Federal Reserve System, the Board’s Inspector General, and
   the Federal Open Market Committee.

Rejected CUSIPs
FRBNY rejected 29 CUSIPs in the first quarter of 2010.260 For more information
on why FRBNY rejects CUSIPs, see the January 2010 Quarterly Report, page 79.                CUSIP: Unique identifying number as-
   On January 5, 2010, FRBNY announced it had identified and corrected a meth-              signed to all registered securities in the
odological error in the implementation of the FRBNY’s stressed scenario analysis,           United States and Canada.
which led to the acceptance of legacy CMBS CUSIP 059497AX5, which would
have been rejected as collateral if the methodology had been correct.261

TALF Subscription Activity
FRBNY offered 13 TALF non-mortgage-backed ABS subscriptions as of March 31,
2010, totaling approximately $58.7 billion in TALF loans settled.262 Of the non-
mortgage-backed ABS loans settled, $36.9 billion was outstanding.263 Table 2.25
includes all non-mortgage-backed ABS TALF loans settled since the inception of
the program.
    On March 11, 2010, the final TALF subscription using non-mortgage-backed
collateral closed.264

Subscriptions Using Commercial Mortgage-Backed Collateral
FRBNY had facilitated 10 TALF CMBS subscriptions as of March 31, 2010, total-
ing approximately $12.1 billion in TALF loans settled. Of the CMBS loans settled,
$10.3 billion was outstanding.265 Table 2.26 includes all CMBS TALF loans settled
98             special inspector general I troubled asset relief program




     Table 2.25

       TALF LOANS SETTLED by ABS Sector (non-mortgage-backed COLLATERAL)                                                                    ($ BILLIONS)

                                       1st Quarter                 2nd Quarter                 3rd Quarter               4th Quarter                 1st Quarter
     ABS Sector                              2009                        2009                        2009                      2009                        2010                        Totals
     Auto Loans                                  $ 1.9                        $ 6.1                     $ 4.5                      $ 0.2                           —                  $ 12.7
     Student Loans                                   —                           2.5                       3.6                        1.0                        1.8                       8.9
     Credit Card Receivables                       2.8                          12.4                       8.4                        1.8                        0.9                     26.3
     Equipment Loans                                 —                           1.0                       0.1                        0.3                        0.2                       1.6
     Floor Plan Loans                                —                            —                        1.0                        1.5                        1.4                       3.9
     Small-Business Loans                            —                           0.1                       0.4                        0.9                        0.7                       2.1
     Servicing Advance                               —                           0.4                       0.1                        0.6                        0.1                       1.2
     Receivables
     Premium Finance                                 —                           0.5                       0.5                         —                         1.0                       2.0
     Total                                      $ 4.7                       $23.0                     $18.6                          $6.3                      $6.1                   $58.7
     Notes: Numbers affected by rounding. Data as of 3/31/2010. The first subscription in the program was in March 2009; therefore, the first quarter of 2009 represents one subscription while
     the remaining quarters represent three subscriptions.

     Source: FRBNY, “TALF Non-CMBS Operations,” no date, www.newyorkfed.org/markets/TALF_recent_operations.html, accessed 3/12/2010.




     Table 2.26
      TALF LOANS SETTLED (CMBS COLLATERAL)                                      ($ BILLIONS)

     Type of           2nd Quarter                           3rd Quarter               4th Quarter                 1st Quarter
     Collateral Assets       2009                                  2009                      2009                        2010                         Total
     Newly Issued CMBS                     $—                           $—                       $ 0.1                        $—                      $ 0.1
     Legacy CMBS                              —                           4.1                       4.5                        3.3                     12.0
     Total                                 $—                          $4.1                       $4.6                       $3.3                   $12.1
     Notes: Numbers affected by rounding. Data as of 3/31/2010. The first subscription in the program was in June 2009; therefore, the second quarter of
     2009 represents one subscription while the remaining quarters represent three subscriptions.

     Source: FRBNY, “TALF CMBS Operations,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed 4/1/2010.




                                                                       since the inception of the program. Three possible subscriptions remain for newly
                                                                       issued CMBS.266

                                                                       Next Steps — What Is TALF Now that the Active Lending Phase Is Substantially
                                                                       Complete?
                                                                       TALF loans have maturities of up to five years.267 Now that TALF is closed for new
                                                                       loans secured by ABS and legacy CMBS and will close for all asset classes on June
                                                                       30, 2010, FRBNY’s responsibilities under the program will shift primarily to portfo-
                                                                       lio management, which includes the following duties:268

                                                                       •	   documentation maintenance
                                                                       •	   overseeing custodians responsible for holding the ABS collateral
                                                                       •	   calculating and collecting principal and interest on TALF loans
                                                                       •	   collecting interest on existing TALF loans
                                                                                quarterly report to congress I aPRIL 20, 2010            99




•	 disbursing excess spread to TALF borrowers per the governing documents
•	 ongoing monitoring of TALF portfolio                                                       Excess Spread: Interest generated
•	 collecting and managing collateral assets if a borrower defaults on a loan or sur-         by an asset less its financing costs,
                                                                                              charge-offs, servicing costs, and any
   renders the collateral without recourse in lieu of repayment
                                                                                              other related expenses. For TALF, the
                                                                                              difference between interest received
    In addition to managing the portfolio of TALF loans, if TALF borrowers sur-
                                                                                              from the underlying ABS or CMBS
render collateral, the collateral is purchased by a special purpose vehicle, TALF             collateral and the interest payments on
LLC. According to Treasury, the funding for TALF LLC comes first from interest                the TALF loan.
on TALF loans then from Treasury’s TARP commitment of up to $20 billion, and
finally from FRBNY. As of March 31, 2010, TALF LLC had assets of $404 million,
including approximately $100 million in initial TARP funding and approximately
$305 million in interest payments and interest income earned from permitted
investments.269 It has not purchased collateral from FRBNY.270
    According to the Security and Intercreditor Agreement amongst TALF LLC, the
FRBNY, and Treasury, payments by TALF LLC from all amounts available in the
collateral account (other than amounts available in the loan proceeds account) will
first be used to cover the operating expenses of TALF LLC and to fund the expense
reimbursement account. Funds will then be distributed in the following order:

1.	 the principal due to the FRBNY and funding of the FRBNY’s senior loan
    commitment
2.	 the principal due to Treasury
3.	 the interest due to FRBNY
4.	 the interest due to Treasury

   Any remaining funds will be shared by FRBNY and Treasury according to a 10%
and 90% split, respectively.271

Public-Private Investment Program
The Public-Private Investment Program (“PPIP”) is purportedly designed to
purchase legacy securities from financial institutions through Public-Private
Investment Funds (“PPIFs”), which are partnerships that combine capital from
private-sector investors and public equity investments and non-recourse debt from             Legacy Securities: Real estate-related
TARP funds.                                                                                   securities lingering on the balance
     PPIP is designed as an eight-year program with the possibility of two one-year           sheets of financial institutions because
extensions.272 As of March 31, 2010, Treasury had committed $30 billion of equity             of pricing difficulties resulting from
                                                                                              market disruption.
and debt financing to PPIP.273 As of January 31, 2010, CBO estimated that PPIP
will cost Treasury approximately $1 billion; OMB estimated the cost or gain at less
than $500 million.274
100                special inspector general I troubled asset relief program




                                                                            Legacy Securities Program
       For an analysis of the impact of NRSROs                              According to Treasury, the Legacy Securities Program was designed to “restart the
       on TARP and the overall financial                                    market for legacy securities, allowing banks and other financial institutions to free
       market, see SIGTARP’s October 2009                                   up capital and stimulate the extension of new credit.”275
       Quarterly Report, page 113.
                                                                                The securities eligible for purchase by PPIFs are asset-backed and supported by
                                                                            real estate-related loans, including non-agency residential mortgage-backed securi-
                                                                            ties (“non-agency RMBS”) and CMBS that meet the following criteria:276
  Non-Agency Residential Mortgage-
  Backed Securities (“non-agency
  RMBS”): A financial instrument backed                                     •	 issued before January 1, 2009 (legacy)
  by a group of residential real estate                                     •	 bear an original AAA rating, or equivalent, from two or more credit rating
  mortgages that are not guaranteed by                                         agencies designated as nationally recognized statistical ratings organizations
  a Government-sponsored enterprise                                            (“NRSROs”)
  (“GSE”), such as the Federal National                                     •	 secured directly by actual mortgages, leases, or other assets, and not other secu-
  Mortgage Association (“Fannie Mae”)                                          rities (other than certain swap positions, as determined by Treasury)
  or the Federal Home Loan Mortgage                                         •	 located primarily in the United States (the loans and other assets securing the
  Corporation (“Freddie Mac”).                                                 non-agency RMBS and CMBS)
                                                                            •	 purchased from financial institutions eligible for TARP participation

                                                                            PPIF Purchasing Power
                                                                            Through March 31, 2010, the eight remaining fund managers had raised $6.3 bil-
                                                                            lion of private-sector equity capital, which Treasury matched for a total equity capi-
                                                                            tal of $12.5 billion. Treasury also provided $12.5 billion of debt capital, resulting in
                                                                            $25.1 billion of PPIF purchasing power. Of that $25.1 billion, PPIFs had pur-
                                                                            chased approximately $10 billion of PPIP-eligible assets, as of March 31, 2010.277
                                                                                Generally, PPIF managers have six months from the completion date of
                                                                            their first private-sector equity investment to raise additional private-sector eq-
                                                                            uity. Oaktree was the final PPIF to begin raising private-sector equity capital; its
      Table 2.27

       PUBLIC-PRIVATE INVESTMENT PROGRAM                                     ($billions)

                                                                                               Private-Sector Equity                                                       Total Purchasing
                                                                                                             Capital                     Treasury Equity   Treasury Debt             Power
      Invesco Legacy Securities Master Fund, L.P.                                                                       $0.9                       $0.9            $1.7               $3.4c
      Wellington Management Legacy Securities PPIF Master Fund, LP                                                        1.1                        1.1             2.1                4.3
      AllianceBernstein Legacy Securities Master Fund, L.P.                                                               1.1                        1.1             2.1                4.2
      BlackRock PPIF, L.P.                                                                                                0.7                        0.7             1.4                2.8
      AG GECC PPIF Master Fund, L.P.                                                                                      0.9                        0.9             1.8                3.7
      RLJ Western Asset Public/Private Master Fund, L.P.                                                                  0.6                        0.6             1.2                2.4
      Marathon Legacy Securities Public-Private Investment
      Partnership, L.P.                                                                                                   0.4                        0.4             0.8                1.7
      Oaktree PPIP Fund, Inc.                                                                                             0.6                        0.6             1.3                2.5
      Current Totals as of 3/31/2010                                                                                   $6.3                        $6.3           $12.5               25.1
      Maximum Potential Totals                                                                                     $10.00                       $10.00a         $20.00b            $40.00
      Note: Numbers affected by rounding.
      a
        Represents Treasury’s maximum equity obligation if limited partners other than Treasury fund their maximum equity obligations.
      b
        Represents Treasury’s maximum debt obligation if limited partners other than Treasury fund their maximum equity obligations.
      c
        Fundraising period completed.

      Source: PPIF Monthly Performance Reports submitted by each PPIF Manager, March 2010.
                                                                               quarterly report to congress I aPRIL 20, 2010           101




fundraising period ends June 18, 2010.278 Table 2.27 shows all equity and debt
invested under the program.

Disclosure of PPIF Transactions and Holdings
Since the PPIFs commenced trading operations in October 2009, SIGTARP has
been in discussions with Treasury and PPIF managers concerning the appropriate
disclosure of information about PPIF activity. As previously stated, SIGTARP be-
lieves that transparency in PPIP is vital to the program’s overall success and cred-
ibility. However, as urged by Treasury and PPIF managers, SIGTARP acknowledges
that publishing security-by-security information poses a risk during the ramp-up
period while PPIF managers are still building their portfolios, and that this may not
be in the best interest of taxpayers and other PPIF investors. Specifically, disclos-
ing such data could reveal PPIF managers’ investment strategies, putting them at
a disadvantage relative to private investors who could anticipate a PPIF manager’s
strategy, purchase the targeted securities, then sell those securities back to the
PPIF at a higher price.
     Accordingly, and consistent with SIGTARP’s previous recommendation that
contemplated a temporary redaction of information that could harm taxpayer inter-
ests, SIGTARP will not disclose security-by-security information for active PPIFs in
this report. SIGTARP anticipates that it will disclose such data in future quarterly
reports. As indicated below, SIGTARP is publishing data related to the closed PPIF.

TCW Final Analysis
As previously reported, one of the initial nine PPIF managers, The TCW Group,
Inc. (“TCW”), is no longer a PPIF manager. Its PPIF was liquidated after the dis-            Key Person: An individual recognized
missal of its chief investment officer and PPIF portfolio manager, who was identi-           as being necessary for the operation of
fied as a key person in its agreement with Treasury. (For more information, see              an investment fund.
SIGTARP’s January 2010 Quarterly Report, page 88.) On January 4, 2010, TCW
entered into a winding-up and liquidation agreement with Treasury, dissolving its
PPIF. Private investors received a letter explaining the agreement and allowing
them to invest in other PPIFs.279
    As of December 31, 2009, by which time the TCW PPIF was already frozen, its
portfolio comprised $477.8 million in non-agency RMBS, 87.2% of the underlying
mortgages were classified as Alt-A, and 12.8% were classified as Prime.
Appendix J: “UST/TCW Fund Holdings” contains a security-by-security listing of
the RMBS holdings that were in the fund as of December 31, 2009, before it was
liquidated, as reported by TCW to SIGTARP.
    On January 13, 2010, TCW repaid the outstanding $200 million loan to
Treasury, plus interest of $342.2 thousand.280 It also repaid Treasury’s full equity
investment, plus a $20.1 million profit.281
102   special inspector general I troubled asset relief program




                                             Fund Performance
                                             The performance of each PPIF — its gross and net returns since inception — is
                                             listed in Table 2.28, as reported by PPIF managers. The returns are calculated
                                             based on a methodology requested by Treasury. Each PPIF has three years to buy
                                             legacy securities in the market on behalf of its private and Government investors.282
                                             The program strives for “predominantly a long-term buy and hold strategy” of up to
                                             eight years for each PPIF. Extensions of up to two additional years are allowed but
                                             require Treasury’s written permission.283
                                                 The data in Table 2.28 is a snapshot of the funds’ performance over the quarter
                                             ending March 31, 2010, and may not be predictive of the funds’ performance over




                                             Table 2.28

                                              PPIF INVESTMENT STATUS, AS OF 3/31/2010
                                                                                                                1-Month              3-Month                 Cumulative
                                                                                                                 Return               Return             Since Inception
                                             Manager                                                          (percent)a           (percent)a                 (percent)a

                                             AG GECC PPIF Master Fund,                    Gross                       7.94               16.23                         21.88
                                             L.P.                                         Net                         7.89               15.98                         20.55

                                             AllianceBernstein Legacy                     Gross                       2.39                 6.20                          6.46
                                             Securities Master Fund, L.P.                 Net                         2.18                 5.68                          5.08
                                                                                          Gross                       2.55               10.95                         12.65
                                             BlackRock PPIF, L.P.
                                                                                          Net                         2.44               10.59                         11.77

                                             Invesco Legacy Securities                    Gross                       0.95                 7.52                        11.54
                                             Master Fund, L.P.                            Net                         0.84                 7.11                        10.14
                                             Marathon Legacy Securities                   Gross                       2.28                 7.02                          7.03
                                             Public-Private Investment
                                                                                          Net                         2.17                 6.58                          5.14
                                             Partnership, L.P.
                                                                                          Gross                       3.45                  N/A                          6.26
                                             Oaktree PPIP Fund, L.P.
                                                                                          Net                         1.91                  N/A                          1.09

                                             RLJ Western Asset Public/                    Gross                       1.34                 3.59                          7.47
                                             Private Master Fund, L.P.                    Net                         1.25                 3.42                          6.79

                                             Wellington Management Legacy                 Gross                       0.61                 8.14                          7.27
                                             Securities PPIF Master Fund, LP              Net                         0.52                 7.72                          6.39
                                             Notes: Oaktree has not actively traded for three months and therefore does not have a three-month return.
                                             The performance indicators are listed as reported by PPIF managers without further analysis by SIGTARP. The net returns include the
                                             deduction of certain management fees and expenses. Further, several fund managers have told SIGTARP that they are capitalizing
                                             start-up expenses in the first few quarters, which accounts for some of these expenses.
                                             a
                                               Time-weighted, geometrically linked returns. The net returns include the deduction of management fees and partnership expenses
                                             attributable to Treasury.

                                             Sources: PPIF Monthly Performance Reports submitted by each PPIF manager, March 2010. SIGTARP; Response to Initial Report,
                                             3/23/2010.
                                                                               quarterly report to congress I aPRIL 20, 2010                           103




the long term. According to some PPIF managers, it would be premature to draw
any long-term conclusions because, among other things, some PPIF managers have
not fully implemented investment strategies and have not yet fully drawn down on
capital commitments from Treasury.                                                         Figure 2.15
    According to Treasury, each PPIF manager may trade in both RMBS and
                                                                                           AGGREGATE COMPOSITION OF PPIF
CMBS, except for Oaktree, which may purchase only CMBS.284 Figure 2.15 shows               PURCHASES, AS OF 3/31/2010
the collective value of securities purchased by all PPIFs as of March 31, 2010,            percent of $10 Billion

broken down by RMBS and CMBS.                                                                        CMBS
    PPIF investments can be classified by underlying asset type. For non-agency                               12%
RMBS, the underlying assets are mortgages for homes occupied by up to four
families; all non-agency RMBS investments are considered residential. For CMBS,
                                                                                                                              88%          RMBS
the assets are commercial real estate mortgages: office, retail, multi-family, hotel,
industrial (such as warehouses), mobile home parks, mixed-use (a combination
of commercial and residential), and self storage. Figure 2.16 breaks down CMBS
investment distribution by sector. The aggregate CMBS portfolio had large concen-
trations in office loans (32%) and retail loans (26%).                                     Note: Numbers affected by rounding.

    Non-agency RMBS and CMBS can be classified by estimated risk (some-                    Source: PPIF Monthly Performance Reports, March 2010.

times referred to as “quality”). Investors are most concerned with whether the
borrower(s) will default and the underlying collateral will be sold at a loss. There         Figure 2.16
are no universal standards for ranking mortgage quality, and the designations               AGGREGATE CMBS PURCHASES BY
vary depending on context. In general, the highest quality rankings are granted to          SECTOR, AS OF 3/31/2010
mortgages with the highest requirements for the borrower’s credit, completeness of                                  Other
documentation, and underwriting standards. Treasury characterizes these invest-                                      7%
                                                                                                    Lodging
ment-quality levels of risk for non-agency RMBS:285                                         2%                12%
                                                                                            Hotel
                                                                                                                                     32%     Office

•	 Prime — Mortgage loan made to a borrower with good credit that generally                  Industrial 6%

   meets the lender’s strictest underwriting criteria. Non-agency prime loans gener-
                                                                                             Multi-family 15%
   ally exceed the dollar amount eligible for purchase by Government-sponsored
   enterprises (jumbo loans), but may include lower balance loans as well.                                                  26%
                                                                                                                            Retail
•	 Alt-A — Mortgage loan made to a borrower with good credit but with limited
                                                                                            Notes: Numbers affected by rounding. Calculated based on
   documentation or other characteristics that do not meet the standards for Prime          monthly data supplied by PPIF managers.
   loans. An Alt-A loan may have a borrower with a lower credit rating, a higher            Source: PPIF Monthly Performance Reports, March 2010.
   loan-to-value ratio, or limited or no documentation compared to a Prime loan.
•	 Subprime — Mortgage loan made to a borrower with a poor credit rating.
•	 Option Adjustable Rate Mortgage (“ARM”) — Mortgage loan that gives
   the borrower a set of choices of how much interest and principal to pay each
   month. This may result in negative amortization (an increasing loan principal
   balance over time).
104               special inspector general I troubled asset relief program




                                                                         Treasury characterizes these investment-quality levels of risk for CMBS:286

                                                                     •	 Super Senior — Most senior originally rated AAA bonds in a CMBS securitiza-
                                                                        tion with the highest level of credit enhancement. Credit enhancement refers
                                                                        to the percentage of the underlying mortgage pool by balance that must be
                                                                        written down before the bond experiences any losses. Super Senior bonds often
                                                                        comprised 70% of a securitization and therefore had 30% credit enhancement at
                                                                        issuance.
                                                                     •	 AM (Mezzanine) — Mezzanine-level originally rated AAA bond. Creditors
  Figure 2.17                                                           receive interest and principal payments after super senior creditors but before
  AGGREGATE RMBS PURCHASES BY                                           junior creditors. AM bonds often comprise approximately 10% of a CMBS
  QUALITY, AS OF 3/31/2010                                              securitization.
  percent of $8.8 Billion
                                                                     •	 AJ (Junior) — The most junior bond in a CMBS securitization that attained a
                7%                                                      AAA rating at issuance.
                Option ARM


      13%                                                              Figure 2.17 and Figure 2.18 show the distribution of the PPIP-held non-agency
      Subprime
                                                                     RMBS and CMBS investments by respective risk levels, as reported by PPIF
                                         36%       Prime
                                                                     managers.
                                                                       Non-agency RMBS and CMBS can be classified geographically — by the states
          Alt-A      44%

                                                                      Figure 2.19                                                   Figure 2.20
  Note: Numbers affected by rounding.                                 AGGREGATE GEOGRAPHICAL                                        AGGREGATE GEOGRAPHICAL
  Sources: PPIF Monthly Performance Reports, March 2010;              DISTRIBUTION — PERCENT OF TOTAL                               DISTRIBUTION — PERCENT OF TOTAL
  Treasury, response to SIGTARP draft report, 4/17/2010. Treasury,
  response to SIGTARP draft report, 4/17/2010.                        RMBS, AS OF 3/31/2010                                         CMBS, AS OF 3/31/2010

  Figure 2.18
                                                                           50%                                                           25%
  AGGREGATE CMBS PURCHASES BY
  QUALITY, AS OF 3/31/2010                                                 40%
                                                                                    45%
                                                                                                                                         20%
  percent of $1.2 Billion
                                                                                                                                                 20.9%

            Other (CMBS)                                                   30%                                                           15%

                         12%                                                                                                                                  15%
                                          26%       Super Senior           20%                                                           10%

                                                                                                                                                                                     9.7%
                                                                           10%                                                            5%                             7.6%
  AJ (Junior)     29%
                                                                                                8%
                                                                                                            5%          2%
                                                                            0%                                                            0%
                                     33%           AM (Mezzanine)
                                                                                    CA          FL           NY         VA                        CA          NY           FL         TX

                                                                      Notes: Only states with the largest representation shown.     Notes: Only states with the largest representation shown.
  Note: Numbers affected by rounding.                                 Calculated based on monthly data supplied by PPIF managers.   Calculated based on monthly data supplied by PPIF managers.

  Source: PPIF Monthly Performance Reports, March 2010.               Source: PPIF Monthly Performance Reports, March 2010.         Source: PPIF Monthly Performance Reports, March 2010.
                                                                                 quarterly report to congress I aPRIL 20, 2010                         105




                                                                                             Figure 2.21

                                                                                            AGGREGATE AVERAGE RMBS
                                                                                            DELINQUENCIES BY MARKET VALUE,
represented by the underlying mortgages. Figure 2.19 and Figure 2.20 show the               AS OF 3/31/2010
states with the greatest representation in the underlying non-agency RMBS and                 60+ Days
CMBS investments in the PPIFs, as reported by PPIF managers.
                                                                                                               27%
    Non-agency RMBS and CMBS can also be classified by delinquency of the
underlying mortgages. Figure 2.21 and Figure 2.22 show the distribution of the
PPIP-held non-agency RMBS and CMBS investments by respective delinquency                    30+ Days
                                                                                                          4%                       69% Current
levels, as reported by PPIF managers.

Departure of AG GECC Key Person
On February 22, 2010, SIGTARP was notified that Joseph Parsons, a GE repre-                 Note: Numbers affected by rounding.
sentative on the Investment Committee of AG GECC GP, LLC, announced his                     Source: PPIF Monthly Performance Reports, March 2010.
departure. Although Mr. Parsons is a key person listed in the Master Fund limited
                                                                                             Figure 2.22
partnership agreement, his absence does not trigger the freezing of the AG GECC
PPIF or the halting of its transactions under Treasury’s contract with AG GECC.287          AGGREGATE AVERAGE CMBS
                                                                                            DELINQUENCIES BY MARKET VALUE,
Treasury’s agreement with AG GECC GP, LLC provided that Treasury would freeze
                                                                                            AS OF 3/31/2010
the PPIF only if, at any time, a majority of the named key persons or two specific
named key persons, not including Mr. Parsons, departed.288                                        2% 30 Days         60+ Days
                                                                                                                     6%

Unlocking Credit for Small Businesses (“UCSB”)/Small
Business Administration (“SBA”) Loan Support Initiative
To encourage banks to extend more credit to small businesses, Treasury announced
the Unlocking Credit for Small Businesses (“UCSB”) program on March 16, 2009,
                                                                                                                          92%            Current
stating it would purchase up to $15 billion in securities backed by pools of Small
Business Administration (“SBA”) loans from two SBA programs: 7(a) and 504
Community Development Loan.289 On March 19, 2009, Treasury made its first                   Notes: Numbers affected by rounding. Calculated based on
                                                                                            monthly data supplied by PPIF managers.
purchase of 7(a) securities under this program in the amount of $21.4 million.290
                                                                                            Source: PPIF Monthly Performance Reports, March 2010.
Treasury now expects to buy no more than $1 billion in securities via UCSB.291

SBA 7(a) Loan Program Mechanics
                                                                                               7(a) Loan Program: SBA program
The 7(a) program was established to provide financing for start-up and existing
                                                                                               guaranteeing a percentage of loans for
small businesses that might have difficulty qualifying for traditional loans. It helps
                                                                                               small businesses that cannot otherwise
finance a wide variety of business needs, including working capital; machinery,
                                                                                               obtain conventional loans at reasonable
equipment, furniture and fixture, and land and building purchases; leasehold im-               terms.
provements; and debt refinancing, subject to certain conditions. Repayment terms
range from 10 years for working capital funds to 25 years for other assets.292                 504 Community Development Loan
    Borrowers must meet lenders’ and SBA’s criteria. The SBA does not directly is-             Program: SBA program combining
sue 7(a) loans to small businesses but rather provides a partial guaranty against de-          Government-guaranteed loans with
fault. Borrowers must apply through approved SBA lenders, which then determine                 private-sector mortgage loans to
whether to grant the loan and if SBA backing is required. In the event of default,             provide loans of up to $10 million for
the lender receives partial reimbursement from SBA based on the guaranty terms.                community development.
The business owner, however, remains liable for the loan’s full amount.293
106           special inspector general I troubled asset relief program




                                                     TARP Support for 7(a)
                                                     To raise cash, banks typically sell portions of their 7(a) loans to third parties on the
      Pool Assembler: A firm authorized to           secondary market known as pool assemblers, which pool or securitize the loans for
      create and market pools of SBA-guar-           sale to investors. Such sales free up cash for banks to make more small-business
      anteed loans.                                  loans.294 During the recession, 7(a) activity slowed.295 Under TARP’s 7(a) support
                                                     program, Treasury purchases pools of 7(a) loans anonymously on the secondary
                                                     market through an approved pool assembler.296
                                                         Treasury initiated the program and signed a contract with the sole pool as-
                                                     sembler to date, Coastal Securities, on March 2, 2010.297 According to Treasury,
                                                     Earnest Partners, as Treasury’s investment advisor, is conducting a survey to deter-
                                                     mine how similar securities are trading and the current volume of trades and also
                                                     to assess other market information. As Treasury purchases 7(a) loan securities, a
                                                     second firm, Gifford Fong Associates, is providing independent valuation services to
                                                     determine whether received bids are financially viable and appropriately priced.298
                                                     Earnest Partners will purchase the securities anonymously but can buy only from
                                                     Coastal Securities at this stage.299
                                                         Purchasing decisions on 7(a) loan securities are determined by a pricing
                                                     committee within Treasury, which reviews each bid based on market data and
                                                     an independent valuation assessment.300 On March 19, 2010, Treasury bought
                                                     $21.4 million in three floating rate 7(a) securities from Costal Securities, its first
                                                     purchases under this program.301 The CUSIPs for these securities are as follows:302

                                                     •	 Floating Rate SBA 7(a) Security CUSIP 83164KYN7 for $4.4 million
                                                     •	 Floating Rate SBA 7(a) Security CUSIP 83165ADC5 for $8.3 million
                                                     •	 Floating Rate SBA 7(a) Security CUSIP 83165ADE1 for $8.7 million
107                                                                                              quarterly report to congress I aPRIL 20, 2010             107




      TARP Tutorial: federal support for
      small-business lending

      Overview and Description of Market
      In December 2009, Treasury stated that it is shifting TARP’s focus and will limit future
      TARP investments to “housing, small business, and securitization markets that facilitate
      consumer and small-business loans.”303 This section examines the broader role of small
      businesses, both in the economy and in the financial system, and the Government’s sup-
      port of small-business lending.


      What Is a Small Business?
      The Small Business Administration (“SBA”) defines a small business as “[a business] that
      is organized for profit; has a place of business in the U.S.; operates primarily within the              The Small Business Administration
                                                                                                               (“SBA”) is an independent Federal
      U.S. or makes a significant contribution to the U.S. economy through payment of taxes
                                                                                                               agency with a mission to aid, counsel,
      or use of American products, materials, or labor; is independently owned and operated;
                                                                                                               assist, and protect the interests of
      and is not dominant in its field on a national basis. The business may be a sole proprietor-             small businesses, to preserve free
      ship, partnership, corporation, or any other legal form.”304 How small a “small business” is             competitive enterprise, and to maintain
      varies by industry and is usually measured either in average receipts or average number                  and strengthen the overall economy.
                                                                                                               A more complete description of the
      of employees. These are some examples of maximum size standards for the “small”
                                                                                                               SBA, as well as a description of its
      category:305                                                                                             programs, can be found later in this
                                                                                                               section.
      •	 $7 million in average annual sales receipts for retail stores and service firms
                                                                                                               Gross Domestic Product: A measure of
      •	 500 to 1,500 employees for manufacturers
                                                                                                               the total market value of all final goods
      •	 100 employees for wholesale trade firms                                                               and services produced in the U.S.
      •	 500 employees for mining companies                                                                    during any quarter or year. GDP equals
                                                                                                               total consumer spending, business
                                                                                                               investment, Government spending and
      No other Federal department or agency may categorize a business as a “small busi-
                                                                                                               investment, and the value of exports
      ness” without SBA approval.306 Its definition of small business will be used throughout this             minus the value of imports.
      section.

      Importance of Small Businesses to the U.S. Economy
      The Government’s intention to provide assistance to the small business sector under-
      scores its belief in the vital role small businesses can play in reviving growth in the U.S.
      economy. This sector is a significant part of the workforce and contributes greatly to
      the country’s Gross Domestic Product (“GDP”). Three characteristics contribute to the
      small-business sector’s dynamic role throughout the economy in shifting resources from
      outdated processes and industries to more productive ones — a large percentage of
      high-tech workers, a higher patent-to-employee ratio than for large businesses, and small
108   special inspector general I troubled asset relief program                                                                                                       108




                                             businesses’ short average duration.307 The small business sector’s positive impact on net
                                             new job growth underscores its vitality to eventual economic recovery.


                                             Small-Business Employment
                                             Small businesses account for approximately half of all private-sector employment. This
                                             ratio fluctuates in response to economic cycles and conditions, but it has been relatively
                                             stable over the past few decades. In 2006, the last year for which data are available, small
                                             and big businesses employed roughly the same number of people, 60 million each, as
                                             shown in Figure 2.9.308


                                             The Financial Crisis
                                             Since the onset of the financial crisis, lending to small businesses has dropped, making it
                                             difficult to launch or expand small businesses, meet payrolls, or acquire inventory.

                                             Lending Market Response to the Recession
                                             Small businesses rely heavily on banks for financing. After self-financing, small business
                                             owners get approximately 40% of their financing from banks, 30% from trade creditors,

                                             Figure 2.9

                                             SMALL BUSINESSES’ SHARE OF EMPLOYMENT FROM 1988 − 2006

                                             60%


                                             50%


                                             40%


                                             30%


                                             20%
                                                   1988        1990        1992        1994        1996        1998       2000        2002        2004       2006

                                                         Total
                                                         Retail (SIC)
                                                         Retail (NAICS)
                                                         Manufacturing (SIC)
                                                         Manufacturing (NAICS)

                                             Note: The North American Industry Classification System (”NAICS”) was adopted in 1997 to replace the Standard Industry
                                             Classification (”SIC”) system.

                                             Source: SBA, “An Analysis of Small Business and Jobs,” 3/2010, www.sba.gov/advo/research/rs359tot.pdf, p.5, accessed
                                             3/31/2010.
109                                                                                                                           quarterly report to congress I aPRIL 20, 2010                         109




      and 10% from commercial finance companies.309 As the recession set in, banks and other
      lenders tightened credit standards, restricting lending to all but the strongest borrowers
      and “reducing the amount of credit, increasing haircuts on positions financed, and shorten-
      ing the term for which credit was extended.”310
          These new and sudden restrictions caught many small business owners off guard. For
      example, banks are typically allowed to cancel some working capital lines of credit at any
      time. In that event, small business owners may suddenly find that an expected source of
      credit has not only disappeared, but they must repay what they already borrowed sooner
      than expected.311 A small business’s finances are usually intertwined with its owner’s
      finances, which only exacerbates the problem. For example, many small business owners
      use credit cards for business purchases.312 Often banks unilaterally reduce available credit
      or increase interest rates on credit cards.313 With this combination, many small business
      owners faced a reduction or withdrawal of the credit available to the business and were
      unable to make up the difference with personal funds. When a bank abruptly pulls credit
      and raises interest rates on existing debt, even a business that is otherwise stable may
      suddenly be unable to pay its bills and be forced to restrict business activities or even file
      for bankruptcy.
       Figure 2.10

       NET PERCENTAGE OF DOMESTIC RESPONDENTS TIGHTENING STANDARDS
       FOR COMMERCIAL AND INDUSTRIAL LOANS
      100%


       80%


       60%


       40%


       20%


         0


       -20%


       -40%
              1990              1992              1994             1996              1998             2000              2002             2004              2006             2008             2010


              Loans to large and medium-sized firms
              Loans to small firms

       Source: Federal Reserve, “The January 2010 Senior Loan Officer Opinion Survey on Bank Lending Practices,” 2/1/2010, www.federalreserve.gov/boarddocs/snloansurvey/201002/fullreport.pdf.,
       accessed 3/3/2010.
110               special inspector general I troubled asset relief program                                                                                                              110




                                                                         Although a recent survey showed that most banks have finally stopped tightening
   Credit Underwriting: The process used                             credit-underwriting standards as illustrated in Figure 2.10, most have not relaxed stan-
   by a financial institution to determine                           dards either.314 The same survey showed that the few banks that continued tightening
   the risks involved in providing credit to
                                                                     credit terms were more restrictive to small firms than to larger firms.315
   a borrower and to measure those risks
   against standards established by the
                                                                     Lending by Small Banks vs. Large Banks
   financial institution’s board of direc-
                                                                     Federal banking regulators do not specifically collect data on loans to small businesses.
   tors. For a small business loan, credit
   underwriting standards can be applied                             For reporting purposes, small-business loans are categorized as business loans with
   to the firm, the owner, or both.                                  original amounts of $1 million or less. Even that data is only collected every June 30.316 As
                                                                     of June 30, 2009, commercial banks with total assets of $1 billion or more (classified as
                                                                     large banks) represented 89.5% of all commercial banking assets and originated 65.8%
                                                                     of small-business loans.317 Small-business loans are a larger portion of small banks’ loan
 Figure 2.12                                                         portfolios, as shown in Figure 2.11. Large banks have received a much larger portion of
 SMALL-BUSINESS LOANS VS.                                            TARP assistance, as shown in Figure 2.12.
 TARP ASSISTANCE BY BANK SIZE,                                           From June 30, 2008, to June 30, 2009, outstanding small-business loans dropped
 AS OF 6/30/2009
 $ MILLIONS                                                          $14.5 billion, or 2.3%. Small banks with less than $100 million in assets had the largest
                                                                     percentage decline ($2.3 billion or 7.9%) while large banks had the largest decline in loan
$500,000
                                                                     volume ($7.6 billion or 1.8%).318 According to the Federal Deposit Insurance Corporation
$400,000

                                                                     Figure 2.11
$300,000
                                                                     CONCENTRATION OF SMALL-BUSINESS LOANS BY BANK SIZE/ASSETS,
                                                                     AS OF 6/30/2009
$200,000

                                                                      < $100 MILLION                                 $100 MILLION TO $1 BILLION                     > $1 BILLION
$100,000


          0
              <$100 Million     $100 Million –     >$1 Billion
                                $1 Billion                                                                                                                                         17%
                  Small-Business Loans                                                     66%                                              41%
                  TARP Assistance

 Notes: Business loans with original amounts less than $1 million
 used as a proxy for small-business loans. Bank size for TARP
 assistance based on risk-weighted assets, calculated based on
 participation in CPP.

 Sources: FDIC, “Statistics on Banking,” no date,
 www2.fdic.gov/SDI/SOB/, accessed 3/30/2010. Treasury,                   Small-Business Loans
 “Transactions Report,” 7/2/2009, www.financialstability.gov/docs/       Other Loans
 transaction-reports/transactions-report_070209.pdf, accessed
 4/1/2010.
                                                                      Note: Business Loans with original amounts less than $1 million used as a proxy for Small Business Loans.

                                                                      Source: FDIC, “Statistics on Banking,” no date, www2.fdic.gov/sdi/sob, accessed 3/20/2010.
111                                                                                          quarterly report to congress I aPRIL 20, 2010   111




      (“FDIC”), all commercial bank lending declined in 2009. During the fourth quarter, commer-
      cial and industrial loans dropped the most, at $54.5 billion or 4.3%. During all of 2009,
      total commercial banking assets fell by a net $731.7 billion, or 5.3%, the largest one-year
      percentage drop since the FDIC was formed in 1933.319

      Small Business Administration (“SBA”)
      Congress established the Small Business Administration (“SBA”) in 1953 to “aid, counsel,
      assist and protect, insofar as is possible, the interests of small businesses.” SBA’s mission
      is to help small businesses start and grow by providing loan assistance.320 SBA supports
      small businesses primarily by guaranteeing loans from private lenders, as well as offer-
      ing debt financing, surety bonds, equity financing, grants, and other forms of financial
      assistance.321 To guarantee private loans, SBA uses several programs, including 7(a),
      CDC/504, microloan, and the disaster assistance loan program. As of September 30,
      2009, SBA’s outstanding loan portfolio of $90.5 billion primarily consisted of the following
      programs:322


      •	 7(a) Loan Program: Section 7(a) of the Small Business Act authorizes SBA to
         guarantee loans to small businesses. As SBA’s primary program, it assists start-up and
         existing businesses that are unable to secure loans without a guarantee. A business
         may borrow up to $2 million through this program.323 As of fiscal year-end 2009, the
         program had an outstanding principal balance of $49.7 billion.324
      •	 Certified Development Company (“CDC”) 504 Loan Program: Provides long-
         term, fixed-rate financing so borrowers may purchase long-term fixed assets for
         expansion or modernization, including real estate and equipment. CDC is a private, not-
         for-profit corporation that works with SBA and private lenders.325 As of fiscal year-end
         2009, the program had an outstanding principal balance of $23.8 billion.326
      •	 Microloan Program: SBA provides funds to intermediaries that lend to small busi-
         nesses, making small and short-term loans to start-ups, newly established businesses,
         and growing businesses. Although SBA does not directly lend to qualifying businesses,
         it gives funds to non-profit, community-based lenders, which in turn lend up to $35,000
         to qualified borrowers.327
      •	 Disaster Assistance Loan Program: Provides low-interest loans of up to $2 million
         to homeowners, renters, any size business, and most private non-profit organizations
         to replace or repair assets damaged or destroyed in a Government-declared
112           special inspector general I troubled asset relief program




                                                        disaster.328 For the fiscal year ending September 30, 2009, SBA approved 21,780 of
                                                        these loans, totaling $1.1 billion.329 As of fiscal year-end 2009, the program had an
                                                        outstanding principal balance of $8.4 billion.330

                                                     Seed and Venture Capital Program (Equity Financing)
  Venture Capital: A type of private equity          The SBA also provides venture capital through its public-private investment partnership
  capital typically provided for early-              with SBA’s Small Business Investment Company (“SBIC”). In 1958, Congress created SBIC
  stage, high-growth potential companies
                                                     to help businesses raise the necessary capital for growth. Although licensed and regulated
  in the interest of generating a return
  through an eventual realization event,             by SBA, SBIC is a privately owned and managed fund that raises private capital and bor-
  such as the sale of the company, a                 rows at favorable interest rates. The for-profit organization makes long-term loans to, or
  merger, or an initial public offering.             equity investments in, qualifying start-ups with growth potential.331 Generally, SBIC makes
                                                     three types of investments:332


                                                     •	 Loans with Warrants — SBIC provides loans to the qualifying business and receives
                                                        as part of the loan terms warrants to purchase common stock at a predetermined
                                                        price within a specified time period.
                                                     •	 Convertible Debentures — loans that can be converted to common stock at SBIC’s
                                                        discretion
                                                     •	 Stock Purchases


      For the definition of warrants, see “Capital       Since its inception, SBIC has invested approximately $50.6 billion.333 As of the end of
      Purchase Program” in Section 2: “TARP          fiscal year 2009, SBA had more than $8.2 billion invested with SBIC. When combined with
      Overview” in this report.                      private capital of approximately $8.7 billion, the program had invested more than $16.9
                                                     billion, including loans with an outstanding principal balance of $6.8 billion.334


                                                     SBA America’s Recovery Capital (“ARC”) Loan Program
                                                     The ARC program aims to help stressed businesses meet debt obligations. ARC loans can
                                                     be put toward principal and interest payments on existing, qualifying debts, thereby freeing
                                                     up money for investment, job creation, and retention. ARC loans are 100% guaranteed by
                                                     SBA, and there are no SBA fees. Although ARC borrowers do not pay interest, SBA pays
                                                     interest to the lenders. Usually, the loans extend for up to five years.335 Businesses can
                                                     qualify for only one ARC loan, which is capped at $35,000.321 As of December 31, 2009,
                                                     more than $167 million was lent through ARC.336
                                                                                       quarterly report to congress I aPRIL 20, 2010          113




Bonding Program (Surety Bonds)
A surety bond is an agreement between a surety (such as a bank), a contractor, and a
project owner, which states that if the contractor is unable to perform the contract, the
surety will take responsibility for project completion. The Bonding Program is for small and
minority contractors who cannot secure surety bonds through regular commercial chan-
nels. Through the surety bond program, SBA offers bid, payment, and performance bond                 Bid Bond: Guarantees that the bidder
guarantees. The guarantee makes SBA liable for a pre-determined loss percentage if the               on a contract will enter into the
                                                                                                     contract and furnish any required pay-
contractor breaches the contract terms.337 Contractors can obtain multiple guarantees,
                                                                                                     ment and performance bonds.
but the amount of each contract that can be guaranteed is limited to $5 million.338 The fis-
cal year 2010 Federal budget includes $1 billion for the surety bond program.339                     Payment Bond: Guarantees that
                                                                                                     the contractor will pay anyone who
SBA Grant Program                                                                                    furnishes labor, materials, equipment,
The Program for Investment in Micro-Entrepreneurs (“PRIME”) makes grants to organiza-                and/or supplies for the contract.
tions providing management, technical, or financial assistance. Generally, these grants
                                                                                                     Performance Bond: Guarantees that
go to non-profit organizations, intermediary lenders, and state and local governments that
                                                                                                     the contractor will complete the
help business owners and low-income entrepreneurs access capital to start or expand                  contract in accordance with its terms.
their companies. Through PRIME, SBA supports large and small micro-enterprise develop-
ment organizations — as well as those serving urban, rural, and Native American tribal
communities — by making grants for four purposes: technical assistance, capacity build-
ing, research and development, and discretionary purposes.340

The American Recovery and Reinvestment Act of 2009 (“ARRA”)
ARRA, enacted February 17, 2009, authorized another $730 million for SBA to help small
businesses get private loans. This funding provides:341


•	 $375 million to temporarily eliminate the guarantee fees that borrowers normally pay
   to get SBA-backed loans (In addition, it raises the guarantee amount for 7(a) loans
   to 90%. 7(a) loans are normally guaranteed by as much as 85% on loans of up to
   $150,000, and 75% on loans of more than $150,000.)342
•	 $255 million to create a new program, America’s Recovery Capital (“ARC”) Loan
   Program, to help stressed businesses pay off debts and expenses
•	 $30 million for the microloan program
•	 $24 million for technical assistance grants to microlenders
•	 $15 million to expand SBA’s surety bond guarantee program
114            special inspector general I troubled asset relief program




                                                      Automotive Industry Support Programs
                                                      During the financial crisis, Treasury, through TARP, launched the Automotive
                                                      Industry Financing Program (“AIFP”), under which two additional subprograms
                                                      fall — the Auto Supplier Support Program (“ASSP”) and the Auto Warranty
                                                      Commitment Program (“AWCP”). According to Treasury, AIFP was established
                                                      “to prevent a significant disruption of the American automotive industry that poses
                                                      systemic risk to financial market stability and will have a negative effect on the real
                                                      economy of the United States.”343
                                                           The auto industry has not received Government assistance since the capital
                                                      infusion of $3.8 billion into GMAC through AIFP on December 30, 2009. The
                                                      ASSP, designed to allay fears that auto companies would not be able to make their
                                                      payments to the auto parts suppliers, terminated for GM on April 5, 2010, and for
                                                      Chrysler on April 7, 2010.344
      For a breakdown of Treasury’s invest-                As of March 31, 2010, Treasury committed $84.8 billion to General Motors
      ments under the Automotive Industry             Corporation (“GM”), GMAC, Chrysler, and Chrysler Financial through these pro-
      Support Programs, see SIGTARP’s                 grams. The companies have paid back approximately $4.6 billion.345 As of February
      January 2010 Quarterly Report, pages            17, 2010, CBO estimates AIFP will result in a $34 billion cost to Treasury, com-
      90-91.
                                                      pared to OMB’s estimated cost of $31 billion.346

                                                      Automotive Industry Financing Program
                                                      As of March 31, 2010, Treasury had invested $80.7 billion through AIFP to sup-
                                                      port automakers and their financing arms in order to “avoid a disorderly bankruptcy
                                                      of one or more automotive companies.”347 As of March 31, 2010, Treasury had
                                                      received approximately $1.7 billion in dividends and interest payments on these
                                                      investments.348 AIFP-related principal repayments included approximately $2.4 bil-
                                                      lion from GM and $1.8 billion from Chrysler Financial.349

                                                      General Motors
                                                      As of March 31, 2010, Treasury committed approximately $52.4 billion to GM,
                                                      including $2.9 billion through ASSP and AWCP. Of the $49.5 billion committed
                                                      directly to GM through AIFP, $19.4 billion was granted pre-bankruptcy and $30.1
                                                      billion during bankruptcy. Most of Treasury’s GM investment was converted either
                                                      into common and preferred stock in New GM (the company that emerged from
                                                      bankruptcy) or into debt assumed by New GM. As a result, Treasury’s $49.5 billion
                                                      investment in GM was converted to a 60.8% common equity stake in New GM,
                                                      $2.1 billion in preferred stock in New GM, and $7.1 billion of debt assumed by
                                                      New GM. As part of the warranty program wind-down, $360 million of the debt
                                                      was repaid on July 10, 2009. In addition, New GM repaid $1 billion on December
                                                      18, 2009; $35 million on January 21, 2010; and $1 billion on March 31, 2010.350
                                                                               quarterly report to congress I aPRIL 20, 2010      115




Under the terms of the sale of certain assets from Old GM to New GM under
Section 363 of the Bankruptcy Code, the United Auto Workers (“UAW”), bond-
holders, Treasury, and the governments of Canada and Ontario are the owners of
New GM.351
    The operating agreement between GM and the Federal Government, which
is monitoring GM’s restructuring efforts, provides that GM will make a “reason-
able best effort” to conduct an initial public offering (“IPO”) by July 10, 2010,
the first anniversary of its emergence from bankruptcy.352 Treasury may reduce its           For more detail on New GM’s owner-
ownership in GM by gradually selling its shares following an IPO.353 According to            ship, see SIGTARP’s October 2009
Treasury, the state of the securities markets and other factors — such as GM’s prof-         Quarterly Report, page 93.
itability, liquidity, market share, and sales volume — will determine the timing.354

Debt Repayments
GM has made several payments on its outstanding loan to Treasury and expects to
pay it in full by June 30, 2010. The source of funds for these quarterly payments
will be other TARP funds currently held in an escrow account.355 GM made the
first and second of the quarterly $1 billion payments to Treasury on December 18,
2009, and March 31, 2010.356 After these two quarterly principal payments, GM’s
remaining Treasury debt is approximately $4.7 billion, as of March 31, 2010.357 For
more information on this arrangement, see SIGTARP’s audit report, “Additional
Insight on Use of Troubled Asset Relief Program Funds,” dated December 10,
2009, available at www.SIGTARP.gov.

Restructuring Plans
According to the approved restructuring plans submitted to Treasury, New GM will
move forward by focusing on its four core brands — Chevrolet, Cadillac, Buick,
and GMC cars, trucks, and crossovers — and by developing energy-saving tech-
nologies, including advanced internal combustion engines, biofuels, fuel cells, and
hybrids. By the end of 2010, New GM’s goals will be to operate only 34 assembly
plants (down from 47 in 2008) and to reach a capacity-utilization rate of 100% dur-
ing 2011.358
    In May 2009, New GM began to accelerate its dealer consolidation efforts, re-
ducing the number of New GM dealers in the United States from 6,000 to approxi-
mately 3,600 by the end of the year.359 As a result, 1,454 dealers received notice
that their franchise agreements would be terminated.360 On December 16, 2009,
Congress passed legislation requiring GM and Chrysler to offer binding arbitration
to dealers whose outlets were being closed under the companies’ bankruptcy reor-
ganizations.361 In March 2010, New GM announced an offer to reinstate 666 of
the approximately 1,169362 dealers that had appealed the loss of their franchises.363
These reinstatements are not yet final.
116            special inspector general I troubled asset relief program




                                                      Chrysler
                                                      As of March 31, 2010, Treasury committed approximately $13.8 billion to Chrysler,
                                                      including $1.3 billion through ASSP and AWCP. Of the approximately $12.5
                                                      billion committed directly to Chrysler through AIFP, Treasury retains an invest-
                                                      ment in New Chrysler of $9 billion in debt and an ownership stake in 9.9% of the
                                                      company’s equity.364
                                                           Chrysler filed for Chapter 11 bankruptcy on April 30, 2009. Pursuant to a sale
                                                      under Section 363 of the Bankruptcy Code, most of its assets were sold to a new
                                                      entity, Chrysler Group LLC (“New Chrysler”), on June 10, 2009. The remaining
                                                      assets and debt, including the $3.5 billion original loan and the $1.9 debtor-in-
                                                      possession loan remained with the old company, renamed Old Carco LLC (“Old
                                                      Chrysler”), which is still in bankruptcy.365
                                                           Chrysler terminated franchise agreements with 789366 dealers, or about 25% of
                                                      its U.S. network, in June 2009 as it emerged from bankruptcy under new manage-
                                                      ment led by Italy’s Fiat SpA. Chrysler began accepting arbitration requests follow-
                                                      ing the passage of Congressional legislation in December 2009. As of March 2010,
                                                      Chrysler had offered to reinstate 50 of the 418 dealers appealing the loss of their
                                                      franchises.367 These reinstatements are not yet final.

      For a summary of Treasury’s investments
                                                      Automotive Financing Companies
      in GMAC, see SIGTARP’s January 2010
                                                      GMAC
      Quarterly Report, page 94.
                                                      As of March 31, 2010, Treasury owned 56.3% of GMAC’s common stock, $2.5
                                                      billion in trust-preferred securities, and $11.4 billion in mandatorily convertible
                                                      preferred (“MCP”) shares.368

                                                      Status of Funds
                                                      Treasury’s latest capital injection and share conversions increased the quality of
                                                      GMAC’s capital. GMAC told the Congressional Oversight Panel that it aims to
                                                      launch an IPO within the next two years.369 Treasury would have the option of sell-
                                                      ing a portion of its ownership during an IPO.370

                                                      Chrysler Financial
                                                      The Government loaned $1.5 billion to support Chrysler Financial’s retail loan
                                                      originations in January 2009. In July 2009, Chrysler Financial repaid the loan, with
                                                      interest.371

                                                      Auto Supplier Support Program/Auto Warranty Commitment
                                                      Program
                                                      On March 19, 2009, Treasury announced the $5 billion Auto Supplier Support
                                                      Program (“ASSP”) to “help stabilize the automotive supply base and restore credit
                                                      flows in a critical sector of the American economy.”372 As of July 1, 2009, the total
                                                                              quarterly report to congress I aPRIL 20, 2010           117




commitment was reduced from $5 billion to $3.5 billion.373 Because of worries
about the auto manufacturers’ ability to pay their invoices, suppliers had not been
able to borrow from banks using their receivables as collateral. ASSP allowed au-
tomotive parts suppliers to access Government-backed protection for money owed
them for the products they shipped to manufacturers. New Chrysler and New GM
participated in the program with commitments of $1 billion for New Chrysler and
$2.5 billion for New GM and added receivables related to participating suppliers.374
ASSP continued to operate through the last quarter but was terminated for GM
on April 5, 2010, and for Chrysler on April 7, 2010, at which time both GM and
Chrysler repaid the full amount of their borrowings; GM repaid $290 million and
Chrysler $123 million, plus interest.375 For a summary of ASSP investments, see
SIGTARP’s January 2010 Quarterly Report, page 95.



Executive Compensation
As discussed in SIGTARP’s previous quarterly reports, TARP recipients are sub-
ject to executive compensation restrictions. The rules set forth in Section 111 of
the Emergency Economic Stabilization Act of 2008 (“EESA”) have been changed
by Congress and interpreted and implemented by successive Treasury regula-
tions and notices. These include the Interim Final Rule on TARP Standards for
Compensation and Corporate Governance (the “Rule”), which Treasury issued on
June 10, 2009.376 This Rule consolidated all previous executive compensation-relat-       For more information on the Rule and
ed regulations into a single directive and implemented the restrictions mandated by       a summary of the timeline on TARP
Congress in the American Recovery and Reinvestment Act of 2009 (“ARRA”).377               executive compensation restrictions, see
                                                                                          SIGTARP’s July 2009 Quarterly Report,
    As long as a TARP recipient has an outstanding “obligation” to Treasury (as de-
                                                                                          page 118.
fined by ARRA, this does not include warrants to purchase common stock), it must
adhere to the guidelines set forth under the Rule.378                                     For more information on executive
    However, some program participants are exempt from the Rule:379                       compensation issues and findings, refer
                                                                                          to SIGTARP’s audits, “Despite Evolving
•	 TALF recipients, since they do not directly receive TARP assistance (instead,          Rules on Executive Compensation,
                                                                                          SIGTARP Survey Provides Insights on
   TARP funds purchase collateral surrendered to TALF)
                                                                                          Compliance,” issued on August 19, 2009,
•	 PPIP participants, because none owns more than 50% of any PPIF, which is the           and “Extent of Federal Agencies Oversight
   actual TARP recipient (PPIP rules cap ownership interests in any PPIF at 9.9%)         of AIG Compensation Varied and
•	 Making Home Affordable (“MHA”) program participants, who are statutorily               Important Challenges Remain,” issued on
   exempt under ARRA                                                                      October 14, 2009.


Special Master
Treasury created the Office of the Special Master for TARP Executive
Compensation (the “Special Master”) on June 15, 2009, and appointed Kenneth R.
Feinberg to the position. Special Master Feinberg’s responsibilities include:380
118            special inspector general I troubled asset relief program




                                                      •	 Top 25 Payment Reviews — review and approve compensation structures and
      Senior Executive Officer (“SEO”): A                payments for the 5 most senior executive officers (“SEOs”) and the next 20 most
      “named executive officer” of a TARP                highly paid employees at institutions that received exceptional financial assis-
      recipient as defined under Federal                 tance under the TARP
      securities law, which generally includes        •	 Top 26 through 100 Payment Reviews — review and approve compensation
      the principal executive officer (“PEO”),           structures for the next 75 employees at institutions that received exceptional
      principal financial officer (“PFO”), and           financial assistance: employees who are not in the top 25 and who are either
      the next three most highly compen-                 executive officers or among the top 100 most highly paid employees
      sated executive officers.                       •	 Prior Payment Reviews — review bonuses, retention awards, and other com-
                                                         pensation paid to SEOs and the 20 next most highly compensated employees
                                                         of each entity receiving TARP assistance before February 17, 2009, and, where
                                                         appropriate, negotiate reimbursements
                                                      •	 Interpretation — provide advisory opinions with respect to the application of
                                                         the Rule and whether compensation payments and plans are consistent with
                                                         EESA, TARP, and the public interest

                                                      Exceptional Assistance Compensation Determinations for the
                                                      25 Most Highly Compensated Employees
      Exceptional Assistance: Companies               As of March 31, 2010, only five firms were still considered “exceptional assistance”
      receiving assistance under SSFI, TIP,           recipients: AIG, Chrysler, Chrysler Financial, GM, and GMAC. Although Chrysler
      AIFP, and any future Treasury program           Financial repaid its TARP funds, it is still considered a recipient of exceptional as-
      designated by the Treasury Secretary            sistance because it is a subsidiary of Chrysler Holdings, which has an outstanding
      as providing exceptional assistance.            obligation that qualifies as exceptional assistance.
      Current recipients are: AIG, GM, GMAC,              Citigroup’s and Bank of America’s repayments removed them from the desig-
      Chrysler, and Chrysler Financial.384            nation. Bank of America has repaid all the funds it received under TARP and is
                                                      no longer subject to any compensation restrictions.381 In contrast, Citigroup still
                                                      has outstanding TARP obligations but is no longer considered by Treasury to be
                                                      a recipient of “exceptional assistance.” Until those obligations are repaid in full,
                                                      Citigroup will remain subject to the EESA compensation restrictions that apply to
                                                      all TARP recipients, including those set forth in ARRA and the Rule.
                                                          On March 23, 2010, Special Master Feinberg issued his rulings on the 2010
                                                      pay packages for the top 25 executives at the aforementioned five firms. According
                                                      to Treasury, the Special Master reaffirmed the guiding principles used in the
                                                      2009 rulings to make determinations for 2010.382 These principles included the
                                                      following:383

                                                      •	 reform pay practices for top executives to align compensation practices with
                                                         long-term value creation and financial stability
                                                      •	 require that a majority of salaries be paid in company stock held over the long
                                                         term
                                                                                 quarterly report to congress I aPRIL 20, 2010          119




•	 require that incentive compensation be in the form of long-term restricted stock
   and contingent on performance and TARP repayment
•	 place tougher limits on perquisites and retirement benefits

   The 2010 rulings included the following significant determinations:385
•	 on average, a 33% decrease in overall cash payments from 2009 levels for the
   specific executives subject to the rulings
•	 on average, a 15% decrease in total compensation from 2009 levels for the spe-
   cific executives subject to the rulings
•	 cash salaries frozen at $500,000 unless good cause is shown; 18% of 	
   executives subject to the March 2010 rulings (21 employees) will receive 	
   cash salaries greater than $500,000

    The Special Master also issued a letter to 419 banks that received TARP fund-
ing prior to February 17, 2009, requesting information on the compensation paid
to the 25 most highly paid executives prior to that date.386 In an effort to ease the
administrative burden on small banks, the Special Master limited the scope of his
request, requiring the banks to provide detailed compensation data only for those
executives earning compensation above $500,000.387 The banks’ responses were
due within 30 days. The Special Master will examine the payments and decide
if any ran contrary to the public interest.388 If he concludes any payments were               Public Interest Standard: Regulatory
contrary to the Public Interest Standard, the Special Master is required to seek to            standard that the Special Master is
negotiate with the TARP recipient and the subject employee for appropriate reim-               required to apply in making determina-
bursements to the Federal Government.389                                                       tions. Refers to the determination of
                                                                                               whether TARP recipient compensation
                                                                                               plans are aligned with the best inter-
                                                                                               ests of the U.S. taxpayer, based on
                                                                                               a balancing of specific principles set
                                                                                               forth in the Rule.



                                                                                             For more information on the specific
                                                                                             principles used in reviewing compensa-
                                                                                             tion plans, see SIGTARP’s July 2009
                                                                                             Quarterly Report, pages 122-123.
120   special inspector general I troubled asset relief program
Se ction 3
             TARP Operations and
             Administration
122   special inspector general I troubled asset relief program
                                                                                           quarterly report to congress I aPRIL 20, 2010   123




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the
operational and administrative mechanisms to carry out the Troubled Asset Relief
Program (“TARP”). EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”), which is responsible for
administering TARP.390 Treasury has authority to establish program vehicles, issue
regulations, directly hire or appoint employees, enter into contracts, and designate
financial institutions as financial agents of the Federal Government.391 In addition
to permanent and interim staff, OFS relies on contractors and financial agents in
legal, investment consulting, accounting, and other key service areas.392


TARP Administrative and Program
Expenditures
As of March 31, 2010, Treasury spent $92.8 million administering TARP.393 Table
3.1 provides a summary of expenditures and obligations through March 31, 2010.
These costs are categorized as “personnel services” and “non-personnel other ser-
vices,” with a few exceptions.

Table 3.1

 TARP Administrative expenditures and obligations
                                                             Obligations for   Expenditures for
                                                             Period Ending       Period Ending
Budget Object Class Title                                      3/31/2010           3/31/2010
Personnel Services
 Personnel Compensation & Services                             $29,595,486         $29,126,778
Total Personnel Services                                      $29,595,486         $29,126,778
Non-Personnel Services
 Travel & Transportation of Persons                               $573,418            $531,878
 Transportation of Things                                            11,960             11,960
 Rents, Communications, Utilities & Misc.                          669,885             545,485
 Charges
 Printing & Reproduction                                                395                395
 Other Services                                                 91,165,716          62,011,503
 Supplies & Materials                                              349,899             341,435
 Equipment                                                         232,054             222,675
Land & Structures                                                        —                  —
Dividends and Interest                                                   13                 13
Total Non-Personnel Services                                  $93,003,340         $63,665,344
Grand Total                                                  $122,598,826         $92,792,122
Note: Numbers affected by rounding.

Source: Treasury, response to SIGTARP data call, 4/7/2010.
124           special inspector general I troubled asset relief program




                                                          Treasury released a summary of programmatic expenditures, including costs to
                                                      hire financial agents and legal firms. Treasury spent $276.1 million on programs as
                                                      of March 31, 2010.394


                                                      Current Contractors and Financial
                                                      Agents
                                                      As of March 31, 2010, Treasury retained 51 private-sector vendors, including 13
                                                      financial agents and 35 contractors, to provide help in administering TARP.395
                                                      Treasury streamlined solicitation procedures and structured several agreements
                                                      and contracts pursuant to Federal Acquisition Regulations to allow for flexibility in
                                                      obtaining the required services expeditiously. Table 3.2 includes service providers
                                                      retained as of March 31, 2010.396
      Table 3.2

       OFS SERVICE CONTRACTS (Cont.)
                                                                                                 Type of              Obligated
      Date          Vendor                             Purpose                                   Transaction              Value     Expended Value
      10/8/2008     PricewaterhouseCoopers             Internal control services                 Contract           $22,597,082        $14,675,021


      10/10/2008    Simpson Thacher & Bartlett         Legal services for the implementation     Contract            $1,025,000            $931,090
                    LLP                                of TARP
      10/11/2008    Ennis, Knupp & Associates Inc      Investment and Advisory Services          Contract            $2,860,965          $2,587,164


      10/14/2008    The Bank of New York Mellon        Custodian                                 Financial Agency   $21,870,268         $13,199,149
                    Corporation                                                                  Agreement
      10/18/2008    Ernst & Young LLP                  Accounting Services                       Contract           $11,493,786          $8,251,391


      10/29/2008    Squire, Sanders & Dempsey LLP      Legal services for the Capital            Contract            $6,985,000          $2,680,499
                                                       Purchase Program
      10/29/2008    Hughes Hubbard & Reed LLP          Legal services for the Capital            Contract            $7,109,312          $2,780,807
                                                       Purchase Program
      10/31/2008    Lindholm & Associates, Inc         Human resources services                  Contract             $751,302             $492,140


      11/7/2008     Sonnenschein Nath & Rosenthal      Legal services related to auto industry   Contract            $2,722,326          $2,722,326
                    LLP                                loans
      12/3/2008     Alcohol and Tobacco Tax and        IAA - TTB Development, MGMT &             Inter Agency          $67,489              $67,489
                    Trade Bureau                       Operation of SharePoint                   Agreement
      12/10/2008    Sonnenschein Nath & Rosenthal,     Legal Services for the purchase of        Contract             $249,999              $82,884
                    LLP                                asset-backed securities
      12/12/2008    Pension Benefit Guaranty           Financial Advisory Services related to    Inter Agency        $8,220,000          $7,750,000
                    Corporation                        Auto program                              Agreement
      12/24/2008    Cushman and Wakefield of VA Inc    Painting Services for TARP Offices        Contract               $8,841               $8,841


      1/7/2009      Colonial Parking Inc.              Lease of parking spaces                   Contract             $191,650              $72,003


                                                                                                                              Continued on next page.
                                                                                        quarterly report to congress I aPRIL 20, 2010             125




OFS SERVICE CONTRACTS (Cont.)
                                                                                        Type of               Obligated
Date        Vendor                            Purpose                                   Transaction               Value      Expended Value
1/9/2009    The United States Mint            “Making Home Affordable” Logo             Inter Agency              $975                    $325
                                              search                                    Agreement
1/27/2009   Cadwalader, Wickersham & Taft     Bankruptcy Legal Services                 Contract              $417,563              $409,955
            LLP
1/27/2009   Whitaker Brothers Business        Paper Shredder                            Contract                $3,213                   $3,213
            Machines Inc
2/2/2009    US Government Accountability      IAA - GAO Required by P. L. 110-343       Inter Agency        $20,360,000         $12,122,421
            Office                            to conduct certain activities related     Agreement
                                              to TARP
2/9/2009    Pat Taylor & Associates, Inc      Temporary Services for Document           Contract              $799,960              $692,108
                                              Production, Freedom of Information
                                              Act (“FOIA”) Assistance, and Program
                                              Support
2/12/2009   Locke Lord Bisell & Liddell LLP   Initiate Interim Legal Services in sup-   Contract              $693,600              $272,225
                                              port of Treasury Investments under
                                              EESA
2/18/2009   Fannie Mae                        Homeownership Preservation Program        Financial Agency   $113,365,363         $72,166,646
                                                                                        Agreement
2/18/2009   Freddie Mac                       Homeownership Preservation Program        Financial Agency   $107,089,955         $46,645,162
                                                                                        Agreement
2/20/2009   Congressional Oversight Panel     IAA - Review Current State Of financial   Inter Agency         $6,205,000           $4,000,000
                                              markers & regulatory sys & rpt certain    Agreement
                                              activities
2/20/2009   Venable LLP                       Capital Assistance Program (II)           Contract             $1,770,750           $1,394,724


2/20/2009   Simpson Thacher & Bartlett LLP    Capital Assistance Program (I)            Contract             $2,796,180           $1,433,095


3/6/2009    The Boston Consulting Group       Management Consulting relating to the     Contract             $1,000,000             $991,169
                                              Auto industry
3/16/2009   Earnest Partners                  Small Business Assistance Program         Financial Agency     $4,050,000           $1,305,000
                                                                                        Agreement
3/30/2009   Cadwalader, Wickersham &Taft      Auto Investment Legal Services            Contract            $22,269,120          $16,631,060
            LLP
3/30/2009   Haynes and Boone, LLP             Auto Investment Legal Services            Contract              $532,175              $345,746


3/30/2009   Mckee Nelson LLP                  SBA Initiative Legal Services - Con-      Contract              $149,349              $126,631
                                              tract Novated to TOFS-10-D-0001 with
                                              Bingham McCutcheon
3/30/2009   Sonnenschein Nath & Rosenthal     Auto Investment Legal Services            Contract             $2,159,709           $1,834,193
            LLP
3/31/2009   FI Consulting                     Credit Reform Modeling and Analysis       Contract             $2,037,325           $1,153,944


4/3/2009    American Furniture Rentals Inc.   Furniture Rental 1801                     Inter Agency           $35,190                  $25,812
                                                                                        Agreement
                                                                                                                       Continued on next page.
126          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS (Cont.)
                                                                                                 Type of              Obligated
      Date         Vendor                              Purpose                                   Transaction              Value     Expended Value
      4/3/2009      The Boston Consulting Group        Management Consulting relating to the     Contract            $5,892,689          $3,604,315
                                                       Auto industry
      4/17/2009     Herman Miller, Inc                 Chairs                                    Contract              $53,799              $53,799


      4/21/2009     FSI Group, LLC                     Asset Management Services                 Financial Agency   $11,245,000          $7,252,500
                                                                                                 Agreement
      4/21/2009     AllianceBernstein L.P.             Asset Management Services                 Financial Agency   $19,460,000        $14,753,920
                                                                                                 Agreement
      4/21/2009     Piedmont Investment Advisors,      Asset Management Services                 Financial Agency    $5,795,000          $3,479,999
                    LLC                                                                          Agreement
      5/14/2009     KnowledgeBank, Inc.                Executive Search and recruiting           Contract             $124,340             $124,340
                                                       Services - Chief Homeownership
                                                       Officer
      5/15/2009     Phacil, Inc                        FOIA Analysts to support the              Contract             $103,427              $90,304
                                                       Disclosure Services, Privacy and
                                                       Treasury Records
      5/26/2009     Anderson, McCoy & Orta             Legal services for work under             Contract             $425,600             $337,197
                                                       Treasury’s Public-Private Investment
                                                       Fund (“PPIF”) program
      5/26/2009     Simpson Thacher & Bartlett LLP     Legal services for work under             Contract            $8,893,250          $3,065,781
                                                       Treasury’s Public-Private Investment
                                                       Fund (“PPIF”) program
      6/8/2009      Financial Management Service       Development of an Information Man-        Inter Agency          $93,292              $93,292
                                                       agement Plan to articulate strategies     Agreement
                                                       to be used by the Office of Finan-
                                                       cial Stability (“OFS”) to manage its
                                                       portfolio of information management
                                                       transformation activities
      6/29/2009     National Business Center Federal   IAA to Department of Interior’s Federal   Inter Agency          $24,000              $24,000
                    Consulting Group                   Consulting Group to support Stability.    Agreement
                                                       Gov website
      7/17/2009     Korn/Ferry International           Executive search services for the OFS     Contract              $75,017              $75,017
                                                       Chief Investment Officer position
      7/30/2009     Debevoise & Plimpton LLP           Restructuring Legal Services              Contract                   $0                    $0


      7/30/2009     Fox, Hefter, Swibel, Levin &       Restructuring Legal Services              Contract                   $0                    $0
                    Caroll, LLP
      7/30/2009     Cadwalader, Wickersham & Taft      Restructuring Legal Services              Contract            $4,382,790          $1,038,413
                    LLP
      8/18/2009     Mercer LLC                         Executive-Compensation Data               Contract               $3,000               $3,000
                                                       Subscription
      9/2/2009      Knowledge Mosaic Inc.              SEC filings subscription service          Contract               $5,000               $5,000


      9/10/2009     Equilar, Inc.                      Executive-Compensation Data               Contract              $59,990              $59,990
                                                       Subscription
                                                                                                                              Continued on next page.
                                                                                                                                 quarterly report to congress I aPRIL 20, 2010                                   127




 OFS SERVICE CONTRACTS (Cont.)
                                                                                                                                Type of                          Obligated
Date                   Vendor                                           Purpose                                                 Transaction                          Value              Expended Value
9/11/2009              PricewaterhouseCoopers                           PPIP compliance                                         Contract                       $1,029,150                         $619,225


9/18/2009              Treasury Franchise Fund US-4                     Administrative Resource Center                          Inter Agency                   $1,696,694                      $1,046,624
                                                                                                                                Agreement
9/30/2009              SNL Financial LC                                 SNL Unlimited, a web-based                              Contract                          $110,000                        $110,000
                                                                        financial analytics service
9/30/2009              NNA INC.                                         Newspaper delivery                                      Contract                             $7,765                          $7,765


10/1/2009              Departmental Offices                             Financial management, human                             Inter Agency                 $23,852,786                     $18,847,180
                                                                        resources, information technology,                      Agreement
                                                                        general counsel and other reimburs-
                                                                        able support services
12/22/2009             Hughes Hubbard & Reed LLP                        Document Production services and                        Contract                                    $0                              $0
                                                                        Litigation Support
12/22/2009             KBW Asset Management, Inc.                       Asset Management Services                               Financial Agency               $2,300,000                      $2,000,000
                                                                                                                                Agreement
12/22/2009             Avondale Investments LLC                         Asset Management Services                               Financial Agency                  $750,000                        $187,500
                                                                                                                                Agreement
12/22/2009             Bell Rock Capital, LLC                           Asset Management Services                               Financial Agency                  $750,000                        $187,500
                                                                                                                                Agreement
12/22/2009             Howe Barnes Hoefer & Arnett,                     Asset Management Services                               Financial Agency               $1,250,000                         $312,500
                       Inc.                                                                                                     Agreement
12/22/2009             Lombardia Capital Partners, Inc.                 Asset Management Services                               Financial Agency               $1,250,000                         $312,500
                                                                                                                                Agreement
12/22/2009             Paradigm Asset Management                         Asset Management Services                              Financial Agency               $1,250,000                         $312,500
                       Co. LLC                                                                                                  Agreement
1/15/2010              Association of Government                         CEAR Program Application                               Contract                              $5,000                         $5,000
                       Accountants
1/19/2010              Bingham Mccutchen LLP                             SBA Initiative Legal Services - Con-                   Contract                          $750,651                        $100,457
                                                                         tract Novated from TOFS-09-D-0005
                                                                         with McKee Nelson
2/16/2010              The MITRE Corporation                             FNMA IR2 Assessment                                    Contract                          $408,075                        $120,883


3/8/2010               Qualx Corporation                                 FOIA Support Services                                  Contract                                    $0                              $0


Date not               Washington Post                                   HR Advertisement                                       Inter Agency                            $395                            $395
available                                                                                                                       Agreement
Notes: Treasury also provided a separate list of contracts; however 15 of these entities were not included in the obligations and expenditures list. All but 3 of the 15 appear to be Inter-Agency Agreements.

Source: Treasury, response to SIGTARP data call, 4/7/2010.
128   special inspector general I troubled asset relief program




                                             Asset Managers
                                             EESA requires SIGTARP to provide biographical information for each person or
                                             entity hired to manage assets acquired through TARP.397 From January 1, 2010, to
                                             March 31, 2010, no new PPIP fund managers were hired.

                                             Morgan Stanley
                                             On March 29, 2010, Treasury hired Morgan Stanley to manage the sale of its
                                             Citigroup stock. According to Treasury, it will sell all of its approximately 7.7 billion
                                             common stock shares in 2010, subject to market conditions.398
                                                 According to Treasury, “Morgan Stanley is a global financial services firm
                                             providing a wide range of investment banking, securities, investment management,
                                             and wealth management services.”399	

                                             Duties
                                             According to Treasury, Morgan Stanley will perform duties including, but not lim-
                                             ited to, the following:400

                                             •	 act as broker or market-maker for all disposition services executed pursuant to
                                                Rule 144 of the Securities Act of 1933
                                             •	 act as sole book-running manager for disposition services executed in underwrit-
                                                ten offerings pursuant to a prospectus or prospectus supplement, subject to
                                                Treasury’s satisfaction with the performance of the disposition services
                                             •	 execute and confirm transfers, trades, and other transactions as instructed by
                                                Treasury and maintain records of any executed trades or transfers
                                             •	 reconcile books and records with the custodian’s and Treasury’s accounting
                                                systems
                                             •	 advise Treasury regarding the optimal timing and strategy for the sale of the
                                                securities
                                             •	 maintain a compliance program designed to detect and prevent securities law
                                                violations
                                             •	 identify, document, and enforce controls to mitigate conflicts of interest
                                                                                  quarterly report to congress I aPRIL 20, 2010   129




Internal Controls
According to Treasury, “[it] requires financial institutions participating in exception-
al assistance TARP programs—such as the Targeted Investment Program (“TIP”),
Asset Guarantee Program (“AGP”), AIG Investment Program, and Automotive
Industry Financing Program (“AIFP”)—to establish appropriate internal controls to
monitor compliance with certain requirements under the securities purchase agree-
ment with the Treasury. Requirements under these agreements include restrictions
on dividends and repurchases, executive compensation restrictions, and restric-
tions on lobbying and expenses. Treasury also requires these TARP participants to
submit a report and certification on a quarterly basis regarding implementations of
internal controls and compliance (including any instances of non-compliance) with
the requirements in the securities purchase agreement.”401
130   special inspector general I troubled asset relief program
S e ct ion 4   SIGtarp recommendations
132   special inspector general I troubled asset relief program
                                                                                quarterly report to congress I aPRIL 20, 2010   133




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommenda-
tions to the U.S. Department of the Treasury (“Treasury”) and those other Federal
agencies managing Troubled Asset Relief Program (“TARP”) initiatives so that the
various TARP programs can be designed or modified to facilitate transparency and
effective oversight and to prevent fraud, waste, and abuse. SIGTARP has made
such recommendations in its quarterly reports to Congress and in several of its
audit reports. This section discusses developments with respect to SIGTARP’s prior
recommendations, makes new recommendations concerning newly announced ini-
tiatives, and, in the table at the end of this section, summarizes all past SIGTARP
recommendations and notes the extent of their implementation. Appendix H:
“Correspondence” includes Treasury’s written response to this section.


UPDATE ON TREASURY’S ADOPTION OF SIGTARP’S
USE OF FUNDS RECOMMENDATION
From its inception, SIGTARP’s most fundamental recommendation with respect to
basic transparency in the operation of TARP has been that Treasury should require
all TARP recipients to report periodically on their use of TARP funds. The efficacy
of this common-sense recommendation — initially made in December 2008 (just
eight days into SIGTARP’s existence) and later examined through a survey of 364
TARP recipients and supported by an initial audit report issued in July 2009 —
was reconfirmed in a further audit report entitled “Additional Insight on Use of
Troubled Asset Relief Program Funds,” which was released December 10, 2009.
    As reported in SIGTARP’s Quarterly Report to Congress dated January 30,
2010 (the SIGTARP “January 2010 Quarterly Report”), Treasury finally adopted
this recommendation in December 2009 and committed to survey and report upon
recipients’ use of TARP funds. Specifically, Treasury stated that it will be obtaining
and reporting to the public qualitative responses from each TARP recipient on its
use of TARP funds, backed by quantitative data obtained from the recipients’ regu-
lators and Treasury’s own analysis. Since the SIGTARP January 2010 Quarterly
Report, Treasury has sent out its survey to TARP recipients. The first responses are
due back to Treasury before April 19, 2010. SIGTARP will continue to monitor and
report upon Treasury’s progress on this front.
134   special inspector general I troubled asset relief program




                                             RECOMMENDATIONS FROM SIGTARP’S AUDIT
                                             REPORT ON THE IMPLEMENTATION OF THE HOME
                                             AFFORDABLE MODIFICATION PROGRAM (“HAMP”)
                                             As discussed in Section 1: “The Office of the Special Inspector General for the
                                             Troubled Asset Relief Program” in this report, in a March 25, 2010, audit re-
                                             port entitled “Factors Affecting the Implementation of the Home Affordable
                                             Modification Program” (“SIGTARP’s HAMP audit”), SIGTARP examined
                                             Treasury’s implementation of HAMP.
                                                 SIGTARP’s HAMP audit questioned Treasury’s emphasis on the number of
                                             trial modification offers as the program’s measure of success — as opposed to how
                                             many homeowners were sustainably helped through permanent modification of
                                             their mortgages — and observed, among other things, that the rate of permanent
                                             modifications had been, in Treasury’s own estimation, “disappointing.” The audit
                                             report noted a number of factors contributing to the low number of permanent
                                             modifications, including that:

                                             •	 Haste in the program’s rollout led to frequent revisions that added to confusion,
                                                inefficiency, and delay in the program’s implementation.
                                             •	 Treasury’s decision to allow the initiation of trial modifications without written
                                                documentation was counterproductive and added to the difficulty of identifying
                                                eligible borrowers and completing permanent modifications for them.
                                             •	 There has been insufficient outreach to the American public and eligible bor-
                                                rowers about the features and benefits of HAMP, including no unique television
                                                public service advertisements.
                                             •	 The program lacked features designed to address risk factors for re-default in
                                                the HAMP borrower population, including negative equity and high total debt
                                                service; these factors could lead to modifications that will not be successful in
                                                the long term.

                                                To improve the administration and effectiveness of HAMP, SIGTARP
                                             recommended that Treasury:

                                             •	 rectify the confusion that its own statements have caused for HAMP by promi-
                                                nently disclosing its goals and estimates (updated over time, as necessary) of
                                                how many homeowners the program will help through permanent modifications
                                                and report monthly on its progress toward meeting that goal
                                             •	 set other performance benchmarks and publicly report against them to measure
                                                over time the implementation and success of HAMP
                                             •	 undertake a sustained public service campaign as soon as possible, both to reach
                                                additional borrowers who could benefit from the program and to arm the public
                                                with complete, accurate information — this will help to avoid confusion and
                                                delay, and prevent fraud and abuse
                                                                                quarterly report to congress I aPRIL 20, 2010   135




•	 reconsider its policy that allows servicers to substitute alternative forms of in-
   come verification based on subjective determinations by the servicer
•	 re-examine HAMP’s structure to ensure that it is adequately minimizing the risk
   of re-default driven by negative equity, high non-first-mortgage debt service, and
   other risk factors

    Treasury concurred with the first three of SIGTARP’s recommendations, but
has not yet implemented them. Treasury initially declined to adopt SIGTARP’s
last two recommendations, claiming that the documentary guidelines were not
intended to be a “comprehensive underwriting guide,” and that the prospect that
“alternative modification structures that could lower re-default rates” would mean
either decreasing participation in the program or increasing its cost. As a result,
Treasury indicated that it was only considering program adjustments that would
“modestly” address unemployed and underwater borrowers. In response, SIGTARP
encouraged Treasury to reconsider its refusal to address more deeply the issues that
fuel re-default, stressing the importance for the success of the program of putting
borrowers into sustainable permanent modifications, and noting that, under then-
current Congressional Budget Office estimates, only $20 billion of the allocated
$50 billion would be spent on permanent modifications.


RECOMMENDATIONS CONCERNING TREASURY’S
NEWLY ANNOUNCED FORECLOSURE MITIGATION
INITIATIVES
Within days of the release of SIGTARP’s HAMP audit and a related Congressional
hearing, Treasury announced its intent to introduce dramatic and substantial
revisions to the HAMP program structure that, as announced, would address in
part the recommendations in SIGTARP’s HAMP audit, including the previously re-
jected recommendation that Treasury reconsider changes in the program to address
re-default caused by, among other things, negative equity. Treasury’s new initiatives,
as described in greater detail in Section 2: “TARP Overview” in this report include:

•	 requiring that servicers “consider” principal write-downs at their option as part
   of the loan modification process when indicated by program guidelines, with
   increased incentives for successful principal write-downs
•	 a new program, to be backed by $14 billion in TARP funds and managed by
   both Treasury and the Federal Housing Administration (“FHA”), that will enable
   severely underwater borrowers to refinance their mortgages so that the total
   amount that they owe on their homes will not exceed 115% of the home’s value
•	 temporary payment reductions for unemployed borrowers for periods from three
   to six months while they seek new employment
136   special inspector general I troubled asset relief program




                                             •	 increased incentives for servicers to provide permanent loan modifications in
                                                order to compensate them for costs associated with the revisions to the program,
                                                including assistance to unemployed homeowners
                                             •	 expansion of HAMP to include borrowers with FHA loans and borrowers in
                                                active bankruptcy proceedings
                                             •	 improved requirements for borrower solicitations, stating performance
                                                timeframes for all parties and prohibiting new foreclosure referrals during
                                                the HAMP modification process
                                             •	 additional assistance for homeowners who lose their homes through a short sale
                                                or deed-in-lieu, including increased financial assistance for moving and incen-
                                                tives to servicers and second-lien holders for use of foreclosure alternatives

                                                 SIGTARP appreciates Treasury’s willingness to reconsider its opposition and
                                             change the program substantially to address these issues. To Treasury’s credit, the
                                             program changes appear intended to expand HAMP participation and improve the
                                             rate of permanent modifications, as well as address the significant re-default risks
                                             driven by homeowners’ negative equity. The new revisions to HAMP, as a whole,
                                             constitute a potentially important step forward for homeowner relief.
                                                 However, the program changes, as announced, also raise several issues that
                                             could impede HAMP’s effectiveness and efficiency and thus warrant several new
                                             recommendations. SIGTARP’s recommendations are not intended to convey ap-
                                             proval or disapproval of Treasury’s policy decisions, but instead are intended to
                                             ensure that those policy decisions are carried out in a manner that will maximize
                                             their effectiveness.

                                             The Program Revisions Were Announced Before Being
                                             Completely Formulated, Leading to Potential Confusion and a
                                             Lack of Transparency

                                             The newly announced programs lacked detail in certain key aspects, and, in some
                                             circumstances, appear to be only partially formed. Although Treasury’s sense of
                                             urgency and its desire to preview the direction of the program is laudable, it risks
                                             contributing to some of the same confusion and inefficiency that was associated
                                             with the rollout of HAMP’s first-lien modification program. To date, Treasury has
                                             not articulated a clear, integrated vision of the number of borrowers it expects to
                                             assist in each program, the expected costs of many of the program adjustments,
                                             how some of the program components are to work together, or how their form and
                                             design optimally address the problems at hand. These circumstances risk creating
                                             problems that could affect HAMP’s long-term success:

                                             •	 unclear expectations about the program’s eligibility, benefits, and effectiveness,
                                                particularly absent well-defined benchmarks for success
                                                                              quarterly report to congress I aPRIL 20, 2010   137




•	 servicers’ and borrowers’ hesitation to participate until the “kinks are worked
   out” or because they expect to benefit from a later revision, which results in
   their not taking advantage of a program whose success depends on widespread
   participation by eligible parties
•	 opportunities for fraud created by confusion and ambiguity

    Time pressures have led to servicer complaints in the past about unclear and
frequently revised HAMP guidelines. Unfortunately, early indications provide
cause for concern that the new revisions may aggravate those problems rather than
improve them. Loan servicers have already expressed to SIGTARP their concerns
about the announced guidelines for the revisions, and some (including one of the
largest servicers) have told SIGTARP that they were not consulted about their
formulation or implementation. Preliminary feedback obtained by SIGTARP also
indicates that some of the servicers anticipate difficulty in implementing the new
changes, which have been described as potentially “time consuming” and creat-
ing “further lag time,” particularly with respect to evolving information technology
requirements. Moreover, after the new HAMP revisions were publicly announced,
loan servicer participants have reported a surge of borrower phone calls regarding
program changes. These reportedly were difficult to answer and process both be-
cause the program’s elements had not been fully released and because the servicers
had little time in advance of the announcement to prepare and train their staffs to
respond. One large servicer noted to SIGTARP that the rollout was “anticipated to
create borrower confusion and potential borrower reluctance to execute modifica-
tions” until the new programs are launched.
    Furthermore, the haste in announcing the new programs has led to the dissemi-
nation of undeveloped information. For example, one of the key components to the
announced principal reduction program included a chart that listed the amounts
that lenders would receive in return for forgiving principal based upon the degree
to which the loan is underwater. Although the chart indicated an amount that
would be paid to investors to forgive principal for loans that had a loan-to-value
ratio less than 115%, Treasury officials initially indicated to SIGTARP that they
had not yet determined whether they will make any payments to investors under
the 115% level. Two weeks later, Treasury indicated that, because a Supplemental
Directive had not been issued for the principal forgiveness programs, it could
not specify details on circumstances in which unpaid principal balance would be
forgiven below 115%. These types of changes, along with the other demands on the
servicers to implement the programs, will tap available servicer resources and could
lead to a repeat of problems that have plagued the HAMP program since incep-
tion — a diversion of resources that has contributed to slow conversion rates for
permanent modifications.
    The resulting lack of clarity, in turn, serves to impair the program’s transpar-
ency. Treasury has not provided SIGTARP with meaningful estimates of the costs
138   special inspector general I troubled asset relief program




                                             and benefits of these still-to-be-developed initiatives. Regarding costs, for example,
                                             Treasury has repeatedly asserted that HAMP will spend no more than $50 billion
                                             of TARP funds (the amount currently allocated to the program), but has not pro-
                                             vided the public with specific breakdowns of estimated costs of the components of
                                             many of the new initiatives. Treasury has also indicated to SIGTARP that it intends
                                             to increase servicer incentive payments to compensate them for additional costs
                                             from the program revisions (specifically including those related to the unemployed
                                             borrower forbearance program), which is hard to reconcile, from a transparency
                                             perspective, with its public statement that there would be “no cost to government
                                             or taxpayers from the forbearance plans.” Moreover, Treasury still has not defined
                                             its goals or expectations for permanent modifications, the impact and expectations
                                             for each of the new initiatives, or other key indicators of success. Treasury must
                                             set clear expectations and goals for each of the programs’ results and costs so that
                                             Congress and the American public can measure their success and critically evalu-
                                             ate whether the program’s considerable cost is worthwhile.

                                             Recommendation:
                                             •	 The new initiatives add to the previously discussed imperative that Treasury
                                                clearly define meaningful metrics for HAMP’s success, along with well-founded
                                                cost estimates, in order to facilitate informed consideration of the program’s
                                                value to the American people. SIGTARP recommends that, for each HAMP
                                                program and subprogram, Treasury publish the anticipated costs and expected
                                                participation in each and that, after each program is launched, it report monthly
                                                as to the programs’ performance against these expectations.

                                                 In response to this recommendation, Treasury indicated that it will take additional
                                             steps to increase transparency, and “will continue to expand the number and depth of
                                             reports on program implementation, successes and challenges.” Treasury also com-
                                             mitted to “set targets for key program objectives this year.”

                                             The Program Revisions Might Increase Fraud Vulnerabilities
                                             Both the lack of clear guidelines and some features of the revised programs them-
                                             selves leave HAMP vulnerable to fraud. Criminals feed on borrower confusion, and
                                             frequent changes to the programs provide opportunities for experienced criminal
                                             elements to prey on desperate homeowners who have not been educated as to the
                                             risks of fraud. For the existing HAMP program, this has been demonstrated by the
                                             high incidence of mortgage modification schemes, where thieves trick borrowers
                                             into paying upfront fees for modifications that never materialize. SIGTARP alone
                                             has initiated dozens of criminal investigations into these schemes, some of which
                                             are described in Section 1: “The Office of the Special Inspector General for the
                                             Troubled Asset Relief Program” in this report. Although the announcement of the
                                             new programs was done with great fanfare, little was done at the time to warn
                                                                                 quarterly report to congress I aPRIL 20, 2010   139




borrowers about the dangers of potential fraud, which is particularly dangerous
given the current ambiguity in many of the programs. As SIGTARP has repeatedly
warned, Treasury must take a more proactive role in using its podium not only to
highlight and market its new initiatives, which are certainly important exercises,
but also to warn of the dangers of fraud. Although Treasury has taken some impor-
tant steps to advance fraud awareness through its website and at borrower events, it
can and should do more to educate a broader audience of the dangers of fraud.
    Furthermore, revisions to the Home Affordable Foreclosure Alternatives
(“HAFA”) program present an increased prospect of potential fraud. As part of the
new initiatives, Treasury has announced that additional incentive payments will be
paid to borrowers and servicers who participate in its short sale provisions. This also
increases the incentives for those participating in criminal short sale scams, and it
appears that the program may lack necessary antifraud protections. For example,
one prevalent short sale scheme – called “flopping” – centers on home values that
are fraudulently deflated for the purpose of decreasing the cost of the short sale to
a “straw purchaser.” The property is then quickly resold for its true market value,
leaving the difference in the crook’s pocket. Historically, these schemes often
involve the participation of corrupt brokers and servicers. As constituted now, the
program permits home valuation, the key vulnerability point for a flopping scheme,
without a true appraisal, allowing estimates from brokers or other “independent”
providers at the discretion of the servicer, subject to its contractual agreement with
the investor.
    Similarly, with respect to the principal forgiveness component of HAMP —
where there is a similar vulnerability to fraud from underestimating the home’s
value — Treasury has indicated that this critical parameter will derive from a
computer model that will not even require a visual inspection of the home. These
less-than-robust valuation methods, along with the increased incentives through
Government-funded payouts, leave the program vulnerable to fraud. It also fails to
emulate the FHA’s more rigorous home valuation protocol that requires use of an
FHA-approved appraiser following standard procedures; ironically, the more rigor-
ous procedures will be used in the TARP-funded FHA-refinance program and have
been used by the FHA in its own short sale program. No program of this type and
scale can be considered well designed without robust protections of taxpayer funds
against the predation of criminals, particularly given the inconsistent treatment of
home valuation across the different principal forgiveness programs. Taxpayer-assisted
short sales and principal forgiveness programs through TARP should have at least the
same protections against fraud as those instituted in similar programs by FHA.
140   special inspector general I troubled asset relief program




                                             Recommendations:
                                             •	 SIGTARP recommends that Treasury launch a broader based information
                                                campaign, including public service announcements in target markets that focus
                                                on warnings about potential fraud and include conspicuous fraud warnings
                                                whenever it makes broad public announcements about the program.
                                             •	 SIGTARP recommends that Treasury adopt a uniform appraisal process across
                                                all HAMP and HAMP-related short sale and principal reduction programs con-
                                                sistent with FHA’s procedures.

                                                 In response to these recommendations, Treasury agreed that fraud is a seri-
                                             ous condition and cited its efforts at educating the public about mortgage fraud
                                             through its MHA website, at borrower outreach efforts throughout the country,
                                             and in local media. Treasury also indicatd that it is about to roll out a public service
                                             campaign and is committing to provide fraud warnings to homeowners in the
                                             rollout of each new program. Treasury has deferred commenting on SIGTARP’s
                                             recommendation regarding a uniform appraisal process until 30 days after issuance
                                             of this report.

                                             The Discretionary Nature of Principal Reductions by
                                             Servicers Raises Several Concerns That May Undermine the
                                             Effectiveness of the Program

                                             One of the most dramatic changes in the HAMP program is its expansion to ad-
                                             dress negative equity by mandating consideration of — but not requiring — mort-
                                             gage principal reductions. The relevant guidelines will require servicers to use an
                                             alternative Net Present Value (“NPV”) test, similar to the NPV test currently in
                                             place, that calculates the value of the modification to the investor taking into ac-
                                             count the incentive payments Treasury would pay for forgiving principal as part of
                                             the modification. Even if that test demonstrates that a principal reduction modifi-
                                             cation will yield a greater positive return to the investor than a traditional HAMP
                                             modification, however, the guidelines do not require the servicer to modify the
                                             mortgage with principal reduction. This raises several important concerns as to the
                                             potential impact of this program revision and whether it will effectively deal with
                                             the re-defaults associated with negative equity.
                                                  First, as it stands, the program could create a conflict of interest for the ser-
                                             vicers that could result in an incentive for them to avoid principal reduction, even
                                             if the NPV test indicates that it will yield a greater return for the investor. As the
                                             Congressional Oversight Panel observed in its recent report to Congress, servicers
                                             are compensated primarily on the total amount of outstanding principal on the
                                             mortgages they service, giving them a disincentive to forgive principal compared to
                                             other modifications to the mortgage, such as principal forbearance.401 While ser-
                                             vicers undoubtedly often have an interest in bringing a defaulted mortgage current
                                                                                 quarterly report to congress I aPRIL 20, 2010   141




through some modification, it is unclear whether the program will provide the nec-
essary servicer incentives to overcome the potential loss of income from choosing
a principal reduction modification. In other words, as currently structured, there
may be a built-in incentive for servicers to try to bring a mortgage current through a
traditional non-principal reducing mortgage modification under HAMP, even when
the NPV test indicates that principal forgiveness would be in the best financial
interests of both the investor and borrower.
    Second, the discretionary nature of principal forgiveness threatens to foster per-
ceptions of unequal treatment and arbitrariness. Under the proposed discretionary
system, two neighbors living in identical homes, in the same community, with an
identical hardship, income, debt-to-income ratio, and loan-to-value ratio, could end
up with dramatically different results from the same Government program based
solely on whether their servicer is one that is amenable to principal forgiveness
or not. In other words, whether a borrower receives relief on the issue of negative
equity (and thus arguably has a higher or lower chance of eventually re-defaulting
on his mortgage) will depend not on the borrower’s circumstances, but rather on
the whims of the borrower’s servicer. This kind of arbitrary result should be limited,
to the extent possible, in a Government-administered program — a basic fairness
concept that Treasury has implicitly recognized by trying to limit arbitrariness
in HAMP by both making other aspects of HAMP mandatory and by requiring
servicers to attempt to renegotiate their agreements with investors to permit HAMP
modification mechanisms if the agreements prohibit them.
    Third, giving servicers the discretion to implement principal reduction intro-
duces a questionable inconsistency into the HAMP program and stands in stark
contrast to the mandatory nature of the other significant mortgage modification
triggers. For example, first lien modifications are mandatory if the original NPV
test is positive (subject only to the servicer’s contractual agreement with the inves-
tors); servicers are similarly required to modify second liens whenever a first lien is
modified and the servicer for the second lien is a participant in the HAMP second
lien program; and even the newly announced unemployed borrower forbearance
program is mandatory for participating servicers. In order to encourage broad appli-
cation in HAMP, Treasury has made mandatory performance its preferred course.
    SIGTARP recognizes that there are critically important policy considerations
associated with principal forgiveness, such as moral hazard and unfairness to bor-
rowers who may have acted more responsibly, and takes no position as to whether
the newly announced programs appropriately balance those concerns. By introduc-
ing the principal forgiveness programs in the manner that it has, however (includ-
ing allocating more than a quarter of TARP-related HAMP funds to support the
FHA-Refinance program, which is intended exclusively to reduce principal bal-
ances), Treasury has clearly weighed these costs against the benefits resulting from
the reduced risk of re-defaults associated with lower loan-to-value ratios, and it has
decided in favor of the latter.
142   special inspector general I troubled asset relief program




                                                 Moral hazard is of particular concern. In the HAMP context, it represents,
                                             among other things, the danger that a homeowner who is not eligible for the
                                             program will intentionally default on his mortgage in order to receive a principal
                                             reduction through HAMP. As the Congressional Oversight Panel recently observed,
                                             giving servicers discretion over principal reductions might serve to reduce the
                                             incentive for a borrower to attempt to game the system, as the inherent random-
                                             ness in a discretionary system may deter intentional default.402 On the other hand,
                                             Treasury officials have expressed confidence that their existing protocols for bor-
                                             rower screenings, such as hardship affidavits and third-party income verification,
                                             already protect the program from many of the dangers of moral hazard. These
                                             mechanisms require a borrower to demonstrate that they have a legitimate financial
                                             hardship before they can enter the program, require verifiable third-party informa-
                                             tion to confirm the hardship, and inform the borrower of the criminal penalties he
                                             might face if he attempts to defraud the system. As a result, a borrower who is oth-
                                             erwise unaffected by the financial crisis should be unable to take advantage of the
                                             program by intentionally defaulting on his mortgage without criminally defrauding
                                             the program by lying about a fictitious hardship and securing fraudulent documen-
                                             tation to support his claim. The program also ameliorates the moral hazard effects
                                             because it does not award full principal reduction at the outset of a modification
                                             but rather requires the borrower to make three years of modified payments to
                                             take advantage of the program fully. In sum, although making principal reduction
                                             modifications mandatory could incrementally increase the moral hazard incentives,
                                             there are at least mechanisms in place to limit this danger.
                                                 Treasury has also informed SIGTARP that it has concerns that servicers may
                                             opt out if principal forgiveness is made mandatory, citing concerns in particular
                                             about the implication of principal reduction where second liens are present. It
                                             is not clear that servicers would necessarily do so, however, and as reported to
                                             SIGTARP by several servicers, Treasury did not consult with at least some of them,
                                             including one of the larger ones, before the program was announced. Further, there
                                             may be other program modifications that could address concerns about second
                                             liens, including through the Second Lien Modification Program. Further, this
                                             potential fear has not prevented Treasury from repeatedly modifying HAMP guide-
                                             lines on other important changes to the program, including mandatory forbearance
                                             for unemployed borrowers. The agreements themselves explicitly contemplate the
                                             servicers going back to the investors to negotiate a change in their agreements
                                             when necessary. Moreover, Treasury has expressed confidence that its NPV tests
                                             are sound, and, accordingly, principal reduction would only be called for when it
                                             would be the most economically advantageous option for the investor.
                                                 In sum:

                                             •	 Although there are important and difficult policy considerations to weigh before
                                                principal reduction is utilized as a modification option, now that Treasury has
                                                                                quarterly report to congress I aPRIL 20, 2010   143




   made a decision to go forward with principal reduction, it should endeavor to
   implement as effective a program as possible.
•	 Making principal reduction discretionary may limit HAMP’s effectiveness and
   result in unequal and arbitrary results for similarly situated homeowners.
•	 Although there are substantial vulnerabilities associated with principal re-
   duction, the program does have barriers designed to minimize moral hazard
   vulnerabilities.

Recommendation:
•	 SIGTARP recommends that Treasury reevaluate the voluntary nature of its
   principal reduction program and, irrespective of whether it is discretionary or
   mandatory, Treasury should consider changes to better maximize its effective-
   ness, ensure to the greatest extent possible the consistent treatment of similarly
   situated borrowers, and to address potential conflict of interest issues.

    Treasury has deferred commenting on SIGTARP’s recommendations on its
principal reduction program until 30 days after issuance of this report.

The Proposed Unemployed Forbearance May Not Be of
Sufficient Duration
Another aspect of the new initiatives — assistance to unemployed homeowners —
may not go far enough to assist the average unemployed homeowner effectively.
The unemployment assistance component of the new revisions provides payment
forbearance for a minimum of three months, although some borrowers may get
relief for up to six months, with the amount forborne added to the balance of the
mortgage. One prominent feature of this recession is an unusually high degree of
long-term unemployment. According to the Bureau of Labor Statistics, the aver-
age length of reported unemployment is 31.2 weeks, the longest recorded since
its measurement began in 1948.403 The median length of unemployment has risen
to 21.6 weeks, well above the three-month lower end of the standard assistance
period. Indeed, nearly 43% of unemployed workers have been out of work for 27
weeks, a length of time longer than the six-month contemplated maximum for
unemployment assistance. To be sure, many homeowners may be unemployed for
some period of time before they enter into the program, but unless the long-term
unemployment situation radically improves (and it is widely anticipated that it will
not do so any time soon), large numbers of unemployed homeowners may still be
unemployed at the end of the forbearance period, particularly if servicers elect to
forbear only for the three-month minimum. For the fortunate who quickly find
jobs, the program may be an important lifeline. But for the rest, the forbearance
time period will end before a job is found, their unpaid amount will still be owed,
and they will still face an unaffordable mortgage with a principal balance that has
been made higher by the unpaid interest amounts during the forbearance period,
144   special inspector general I troubled asset relief program




                                             potentially eliminating equity for some and plunging others even deeper underwa-
                                             ter. In light of this reality, Treasury should consider implementing a program with
                                             a longer minimum term and that will have a broader impact. Although no program
                                             will assist all unemployed borrowers, Treasury should strive for a program that will
                                             at least assist the typical unemployed borrower.

                                             Recommendation:
                                             •	 SIGTARP recommends that Treasury reconsider the length of the minimum
                                                term of HAMP’s unemployment forbearance program.

                                                Treasury has deferred commenting on SIGTARP’s recommendations on its
                                             unemployment forbearance program until 30 days after issuance of this report.

                                             RECOMMENDATIONS RELATING TO THE COMMUNITY
                                             DEVELOPMENT CAPITAL INITIATIVE (“CDCI”)
                                             As discussed more extensively in Section 2: “TARP Overview” of this report,
                                             Treasury announced CDCI on February 3, 2010. The program will invest capital in
                                             Community Development Financial Institutions (“CDFIs”), which work in commu-
                                             nities that are underserved by traditional financial institutions and target more than
                                             60% of their small business lending and community development activities in such
                                             communities. Under CDCI, qualified CDFIs are eligible for capital investments of
                                             up to 5% of their risk-weighted assets. Moreover, when a regulator deems a CDFI
                                             insufficiently capitalized to qualify for CDCI funding, the CDFI can raise private
                                             capital that Treasury will match dollar for dollar up to the 5% of risk-weighted as-
                                             sets threshold. The announced terms of CDCI provide that Treasury can examine
                                             the corporate books of participating institutions as long as Treasury retains at least
                                             10% of its initial investment therein and that the CDFI must submit annually a
                                             survey to Treasury describing its use of TARP funds.

                                             Recommendations:
                                             The framework for CDCI raises potential oversight issues that Treasury should
                                             consider as it further develops the controls for the program, reflected in the follow-
                                             ing recommendations.
                                             •	 First, because capitalization is one of the primary measures of a financial insti-
                                                tution’s health, SIGTARP recommends that Treasury institute careful screening
                                                before putting additional capital into an institution with insufficient capital to
                                                ensure that the TARP matching funds are not flowing into an institution that is
                                                on the verge of failure.
                                             •	 Second, experience has demonstrated that there must be controls to ensure
                                                the legitimacy of any claimed private investments. As noted in Section 1: “The
                                                Office of the Special Inspector General for the Troubled Asset Relief Program”
                                                in this report, SIGTARP has already secured criminal charges against the former
                                                                              quarterly report to congress I aPRIL 20, 2010   145




   Chief Executive Officer of The Park Avenue Bank who attempted to defraud
   TARP through a fraudulent capital raise, and other similar investigations are
   pending. SIGTARP thus recommends that Treasury develop a robust procedure
   to audit and verify the bona fides of any purported capital raise and to estab-
   lish adequate controls to verify the source, amount, and closing of all claimed
   private investments.
•	 Third, with respect to access to a CDFI’s books and records, SIGTARP recom-
   mends that Treasury revise CDCI terms to clarify that Treasury’s inspection
   and copy rights continue until the entire CDCI investment is terminated.
   Additionally, consistent with recommendations made in connection with other
   TARP programs, the terms should be revised to provide expressly that SIGTARP
   shall have access to the CDFI’s records equal to that of Treasury.
•	 Finally, to more forcefully encourage CDFIs to increase lending in their un-
   derserved communities, SIGTARP recommends that Treasury consider more
   frequent surveys than annually, as currently contemplated. Quarterly surveys
   would more effectively emphasize the purpose of the program.

    In response to these recommendations, Treasury has indicated that it will ad-
dress the first two recommendations as it establishes the screening and approval
processes for CDCI. Treasury indicated that it will adopt SIGTARP’s recommen-
dation that Treasury’s inspection rights will continue as long as Treasury holds an
interest in the CDFI and will include SIGTARP in those inspection rights. Treasury
declined to increase the frequency of the use of funds surveys under the program.

    SIGTARP sent a letter to Treasury concerning its recommendations regard-
ing CDCI on March 11, 2010. A copy of that letter is included in Appendix H:
“Correspondence.”


TRACKING THE IMPLEMENTATION OF
RECOMMENDATIONS IN PREVIOUS REPORTS
SIGTARP has now made dozens of individual recommendations, and updating
compliance of each one in narrative form would be impractical. The following
table, Table 4.1, summarizes SIGTARP’s prior recommendations, gives an indica-
tion of SIGTARP’s view of the level of implementation to date, and provides a brief
explanation for that view where necessary. For more details on the recommenda-
tions, readers are directed to SIGTARP’s earlier quarterly reports to Congress.
Treasury’s views on the level of implementation of the recommendations are set
forth in Appendix H: “Correspondence.”
table 4.1                                                                                                                                                                                      146
SIGTARP RECOMMENDATIONS TABLE                          (continued)

                                                                                                          Partially                    Not
              Recommendation                                                          Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
1            Treasury should include language in the automobile industry
        *    transaction term sheet acknowledging SIGTARP’s oversight
             role and expressly giving SIGTARP access to relevant docu-
             ments and personnel.
                                                                                              X
2           Treasury should include language in new TARP agreements                                                                                       Although Treasury has made
        *   to facilitate compliance and oversight. Specifically, SIGTARP                                                                                 substantial efforts to comply with
            recommends that each program participant should (1) ac-                                                                                       this recommendation in many
            knowledge explicitly the jurisdiction and authority of SIGTARP                                                                                of its agreements, there have
            and other oversight bodies, as relevant, to oversee compli-                                                                                   been exceptions, including in its
            ance of the conditions contained in the agreement in question,                                                                                agreements with servicers in MHA.
            (2) establish internal controls with respect to that condition,                                                                               Treasury has further stated that
            (3) report periodically to the Compliance department of the                                                                                   it will continue to implement this
            Office of Financial Stability (“OFS-Compliance”) regarding the                                                                                recommendation with respect to
            implementation of those controls and its compliance with                                                                                      new TARP programs going forward
            the condition, and (4) provide a signed certification from an                                                                                 as it deems “appropriate.”
            appropriate senior official to OFS-Compliance that such report
            is accurate.                                                                                    X
3           All existing TARP agreements, as well as those governing new
                                                                                                                                                                                               special inspector general I troubled asset relief program




        *   transactions, should be posted on the Treasury website as
            soon as possible.                                                                X
4           Treasury requires all TARP recipients to report on the actual                                                                                 See discussion in this section.
        *   use of TARP funds.                                                                                            X
5           Treasury quickly determines its going-forward valuation
        *   methodology.                                                                     X
6           Treasury begins to develop an overall investment strategy to
        *   address its portfolio of stocks and decide whether it intends to
            exercise warrants of common stock.                                               X
7           In formulating the structure of TALF, Treasury should consider                                                                                The Federal Reserve has adopted
        *   requiring, before committing TARP funds to the program, that                                                                                  mechanisms that address this
            certain minimum underwriting standards and/or other fraud                                                                                     recommendation.
            prevention mechanisms be put in place with respect to the
            ABS and/or the assets underlying the ABS used for collateral.                    X
8           Agreements with TALF participants should include an acknowl-
        *   edgment that: (1) they are subject to the oversight of OFS-
            Compliance and SIGTARP, (2) with respect to any condition im-
            posed as part of TALF, that the party on which the condition is
            imposed is required to establish internal controls with respect
            to each condition, report periodically on such compliance, and
            provide a certification with respect to such compliance.                                                                    X
9           Treasury should give careful consideration before agreeing                                                                                    This recommendation has been
        *   to the expansion of TALF to include MBS without a full review                                                                                 implemented with respect to
            of risks that may be involved and without considering certain                                                                                 CMBS, and the Federal Reserve
            minimum fraud protections.                                                                                                                    has announced that it will not be
                                                                                             X                                                            expanding TALF to RMBS.

Note:   *Indicates that Treasury considers the recommendation closed and will take no further action.                                                               Continued on next page.
SIGTARP RECOMMENDATIONS TABLE                          (continued)

                                                                                                          Partially                    Not
              Recommendation                                                          Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
10          Treasury should oppose any expansion of TALF to legacy MBS                                                                                    This recommendation has been
        *   without significant modifications to the program to ensure a full                                                                             implemented with respect to
            assessment of risks associated with such an expansion.                                                                                        CMBS, and the Federal Reserve
                                                                                                                                                          has announced that it will not be
                                                                                             X                                                            expanding TALF to RMBS.
11          Treasury should formalize its valuation strategy and begin                                                                                    Treasury has committed to publish
            providing values of the TARP investments to the public.                                                                                       its valuation estimates four times
                                                                                             X                                                            each year.
12          Treasury and the Federal Reserve should provide to SIGTARP,                                                                                   The Federal Reserve and Treasury
        *   for public disclosure, the identity of the borrowers who sur-                                                                                 continue to oppose this basic
            render collateral in TALF.                                                                                                                    aspect of transparency in the TALF
                                                                                                                                                          program. SIGTARP intends to revisit
                                                                                                                                                          this issue with the Federal Reserve
                                                                                                                                                          once a collateral surrender takes
                                                                                                                                        X                 place.
13          In TALF, Treasury should dispense with rating agency deter-                                                                                   The Federal Reserve has an-
        *   minations and require a security-by-security screening for                                                                                    nounced that RMBS will not be
            each legacy RMBS. Treasury should refuse to participate if                                                                                    eligible for TALF loans, rendering
            the program is not designed so that RMBS, whether new or                                                                                      this recommendation moot.
            legacy, will be rejected as collateral if the loans backing par-
            ticular RMBS do not meet certain baseline underwriting criteria
            or are in categories that have been proven to be riddled with
            fraud, including certain undocumented subprime residential
            mortgages.                                                                                                                             X
14          In TALF, Treasury should require significantly higher haircuts                                                                                This recommendation has been
        *   for all MBS, with particularly high haircuts for legacy RMBS, or                                                                              implemented with respect to
            other equally effective mitigation efforts.                                                                                                   CMBS, and the Federal Reserve
                                                                                                                                                          has announced that it will not be
                                                                                             X                                                            expanding TALF to RMBS.
15          Treasury should require additional anti-fraud and credit protec-                                                                              The Federal Reserve has adopted
        *   tion provisions, specific to all MBS, before participating in an                                                                              mechanisms that address this
            expanded TALF, including minimum underwriting standards and                                                                                   recommendation with respect to
            other fraud prevention measures.                                                                                                              CMBS, and has announced that
                                                                                                                                                          it will not be expanding TALF to
                                                                                             X                                                            RMBS.
16          Treasury should design a robust compliance protocol with
        *   complete access rights to all TALF transaction participants for
            itself, SIGTARP, and other relevant oversight bodies.                                                                       X
17          Treasury should not allow Legacy Securities PPIFs to invest
        *   in TALF unless significant mitigating measures are included to
            address these dangers.                                                           X
18          All TALF modeling and decisions, whether on haircuts or any
        *   other credit or fraud loss mechanisms, should account for po-
            tential losses to Government interests broadly, including TARP
                                                                                                                                                                                                quarterly report to congress I aPRIL 20, 2010




            funds, and not just potential losses to the Federal Reserve.                     X

Note:   *Indicates that Treasury considers the recommendation closed and will take no further action.                                                               Continued on next page.
                                                                                                                                                                                                147
                                                                                                                                                                                                    148
SIGTARP RECOMMENDATIONS TABLE                          (continued)

                                                                                                          Partially                    Not
              Recommendation                                                          Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
19          Treasury should address the confusion and uncertainty on
        *   executive compensation by immediately issuing the required
            regulations.                                                                     X
20          Treasury should significantly increase the staffing levels of                                                                                 Treasury has made improvements
            OFS-Compliance and ensure the timely development and imple-                                                                                   in this area. SIGTARP will address
            mentation of an integrated risk management and compliance                                                                                     particular issues regarding OFS
            program.                                                                                                                                      staffing levels in upcoming audit
                                                                                                                          X                               reports.
21          Treasury should require CAP participants to (1) establish an                                                                                  Treasury closed the program with
        *   internal control to monitor their actual use of TARP funds, (2)                                                                               no investments having been made,
            provide periodic reporting on their actual use of TARP funds,                                                                                 rendering this recommendation
            (3) certify to OFS-Compliance, under the penalty of criminal                                                                                  moot.
            sanction, that the report is accurate, that the same criteria of
            internal controls and regular certified reports should be applied
            to all conditions imposed on CAP participants, and (4) acknowl-
            edge explicitly the jurisdiction and authority of SIGTARP and
            other oversight bodies, as appropriate, to oversee conditions
            contained in the agreement.                                                                                                            X
22          Treasury should impose strict conflict-of-interest rules upon                                                                                 Treasury has adopted some signifi-
        *   PPIF managers across all programs that specifically address                                                                                   cant conflict-of-interest rules related
                                                                                                                                                                                                    special inspector general I troubled asset relief program




            whether and to what extent the managers can (1) invest PPIF                                                                                   to this recommendation, but has
            funds in legacy assets that they hold or manage on behalf of                                                                                  failed to impose other significant
            themselves or their clients or (2) conduct PPIF transactions                                                                                  safeguards.
            with entities in which they have invested on behalf of them-
            selves or others.                                                                               X
23          Treasury should require that all PPIF fund managers (1) have                                                                                  Treasury’s agreements with PPIF
        *   stringent investor-screening procedures, including comprehen-                                                                                 managers include investor-screen-
            sive “Know Your Customer” requirements at least as rigorous                                                                                   ing procedures such as “Know Your
            as that of a commercial bank or retail brokerage operation to                                                                                 Customer” requirements. Treasury
            prevent money laundering and the participation of actors prone                                                                                has agreed that it will have ac-
            to abusing the system, and (2) be required to provide Treasury                                                                                cess to any information in a fund
            with the identities of all of the beneficial owners of the private                                                                            manager’s possession relating to
            interests in the fund so that Treasury can do appropriate                                                                                     beneficial owners. However, Trea-
            diligence to ensure that investors in the funds are legitimate.                                                                               sury is not making an affirmative
                                                                                                                                                          requirement that managers obtain
                                                                                                                                                          and maintain beneficial owner
                                                                                                            X                                             information.
24          Treasury should require most-favored-nation clauses, PPIF
        *   managers to acknowledge that they owe Treasury a fiduciary
            duty, and that each manager adopt a robust ethics policy and
            compliance apparatus.                                                            X

Note:   *Indicates that Treasury considers the recommendation closed and will take no further action.                                                                Continued on next page.
SIGTARP RECOMMENDATIONS TABLE                          (continued)

                                                                                                          Partially                    Not
              Recommendation                                                          Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
25          Treasury should require servicers in MHA to submit third-party                                                                                Treasury has decided to adopt this
            verified evidence that the applicant is residing in the subject                                                                               important SIGTARP recommenda-
            property before funding a mortgage modification.                                                                                              tion and stated that its program
                                                                                                                                                          administrator Fannie Mae is in the
                                                                                                                                                          process of hiring a third-party entity
                                                                                                                                                          to perform a fraud-detection surveil-
                                                                                                                                                          lance process to review loan level
                                                                                                                                                          data to check for owner occupancy
                                                                                                                          X                               and identity of the borrower.
26          In MHA, Treasury should require a closing-like procedure be                                                                                   See discussion in Section 5:
        *   conducted that would include (1) a closing warning sheet that                                                                                 “SIGTARP Recommendations” of
            would warn the applicant of the consequences of fraud; (2)                                                                                    SIGTARP’s October 2009 Quarterly
            the notarized signature and thumbprint of each participant;                                                                                   Report.
            (3) mandatory collection, copying, and retention of copies of
            identification documents of all participants in the transaction;
            (4) verbal and written warnings regarding hidden fees and
            payments so that applicants are made fully aware of them; (5)
            the benefits to which they are entitled under the program (to
            prevent a corrupt servicer from collecting payments from the
            Government and not passing the full amount of the subsidies
            to the homeowners); and (6) the fact that no fee should be
            charged for the modification.                                                                   X
27          Additional anti-fraud protections should be adopted in MHA to                                                                                 Treasury stated that its program
            verify the identity of the participants in the transaction and to                                                                             administrator Fannie Mae is in
            address the potential for servicers to steal from individuals                                                                                 the process of hiring a third party
            receiving Government subsidies without applying them for the                                                                                  entity to perform a fraud detection
            benefit of the homeowner.                                                                                                                     surveillance process to review loan
                                                                                                                                                          level data to check for owner occu-
                                                                                                                                                          pancy and identity of the borrower.
                                                                                                                          X
28          In MHA, Treasury should require the servicer to compare the                                                                                   Treasury has rejected SIGTARP’s
        *   income reported on a mortgage modification application with                                                                                   recommendation and does not
            the income reported on the original loan application.                                                                                         require income reported on the
                                                                                                                                                          modification application to be
                                                                                                                                                          compared to income reported on
                                                                                                                                        X                 the original loan application.
29          In MHA, Treasury should require that verifiable, third-party in-
        *   formation be obtained to confirm an applicant’s income before
            any modification payments are made.                                              X

Note:   *Indicates that Treasury considers the recommendation closed and will take no further action.                                                               Continued on next page.
                                                                                                                                                                                                   quarterly report to congress I aPRIL 20, 2010
                                                                                                                                                                                                   149
SIGTARP RECOMMENDATIONS TABLE                          (continued)                                                                                                                                150
                                                                                                          Partially                    Not
              Recommendation                                                          Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
30          In MHA, Treasury should defer payment of the $1,000 incen-                                                                                    Rather than deferring payment
        *   tive to the servicer until after the homeowner has verifiably                                                                                 of the incentive until after the
            made a minimum number of payments under the mortgage                                                                                          homeowner has verifiably made
            modification program.                                                                                                                         a minimum number of payments
                                                                                                                                                          on its permanent modification,
                                                                                                                                                          Treasury will pay the incentive after
                                                                                                                                                          the servicer represents that the
                                                                                                                                                          homeowner has made three pay-
                                                                                                                                        X                 ments during the trial period.
31          In MHA, Treasury should proactively educate homeowners
        *   about the nature of the program, warn them about modifica-
            tion rescue fraudsters, and publicize that no fee is necessary
            to participate in the program.
                                                                                             X
32          In MHA, Treasury should require its agents to keep track of the                                                                               While Treasury’s program adminis-
        *   names and identifying information for each participant in each                                                                                trator, Fannie Mae, has developed a
            mortgage modification transaction and to maintain a database                                                                                  HAMP system of record that main-
            of such information.                                                                                                                          tains the servicers’ and investors’
                                                                                                                                                          names and participating borrowers’
                                                                                                                                                          personally identifiable information,
                                                                                                                                                                                                  special inspector general I troubled asset relief program




                                                                                                                                                          such as names and addresses,
                                                                                                                                                          the database is not constructed to
                                                                                                                                                          maintain other information that may
                                                                                                                                                          assist in detecting insiders who are
                                                                                                            X                                             committing large-scale fraud.
33          Treasury should require the imposition of strict information bar-                                                                             Treasury has refused to adopt
        *   riers or “walls” between the PPIF managers making investment                                                                                  this significant anti-fraud measure
            decisions on behalf of the PPIF and those employees of the                                                                                    designed to prevent conflicts of
            fund management company who manage non-PPIF funds.                                                                                            interest. This represents a material
                                                                                                                                        X                 deficiency in the program.

34          Treasury should periodically disclose PPIF trading activity and                                                                               Treasury has committed to publish
        *   require PPIF managers to disclose to SIGTARP, within seven                                                                                    on a quarterly basis certain high-
            days of the close of the quarter, all trading activity, holdings,                                                                             level information about aggregated
            and valuations so that SIGTARP may disclose such information,                                                                                 purchases by the PPIFs, but not
            subject to reasonable protections, in its quarterly reports.                                                                                  within seven days of the close of
                                                                                                                                                          the quarter. Treasury has not com-
                                                                                                                                                          mitted to providing full transpar-
                                                                                                                                                          ency to show where public dollars
                                                                                                                                                          are invested by requiring periodic
                                                                                                                                                          disclosure of every trade in the
                                                                                                                                                          PPIF. SIGTARP is including in the
                                                                                                                                                          report all transactions conducted
                                                                                                                                                          by one former fund manager, TCW,
                                                                                                                                                          and anticipates providing addi-
                                                                                                                                                          tional detail in our future quarterly
                                                                                                                                        X                 reports.

Note:   *Indicates that Treasury considers the recommendation closed and will take no further action.                                                               Continued on next page.
SIGTARP RECOMMENDATIONS TABLE                          (continued)

                                                                                                          Partially                    Not
              Recommendation                                                          Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
35          Appropriate metrics be defined and an evaluation system be                                                                                    Treasury has indicated that it will
            put in place to monitor the effectiveness of the PPIF manag-                                                                                  substantively adopt this recommen-
            ers, both to ensure they are fulfilling the terms of their agree-                                                                             dation and is developing appropri-
            ments and to measure performance.                                                                                                             ate metrics as well as internal
                                                                                                                          X                               controls to administer PPIP.
36          The conditions that give Treasury “cause” to remove a PPIF                                                                                    Treasury has refused to adopt this
        *   manager should be expanded to include a manager’s perfor-                                                                                     recommendation relying solely on
            mance below a certain standard benchmark, or if Treasury                                                                                      Treasury’s right to end the invest-
            concludes that the manager has materially violated compliance                                                                                 ment period after 12 months, dur-
            or ethical rules.                                                                                                                             ing which time the PPIF manager’s
                                                                                                                                                          performance may continue to fall
                                                                                                                                                          below a standard benchmark poten-
                                                                                                                                                          tially putting significant Government
                                                                                                                                        X                 funds at risk.
37          Treasury should require PPIF managers to disclose to Trea-
        *   sury, as part of the Watch List process, not only information
            about holdings in eligible assets but also holdings in related
            assets or exposures to related liabilities.                                      X
38          Treasury should require PPIF managers to obtain and maintain                                                                                  Treasury has agreed that it can
            information about the beneficial ownership of all of the private                                                                              have access to any information in a
            equity interests, and Treasury should have the unilateral ability                                                                             fund manager’s possession relating
            to prohibit participation of private equity investors.                                                                                        to beneficial owners. However,
                                                                                                                                                          Treasury is not making an affirma-
                                                                                                                                                          tive requirement that managers
                                                                                                                                                          obtain and maintain beneficial
                                                                                                                                                          owner information. Treasury will
                                                                                                                                                          not adopt the recommendation to
                                                                                                                                                          give itself unilateral ability to deny
                                                                                                                                                          access to or remove an investor,
                                                                                                                                                          stating that such a right would
                                                                                                                                        X                 deter participation.
39          Treasury and FRBNY should (1) examine Moody’s assertions                                                                                      Treasury and the Federal Reserve
        *   that some credit rating agencies are using lower standards to                                                                                 have discussed concerns about
            give a potential TALF security the necessary AAA rating and (2)                                                                               potential overrating or rating shop-
            develop mechanisms to ensure that acceptance of collateral                                                                                    ping with the rating agencies, and
            in TALF is not unduly influenced by the improper incentives to                                                                                have agreed to continue to develop
            overrate that exist among the credit agencies.                                                                                                and enhance risk management
                                                                                                                                                          tools and processes, where ap-
                                                                                             X                                                            propriate.

Note:   *Indicates that Treasury considers the recommendation closed and will take no further action.                                                               Continued on next page.
                                                                                                                                                                                                   quarterly report to congress I aPRIL 20, 2010
                                                                                                                                                                                                   151
                                                      (continued)
                                                                                                                                                                                                 152
SIGTARP RECOMMENDATIONS TABLE
                                                                                                        Partially                    Not
            Recommendation                                                          Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
40        Treasury should more explicitly document the vote of each                                                                                     Treasury’s Office of Financial Stabil-
     *    Investment Committee member for all decisions related to the                                                                                  ity has implemented SIGTARP’s
          investment of TARP funds.                                                                                                                     recommendation to document
                                                                                                                                                        each specific vote of individual
                                                                                                                                                        Investment Committee members
                                                                                                                                                        when deciding whether to approve
                                                                                                                                                        or disapprove proposed TARP
                                                                                            X                                                           investments.

41        Treasury should improve existing control systems to document                                                                                  Treasury adopted SIGTARP’s recom-
     *    the occurrence and nature of external phone calls and in-                                                                                     mendation related to an application
          person meetings about actual and potential recipients of fund-                                                                                for TARP funding.
          ing under the CPP and other similar TARP-assistance programs
          to which they may be part of the decision making.


                                                                                            X
42        The Secretary of the Treasury should direct the Special Master                                                                                The Special Master has consulted
     *    to work with FRBNY officials in understanding AIG compensa-                                                                                   with FRBNY regarding AIG executive
          tion programs and retention challenges before developing fu-                                                                                  compensation programs.
          ture compensation decisions that may affect both institutions’
          ability to get repaid by AIG for Federal assistance provided.
                                                                                            X
                                                                                                                                                                                                 special inspector general I troubled asset relief program




43        Treasury should establish policies to guide any similar future                                                                                Although Treasury stated that
     *    decisions to take a substantial ownership position in financial                                                                               it does not anticipate taking a
          institutions that would require an advance review so that                                                                                     substantial percentage ownership
          Treasury can be reasonably aware of the obligations and chal-                                                                                 position in any other financial insti-
          lenges facing such institutions.                                                                                                              tution pursuant to EESA, Treasury
                                                                                                                                                        also stated that it could use EESA
                                                                                                                                                        funds if necessary to respond to an
                                                                                                                                                        immediate and substantial threat to
                                                                                                                                                        the economy. Treasury stated that
                                                                                                                                                        it will address the issues raised in
                                                                                                                                                        the recommendation if it becomes
                                                                                                                                                 X      necessary to make an investment.
44        Treasury should establish policies to guide decision making                                                                                   Treasury has agreed to work
     *    in determining whether it is appropriate to defer to another                                                                                  closely with other Federal agencies
          agency when making TARP programming decisions where                                                                                           that are involved in TARP.
          more than one Federal agency is involved.



                                                                                                          X




Note: *Indicates that Treasury considers the recommendation closed and will take no further action.
                                                                                                 quarterly report to congress I aPRIL 20, 2010                  153


1. 	    Bureau of Labor Statistics Release, “Economic News Release,” 4/4/2010, http://www.bls.gov/news.release/empsit.t12.htm, accessed 4/15/2010.
2. 	    SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/
        Factors_Affecting_Implementation_of_the_HomeAffordable_Modification_Program.pdf, accessed 3/25/2010.
3. 	    RealtyTrac Press Release, 4/15/2010, www.realtytrac.com/contentmanagement/pressrelease.aspx?channellid=9&itemid=8927, accessed 4/17/2010.
4. 	    Treasury, “Making Home Affordable Program Servicer Performance Report Through March 2010,” no date, www.financialstability.gov/docs/report.pdf,
        accessed 4/14/2010.
5. 	    In October 2009, Treasury started to encounter challenges with its website counting system, and, as a result, it changed to a new system in January
        2010. SIGTARP has calculated the total number of website hits reported herein based on the number reported to SIGTARP as of September 30, 2009,
        plus an archived number provided by Treasury for the period of October – December 2009, and information generated from Treasury’s new system for
        the period of January – March 2010.
6. 	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
7. 	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit Strategy for
        TARP,” 12/9/2009, www.financialstability.gov/latest/pr_12092009.html, accessed 3/10/2009.
8. 	    White House Press Release, “President Obama Outlines New Small Business Lending Fund,” 2/2/2010, www.whitehouse.gov/the-press-office/presi-
        dent-obama-outlines-new-small-business-lending-fund, accessed 3/14/2010.
9. 	    Commitment source: Treasury, response to SIGTARP data call, 4/7/2010. The $699 billion represents the $700 billion authorized for TARP by EESA
        less the $1.2 billion reduction as a result of the Helping Families Save Their Homes Act of 2009 (P.L. 111-22).
10. 	   From a budgetary perspective, what Treasury has committed to spend (e.g., signed agreements with TARP fund recipients). Treasury, Transactions
        Report, 4/2/2010, http://financialstability.gov/docs/transaction-reports/4-2-10%20Transactions%20Report%20as%20of%203-31-10.pdf, accessed
        4/2/2010; Treasury, response to SIGTARP data call, 4/12/2010.
11. 	   White House Press Release, “President Obama Outlines New Small Business Lending Fund,” 2/2/2010, www.whitehouse.gov/the-press-office/presi-
        dent-obama-outlines-new-small-business-lending-fund, accessed 3/14/2010; Treasury, “Community Development Capital Initiative,” 2/18/2010, http://
        financialstability.gov/roadtostability/comdev.html, accessed 3/12/2010.
12. 	   As of March 31, 2010, 77 TARP recipients in various programs had repaid their TARP funds. Under the Capital Purchase Program (“CPP”) 74 TARP
        recipients had repaid a total $135.9 billion. Chrysler Financial, LLC, General Motors, and Chrysler had repaid TARP funds under the Automotive
        Industry Financing Program (“AIFP”) totaling $4.6 billion. Under the Targeted Investment Program (“TIP”) Bank of America and Citigroup had repaid
        $40 billion. Treasury and Citigroup also terminated their agreement under the Asset Guarantee Program (“AGP”), reducing Treasury’s exposure by $5
        billion.
13. 	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008; Treasury, response to SIGTARP draft report, 1/15/2010.
14. 	   Treasury, response to SIGTARP data call, 4/12/2010.
15. 	   Treasury, response to SIGTARP data call, 4/12/2010.
16. 	   Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.financialstability.gov/
        latest/tg48.html, accessed 3/10/2010.
17. 	   Treasury, “Making Home Affordable Updated Detailed Program Description,” 4/28/2009, www.treas.gov/press/releases/reports/housing_fact_sheet.pdf,
        accessed 3/10/2010.
18. 	   Treasury, response to SIGTARP data call, 4/7/2010.
19. 	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.financialstability.gov/roadtostability/CPPfactsheet.htm, accessed 3/10/2010.
20. 	   Treasury, response to SIGTARP data call, 4/7/2010.
21. 	   Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit Strategy for
        TARP,” 12/9/2009, www.financialstability.gov/latest/pr_12092009.html, accessed 3/10/2010.
22. 	   Treasury, “Community Development Capital Initiative,” 2/18/2010, http://financialstability.gov/roadtostability/comdev.html, accessed 3/12/2010.
23. 	   Treasury, response to SIGTARP data call, 4/7/2010.
24. 	   Treasury, response to SIGTARP data call, 4/7/2010.
25. 	   Treasury, “Programs,” 5/7/2009, www.financialstability.gov/roadtostability/programs.htm, accessed 3/10/2010.
26. 	   The $40 billion Series D cumulative preferred shares were effectively converted to $41.6 billion Series E non-cumulative preferred without any cash
        outlay by Treasury. Treasury, Transactions Report, 4/2/2010, http://financialstability.gov/docs/transaction-reports/4-2-10%20Transactions%20Report%20
        as%20of%203-31-10.pdf, accessed 4/2/2010.
27. 	   Treasury, response to SIGTARP data call, 4/7/2010.
28. 	   OFS, Agency Financial Report, Fiscal Year 2009, 12/10/2009, www.treas.gov/press/releases/OSF%20AFR%2009.pdf, accessed 3/10/2010.
29. 	   Treasury, Transactions Report, 4/2/2010, http://financialstability.gov/docs/transaction-reports/4-2-10%20Transactions%20Report%20as%20of%203-31-
        10.pdf, accessed 4/2/2010.
30. 	   OFS, Agency Financial Report, Fiscal Year 2009, 12/10/2009, www.treas.gov/press/releases/OSF%20AFR%2009.pdf, accessed 3/10/2010.
31. 	   Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 12/16/2009, www.financialstability.gov/latest/
        hp1358.html, accessed 3/10/2010.
33. 	   Treasury, response to SIGTARP data call, 4/7/2010.
34. 	   FRBNY, response to SIGTARP data call, 4/7/2010.
35. 	   FRBNY, response to SIGTARP data call, 4/7/2010.
36. 	   Treasury, “Public-Private Investment Program,” 12/2/2009, www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 3/10/2010.
37. 	   Treasury, response to SIGTARP data call, 4/7/2010.
38. 	   Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/17/2009, www.financialstability.gov/roadtostability/unlockingCreditforSmallBusi-
        nesses.html, accessed 3/10/2010.
39. 	   Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” 3/2/2010, http://financial-
        stability.gov/docs/agreements/Coastal%20Securities,%20Inc.pdf, accessed 3/24/2010.
40. 	   Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.financialstability.gov/docs/AIFP/AIFP_guidelines.pdf, accessed
        3/10/2010.
154              special inspector general I troubled asset relief program



      41. 	   Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” no date, www.treas.gov/press/releases/docs/supplier_sup-
              port_program_3_18.pdf, accessed 3/10/2010.
      42. 	   Treasury, Transactions Report, 4/2/2010, http://financialstability.gov/docs/transaction-reports/4-2-10%20Transactions%20Report%20as%20of%203-31-
              10.pdf, accessed 4/2/2010.
      43. 	   Treasury, Transactions Report, 4/2/2010, http://financialstability.gov/docs/transaction-reports/4-2-10%20Transactions%20Report%20as%20of%203-31-
              10.pdf, accessed 4/2/2010.
      44. 	   Treasury, response to SIGTARP data call, 4/7/2010.
      45. 	   Treasury, “Written Testimony of Herbert M. Allison, Jr., Assistant Secretary for Financial Stability Domestic Policy Subcommittee of the Oversight and
              Government Reform Committee,” 12/17/2009, http://financialstability.gov/latest/st_12172009.html, accessed 3/10/2010.
      46. 	   Treasury, “Making Home Affordable,” 3/1/2010, http://www.financialstability.gov/roadtostability/homeowner.html, accessed 3/4/2010.
      47. 	   SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010,http://sigtarp.gov/reports/audit/2010/Factors_
              Affecting_Implementation_of_the_HomeAffordable_Modification_Program.pdf, accessed 3/25/2010.
      48. 	   Treasury, “Making Home Affordable Updated Detailed Program Description,” 3/4/2009, www.ustreas.gov/press/releases/reports/housing_fact_sheet.pdf,
              accessed 12/7/2009.
      49. 	   Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as20of%2012-30-
              09.pdf, accessed 1/4/2010.
      50. 	   Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, www.ustreas.gov/press/releases/reports/housing_fact_sheet.
              pdf, accessed 12/7/2009.
      51. 	   Treasury, “Treasury Announces Home Price Decline Protection Incentives,” 7/31/2009, www.financialstability.gov/latest/tg_07312009.html, accessed
              12/7/2009.
      52. 	   Treasury, response to SIGTARP data call, 1/12/2010.
      53. 	   Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
              HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 03/26/2010.
      54. 	   Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
              Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 03/26/2010.
      55. 	   Treasury, “Testimony of Herbert M. Allison,” 3/25/2010, www.ustreas.gov/press/releases/tg608.htm, accessed 3/29/2010.
      56. 	   Congressional Budget Office, “Report on the Troubled Asset Relief Program-March 2010,” 3/17/2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-17-
              TARP.pdf , accessed 3/23/2010.
      57. 	   Treasury, response to SIGTARP draft report, 4/9/2009.
      58. 	   Treasury, response to SIGTARP draft report, 4/8/2010
      59. 	   Treasury, Transactions Report, 4/2/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as20of%2012-30-
              09.pdf, accessed 4/2/2010.
      60. 	   Treasury, response to SIGTARP draft report, 4/8/2010.
      61. 	   Treasury, response to SIGTARP data call, 4/8/2010.
      62. 	   Treasury, response to SIGTARP vetting draft, 1/15/2010.
      63. 	   Treasury, Transactions Report, 4/2/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as20of%2012-30-
              09.pdf, accessed 4/4/2010.
      64. 	   Treasury, Transactions Report, 4/2/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as20of%2012-30-
              09.pdf, accessed 4/4/2010.
      65. 	   Treasury, “Home Affordable Modification Program: Overview,” www.hmpadmin.com/portal/programs/hamp.html, accessed 3/01/2010.3-MHA-1
      66. 	   Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, www.financialstability.gov/roadtostability/homeowner.html,
              accessed 3/8/2010.
      67. 	   Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
              HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      68. 	   Treasury, “Introduction of the Home Affordable Modification Program,” 4/6/2009, www.hmpadmin.com/portal/docs/hamp_servicer/sd0901.pdf,
              accessed 3/08/2010.
      69. 	   Treasury, “HAMP-Streamlined Borrower Evaluation Process,” 10/8/2009, www.hmpadmin.com/portal/docs/hamp_servicer/sd0907.pdf, accessed
              3/08/2010.
      70. 	   Treasury, “HAMP: Program update and resolution of active trial modifications,” 1/28/2010, https://www.hmpadmin.com/portal/docs/hamp_servicer/
              sd1001.pdf, accessed 3/4/2010. SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010,http://sigtarp.
              gov/reports/audit/2010/Factors_Affecting_Implementation_of_the_HomeAffordable_Modification_Program.pdf, accessed 3/25/2010.
      71. 	   Treasury, “HAMP: Program update and resolution of active trial modifications,” 1/28/2010, www.hmpadmin.com/portal/docs/hamp_servicer/sd1001.
              pdf, accessed 3/4/2010.
      72. 	   Treasury, “Making Home Affordable Program on Pace to Offer Help to Millions of Homeowners,” 8/4/2009, www.financialstability.gov/latest/tg252.
              html, accessed 3/8/2010.
      73. 	   Treasury, response to SIGTARP vetting draft, 1/15/2010.
      74. 	   Treasury, “Consumer FAQs,” 3/26/2010, http://makinghomeaffordable.gov/docs/Consumer%20FAQs%20032510%20FINAL.pdf, accessed 3/26/2010.
      75. 	   Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 03/26/2010, http://makinghomeaffordable.gov/
              docs/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      76. 	   Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 03/26/2010, http://makinghomeaffordable.gov/
              docs/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      77. 	   Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 03/26/2010, http://makinghomeaffordable.gov/
              docs/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
                                                                                               quarterly report to congress I aPRIL 20, 2010                 155


78. 	    Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
         HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 03/26/2010.
79. 	    Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
         HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 03/26/2010.
80. 	    Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
         HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 03/26/2010.
81. 	    Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
         HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 03/26/2010.
82. 	    Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
         HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 03/26/2010.
83. 	    Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
         HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 03/26/2010; Treasury, Call with OFS, 4/12/2010.
84. 	    Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
         HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
85. 	    Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
         HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
86. 	    Treasury, “Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/docs/hafa/sd0909r.pdf, assessed 3/29/2010.
87. 	    Treasury, “Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/docs/hafa/sd0909r.pdf, assessed 3/29/2010.
88. 	    Treasury, “Testimony of Herbert M. Allison,” 3/25/2010, www.ustreas.gov/press/releases/tg608.htm, assessed 3/29/2010.
89. 	    Treasury, Call with OFS, 4/12/2010.
90. 	    Treasury, “Update to the Second Lien Modification Program (2MP),” 3/26/2010 www.hmpadmin.com/portal/docs/second_lien/sd0905r.pdf, accessed
         3/28/2010.
91. 	    Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
         HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 03/26/2010.
92. 	    Treasury, “Home Affordable Modification Program- Modifications of Loans Insured by the Federal Housing Administration (FHA),” 3/26/2010,
         www.hmpadmin.com/portal/docs/fha_hamp/sd1003.pdf, accessed 3/29/2010.
93. 	    HUD, “Streamline Your FHA Mortgage,” http://www.hud.gov/offices/hsg/sfh/buying/streamli.cfm, accessed 3/29/2010.
94. 	    Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
         Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
95. 	    Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
         Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
96. 	    Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
         Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
97. 	    Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
         Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
98. 	    Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
         Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
99. 	    Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
         Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
100. 	   Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
         Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
101. 	   Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
         Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
102. 	   Treasury, “Update on HFA hardest hit fund,” 3/5/2010, http://www.makinghomeaffordable.gov/pr_03052010.html, accessed 3/8/2010.
103. 	   Treasury, “Housing Finance Agency Innovation Fund for the Hardest Hit Housing Markets,” 03/29/2010, http://financialstability.gov/docs/Hardest%20
         Hit%20public%20QA%200%2029%2010.pdf, accessed 03/29/2010.
104. 	   Treasury, “Update on HFA hardest hit fund,” 3/5/2010, www.makinghomeaffordable.gov/pr_03052010.html, accessed 3/8/2010.
105. 	   Treasury, “Update to the HFA Hardest Hit Fund Frequently Asked Questions,” 03/29/2010, http://financialstability.gov/docs/Hardest%20Hit%20pub-
         lic%20QA%200%2029%2010.pdf, accessed 03/29/2010.
106. 	   Treasury, “Update on HFA hardest hit fund,” 3/5/2010, www.makinghomeaffordable.gov/pr_03052010.html, accessed 3/8/2010.
107. 	   Treasury, “HFA Hardest-Hit Fund FAQs,” 3/5/2010, www.makinghomeaffordable.gov/docs/HFA%20FAQ%20—%20030510%20FINAL%20(Clean).
         pdf, accessed 3/8/2010.
108. 	   Treasury, “HFA Hardest-Hit Fund FAQs,” 3/5/2010, 2010, www.makinghomeaffordable.gov/docs/HFA%20FAQ%20—%20030510%20FINAL%20
         (Clean).pdf, accessed 3/8/2010.
109. 	   Real Estate Channel, “24% of All U.S. Residential Mortgages Now Underwater, Says CoreLogic Q-4 Report,” 2/23/2010, www.realestatechannel.com/
         us-markets/residential-real-estate-1/real-estate-news-first-american-corelogic-underwater-mortgages-negative-equity-mortgages-upside-down-home-
         equity-home-foreclosures-loan-defaults-2075.php, accessed 3/31/2010.
110. 	   Making Home Affordable, “Housing Finance Innovation Fund for the Hardest Hit Housing Markets,” 3/5/2010, www.makinghomeaffordable.gov/docs/
         HFA%20FAQ%20--%20030510%20FINAL%20(Clean).pdf, accessed 3/31/2010.
111. 	   Making Home Affordable, “Housing Finance Innovation Fund for the Hardest Hit Housing Markets,” 3/5/2010, http://www.makinghomeaffordable.
         gov/docs/HFA%20FAQ%20--%20030510%20FINAL%20(Clean).pdf, accessed 3/31/2010.
112. 	   Real Estate Channel, “24% of All U.S. Residential Mortgages Now Underwater, Says CoreLogic Q-4 Report,” 2/23/2010, www.realestatechannel.com/
         us-markets/residential-real-estate-1/real-estate-news-first-american-corelogic-underwater-mortgages-negative-equity-mortgages-upside-down-home-
         equity-home-foreclosures-loan-defaults-2075.php, accessed 3/31/2010.
156             special inspector general I troubled asset relief program



      113. 	 Treasury, Assistant Secretary for Financial Stability Herbert M. Allison, Jr. Written Testimony Congressional Oversight Panel, 10/22/2009, http://www.
             ustreas.gov/press/releases/tg325.htm, accessed 3/17/2010.
      114. 	 Amherst Securities Group LP, Testimony of Laurie S. Goodman Before House Financial Services Committee, 12/8/2009, http://www.house.gov/apps/
             list/hearing/financialsvcs_dem/goodman.pdf, accessed 3/23/2010.
      115. 	 Amherst Securities Group LP, Testimony of Laurie S. Goodman Before House Financial Services Committee, 12/8/2009, www.house.gov/apps/list/
             hearing/financialsvcs_dem/goodman.pdf, accessed 3/23/2010.
      116. 	 Federal Reserve Bank of Boston, Public Policy Discussion, Negative Equity and Foreclosure: Theory and Evidence, 6/5/2008, www.bos.frb.org/eco-
             nomic/ppdp/2008/ppdp0803.pdf, accessed 3/17/2010.
      117. 	 Real Estate Channel, “24% of All U.S. Residential Mortgages Now Underwater, Says CoreLogic Q-4 Report,” 2/23/2010, www.realestatechannel.com/
             us-markets/residential-real-estate-1/real-estate-news-first-american-corelogic-underwater-mortgages-negative-equity-mortgages-upside-down-home-
             equity-home-foreclosures-loan-defaults-2075.php, accessed 3/31/2010.
      118. 	 RIS Media, Los Angeles Times, “Fed-Up Homeowners Who Can Pay the Mortgage, Don’t,” 3/30/2010, http://rismedia.com/2010-03-30/fed-up-home-
             owners-who-can-pay-the-mortgage-dont/, accessed 3/31/2010. SFGate.com, San Francisco Chronicle, “Strategic defaults on homes on the rise: With
             homes underwater, owners just walk away,” 3/8/2010, http://articles.sfgate.com/2010-03-08/news/18380454_1_strategic-defaults-negative-equity-first-
             american-corelogic, accessed 3/31/2010.
      119. 	 U.S. Census Bureau, Price Monitor, 1/2010, www.census.gov/const/uspricemon.pdf, accessed 3/17/2010.
      120. 	 Real Estate Channel, “24% of All U.S. Residential Mortgages Now Underwater, Says CoreLogic Q-4 Report,” 2/23/2010, www.realestatechannel.com/
             us-markets/residential-real-estate-1/real-estate-news-first-american-corelogic-underwater-mortgages-negative-equity-mortgages-upside-down-home-
             equity-home-foreclosures-loan-defaults-2075.php, accessed 3/31/2010.
      121. 	 Federal Reserve Board, “5 Tips for Protecting Your Home from Foreclosure,” 4/28/2009, www.federalreserve.gov/pubs/foreclosuretips/default.htm, ac-
             cessed 3/11/2010.
      122. 	 Making Home Affordable, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/25/2010, www.makinghomeafford-
             able.gov/docs/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      123. 	 Bank of America, “Bank of America Introduces Earned Principal Forgiveness Among Enhancements to Its National Homeownership Retention
             Program: Approach to Modifying Severely Underwater Loans Aimed at Encouraging Greater Homeowner Participation in Modification Programs,”
             3/24/2010, http://newsroom.bankofamerica.com/index.php?s=43&item=8662, accessed 3/31/2010.
      124. 	 Federal Reserve Board, “A Consumer’s Guide to Mortgage Refinancings,” no date, www.federalreserve.gov/pubs/refinancings/default.htm,
             accessed 3/11/2010.
      125. 	 Federal Reserve Board, “A Consumer’s Guide to Mortgage Refinancings,” no date, www.federalreserve.gov/pubs/refinancings/default.htm,
             accessed 3/11/2010.
      126. 	 Making Home Affordable, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/25/2010 www.makinghomeaffordable.
             gov/docs/FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      127. 	 Making Home Affordable, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/25/2010, www.makinghomeafford-
             able.gov/docs/FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      128. 	 Making Home Affordable, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/25/2010, www.makinghomeafford-
             able.gov/docs/FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      129. 	 Federal Reserve Board, “A Consumer’s Guide to Mortgage Refinancings,” no date, www.federalreserve.gov/pubs/refinancings/default.htm, accessed
             3/11/2010.
      130. 	 Federal Reserve Board, “A Consumer’s Guide to Mortgage Refinancings,” no date, www.federalreserve.gov/pubs/refinancings/default.htm, accessed
             3/11/2010.
      131. 	 Federal Reserve Board, “A Consumer’s Guide to Mortgage Refinancings,” no date, www.federalreserve.gov/pubs/refinancings/default.htm, accessed
             3/11/2010.
      132. 	 Federal Reserve Board, “A Consumer’s Guide to Mortgage Refinancings,” no date, www.federalreserve.gov/pubs/refinancings/default.htm, accessed
             3/11/2010.
      133. 	 Federal Reserve Board, “5 Tips for Protecting Your Home from Foreclosure,” 4/28/2009, www.federalreserve.gov/pubs/foreclosuretips/default.htm,
             accessed 3/11/2010.
      134. 	 Federal Reserve Board, “5 Tips for Protecting Your Home from Foreclosure,” 4/28/2009, www.federalreserve.gov/pubs/foreclosuretips/default.htm,
             accessed 3/11/2010.
      135. 	 Federal Reserve Board, “5 Tips for Protecting Your Home from Foreclosure,” 4/28/2009, www.federalreserve.gov/pubs/foreclosuretips/default.htm,
             accessed 3/11/2010.
      136. 	 Federal Reserve Board, “5 Tips for Protecting Your Home from Foreclosure,” 4/28/2009, www.federalreserve.gov/pubs/foreclosuretips/default.htm,
             accessed 3/11/2010.
      137. 	 Federal Reserve Board, “5 Tips for Protecting Your Home from Foreclosure,” 4/28/2009, www.federalreserve.gov/pubs/foreclosuretips/default.htm,
             accessed 3/11/2010.
      138. 	 Fannie Mae, “Fannie Mae Announces Deed for Lease™ Program,” 11/5/2009, www.fanniemae.com/newsreleases/2009/4844.jhtml, accessed
             3/31/2010. Freddie Mac, “Freddie Mac Extends Eviction Suspension Until March, Launches Rental Option for Foreclosed Borrowers, Tenants,”
             1/30/2009, www.freddiemac.com/news/archives/servicing/2009/20090130_reo-rental.html, accessed 3/31/2010.
      139. 	 National Bankruptcy Forum, “Does Filing for Bankruptcy Allow Me to Walk Away From an Underwater Home?”, 1/10/2010, www.nationalbankruptcy-
             forum.com/cars-and-bankruptcy/does-filing-for-bankruptcy-allow-me-to-walk-away-from-an-underwater-home/, accessed 3/12/2010.
      140. 	 Federal Reserve Board, “Household Borrowing after Personal Bankruptcy,” 3/26/2009, www.federalreserve.gov/Pubs/feds/2009/200917/200917pap.pdf,
             accessed 3/12/2010.
      141. 	 U.S. Courts, “The Discharge in Bankruptcy,” no date, www.uscourts.gov/bankruptcycourts/bankruptcybasics/discharge.html, accessed 3/12/2010.
      142. 	 U.S. Courts, “The Discharge in Bankruptcy,” no date, www.uscourts.gov/bankruptcycourts/bankruptcybasics/discharge.html, accessed 3/12/2010.
      143. 	 U.S. Courts, “The Discharge in Bankruptcy,” no date, www.uscourts.gov/bankruptcycourts/bankruptcybasics/discharge.html, accessed 3/12/2010. U.S.
             Courts, Bankruptcy, Basics, Chapter 7, Liquidation Under the Bankruptcy Code, no date, www.uscourts.gov/bankruptcycourts/bankruptcybasics/chap-
             ter7.html, accessed 4/1/2010.
                                                                                                 quarterly report to congress I aPRIL 20, 2010                   157


144. 	 IRS, The Mortgage Forgiveness Debt Relief Act and Debt Cancellation, 5/19/2009, www.irs.gov/individuals/article/0,,id=179414,00.html, accessed
       3/24/2010.
145. 	 IRS, The Mortgage Forgiveness Debt Relief Act and Debt Cancellation, 5/19/2009, www.irs.gov/individuals/article/0,,id=179414,00.html, accessed
       3/24/2010.
146. 	 HUD, “Providing Alternatives to Mortgage Foreclosure: A Report to Congress,” 3/1996, www.huduser.org/Publications/pdf/alt.pdf, accessed 3/12/2010.
147. 	 HUD, “Providing Alternatives to Mortgage Foreclosure: A Report to Congress,” 3/1996, www.huduser.org/Publications/pdf/alt.pdf, accessed 3/12/2010.
148. 	 HUD, “Providing Alternatives to Mortgage Foreclosure: A Report to Congress,” 3/1996, www.huduser.org/Publications/pdf/alt.pdf, accessed 3/12/2010.
149. 	 HUD, “Providing Alternatives to Mortgage Foreclosure: A Report to Congress,” 3/1996, www.huduser.org/Publications/pdf/alt.pdf, accessed 3/12/2010.
150. 	 Congressional Oversight Panel, “February Oversight Report Commercial Real Estate Losses and the Risk to Financial Stability,” 2/10/2010, http://cop.
       senate.gov/documents/cop-021110-report.pdf, accessed 3/12/2010.
151. 	 Congressional Oversight Panel, “February Oversight Report Commercial Real Estate Losses and the Risk to Financial Stability,” 2/10/2010, http://cop.
       senate.gov/documents/cop-021110-report.pdf, accessed 3/12/2010.
152. 	 Mortgage Banker’s Association, 2009, MBA Commercial/Multifamily, Mortgage Delinquency Rates for Major Investor Groups, www.mortgagebankers.
       org/files/Research/CommercialNDR/4Q09CommercialNDR.pdf, accessed 3/12/2010.
153. 	 Congressional Oversight Panel, “February Oversight Report Commercial Real Estate Losses and the Risk to Financial Stability,” 2/10/2010, http://cop.
       senate.gov/documents/cop-021110-report.pdf, accessed 3/12/2010.
154. 	 Congressional Oversight Panel, “February Oversight Report Commercial Real Estate Losses and the Risk to Financial Stability,” 2/10/2010, http://cop.
       senate.gov/documents/cop-021110-report.pdf, accessed 3/12/2010.
155. 	 Congressional Oversight Panel, “February Oversight Report Commercial Real Estate Losses and the Risk to Financial Stability,” 2/10/2010, http://cop.
       senate.gov/documents/cop-021110-report.pdf, accessed 3/12/2010.
156. 	 Congressional Oversight Panel, “February Oversight Report Commercial Real Estate Losses and the Risk to Financial Stability,” 2/10/2010, http://cop.
       senate.gov/documents/cop-021110-report.pdf, accessed 3/12/2010.
157. 	 Congressional Oversight Panel, “February Oversight Report Commercial Real Estate Losses and the Risk to Financial Stability,” 2/10/2010, http://cop.
       senate.gov/documents/cop-021110-report.pdf, accessed 3/12/2010.
158. 	 Economy Watch, Economy, Investment & Finance Reports, no date, www.economywatch.com/mortgage/commercial-mortgage.html, accessed
       3/25/2010.
159. 	 Congressional Oversight Panel, “February Oversight Report Commercial Real Estate Losses and the Risk to Financial Stability,” 2/10/2010, http://cop.
       senate.gov/documents/cop-021110-report.pdf, accessed 3/12/2010.
160. 	 Treasury, “TARP Budgetary Briefing,” 1/4/2010.
161. 	 OFS conference call, 3/19/2009.
162. 	 Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.financialstability.gov/roadtostability/CPPfactsheet.htm, accessed 9/14/2009.
163. 	 Treasury, response to SIGTARP data call, 4/6/2010.
164. 	 Treasury, “Letter From Secretary Geithner to Hill Leadership on Administration’s Exit Strategy for TARP,” 12/9/2009, www.financialstability.gov/latest/
       pr_12092009.html, accessed 12/11/2009.
165. 	 Treasury, response to SIGTARP vetting draft, 3/8/2010.
166. 	 Congressional Budget Office, Report on TARP — March 2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-17-TARP.pdf, accessed 3/23/2010.
167. 	 Treasury, Transactions Report, 4/2/2010, http://financialstability.gov/docs/transaction-reports/4-2-10%20Transactions%20Report%20as%20of%203-31-
       10.pdf, accessed 4/2/2010.
169. 	 Treasury, response to SIGTARP data call, 4/6/2010.
170. 	 Treasury, response to SIGTARP data call, 4/6/2010.
171. 	 Treasury, response to SIGTARP data call, 4/6/2010.
172. 	 Treasury, response to SIGTARP data call, 4/6/2010.
173. 	 Treasury Press Release, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.finan-
       cialstability.gov/latest/tg_06262009.html, accessed 6/26/2009.
174. 	 Treasury, Transactions Report, 4/2/2010, www.financialstability.gov/docs/transaction-reports/1- 4-10%20Transactions%20Report%20as20of%2012-30-
       09.pdf, accessed 4/2/2010.
175. 	 Treasury Press Release, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.finan-
       cialstability.gov/latest/tg_06262009.html, accessed 3/31/2010.
176. 	 Treasury, response to SIGTARP vetting draft, 3/8/2010.
177. 	 Treasury, response to SIGTARP vetting draft, 3/8/2010.
178. 	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 2/18/2010, www.financialstability.gov/latest/
       pr_02182010.html, accessed 3/13/2010.
179. 	 Treasury, response to SIGTARP vetting draft, 3/8/2010.
180. 	 OFS conference call, 3/19/2009.
181. 	 OFS conference call, 3/19/2009.
182. 	 Treasury Press Release, “Treasury Announces Plan to Sell Citigroup Common Stock,” 3/29/2010, www.financialstability.gov/latest/pr_03282010.html,
       accessed 3/31/2010.
183. 	 Midwest Banc Holding, Inc. Company Release, “Midwest Banc Holdings, Inc. Announces Exchange by the United States Treasury of $84.8 Million of
       Preferred Stock into a New Class of Cumulative Mandatorily Convertible Preferred Stock; Results of Special Meeting of Holders of Common Stock,”
       3/2/2010, www.snl.com/irweblinkx/file.aspx?IID=1021556&FID=9139168, accessed 3/10/2010.
184. 	 OFS, Midwest Banc Exchange briefing, 4/13/2010.
185. 	 Midwest Banc Holding, Inc. Company Release, “Midwest Banc Holdings, Inc. Announces Exchange by the United States Treasury of $84.8 Million of
       Preferred Stock into a New Class of Cumulative Mandatorily Convertible Preferred Stock; Results of Special Meeting of Holders of Common Stock,”
       3/2/2010, www.snl.com/irweblinkx/file.aspx?IID=1021556&FID=9139168, accessed 3/10/2010.
186. 	 Midwest Banc Holding, Inc. Company Release, “Midwest Banc Holdings, Inc. Announces Exchange by the United States Treasury of $84.8 Million of
       Preferred Stock into a New Class of Cumulative Mandatorily Convertible Preferred Stock; Results of Special Meeting of Holders of Common Stock,”
       3/2/2010, www.snl.com/irweblinkx/file.aspx?IID=1021556&FID=9139168, accessed 3/10/2010.
158               special inspector general I troubled asset relief program



      187. 	   OFS, Midwest Banc Exchange briefing, 4/13/2010.
      188. 	   OFS, Midwest Banc Exchange briefing, 4/13/2010.
      189. 	   OFS, Midwest Banc Exchange briefing, 4/13/2010.
      190. 	   Treasury, Transactions Report, 4/2/2010, http://financialstability.gov/docs/transaction-reports/4-2-10%20Transactions%20Report%20as%20of%203-31-
               10.pdf, accessed 4/2/2010.
      191. 	   Sterling Financial Corporation, “Treasury Response to Exchange Request,” 3/16/2009, www.sec.gov/Archives/edgar data/891106/0001157523100
               01607/a6217020ex992.htm, accessed 3/29/2010.
      192. 	   Sterling Financial Corporation, “Treasury Response to Exchange Request,” 3/16/2009, www.sec.gov/Archives/edgar/data/891106/0001157523100
               01607/a6217020ex992.htm, accessed 3/29/2010.
      193. 	   Sterling Financial Corporation, “Treasury Response to Exchange Request,” 3/16/2009, www.sec.gov/Archives/edgar/data/891106/0001157523100
               01607/a6217020ex992.htm, accessed 3/29/2010.
      194. 	   First Merchants Financial Corporation, Form 8-K, 3/23/2010, www.sec.gov/Archives/edgar/data/712534/000071253410000064/f8kcppconvert032320
               10.htm, accessed 3/31/2010.
      195. 	   First Merchants Financial Corporation, Form 8-K, 3/23/2010, www.sec.gov/Archives/edgar/data/712534/000071253410000064/f8kcppconvert032320
               10.htm, accessed 3/31/2010.
      196. 	   “First Merchants Builds Tangible Common Equity, Receives Approval to Exchange TARP Securities with U.S. Treasury,” 3/30/2010, www.market-
               watch.com/...nts-builds-tangible-common-equity-receives-approval-to-exchange-tarp-securities-with-us-treasury-2010-03-30?reflink=MW_news_stmp,
               accessed 3/30/2010.
      197. 	   White House Press Release, “President Obama Outlines New Small Business Lending Fund,” 2/2/2010, www.whitehouse.gov/the-press-office/presi-
               dent-obama-outlines-new-small-business-lending-fund, accessed 3/15/2010.
      198. 	   Treasury, CDFI Fund, “About Us,” 9/11/2009, www.cdfifund.gov/who_we_are/about_us.asp, accessed 3/16/2010.
      199. 	   Treasury, CDFI Fund Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
               Institutions,” 2/3/2010, www.cdfifund.gov/docs/2010/cdfi/Obama-Administration-Announces-Enhancements-Tarp-Initiative-for-Community-Dev-Fin-
               Inst.pdf, accessed 3/1/2010; Treasury, “Community Development Capital Initiative,” 2/18/2010, www.financialstability.gov/roadtostability/comdev.html,
               accessed 3/15/2010.
      200. 	   Treasury, response to SIGTARP data call, 3/31/2010.
      201. 	   CBO, Report on the Troubled Asset Relief Program, March 2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-17-TARP.pdf, accessed 3/25/2010;
               Treasury OFS, response to SIGTARP data call, 4/12/2010.
      202. 	   CBO, Report on the Troubled Asset Relief Program, March 2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-17-TARP.pdf, accessed 3/25/2010.
      203. 	   Treasury, CDFI Fund Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
               Institutions,” 2/3/2010, www.cdfifund.gov/docs/2010/cdfi/Obama-Administration-Announces-Enhancements-Tarp-Initiative-for-Community-Dev-Fin-
               Inst.pdf, accessed 3/1/2010.
      204. 	   Credit Union National Association, “What Is a Credit Union?” www.creditunion.coop/what_is_a_cu.html, accessed 3/23/2010.
      205. 	   Treasury, CDFI Fund Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
               Institutions,” 2/3/2010, www.cdfifund.gov/docs/2010/cdfi/Obama-Administration-Announces-Enhancements-Tarp-Initiative-for-Community-Dev-Fin-
               Inst.pdf, accessed 3/1/2010.
      206. 	   Treasury, “CDCI FAQ Regarding Application Deadline,” www.financialstability.gov/docs/CDCI/CDCI%20FAQ%20Regarding%20Application%20
               Deadline.pdf, accessed 4/8/2010.
      207. 	   Treasury, “Frequently Asked Questions,” http://financialstability.gov/docs/CDCI/CDCI%20FAQs.pdf, accessed 2/25/2010.
      208. 	   Treasury, response to SIGTARP data call, 4/7/2010.
      209. 	   Treasury, CDFI Fund Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
               Institutions,” 2/3/2010, www.cdfifund.gov/docs/2010/cdfi/Obama-Administration-Announces-Enhancements-Tarp-Initiative-for-Community-Dev-Fin-
               Inst.pdf, accessed 3/1/2010.
      210. 	   Treasury, “Frequently Asked Questions,” http://financialstability.gov/docs/CDCI/CDCI%20FAQs.pdf, accessed 2/25/2010.
      211. 	   Treasury, CDFI Fund Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
               Institutions,” 2/3/2010, www.cdfifund.gov/docs/2010/cdfi/Obama-Administration-Announces-Enhancements-Tarp-Initiative-for-Community-Dev-Fin-
               Inst.pdf, accessed 3/1/2010.
      212. 	   Treasury, CDFI Fund Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
               Institutions,” 2/3/2010, www.cdfifund.gov/docs/2010/cdfi/Obama-Administration-Announces-Enhancements-Tarp-Initiative-for-Community-Dev-Fin-
               Inst.pdf, accessed 3/1/2010.
      213. 	   Treasury, CDFI Fund Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
               Institutions,” 2/3/2010, www.cdfifund.gov/docs/2010/cdfi/Obama-Administration-Announces-Enhancements-Tarp-Initiative-for-Community-Dev-Fin-
               Inst.pdf, accessed 3/1/2010.
      214. 	   Treasury, response to SIGTARP data call, 4/7/2010.
      215. 	   White House Press Release, “President Obama Outlines New Small Business Lending Fund,” 2/2/2010, www.whitehouse.gov/the-press-office/presi-
               dent-obama-outlines-new-small-business-lending-fund, accessed 3/15/2010.
      216. 	   White House Press Release, “President Obama Outlines New Small Business Lending Fund,” 2/2/2010, www.whitehouse.gov/the-press-office/presi-
               dent-obama-outlines-new-small-business-lending-fund, accessed 3/15/2010.
      217. 	   White House Press Release, “Administration Announces New $30 Billion Small Business Lending Fund,” 2/2/2010, www.whitehouse.gov/sites/default/
               files/FACT_SHEET_Small_Business_Lending_Fund.pdf, accessed 3/15/2010.
      218. 	   Treasury Press Release, “Written Testimony of Herbert M. Allison, Jr., Assistant Secretary for Financial Stability before the House Financial Services
               Committee and House Small Business Committee: Condition of Small Business and Commercial Real Estate Lending in Local Markets,” 2/26/2010,
               www.ustreas.gov/press/releases/tg567.htm, accessed 3/8/2010.
      219. 	   Treasury Press Release, “Written Testimony of Herbert M. Allison, Jr., Assistant Secretary for Financial Stability before the House Financial Services
               Committee and House Small Business Committee: Condition of Small Business and Commercial Real Estate Lending in Local Markets,” 2/26/2010,
                                                                                                quarterly report to congress I aPRIL 20, 2010                   159


       www.ustreas.gov/press/releases/tg567.htm, accessed 3/8/2010.
220. 	 Treasury, response to SIGTARP data call, 3/31/2010.
221. 	 Treasury, “Programs,” 5/7/2009, www.financialstability.gov/roadtostability/programs.htm, accessed 12/7/2009.
222. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
       09.pdf, accessed 1/7/2010.
223. 	 Congressional Budget Office, “Report on the Troubled Asset Relief Program-March 2010,” 3/17/2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-17-
       TARP.pdf, accessed 3/23/2010.
224. 	 Treasury, response to SIGTARP data call, 4/8/2010; TARP Series F Preferred Drawdown Request #4, 2/11/2010, accessed 4/8/2010.
225. 	 For 4Q results, see American International Group, Inc., “AIG Reports Fourth Quarter and Full Year 2009 Results,” 2/26/2010, http://www.aigcor-
       porate.com/newsroom/index.html, accessed 2/26/2010; for 3Q results, see American Insurance Group, Inc., “Third Quarter Results Press Release,
       11/6/2009, www.aigcorporate.com/investors/2009_November/AIG%203Q09%20Press%20Release.pdf, accessed 12/7/2009; for 2Q results, see
       American Insurance Group, Inc., “Second Quarter Results Press Release,” 8/7/2009, www.aigcorporate.com/investors/2009_August/AIG2Q09_
       PressRelease_081009.pdf, accessed 3/15/2010.
226. 	 Treasury, response to SIGTARP data call, 4/8/2010; Dividend Strikes spreadsheet as of 3/31/2010.
227. 	 Treasury, “Treasury Names Two Appointees to AIG’s Board of Directors,” 4/1/2010, www.financialstability.gov/latest/tg_04012010.html, accessed
       4/6/2010.
228. 	 Treasury, response to SIGTARP data call, 4/8/2010; Dividend Strikes spreadsheet as of 3/31/2010.
229. 	 Treasury, “Securities Purchase Agreement dated as of April 17, 2009 between American International Group, Inc. and United States Department of
       the Treasury,” 4/17/2009, www.financialstability.gov/docs/agreements/Series.F.Securities.Purchase.Agreement.pdf, accessed 1/13/2009.
230. 	 Treasury, response to SIGTARP data call, 1/6/2010.
231. 	 Treasury, response to SIGTARP data call, 4/8/2010; TARP Series F Preferred Drawdown Request #4, 2/11/2010, accessed 4/8/2010.
232. 	 AIG, “AIG Closes Two Transactions That Reduce Debt AIG Owes Federal Reserve Bank of New York by $25 Billion,” 12/1/2009, http://phx.corporate-
       ir.net/External.File?item=UGFyZW50SUQ9MjE4ODl8Q2hpbGRJRDOtMXxUeXBlPTM=&t=1, accessed 3/17/2010.
233. 	 FRBNY, response to SIGTARP data call, 4/12/2010.
234. 	 FRBNY, Monthly Report, March 2010, “Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/files/monthly-
       clbsreport201003.pdf, accessed 3/31/2010.
235. 	 FRBNY, Monthly Report, March 2010, “Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/files/monthly-
       clbsreport201003.pdf, accessed 3/31/2010.
236. 	 Treasury, “Written Testimony of Herbert M. Allison, Jr., Assistant Secretary for Financial Stability Domestic Policy Subcommittee of the Oversight and
       Government Reform Committee,” 12/17/2009, www.financialstability.gov/latest/st_12172009.html, accessed 12/17/2009.
237. 	 AIG, “The Wind Down of AIG Financial Products, Inc.,” 3/17/2010, www.aigcorporate.com/restructuring/windownofFP.html, accessed 4/14/2010.
238. 	 Treasury, Transactions Report, 3/10/2010, www.financialstability.gov/docs/transaction-reports/3-12-10%20Transactions%20Report%20as%20of%20
       3-11-10.pdf, accessed 3/15/2010.
239. 	 Treasury, Transactions Report, 3/10/2010, www.financialstability.gov/docs/transaction-reports/3-12-10%20Transactions%20Report%20as%20of%20
       3-11-10.pdf, accessed 3/15/2010.
240. 	 Treasury, Section 105(a) Report, 3/10/2010, www.financialstability.gov/docs/105CongressionalReports/Monthly%20Report_February2010.pdf,
       accessed 3/15/2010.
241. 	 For initial loss guarantee and securities received, see Treasury, Transactions Report, 3/10/2010, www.financialstability.gov/docs/transaction-re-
       ports/3-12-10%20Transactions%20Report%20as%20of%203-11-10.pdf, accessed 3/15/2010; for losses covered amount, see Treasury, Section 105(a)
       Report, 2/3/2010, www.financialstability.gov/docs/105CongressionalReports/105aReport_02032009.pdf, accessed 3/16/2010.
242. 	 Congressional Budget Office, “Report on the Troubled Asset Relief Program—March 2010,” 3/17/2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-17-
       TARP.pdf, accessed 3/24/2010.
243. 	 Treasury, Transactions Report, 4/2/2010, www.financialstability.gov/docs/transaction-reports/4-2-10%20Transactions%20Report%20as%20of%203-31-
       10.pdf, accessed 4/9/2010.
244. 	 Treasury, “Treasury Department Announces Pricing of Public Offerings of Warrants to Purchase Common Stock of Bank of America Corporation,”
       3/4/2010, www.treas.gov/press/releases/tg572.htm, accessed 3/4/2010.
245. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/talf_terms.html, accessed
       12/7/2009; Treasury OFS, response to SIGTARP data call, 4/12/2010.
246. 	 Federal Reserve Press Release, “Federal Reserve and Treasury Department Announce Extension to Term Asset-Backed Securities Loan Facility,”
       8/17/2009, www.federalreserve.gov/newsevents/press/monetary/20090817a.htm, accessed 8/20/2009; FRBNY, “Information on Future Program
       Changes,” http://www.newyorkfed.org/markets/talf_future.html, accessed 3/17/2010; FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently
       Asked Questions,” www.newyorkfed.org/markets/talf_faq.html#6, accessed 3/15/2010.
247. 	 Federal Reserve Press Release, “Federal Reserve and Treasury Department Announce Extension to Term Asset-Backed Securities Loan Facility,”
       8/17/2009, www.federalreserve.gov/newsevents/press/monetary/20090817a.htm, accessed 8/20/2009; FRBNY, “Information on Future Program
       Changes,” http://www.newyorkfed.org/markets/talf_future.html, accessed 3/17/2010; FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently
       Asked Questions,” http://www.newyorkfed.org/markets/talf_faq.html#6, accessed 3/15/2010.
248. 	 Federal Reserve Press Release, “Federal Reserve Announces the Creation of the Term Asset-Backed Securities Loan Facility (TALF),” 11/25/2008,
       www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 1/13/2010.
249. 	 FRBNY, response to SIGTARP data call, 1/12/2010.
250. 	 Treasury OFS, response to SIGTARP data call, 3/7/2010.
251. 	 CBO, Report on the Troubled Asset Relief Program— March 2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-17-TARP.pdf, p. 14, accessed 3/24/2010.
252. 	 FRBNY, Federal Reserve Press Release, “Federal Reserve and Treasury Department Announce Extension to Term Asset-Backed Securities Loan
       Facility,” 8/17/2009, www.federalreserve.gov/newsevents/press/monetary/20090817a.htm, accessed 8/20/2009.
253. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 2/1/2010, www.newyorkfed.org/markets/talf_faq.html#6, accessed
       3/15/2010.
160             special inspector general I troubled asset relief program



      254. 	 FRBNY, “Federal Reserve Bank of New York and BlackRock Financial Management, Inc, Collateral Monitor Agreement,” 2/16/2010, www.newyorkfed.
             org/aboutthefed/Blackrock_022010.pdf, accessed 3/25/2010.
      255. 	 FRBNY conference call, 2/18/2010.
      256. 	 Treasury, response to SIGTARP draft, 4/8/2010.
      257. 	 FRBNY, “FAQs: MBS Purchase Program,” 2/17/ 2010, www.newyorkfed.org/markets/mbs_faq.html, accessed 3/24/2010.
      258. 	 FRBNY, “Maiden Lane Transactions,” www.newyorkfed.org/markets/maidenlane.html, accessed 3/24/2010.
      259. 	 FRBNY, Memo from Martin C. Grant, Chief Compliance and Ethics Officer and Senior Vice President of FRBNY to Ms. Dawn A. Patterson, Director,
             Office of Compliance, Office of Financial Stability, Regarding: BlackRock Financial Management, Inc. Collateral Monitor Agreement, February 16,
             2010, accessed 3/24/2010.
      260. 	 FRBNY, response to SIGTARP data call, 4/7/2010.
      261. 	 FRBNY, “New York Fed Announces Update to List of Accepted and Rejected Legacy CMBS,” 1/5/2010, www.newyorkfed.org/markets/st100105.html,
             accessed 3/11/2010.
      263. 	 FRBNY, response to SIGTARP data call, 4/7/2010.
      264. 	 FRBNY, “Information on Future Program Changes,” www.newyorkfed.org/markets/talf_future.html, accessed 3/11/2010; Term Asset-Backed Securities
             Loan Facility: non-CMBS, www.newyorkfed.org/markets/TALF_recent_operations.html, accessed 3/25/2010.
      265. 	 FRBNY, response to SIGTARP data call, 4/7/2010.
      266. 	 FRBNY, “Information on Future Program Changes,” www.newyorkfed.org/markets/talf_future.html, accessed 3/11/2010.
      267. 	 Federal Reserve, “H.4.1 Factors Effecting Reserve Balances,” 3/11/2010, www.federalreserve.gov/releases/h41/Current/, accessed 3/17/2010.
      268. 	 Federal Reserve, “H.4.1 Factors Effecting Reserve Balances,” 3/11/2010, www.federalreserve.gov/releases/h41/Current/, accessed 3/17/2010; Treasury,
             response to SIGTARP draft, 4/8/2010.
      269. 	 FRBNY, response to SIGTARP data call, 4/7/2010.
      270. 	 Federal Reserve, Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet, February 2010, p. 19, www.feder-
             alreserve.gov/monetarypolicy/files/monthlyclbsreport201002.pdf, accessed 3/2/2010; FRBNY, response to SIGTARP data call, 4/7/20
      271. 	 Federal Reserve, “H.4.1 Factors Effecting Reserve Balances,” 3/11/2010, www.federalreserve.gov/releases/h41/Current/, note 8, accessed 3/17/2010;
             Treasury OFS, response to SIGTARP draft, 4/8/2010.
      272. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.financialstability.gov/docs/TCW%20LPA%20EXECUTED%20(re-
             dacted).pdf, accessed 12/14/2009.
      273. 	 Treasury, “Treasury Department Announces Additional Initial Closing of Legacy Securities Public-Private Investment Fund,” 12/22/2009, www.finan-
             cialstability.gov/latest/pr_12182009c.html, accessed 12/29/2009.
      274. 	 OMB, “Report on the Troubled Asset Relief Program,” 3/2010, www2.fdic.gov/qbp/2009dec/qbp.pdf, pp. 2-3, accessed 3/23/2010.
      275. 	 Treasury, “Treasury Department Provides Updated Guidance on Legacy Securities Public-Private Investment Program,” 4/6/2009, www.treas.gov/press/
             releases/tg82.htm, accessed 11/24/2009.
      276. 	 Treasury, “Legacy Securities Public-Private Investment Funds (PPIFs) Frequently Asked Questions,” 3/23/2009, www.treas.gov/press/releases/reports/
             legacy_securities_faqs.pdf, accessed 3/31/2010.
      277. 	 Treasury, “Legacy Securities Public-Private Investment Program: Program Update – Month Ended November 30, 2009,” received 1/6/2009.
      278. 	 Treasury Press Release, “Treasury Department Announces Additional Initial Closing of Legacy Securities Public-Private Investment Fund,”
             12/18/2009, www.treas.gov/press/releases/tg457.htm, accessed 1/5/2010.
      279. 	 SIGTARP P/R response to draft report, 3/5/2010.
      280. 	 Date: SIGTARP response to draft report, 3/5/2010. Interest: Treasury, “Dividend and Interest Report,” 3/17/2010, www.financialstability.gov/docs/
             dividends-interest-reports/February%202010%20Dividends%20and%20Interest%20Report.pdf, accessed 4/8/2010.
      281. 	 Treasury, response to SIGTARP data call, 4/8/2010.
      282. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.financialstability.gov/docs/TCW%20LPA%20EXECUTED%20(re-
             dacted).pdf, accessed 12/14/2009.
      283. 	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009, www.
             treas.gov/press/releases/reports/legacy_securities_faqs.pdf, accessed 12/14/2009. Treasury, “Marathon Amended And Restated Limited Partnership
             Agreement,” no date, www.financialstability.gov/docs/Marathon%20LPA%20Executed%20Version%20(REDACTED).pdf, p. 43, accessed 3/16/2010.
      284. 	 Treasury, response to SIGTARP vetting draft, 1/15/2010.
      285. 	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended December 31, 2009,” 1/29/2010, www.financial-
             stability.gov/docs/External%20Report%20-%2012-09%20FINAL.pdf, p. 8, accessed 3/31/2010.
      286. 	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended December 31, 2009,” 1/29/2010, www.financial-
             stability.gov/docs/External%20Report%20-%2012-09%20FINAL.pdf, p. 8, accessed 3/31/2010.
      287. 	 SIGTARP email, 2/25/2010.
      288. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, accessed 4/8/2009.
      289. 	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet.” 3/16/2009, www. financialstability.gov/roadtostability/unlockingCreditforSmallBusiness-
             es.html, accessed 3/17/2009; DBA, “Q&A for Small Business Owners,” no date, www.treas.gov/press/releases/reports/tg58_smallbiz_qa.pdf, accessed
             6/30/2009; Treasury OFS, response to SIGTARP data call, 4/12/2010.
      290. 	 Treasury, Transactions Report, 3/30/2010, www.financialstability.gov/latest/reportsanddocs.html, accessed 3/31/2010.
      291. 	 Treasury, response to SIGTARP data call, 1/5/2010.
      292. 	 SBA, “The 7(a) Loan Program,” www.sba.gov/financialassistance/borrowers/guaranteed/7alp/index.html, accessed 2/24/2010.
      293. 	 SBA, “How the Program Works,” www.sba.gov/financialassistance/borrowers/guaranteed/7alp/FINANCIAL_GLP_7A_WORK.html, accessed
             2/24/2010.
      294. 	 SBA, “President Obama and Secretary Geithner Announce Plans to Unlock Credit for Small Businesses: Emphasizes Recovery Efforts Already Taken
             by SBA To Expand Access to Capital for Small Businesses,” 3/16/2009, www.sba.gov/idc/groups/public/documents/sba_homepage/white_house_fact-
             sheet_031609.pdf, accessed 3/15/2010.
      295. 	 SBA, “President Obama and Secretary Geithner Announce Plans to Unlock Credit for Small Businesses: Emphasizes Recovery Efforts Already Taken
             by SBA To Expand Access to Capital for Small Businesses,” 3/16/2009, www.sba.gov/idc/groups/public/documents/sba_homepage/white_house_fact-
             sheet_031609.pdf, accessed 3/15/2010.
                                                                                              quarterly report to congress I aPRIL 20, 2010                 161


296. 	 SBA, “Helping Small Businesses Start, Grow, and Succeed: Q&A for Small Business Owners,” www.sba.gov/idc/groups/public/documents/sba_homep-
       age/recovery_act_faqs.pdf, accessed 2/24/2010; OFS conference call, 3/2/2010.
297. 	 OFS conference call, 3/2/2010; SIGTARP data call, OFS briefing, 3/2/2010; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and
       Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010, http://financialstability.gov/docs/agreements/Coastal%20Securities,%20Inc..pdf,
       accessed 3/23/2010.
298. 	 OFS conference call, 3/2/2010.
299. 	 OFS conference call, 3/2/2010; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool
       Assemblers,” signed 3/2/2010, http://financialstability.gov/docs/agreements/Coastal%20Securities,%20Inc..pdf, accessed 3/23/2010.
300. 	 OFS conference call, 3/2/2010.
301. 	 Treasury, Transactions Report, 3/30/2010, www.financialstability.gov/latest/reportsanddocs.html, accessed 3/31/2010.
302. 	 Treasury OFS, response to SIGTARP data call, 4/14/2010.
303. 	 Treasury Press Release, “Secretary of the Treasury Timothy F. Geithner Written Testimony before the Congressional Oversight Panel,” 12/10/2009,
       www.ustreas.gov/press/releases/tg437.htm, accessed 3/4/2010.
304. 	 SBA, “Size Standards,” no date, www.sba.gov/contractingopportunities/officials/size/index.html, accessed 3/8/2010.
305. 	 SBA, “Summary of Size Standards by Industry,” no date, www.sba.gov/contractingopportunities/officials/size/summaryofssi/index.html, accessed
       3/17/2010.
306. 	 SBA, “Size Standards,” no date, www.sba.gov/contractingopportunities/officials/size/index.html, accessed 3/8/2010.
307. 	 SBA, “Office of Advocacy, Frequently Asked Questions,” updated September 2009, www.sba.gov/advo/stats/sbfaq.pdf, accessed 3/16/2010.
308. 	 SBA, “Private Firms, Establishments, Employment, Annual Payroll and Receipts by Firm Size, 1988-2006,” www.sba.gov/advo/research/us88_06.pdf,
       accessed 3/23/2010.
309. 	 Federal Reserve Bank of San Francisco, “FRBSF Economic Letter,” 3/6/2009, www.frbsf.org/publications/economics/letter/2009/el2009-09.html, ac-
       cessed 3/10/2010.
310. 	 Senior Supervisors Group, “Risk Management Lessons from the Global Banking Crisis of 2008,” 10/21/2001, www.newyorkfed.org/newsevents/news/
       banking/2009/SSG_report.pdf, p. 6, accessed 3/3/2010.
311. 	 Federal Reserve, “Commercial Bank Examination Manual, Section 2080.1 Commercial and Industrial Loans,” 5/1996, www.federalreserve.gov/board-
       docs/supmanual/cbem/200910/2000.pdf, accessed 3/13/2010.
312. 	 Federal Reserve, “Changes in U.S. Family Finances from 2004 to 2007: Evidence from the Survey of Consumer Finances,” 2/2009, www.federalre-
       serve.gov/pubs/bulletin/2009/pdf/scf09.pdf, p. A35, accessed 3/23/2010.
313. 	 Treasury, “OCC ADVISORY LETTER Subject: Credit Card Practices,” 9/14/2004, www.occ.treas.gov/ftp/advisory/2004-10.txt, accessed 3/23/2010.
314. 	 Federal Reserve, “The January 2010 Senior Loan Officer Opinion Survey on Bank Lending Practices,” 2/1/2010, www.federalreserve.gov/BoardDocs/
       snloansurvey/201002/fullreport.pdf, accessed 3/4/2010.
315. 	 Federal Reserve, “The January 2010 Senior Loan Officer Opinion Survey on Bank Lending Practices,” 2/1/2010, www.federalreserve.gov/BoardDocs/
       snloansurvey/201002/fullreport.pdf, accessed 3/4/2010.
316. 	 FFIEC, “Instructions for Preparation of Consolidated Reports of Condition and Income,” updated 12/2009, www.ffiec.gov/PDF/FFIEC_forms/
       FFIEC031_FFIEC041_200912_i.pdf, p. RC-C-37, accessed 3/8/2010.
317. 	 FDIC, “Statistics on Banking,” no date, www2.fdic.gov/SDI/SOB/, accessed 3/30/2010.
318. 	 FDIC, “Statistics on Banking,” no date, www2.fdic.gov/SDI/SOB/, accessed 3/30/2010.
319. 	 Year end data: FDIC, “Quarterly Banking Profile, Fourth Quarter 2009,” 2/2009, www2.fdic.gov/qbp/2009dec/qbp.pdf, p. 4, accessed 3/23/2010; FDIC
       inception date: FDIC, “History of FDIC,” no date, www.fdic.gov/about/history/index.html, accessed 3/23/2010.
320. 	 SBA, “Overview & History,” www.sba.gov/aboutsba/history/index.html, accessed 3/12/2010.
321. 	 SBA, “Guaranteed Loan Program (Debt Financing),” www.sba.gov/financialassistance/borrowers/role/index.html, accessed 3/12/2009.
322. 	 SBA, “Summary of Performance and Financial Information, Fiscal Year 2009,” 2/22/2010, www.sba.gov/idc/groups/public/documents/sba_homepage/
       serv_aboutsba_perf_summ.pdf, accessed 3/12/2009.
323. 	 SBA, 7(a) Loan Program, www.sba.gov/financialassistance/borrowers/guaranteed/7alp/FINANCIAL_GLP_7A_TERMS.html, accessed 3/12/2009.
324. 	 SBA, “Summary of Performance and Financial Information, Fiscal Year 2009,” 2/22/2010, www.sba.gov/idc/groups/public/documents/sba_homepage/
       serv_aboutsba_perf_summ.pdf., accessed 3/12/2009.
325. 	 SBA, “CDC/504 Loan Program,” www.sba.gov/financialassistance/borrowers/guaranteed/CDC504lp/index.html, accessed 3/12/2010.
326. 	 SBA, “Summary of Performance and Financial Information, Fiscal Year 2009,” 2/22/2010, www.sba.gov/idc/groups/public/documents/sba_homepage/
       serv_aboutsba_perf_summ.pdf, accessed 3/12/2009.
327. 	 SBA, “Microloan Programs,” no date, www.sba.gov/financialassistance/borrowers/guaranteed/mlp/index.html, accessed 3/12/2010.
328. 	 SBA, “Guaranteed Loan Programs,” no date, www.sba.gov/financialassistance/borrowers/guaranteed/index.html, accessed 3/12/2010; SBA, Overview
       of Disaster Assistance Loan, www.sba.gov/financialassistance/borrowers/guaranteed/dalp/FINANCIAL_B_GLP_DALP_OVERVIEW.html, accessed
       3/12/2010.
329. 	 SBA, “Annual Report on Disaster Assistance,” no date, www.sba.gov/idc/groups/public/documents/sba_homepage/serv_da_annual-report_2009.pdf,
       accessed 3/12/2010.
330. 	 SBA, “Summary of Performance and Financial Information, Fiscal Year 2009,” 2/22/2010, www.sba.gov/idc/groups/public/documents/sba_homepage/
       serv_aboutsba_perf_summ.pdf, accessed 3/12/2009.
331. 	 NASBIC, “SBIC Financing Step by Step,” no date, www.nasbic.org/?page=SBIC_financing, accessed 3/12/2010.
332. 	 U.S. Department of Commerce, “Small Business Investment Company (SBIC) Program,” 10/16/2009, www.mbda.gov/?section_id=3&bucket_
       id=134&content_id=2282&well=entire_page, accessed 3/12/2010.
333. 	 NASBIC, “SBIC Financing Step by Step,” no date, www.nasbic.org/?page=SBIC_financing, accessed 3/12/2010.
334. 	 Total Investment: SBA, “Investment Division FAQs,” no date, www.sba.gov/aboutsba/sbaprograms/inv/faq/index.html, accessed 3/31/2010. Loan
       Principal Balance: SBA, “Summary of Performance and Financial Information, Fiscal Year 2009,” 2/22/2010, www.sba.gov/idc/groups/public/docu-
       ments/sba_homepage/serv_aboutsba_perf_summ.pdf, accessed 3/12/2009.
162             special inspector general I troubled asset relief program



      335. 	 SBA, “About the ARC Loan Program,” no date, www.sba.gov/recovery/arcloanprogram/REC_ARCLOAN_ELIGIBLE.html, accessed 3/12/2010.
      336. 	 SBA, “SBA Recovery Act Report Card,” December 2009, www.sba.gov/idc/groups/public/documents/sba_homepage/recov_perform_rptcard_12_2009.
             pdf, accessed 3/12/2010.
      337. 	 SBA, “Guaranteed Loan Program (Debt Financing),” no date, www.sba.gov/financialassistance/borrowers/role/index.html, accessed 312/09.
      338. 	 U.S. Department of Commerce, “SBA Guarantee Bond Program,” 10/19/2009, www.mbda.gov/?section_id=3&bucket_id=138&content_
             id=2277&well=entire_page, accessed 3/12/2010.
      339. 	 OMB, “Budget FY 2010 - Small Business Administration,” no date, www.gpo.gov/fdsys/pkg/BUDGET-2010-APP/pdf/BUDGET-2010-APP-1-29.pdf, p.
             1159, accessed 3/13/2010.
      340. 	 SBA, “PRIME Program,” no date, www.sba.gov/financialassistance/prospectivelenders/prime/index.html, accessed 3/12/2010.
      341. 	 ARRA enacted: GAO, “Status of the Small Business Administration’s Implementation of Administrative Provisions in the American Recovery and
             Reinvestment Act of 2009,” 1/19/2010, www.gao.gov/products/GAO-10-298R, accessed 3/24/2010. ARRA provisions: SBA, Implementing the
             American Recovery and Reinvestment Act of 2009 (Recovery Act), www.sba.gov/recovery/REC_LEARN_PROGRAMS.html, accessed 3/12/2010.
      342. 	 Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,” 10/19/2009, www.financialstability.gov/roadtostability/unlockingCreditforSmallBusi-
             nesses.html, accessed 3/8/2010.
      343. 	 Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.financialstability.gov/docs/AIFP/AIFP_guidelines.pdf, accessed
             9/2/2009.
      344. 	 Treasury, Transactions Report, 4/9/2010, www.financialstability.gov/docs/transaction-reports/4-9-10%20Transactions%20Report%20as%20of%204-7-10.
             pdf, accessed 4/13/2010.
      345. 	 Treasury, Transactions Report, 4/9/2010, www.financialstability.gov/docs/transaction-reports/4-9-10%20Transactions%20Report%20as%20of%204-7-10.
             pdf, accessed 4/13/2010.
      346. 	 Congressional Budget Office, “Report on the Troubled Asset Relief Program-March 2010,” 3/17/2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-17-
             TARP.pdf, accessed 3/23/2010.
      347. 	 Concerning the purpose of investment, see Treasury, “Automotive Industry Financing Program,” 9/4/2009, www.financialstability.gov/roadtostability/
             autoprogram.html, accessed 9/4/2009; for the amount of Government investment, see Treasury, Transactions Report, 2/25/2010, www.financialstability.
             gov/docs/transaction-reports/3-1-10%20Transactions%20Report%20as%20of%202-25-10.pdf, accessed 3/4/2010.
      348. 	 Treasury, Dividends and Interest Reports, 3/17/2010, www.financialstability.gov/docs/dividends-interest-reports/February%202010%20Dividends%20
             and%20Interest%20Report.pdf (data as of 2/28/2010), accessed 4/7/2010; Treasury, Dividends and Interest Reports, 3/31/2010; Treasury, response to
             SIGTARP data call, 4/8/2010.
      349. 	 Treasury, Transactions Report, 3/31/2010, www.financialstability.gov/docs/transaction-reports/4-2-10%20Transactions%20Report%20as%20of%203-31-
             10.pdf, accessed 4/7/2010.
      350. 	 For Total Commitments, see Congressional Budget Office, “Report on the Troubled Asset Relief Program-March 2010,” 3/17/2010, www.cbo.gov/
             ftpdocs/112xx/doc11227/03-17-TARP.pdf, accessed 3/23/2010; for Debt Repayments, see Treasury, Transactions Report, 3/31/2010, www.financialsta-
             bility.gov/docs/transaction-reports/4-2-10%20Transactions%20Report%20as%20of%203-31-10.pdf, accessed 4/7/2010.
      351. 	 Treasury, “Obama Administration Auto Restructuring Initiative: General Motors Restructuring,” 6/1/2009, www.financialstability.gov/latest/05312009_
             gm-factsheet.html, accessed 3/17/2009; Treasury, responses to SIGTARP draft reports, 7/9/2009 and 7/13/2009.
      352. 	 Treasury Press Release, “Written Testimony of Herbert M. Allison, Jr., Assistant Secretary for Financial Stability Domestic Policy Subcommittee of the
             Oversight and Government Reform Committee,” 12/17/2009, www.financialstability.gov/latest/st_12172009.html, accessed 3/10/2010.
      353. 	 Treasury Press Release, “The U.S. Treasury Department’s Summary Response to GAO Recommendations,” 1/4/2010, www.financialstability.gov/docs/
             Summary%20Response%20to%20GAO%20Auto%20Report%201%204%2010.pdf, accessed 3/9/2010.
      354. 	 Treasury, “The U.S. Treasury Department’s Summary Response to GAO Recommendations,” 1/4/2010, www.financialstability.gov/docs/Summary%20
             Response%20to%20GAO%20Auto%20Report%201%204%2010.pdf, accessed 3/17/2010.
      355. 	 GM, 8K, Exhibit 99.1: “News Release Dated November 16, 2009 and Financial Statements,” 11/16/2009, p. 3, www.sec.gov/Archives/edgar/
             data/1467858/000119312509238453/dex991.htm, accessed 12/11/2009.
      356. 	 Treasury, Transactions Report, 3/31/2010, www.financialstability.gov/docs/transaction-reports/4-2-10%20Transactions%20Report%20as%20of%203-31-
             10.pdf, accessed 4/7/2010.
      357. 	 Treasury, Transactions Report, 3/31/2010, www.financialstability.gov/docs/transaction-reports/4-2-10%20Transactions%20Report%20as%20of%203-31-
             10.pdf, accessed 4/7/2010.
      358. 	 GM Press Release, “The New General Motors Company Launches Today: Part 2,” 7/10/2009, www.gmreinvention.com/index.php/site/progress_re-
             ports/the_new_general_motors_company_launches_today_part_2/#206, accessed 3/5/2010.
      359. 	 GM Press Release, “The New General Motors Company Launches Today: Part 2,” 7/10/2009, www.gmreinvention.com/index.php/site/progress_re-
             ports/the_new_general_motors_company_launches_today_part_2/#206, accessed 3/5/2010.
      360. 	 Conference call with SIGTARP Audit, 4/12/2010.
      361. 	 American Arbitration Association, Rules and Guides, “Automobile Industry Special Binding Arbitration Program,” no date, www.adr.org/
             sp.asp?id=37159, accessed 3/31/2010.
      362. 	 Conference call with SIGTARP Audit, 4/12/2010.
      363. 	 Treasury, response to SIGTARP data call, 4/5/2010; partial answer received 4/6/2010 from Shannon Williams, SIGTARP Audit Supervisor; GM, GM
             Statement Regarding Dealer Arbitration, 3/5/2010, http://media.gm.com/content/media/us/en/news/news_detail.print.GMCOM.html/content/Pages/
             news/us/en/2010/Mar/0305_dealers, accessed 4/8/2010.
      364. 	 For total commitments: Treasury, Transactions Report, 4/9/2010, http://www.financialstability.gov/docs/transaction-reports/4-9-10%20Transactions%20
             Report%20as%20of%204-7-10.pdf, accessed 4/13/2010; for debt and equity stake numbers, see Congressional Budget Office, “Report on the Troubled
             Asset Relief Program-March 2010,” 3/17/2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-17-TARP.pdf, accessed 3/23/2010.
      365. 	 OFS vetting comment, 4/8/2010; U.S. Bankruptcy Court, Southern District of New York, Case No. 09-50002, Docket No. 6078, “Disclosure
             Statement with Respect to the Joint Plan of Liquidation of Debtors and Debtors in Possession,” 12/14/2009, summary page and pp. 6, 9, http://
             chap11.epiqsystems.com/ViewDocument.aspx?DocumentPk=4cb6e8a2-cef6-4982-bb7b-d7409bc74512, accessed 12/16/2009; for DIP Loan Amount,
             see Transactions Report, 4/9/2010, www.financialstability.gov/docs/transaction-reports/4-9-10%20Transactions%20Report%20as%20of%204-7-10.pdf,
             accessed 4/13/2010.
                                                                                               quarterly report to congress I aPRIL 20, 2010                  163


366. 	 FOX Business, Chrysler Sends Out Termination Letters to Dealers, 5/14/2009, www.foxbusiness.com/story/markets/industries/transportation/chrysler-
       sends-termination-letters-dealers/, accessed 4/8/2010.
367. 	 Conference call with SIGTARP audit, 4/12/2010; Treasury, response to SIGTARP data call 4/5/2010; partial answer received 4/6/2010 from Shannon
       Williams, SIGTARP Audit Supervisor.
368. 	 Treasury, Transactions Report, 3/31/2010, www.financialstability.gov/docs/transaction-reports/4-2-10%20Transactions%20Report%20as%20of%203-31-
       10.pdf, accessed 4/7/2010.
369. 	 GMAC, Corporate Statements, “Written Statement of Michael A. Carpenter, GMAC Chief Executive Officer GMAC Financial Services Before the
       Congressional Oversight Panel,” 2/25/2010, http://media.gmacfs.com/file.php/345/Carpenter+Testimony+-+Final.pdf, accessed 3/17/2010.
370. 	 Congressional Oversight Panel, “March Oversight Report: The Unique Treatment of GMAC under the TARP,” 3/10/2010, http://cop.senate.gov/docu-
       ments/cop-031110-report.pdf, accessed 3/18/2010.
371. 	 Concerning the principal, see Treasury, Transactions Report, 2/25/2010, www.financialstability.gov/docs/transaction-reports/3-1-10%20Transactions%20
       Report%20as%20of%202-25-10.pdf, accessed 3/4/2010; for interest amounts, see Treasury, Dividends and Interest Reports, 2/19/2010, www.financial-
       stability.gov/docs/dividends-interest-reports/January%202010_Dividends%20and%20Interest%20Report.pdf, accessed 3/4/2010, and 3/17/2010.
372. 	 Treasury Press Release, “Treasury Announces Auto Supplier Support Program,” 3/19/2009, www.financialstability.gov/latest/auto3_18.html, accessed
       12/10/2009.
373. 	 Treasury, Transactions Report, 2/25/2010, www.financialstability.gov/docs/transaction-reports/3-1-10%20Transactions%20Report%20as%20of%202-25-
       10.pdf, accessed 3/17/2010.
374. 	 Treasury, Transactions Report, 2/25/2010, www.financialstability.gov/docs/transaction-reports/3-1-10%20Transactions%20Report%20as%20of%202-25-
       10.pdf, accessed 3/17/2010.
375. 	 OFS vetting comment, 4/8/2010.Treasury, Transactions Report, 4/9/2010, www.financialstability.gov/docs/transaction-reports/4-9-10%20
       Transactions%20Report%20as%20of%204-7-10.pdf, accessed 4/13/2010.
376. 	 Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treas.gov/press/re-
       leases/tg165.htm, accessed 11/30/2009.
377. 	 American Recovery and Reinvestment Act of 2009, P.L. 111-5, 2/13/2009.
378. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treas.gov/press/releases/reports/ec%20ifr%20fr%20
       web%206.9.09tg164.pdf, accessed 11/30/2009.
379. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treas.gov/press/releases/reports/ec%20ifr%20fr%20
       web%206.9.09tg164.pdf, accessed 11/30/2009.
380. 	 Treasury, “Special Master for Executive Compensation,” 9/4/2009, www.financialstability.gov/about/spcMaster.html, accessed 11/30/2009.
381. 	 Treasury, “Special Master Issues 2010 Rulings for ‘Top 25’ Executives at Firms Receiving Exceptional Taxpayer Assistance and ‘Look Back’ Letter on
       Review of Pre-Recovery Act Compensation,” 3/23/2010, www.financialstability.gov/latest/tg_03232010c.html, accessed 3/23/2010.
382. 	 Treasury, “Special Master Issues 2010 Rulings for ‘Top 25’ Executives at Firms Receiving Exceptional Taxpayer Assistance and ‘Look Back’ Letter on
       Review of Pre-Recovery Act Compensation,” 3/23/2010, www.financialstability.gov/latest/tg_03232010c.html, accessed 3/23/2010.
383. 	 Treasury, “Special Master Issues 2010 Rulings for ‘Top 25’ Executives at Firms Receiving Exceptional Taxpayer Assistance and ‘Look Back’ Letter on
       Review of Pre-Recovery Act Compensation,” 3/23/2010, www.financialstability.gov/latest/tg_03232010c.html, accessed 3/23/2010.
384. 	 Treasury, “Special Master Issues 2010 Rulings for ‘Top 25’ Executives at Firms Receiving Exceptional Taxpayer Assistance and ‘Look Back’ Letter on
       Review of Pre-Recovery Act Compensation,” 3/23/2010, www.financialstability.gov/latest/tg_03232010c.html, accessed 3/23/2010.
385. 	 Treasury, “Special Master Issues 2010 Rulings for ‘Top 25’ Executives at Firms Receiving Exceptional Taxpayer Assistance and ‘Look Back’ Letter on
       Review of Pre-Recovery Act Compensation,” 3/23/2010, www.financialstability.gov/latest/tg_03232010c.html, accessed 3/23/2010.
386. 	 Treasury, “Special Master Issues 2010 Rulings for ‘Top 25’ Executives at Firms Receiving Exceptional Taxpayer Assistance and ‘Look Back’ Letter on
       Review of Pre-Recovery Act Compensation,” 3/23/2010, www.financialstability.gov/latest/tg_03232010c.html, accessed 3/23/2010.
387. 	 Treasury, “Special Master Issues 2010 Rulings for ‘Top 25’ Executives at Firms Receiving Exceptional Taxpayer Assistance and ‘Look Back’ Letter on
       Review of Pre-Recovery Act Compensation,” 3/23/2010, www.financialstability.gov/latest/tg_03232010c.html, accessed 3/23/2010.
388. 	 Treasury, “Special Master Issues 2010 Rulings for ‘Top 25’ Executives at Firms Receiving Exceptional Taxpayer Assistance and ‘Look Back’ Letter on
       Review of Pre-Recovery Act Compensation,” 3/23/2010, www.financialstability.gov/latest/tg_03232010c.html, accessed 3/23/2010.
389. 	 Treasury, “Special Master Issues 2010 Rulings for ‘Top 25’ Executives at Firms Receiving Exceptional Taxpayer Assistance and ‘Look Back’ Letter on
       Review of Pre-Recovery Act Compensation,” 3/23/2010, www.financialstability.gov/latest/tg_03232010c.html, accessed 3/23/2010.
164            special inspector general I troubled asset relief program



      390	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      391	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      392	   Treasury, response to SIGTARP data call, 4/7/2010.
      393	   Treasury, response to SIGTARP data call, 4/7/2010.
      394	   Treasury, response to SIGTARP data call, 4/7/2010.
      395	   The 51 private-sector vendors include 3 private firms that were provided on a separate contracts list from Treasury but were not included in the obliga-
             tions and expenditures list. Eleven Inter-Agency Agreements were not included in the calculation of 51 private-sector vendors.
      396	   Treasury, response to SIGTARP data call, 4/7/2010.
      397	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      398	   Treasury, response to SIGTARP data call, 4/1/2010.
      399	   Treasury, response to SIGTARP data call, 4/1/2010.
      400	   Treasury, response to SIGTARP data call, 4/1/2010.
      401	   Treasury, response to SIGTARP data call, 4/1/2010.
      402	   Congressional Oversight Panel, “April Oversight Report, Evaluating Progress on TARP Foreclosure Mitigation Programs,” 4/14/2010, http://cop.senate.
             gov/documents/cop-041410-report.pdf, page 51, accessed 4/15/2010.
      403	   Congressional Oversight Panel, “April Oversight Report, Evaluating Progress on TARP Foreclosure Mitigation Programs,” 4/14/2010.
      404	   Bureau of Labor Statistics Release, “Economic News Release,”4/4/2010, http://www.bls.gov/news.release/empsit.t12.htm, accessed 4/15/2010.
                                                                                                                   glossary I Appendix A I April 20, 2010               165




glossary
This appendix provides a glossary of terms that are used throughout the context of this report.

504 Community Development Loan Program: SBA program combining                        Direct Private Placement: Sale of securities to investors meeting minimum
Government-guaranteed loans with private-sector mortgage loans to provide            net worth and sophistication requirements, thus receiving an exception
loans of up to $10 million for community development.                                from normal Securities and Exchange Commission securities registration
                                                                                     requirements.
7(a) Program: SBA loan program guaranteeing a percentage of loans for
small businesses that cannot otherwise obtain conventional loans at reason-          Dividend: Distributions of cash or stock to shareholders as announced by
able terms.                                                                          the company’s board of directors.

Asset-Backed Securities (“ABS”): Bonds backed by a portfolio of non-mort-            Dutch Auction: For Treasury’s warrant auctions (buyers bid for different
gage consumer or corporate loans, e.g., credit card, auto, or small-business         quantities at once) the accepted price is set at the lowest bid of the group of
loans. Financial companies typically issue ABS backed by existing loans in           high bidders whose collective bids fulfill the amount offered by the Treasury.
order to fund new loans for their customers.
                                                                                     Equity Capital Facility: A commitment to invest equity capital in a firm
Auction Agent: A firm (such as an investment bank) that buys a series of             under certain future conditions.
securities from one institution for resale — also called an “underwriter.”
                                                                                     Exceptional Assistance: Companies receiving assistance under SSFI, TIP,
Bid Bond: Guarantees that the bidder on a contract will enter into the               AIFP, and any future Treasury program designated by the Treasury Secretary
contract and furnish any required payment and performance bonds.                     as providing exceptional assistance. Current recipients are: AIG, GM,
                                                                                     GMAC, Chrysler, and Chrysler Financial.
Commercial Mortgage-Backed Securities (“CMBS”): A type of bond
backed by one or more mortgages on commercial real estate (e.g., office              Excess Spread: Interest generated by an asset less its financing costs,
buildings, rental apartments, hotels) rather than by residential real estate         charge-offs, servicing costs, and any other related expenses. For TALF, the
loans.                                                                               difference between interest received from the underlying ABS or CMBS
                                                                                     collateral and the interest payments on the TALF loan.
Common Stock: Equity ownership entitling an individual to share in corpo-
rate earnings and voting rights.                                                     Executive Compensation: Payments to a corporation’s employees, particu-
                                                                                     larly those executives who have policymaking authority at the corporation
Community Development Financial Institutions (“CDFIs”): Financial                    in exchange for their services. These payments often include base salary,
institutions eligible for Treasury funding to serve a targeted demographic           bonuses, grants of shares and stock options, and other company benefits
under the CDFI Fund. CDFIs were created in 1994 by the Riegle                        (including, for example, health care and retirement benefits).
Community Development and Regulatory Improvement Act.
                                                                                     Face Value: The nominal value or dollar value of a security stated by the
Credit Underwriting: The process used by a financial institution to deter-           issuer.
mine the risks involved in providing credit to a borrower and to measure those
risks against standards established by the financial institution’s board of direc-   Forbearance: A temporary postponement of loan payments approved by the
tors. For a small-business loan, credit underwriting standards can be applied        servicer. Postponing the payments gives the borrower time to make up for
to the firm, the owner, or both.                                                     missed payments that were caused by financial hardship.

Cumulative Preferred Stock: A type of stock that requires a defined divi-            Government-Sponsored Enterprises (“GSEs”): Private corporations
dend payment. If the company does not pay the dividend, it still owes the            created and chartered by the Government to reduce borrowing costs, the
missed dividends to the stock’s owner.                                               liabilities of which are not officially considered direct taxpayer obligations.

CUSIP: Unique identifying number assigned to all registered securities in the        Gross Domestic Product: A measure of the total market value of all final
United States and Canada.                                                            goods and services produced in the U.S. during any quarter or year. GDP
                                                                                     equals total consumer spending, business investment, and government
Deed-in-Lieu of Foreclosure: Instead of going through the process of                 spending and investment, plus the value of exports, minus the value of
foreclosure, the borrower surrenders the deed to the home voluntarily to the         imports.
lender, often as satisfaction of the unpaid mortgage balance.
                                                                                     Illiquid Assets: Assets that cannot be quickly converted to cash.
Deficiency Judgment: A court order that authorizes a lender to collect part of
an outstanding debt resulting from the foreclosure and sale of a homeowner’s         Key Person: An individual recognized as being necessary for the operation of
property or from the repossession of a property securing a debt. A deficiency        the investment fund.
judgment will take place after the foreclosed or repossessed property is sold
and the proceeds collected are insufficient to pay the mortgage in full.             Legacy Assets: Commonly called troubled or toxic assets, these are real
                                                                                     estate-related loans and securities issued before the financial crisis’s that
Deficiency Payment: A payment made by the borrower to the lender in an               remain on financial institutions’ balance sheets. Legacy assets lost significant
amount usually equal to the difference between what the lender is able to sell       value at the onset of the crisis and were difficult to price because of market
the home for in a foreclosure sale and what was owed by the borrower on the          disruption.
loan.
166              Appendix a I glossary I April 20, 2010




      Legacy Securities: Real estate-related securities lingering on the balance           Prompt Corrective Action Order: A Federal law that requires Federal
      sheets of financial institutions because of pricing difficulties resulting from      bank regulators to take necessary actions to resolve the problems of insured
      market disruption.                                                                   depository institutions at the least possible long-term loss to the Deposit
                                                                                           Insurance Fund.
      Loan Modification: Involves making a permanent change in one or more
      terms of the existing loan such as the interest rate, the term, or converting        Public Interest Standard: Regulatory standard that the Special Master is
      from an adjustable-rate mortgage to a fixed-rate mortgage.                           required to apply in making determinations. Refers to the determination
                                                                                           of whether TARP recipient compensation plans are aligned with the best
      Mandatorily Convertible Preferred Stock (“MCP”): A type of preferred                 interests of the U.S. taxpayer, based on a balancing of specific principles set
      share that can be converted to common stock at the issuer’s discretion if            forth in the Rule.
      specific criteria are met by a certain date.
                                                                                           Qualified Equity Offering: A cash sale in an amount at least equal to
      Net Present Value Test: This test is used by the servicer to determine               Treasury’s original investment of common stock or certain types of preferred
      whether it will modify the mortgage, seek a foreclosure alternative, or pursue       stock that qualify as Tier 1 capital.
      foreclosure. The test compares investor returns if the mortgage is modified
      versus if nothing is done. If the result is positive, the investor would expect to   Recourse Loan: A loan in which the borrower is legally liable to repay a debt
      receive more from modifying the mortgage than from doing nothing.                    even if the asset mortgaged cannot be liquidated to cover the loan balance.
                                                                                           In a default, a recourse loan gives the lender the right to seize and sell the
      Non-Agency Residential Mortgage-Backed Securities (“non-agency                       mortgaged asset, in addition to other assets or property of the borrower, up to
      RMBS”): A financial instrument backed by a group of residential real estate          the value of the loan.
      mortgages that are not guaranteed by a Government-sponsored enterprise
      (“GSE”) such as the Federal National Mortgage Association (“Fannie Mae”)             Refinancing: Paying off an existing mortgage and replacing it with a new
      or the Federal Home Loan Mortgage Corporation (“Freddie Mac”).                       mortgage. Typically, the proceeds from the new loan are used to pay off the
                                                                                           debt of the old loan.
      Non-Cumulative Dividends: Dividends that do not accrue when a company
      does not make a dividend payment.                                                    Residential Mortgage-Backed Securities (“RMBS”): A type of bond
                                                                                           backed by a pool of mortgages for residential real estate (e.g., home mort-
      Non-Cumulative Preferred Stock: Shares of preferred stock where unpaid               gages for residences occupied by up to four families) rather than by commer-
      dividends do not accrue when the company does not make a dividend                    cial real estate loans.
      payment.
                                                                                           Revolving Credit Facility: A line of credit where the borrower pays a
      Non-Recourse Loan: A secured loan whereby the borrower is relieved of the            commitment fee and is then allowed to use up to a guaranteed maximum
      obligation to repay the loan upon surrender of the collateral.                       amount of funds when they are needed.

      Payment Bond: Guarantees that the contractor will pay anyone who                     SBA Pool Certificate: An ownership interest in a bond backed by
      furnishes labor, materials, equipment, and/or supplies for the contract.             SBA-guaranteed loans.

      Performance Bond: Guarantees that the contractor will perform the                    Senior Executive Officer (“SEO”): A “named executive officer” of a TARP
      contract in accordance with its terms.                                               recipient as defined under Federal securities law, which generally includes
                                                                                           the principal executive officer (“PEO”), principal financial officer (“PFO”),
      Permanent Modification: Under HAMP, a permanent modification lasts                   and the next three most highly compensated executive officers.
      five years, after which the interest rate can increase incrementally by up to
      1% per year, capped at the 30-year conforming fixed rate at the date of the          Senior Preferred Stock: Shares that give the stockholder priority dividend
      initial modification.                                                                and liquidation claims over junior preferred and common stockholders.

      Pool Assembler: A firm authorized to create and market pools of                      Senior Subordinated Debenture: A subordinated debenture is a debt
      SBA-guaranteed loans.                                                                instrument ranking below senior debt but above equity with regard to inves-
                                                                                           tors’ claims on company assets or earnings. Senior debt holders are paid
      Preferred Stock: Equity ownership that usually pays a fixed dividend prior           in full before subordinated debt holders are paid. There may be additional
      to distributions for common stock owners but only after payments due to              distinctions of priority among subordinated debt holders. CPP invests in
      holders of debt and depositors. It typically confers no voting rights. Preferred     senior subordinated debt.
      stock also has priority over common stock in the distribution of assets when a
      bankrupt company is liquidated.                                                      Short Sale: A sale of a home, typically for less than mortgage value, by which
                                                                                           the borrower sells the home and the lender collects the sales proceeds as
      Private Mortgage Insurance (“PMI”): Mortgage insurance provided by                   satisfaction of the unpaid mortgage balance, thus avoiding foreclosure (the
      non-Government insurers to protect a lender against losses if a borrower             costly legal process by which the investor would otherwise assume ownership
      defaults. Lenders may require borrowers to purchase this if the loan-to-value        of the home).
      ratio of the loan is 80% or higher.
                                                                                           Special Purpose Vehicle (“SPV”): An off-balance-sheet legal entity that
      Private-Label Mortgages: Loans that are not owned or guaranteed by                   holds the transferred assets presumptively beyond the reach of the entities
      Fannie Mae, Freddie Mac, or another Federal agency.                                  providing the assets and is legally isolated.
                                                                                                                      glossary I Appendix A I April 20, 2010                               167




Systemically Significant: A term used for any financial institution whose         Sources:
failure would impose significant losses on creditors and counterparties, call     COP, “February Oversight Report - Commercial Real Estate Losses and the Risk to Financial Stability,”
into question the financial strength of similar institutions, disrupt financial   2/10/2010, http://cop.senate.gov/documents/cop-021110-report.pdf, accessed 4/16/2010.
markets, raise borrowing costs for households and businesses, and reduce          FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_card_
                                                                                  securitization/glossary.html, accessed 4/9/2010.
household wealth (also commonly used to describe institutions known as
                                                                                  FDIC, “FDIC Laws, Regulations, and Related Acts: 1000 Federal Deposit Insurance Act,” www.fdic.gov/
“too big to fail”).                                                               regulations/laws/rules/1000-4000.html, accessed 4/12/2010.
                                                                                  FHFA, “Mortgage Markets and the Enterprises 2007,” 7/2008, www.fhfa.gov, accessed 4/9/2009.
Total Risk-Weighted Assets: A bank’s total assets after making adjustments        FRB, “5 Tips for Protecting your Home from Foreclosure,” 4/28/2009, www.federalreserve.gov/pubs/
based on each individual asset’s risk factor.                                     foreclosuretips/default.htm, accessed 3/11/2010.
                                                                                  FRB, “A Consumer’s Guide to Refinancing,” no date, www.federalreserve.gov/pubs/refinancings/default.
Trial Modification: Under HAMP, a trial modification is generally intended        htm, accessed 3/11/2010.
to last three months.                                                             SBA, “An Exploration of a Secondary Market for Small Business Loans,” 4/2003, www.sba.gov/advo/
                                                                                  research/rs227_tot.pdf, accessed 3/16/2010.
                                                                                  SBA, “Office of Surety Guarantees, FAQs,” no date, www.sba.gov/aboutsba/sbaprograms/osg/faq/index.
Trust Preferred Securities: Securities that have both equity and debt char-       html, accessed 3/17/2010.
acteristics created by establishing a trust and issuing debt to it.               SBA, “Venture Capital,” no date, www.sba.gov/financialassistance/borrowers/vc/, accessed 3/19/2010.
                                                                                  SBA, “Notice of Changes to SBA Secondary Market Program,” 9/24/2004, www.sba.gov/idc/groups/
Undercapitalized: A condition in which a financial institution does not           public/documents/sba_program_office/bank_notice_of_changes.htm, accessed 4/9/2010.
meet its regulator’s requirements for having sufficient capital to continue to    SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010,
operate under a defined level of adverse conditions.                              http://sigtarp.gov/reports/audit/2010/Factors_Affecting_Implementation_of_the_Home_Affordable_
                                                                                  Modification_Program.pdf, , accessed 03/28/2010.
                                                                                  SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010,
Under-Served Communities: Either geographic areas or demographic                  http://sigtarp.gov/reports/audit/2010/Factors_Affecting_Implementation_of_the_Home_Affordable_
groups that Treasury’s CDFI Fund division determines lack adequate access         Modification_Program.pdf, accessed 03/28/2010.
to financial services.                                                            SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010,
                                                                                  http://sigtarp.gov/reports/audit/2010/Factors_Affecting_Implementation_of_the_Home_Affordable_
Underwater Mortgage: A situation in which a homeowner owes more on                Modification_Program.pdf, accessed 3/28/2010.
                                                                                  Treasury, “Community Development Financial Institutions Fund,” 9/11/2009, /www.cdfifund.gov/who_we_
the mortgage than the home is worth, typically the result of a decline in the     are/about_us.asp, accessed 4/9/2010.
home’s value.                                                                     Treasury, “Decoder,” no date, www.financialstability.gov/roadtostability/decoder.htm, accessed
                                                                                  4/9/2009.
Venture Capital: A type of private equity capital typically provided for early-   Treasury, “Guidelines for Small Business and Community Lending Initiative,” no date, http://financial-
stage, high-growth-potential companies in the interest of generating a return     stability.gov/docs/Small%20Business%20Initiative%20Program%20Guidelines%20Final.pdf, accessed
through an eventual realization event, such as the sale of the company, a         4/9/2010.
merger, or an initial public offering.                                            Treasury, “Making Home Affordable Update: Foreclosure Alternatives and Home Price Decline Protection
                                                                                  Incentives,” 5/14/2009, www.treas.gov/press/releases/docs/05142009FactSheet-MakingHomesAfford-
                                                                                  able.pdf, accessed 12/30/2009.
Warrant: The right, but not the obligation, to purchase a certain number of       Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialsta-
shares of common stock at a fixed price. Because warrants rise in value as the    bility.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
company’s share price rises, Treasury (and the taxpayer) can benefit from a       U.S. Bureau of the Census, “Business Help Site,” no date, bhs.econ.census.gov/BHS/glossary.html,
firm’s potential recovery.                                                        accessed 3/12/2010.
                                                                                  U.S. Department of Housing and Urban Development, “Glossary,” no date, www.hud.gov/offices/hsg/sfh/
                                                                                  buying/glossary.cfm, accessed 4/8/2009.
Write-down: A reduction in the principal balance of a loan. Write-downs
may reduce the incentive for a borrower to default because the new principal
balance usually is lower than what the property would sell for.
168              Appendix B I Acronyms and abbreviations I April 20, 2010




      Acronyms and Abbreviations

      2MP               Second Lien Modification Program                    FDIC          Federal Deposit Insurance Corporation

      ABS               asset-backed securities                             FDIC OIG      Office of the Inspector General of the Federal Deposit
                                                                                          Insurance Corporation
      AGP               Asset Guarantee Program
                                                                            FFETF         Financial Fraud Enforcement Task Force
      AIA               AIA Group, Limited
                                                                            FHA           Federal Housing Administration
      AIFP              Automotive Industry Financing Program
                                                                            FRBNY         Federal Reserve Bank of New York
      AIG               American International Group, Inc.
                                                                            Freddie Mac   Federal Home Loan Mortgage Corporation
      ALICO             American Life Insurance Company
                                                                            FTC           Federal Trade Commission
      ARC               America's Recovery Capital program
                                                                            GAO           Government Accountability Office
      ARM               adjustable-rate mortgage
                                                                            GM            General Motors Corporation
      ARRA              American Recovery and Reinvestment Act of 2009
                                                                            GMAC          GMAC Inc.
      ASSP              Auto Supplier Support Program
                                                                            GSE           Government-sponsored enterprises
      AWCP              Auto Warranty Commitment Program
                                                                            HAFA          Home Affordable Foreclosure Alternatives program
      Bank of           Bank of America Corporation
      America                                                               HAMP          Home Affordable Modification Program

      BlackRock         BlackRock Financial Management, Inc.                HERA          Housing and Economic Recovery Act of 2008

      CAP               Capital Assistance Program                          HFA           Housing Finance Agency

      CBO               Congressional Budget Office                         HPDP          Home Price Decline Protection program

      CDCI              Community Development Capital Initiative            HUD           Department of Housing and Urban Development

      CDFI              Community Development Financial Institution         HUD OIG       Office of the Inspector General of the Department of
                                                                                          Housing and Urban Development
      CEO               chief executive officer
                                                                            IAA           Inter-Agency Agreement
      Chrysler          Chrysler Financial Services Americas LLC
      Financial                                                             ICE           Immigration and Customs Enforcement

      CMBS              commercial mortgage-backed securities               IG            Inspector General

      Colonial          Colonial Bancgroup                                  Initial       SIGTARP's Initial Report to Congress
                                                                            Report
      COP               Congressional Oversight Panel
                                                                            IPO           initial public offering
      CPP               Capital Purchase Program
                                                                            IRS           Internal Revenue Service
      DIL               deed-in-lieu of foreclosure
                                                                            LIBOR         London Interbank Offered Rate
      DOJ               Department of Justice
                                                                            LLC           limited liability company
      DTI               debt-toi-ncome ratio
                                                                            MBS           mortgage-backed securities
      EESA              Emergency Economic Stabilization Act of 2008
                                                                            MCP           mandatorily convertible preferred shares
      Fannie Mae        Federal National Mortgage Association
                                                                            Merrill       Merrill Lynch & Co. Inc.
      FBI               Federal Bureau of Investigation                     Lynch
                                                                                Acronyms and abbreviations I Appendix B I April 20, 2010   169




MHA        Making Home Affordable program                               TIP             Targeted Investment Program

Midwest    Midwest Banc Holdings, Inc.                                  Treasury        Department of the Treasury

MVMC       Mt. Vernon Money Center                                      UCB             United Commercial Bank

NPV        net present value                                            UCBH            UCB Holdings Inc.

NRSRO      nationally recognized statistical rating organization        UCSB            Unlocking Credit for Small Businesses initiative

NUFI       National Union Fire Insurance Company of Pittsburgh          UGC             United Guaranty Corporation

OMB        Office of Management and Budget                              ULG             United Law Group, LLC

OFS        Office of Financial Stability                                USPIS           U.S. Postal Inspection Service

PIMCO      Pacific Investment Management Company LLC

PPIF       Public-Private Investment Fund

PPIP       Public-Private Investment Program

PRIME      Program for Investment in Micro-Entrepreneurs

QFI        qualifying financial institution

RMBS       residential mortgage-backed securities

S&P        Standard & Poor’s

SBA        Small Business Administration

SBIC       Small Business Investment Company

SBLF       Small Business Lending Fund

SEC        Securities and Exchange Commission

SEO        senior executive officer

SIGTARP    Special Inspector General for the Troubled Asset Relief
           Program

Special    Office of the Special Master for the Troubled Asset Relief
Master     Program

SPV        special purpose vehicle

SS/DIL     short sales/deed-in-lieu of foreclosure

SSFI       systemically significant failing institutions

TALF       Term Asset-Backed Securities Loan Facility

TARP       Troubled Asset Relief Program

TARP-IG    TARP Inspector General Council
Council

the Rule   Interim Final Rule on TARP Standards for Compensation
           and Corporate Governance
170            Appendix C I Reporting Requirements I april 20, 2010




      Reporting Requirements
      This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
      Inspector General for the Troubled Asset Relief Program outlined in teh Emergency Economic Stabilization Act of 2008 sec-
      tion 121, as well as a cross-reference to related data presented in this report and prior reports. Italics style indicates narrative
      taken verbatim from source documents.



           EESA        EESA Reporting                                                                                                            SIGTARP
       #   Section     Requirement          Treasury Response to SIGTARP Data Call                                                               Report Section
       1   Section     A description of     Treasury posts several documents on its public website that are responsive to this question,         Section 2:
           121(c)(A)   the categories of    available at http://www.financialstability.gov/latest/reportsanddocs.html. Specifically,             “TARP Overview”
                       troubled assets      tranche reports and reports required under section 105(a) of the Emergency Economic
                       purchased or         Stabilization Act of 2008 (EESA) describe, at a high level, Treasury’s programs and troubled         Appendix D:
                       otherwise procured   asset purchases. The transaction reports describe these purchases in detail, including               “Transaction
                       by the Secretary.    the type of asset purchased, the identity of the institution selling the asset, and the price        Detail”
                                            Treasury paid for the asset.
                                            Treasury describes the assets purchased under TARP during the period from January 31,
                                            2010 through March 31, 2010 in the Monthly 105(a) reports for January 2010, February
                                            2010 and March 2010 and in 31 separate transaction reports posted on www.financialsta-
                                            bility.gov.

                                            Below are program descriptions from Treasury’s FinancialStability.gov website, as of
                                            3/31/2010:
                                            CPP: Treasury created the Capital Purchase Program (CPP) in October 2008 to stabilize the
                                            financial system by providing capital to viable financial institutions of all sizes throughout the
                                            nation. With a strengthened capital base, financial institutions have an increased capacity to
                                            lend to U.S. businesses and consumers and to support the U.S. economy.
                                            SSFI: Systemically Significant Failing Institution Program (SSFI) was established to provide
                                            stability and prevent disruptions to financial markets from the failure of institutions that are
                                            critical to the functioning of the nation’s financial system.
                                            AGP: The Asset Guarantee Program (AGP) provides government assurances for assets held
                                            by financial institutions that are critical to the functioning of the nation’s financial system,
                                            which face a risk of losing the critical confidence that is needed for them to continue to lend
                                            to other banks.
                                            TIP: Treasury created the Targeted Investment Program (TIP) to stabilize the financial sys-
                                            tem by making investments in institutions that are critical to the functioning of the financial
                                            system. This program focuses on the complex relationships and reliance of institutions
                                            within the financial system. Investments made through the TIP seek to avoid significant mar-
                                            ket disruptions resulting from the deterioration of one financial institution that can threaten
                                            other financial institutions and impair broader financial markets and pose a threat to the
                                            overall economy.
                                            TALF: The TALF is designed to increase credit availability and support economic activity by
                                            facilitating renewed issuance of consumer and small business ABS at more normal interest
                                            rate spreads… Under the TALF, the Federal Reserve Bank of New York (FRBNY) will provide
                                            non-recourse funding to any eligible borrower owning eligible collateral... The U.S. Trea-
                                            sury’s Troubled Assets Relief Program (TARP) will purchase $20 billion of subordinated debt
                                            in an SPV created by the FRBNY. The SPV will purchase and manage any assets received by
                                            the FRBNY in connection with any TALF loans. Residual returns from the SPV will be shared
                                            between the FRBNY and the U.S. Treasury.
                                                                                            Reporting Requirements I Appendix C I april 20, 2010           171



    EESA        EESA Reporting                                                                                                         SIGTARP
#   Section     Requirement             Treasury Response to SIGTARP Data Call                                                         Report Section
                                        PPIP: The Legacy Securities Public-Private Investment Program (“S-PPIP”) is designed to
                                        purchase troubled legacy securities that are central to the problems currently impacting the
                                        U.S. financial system. Under this program, Treasury will invest equity and debt in multiple
                                        Public-Private Investment Funds (“PPIFs”) established with private sector fund managers and
                                        private sector investors for the purpose of purchasing eligible assets. PPIF managers will
                                        invest in securities backed directly by mortgages that span the residential credit spectrum
                                        (e.g., prime, Alt-A, subprime mortgages) as well as the commercial mortgage market.
                                        CDCI: In February 2010, Treasury announced the Community Development Capital Initiative
                                        (CDCI) to improve access to credit for small businesses. Through this TARP program, Trea-
                                        sury will invest lower-cost capital in Community Development Financial Institutions (CDFIs)
                                        that lend to small businesses in the country’s hardest-hit communities.
                                        UCSB: The Treasury Department will begin making direct purchases of securities backed by
                                        SBA loans to get the credit market moving again, and it will stand ready to purchase new
                                        securities to ensure that community banks and credit unions feel confident in extending new
                                        loans to local businesses.
                                        AIFP: The objective of [AIFP] is to prevent a significant disruption of the American auto-
                                        motive industry, which would pose a systemic risk to financial market stability and have
                                        a negative effect on the economy of the United States... [Through AIFP, Treasury has
                                        provided] loans or equity investments to General Motors, GMAC, Chrysler, and Chrysler
                                        Financial in order to avoid a disorderly bankruptcy of one or more auto companies; such an
                                        event would pose a systemic risk to the country’s financial system. Treasury’s loans to the
                                        automobile industry forged a path for these companies to go through orderly restructurings
                                        and achieve viability.
                                        ASSP: [ASSP was created to] provide up to $5 billion in financing, giving suppliers the
                                        confidence they need to continue shipping parts, pay their employees and continue their
                                        operations.
                                        AWCP: The Treasury Department announced an innovative new program to give consumers
                                        who are considering new car purchases the confidence that even in this difficult economic
                                        period, their warrantees will be honored. This program is part of the Administration’s
                                        broader program to stabilize the auto industry and stand behind a restructuring effort that
                                        will result in stronger, more competitive and viable American car companies.
                                        HAMP (a program under MHA): The Home Affordable Modification Program has a simple
                                        goal: reduce the amount homeowners owe per month to sustainable levels to stabilize
                                        communities. This program will bring together lenders, investors, servicers, borrowers,
                                        and the government, so that all stakeholders share in the cost of ensuring that responsible
                                        homeowners can afford their monthly mortgage payments – helping to reach up to 3 to 4
                                        million at-risk borrowers in all segments of the mortgage market, reducing foreclosures,
                                        and helping to avoid further downward pressures on overall home prices.
2   Section     A listing of the        Information on all transactions as well as additional information about these programs and     Appendix D:
    121(c)(B)   troubled assets         related purchases is available in the transaction reports and monthly 105(a) reports posted    “Transaction
                purchased in each       at http://www.financialstability.gov/latest/reportsanddocs.html.                               Detail”
                such category
                described under
                [section 121(c)(A)].
3   Section     An explanation of       During the first quarter of 2010, the Secretary of the Treasury signed Troubled Asset          Section 2: “TARP
    121(c)(C)   the reasons the         Determination for the SBA 7(A) program. The Treasury Secretary determined that the             Overview”
                Secretary deemed        TARP’s purchase of the Pooled Certificates is necessary to promote financial market
                it necessary to pur-    stability.                                                                                     Appendix C:
                chase each such                                                                                                        “Reporting
                troubled asset.                                                                                                        Requirements”
                                                                                                                                       of prior SIGTARP
                                                                                                                                       Quarterly Reports
                                                                                                                                       to Congress
4   Section     A listing of each       See #2 above                                                                                   See #2
    121(c)(D)   financial institution
                that such troubled
                assets were pur-
                chased from.
172           Appendix C I Reporting Requirements I april 20, 2010




          EESA        EESA Reporting                                                                                                         SIGTARP
      #   Section     Requirement            Treasury Response to SIGTARP Data Call                                                          Report Section
      5   Section     A listing of and       There have been no new PPIP fund managers hired between January 1, 2001 and March               Section 3: “TARP
          121(c)(E)   detailed biographi-    31, 2010.                                                                                       Operations and
                      cal information on                                                                                                     Administration”
                      each person or         On March 29, 2010, the Treasury engaged Morgan Stanley as a financial agent and capital
                      entity hired to man-   markets disposition agent in connection with its investment in the common stock of Citi-        Appendix C:
                      age such troubled      group, Inc. The Treasury intends to fully dispose of its approximately 7.7 billion shares of    “Reporting
                      assets.                Citigroup common stock over the course of 2010 subject to market conditions.                    Requirements”
                                                                                                                                             of prior SIGTARP
                                             Morgan Stanley is a global financial services firm providing a wide range of investment bank-   Quarterly Reports
                                             ing, securities, investment management and wealth management services.                          to Congress

                                             Morgan Stanley, acting as Treasury’s capital markets disposition agent, will perform various
                                             services, including:
                                             • Acting as broker or market-maker for all disposition services executed pursuant to Rule
                                               144 of the Securities Act of 1933,
                                             • Acting as sole book-running manager for disposition services executed in underwritten
                                               offerings pursuant to a prospectus or prospectus supplement, subject to the Treasury’s
                                               satisfaction with the performance of the disposition services at such time,
                                             • Executing and confirming transfers, trades, and other transactions as instructed by the
                                               Treasury, and maintaining records of any trades or transfers executed,
                                             • Reconciling books and records with the custodian’s and with the Treasury’s accounting
                                               systems,
                                             • Acting as the Treasury’s advisor regarding the optimal timing and strategy for the disposi-
                                               tion of the securities, and,
                                             • Maintaining a compliance program designed to detect and prevent violations of Federal
                                               securities laws, and identifying, documenting, and enforcing controls to mitigate conflicts
                                               of interest.

                                             Additionally, Morgan Stanley will permit the Treasury’s internal and external auditors, or
                                             other governmental oversight entities, to audit books and records related to their services
                                             provided to Treasury under their Financial Agency Agreement. The FAA is available on
                                             Treasury website at http://www.financialstability.gov/impact/contractDetail2.html.

      6   Section     A current estimate     This information [estimate of total amount of troubled assets purchased] is contained in        Table C.1;
          121(c)(F)   of the total amount    [Treasury’s] transaction reports, which are posted on Treasury’s website at http://www.         Section 2: “TARP
                      of troubled assets     financialstability.gov/latest/reportsanddocs.html. The transactions report captures the total   Overview”
                      purchased pursu-       obligation under each TARP program.
                      ant to any program                                                                                                     Appendix D:
                      established under      Information on the repayments of Treasury’s investments under the CPP and proceeds from         “Transaction
                      section 101, the       the sale of warrants are available within Treasury’s press releases, transactions reports and   Detail”
                      amount of troubled     105(a) Monthly Reports to Congress at http://www.financialstability.gov/latest/pressre-
                      assets on the          leases.html and http://www.financialstability.gov/latest/reportsanddocs.html.
                      books of the Trea-
                      sury, the amount
                      of troubled assets
                      sold, and the profit
                      and loss incurred
                      on each sale or
                      disposition of each
                      such troubled
                      asset.
      7   Section     A listing of the       There have been no new insurance contracts issued under TARP from January 1, 2010 to            Section 2: “TARP
          121(c)(G)   insurance con-         March 31, 2010.                                                                                 Overview”
                      tracts issued under
                      section 102.                                                                                                           Section 2:
                                                                                                                                             “Targeted Invest-
                                                                                                                                             ment Program and
                                                                                                                                             Asset Guarantee
                                                                                                                                             Program”
                                                                                                                           Reporting Requirements I Appendix C I april 20, 2010                             173



        EESA            EESA Reporting                                                                                                                                             SIGTARP
 #      Section         Requirement                  Treasury Response to SIGTARP Data Call                                                                                        Report Section
 8      Section         A detailed                   Treasury provides information about TARP purchases, obligations, expenditures, and rev-                                       Table C.1
        121(f)          statement of                 enues on Treasury’s public website at www.financialstability.gov. Treasury posts a transac-
                        all purchases,               tion report for each purchase of troubled assets two business days after the transaction.                                     Section 2:
                        obligations, expen-          Treasury also posts a detailed financial statement as part of its monthly Congressional                                       “TARP Overview”
                        ditures, and rev-            report under section 105(a) of EESA. The next section 105(a) report will be posted on the
                                                                                                                                                                                   Section 3:
                        enues associated             Financial Stability website on April 9, 2010.
                                                                                                                                                                                   “TARP
                        with any program
                                                                                                                                                                                   Operations and
                        established by the            The transactions reports and TARP Budget capture detailed information about TARP
                                                                                                                                                                                   Administration”
                        Secretary of the             purchases, obligations, expenditures, and revenues. The latest transactions reports are
                        Treasury under               available on Treasury’s public website at http://www.financialstability.gov/latest/                                           Appendix D:
                        sections 101 and             reportsanddocs.html                                                                                                           “Transaction
                        102.                                                                                                                                                       Detail”
 Sources: Treasury, responses to SIGTARP data call, 4/8/2010 and 4/12/2010; Program Descriptions: Treasury, “Programs” webpage, www.financialstability.gov/roadtostability/programs.htm, accessed
 4/9/2010; ASSP: “Treasury Announces Auto Suppliers Support Program,” 3/19/2009, www.financialstability.gov/latest/auto3_18.html, accessed 6/30/2009; AWCP, “Obama Administration’s New
 Warrantee Commitment Program,” no date, http://www.financialstability.gov/docs/WarranteeCommitmentProgram.pdf, accessed 6/30/2009; TALF: Federal Reserve, “Term Asset-Backed Securities Loan
 Facility (TALF) Frequently Asked Questions,” no date, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 6/30/2009; MHA: “Making Home Affordable Updated
 Detailed Description Update,” 3/26/2010, www.financialstability.gov/latest/pr_03262010.html, accessed 4/9/2010.			
 			
 			




Table C.1
								
 TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS, AS OF 3/31/2010
 ($ BILLIONS)

                                                                                                                Obligationsa               Expendedb                       On Treasury’s Booksc
 Capital Purchase Program (“CPP”)                                                                                     $204.89                  $204.89                                         $69.07
 Systemically Significant Failing Institutions (“SSFI”)                                                                   69.84                    47.54                                         47.54
 Home Affordable Modification Program (“HAMP”)                   d
                                                                                                                          41.13                     1.35                                           1.35
 Targeted Investment Program (“TIP”)                                                                                      40.00                    40.00                                                —
 Automotive Industry Financing Program (“AIFP”)                                                                           84.84                  $79.69                                          75.09
 Asset Guarantee Program (“AGP”)                                                                                               —                        —                                               —
 Consumer and Business Lending Initiative (CBLI)                                                                               —                        —                                               —
     Term Asset-Backed Securities Loan Facility (“TALF”)                                                                  20.00                     0.10                                           0.10
     Small Business Lending Program                                                                                            —                        —                                               —
     Unlocking Credit for Small Businesses (“UCSB”)                                                                        0.02                     0.02                                           0.02
     Community Development Capital Initiative (“CDCI”)                                                                         —                        —                                               —
 Legacy Securities Public-Private Investment Program (“PPIP”)                                                             30.36                     8.59                                           8.23
 Total                                                                                                               $491.08                  $382.18                                        $201.40

								
Notes: Numbers affected by rounding.
a	
  For purposes of this table, “Obligations” refers to “Face Value Obligations” on the Treasury TARP/Financial Stability Plan Budget Table (“TARP Budget” as of 4/12/2010).
b
  “Expended” refers to “Face Value Disbursed/Outlays,” defined as “TARP cash that has left the Treasury,” according to the TARP Budget.
c
  “On Treasury’s Books” calculated as “Face Value Disbursed/Outlays” net of repayments per the Transactions Report if they do not appear to be already netted out.
d
  According to Treasury, “TARP funds obligated include the total amount of funds that may be provided to servicers under existing agreements for the Home Affordable Modification Program (HAMP).
  In light of recent changes to HAMP as well as recent experience, Treasury expects to reestimate and revise these amounts in the next few months which will change this total. Treasury expects
  that the process will also result in there being sufficient funds to finance two recently announced TARP housing initiatives, consisting of $2.1B for the HFA Hardest Hit Fund and $14B for the FHA
  Refinance program. The $50B also includes $1.244B to offset costs of program changes for the “Helping Families Save Their Homes Act of 2009,” Public Law No: 111-22, Section 202 (b) and
  $15M for administrative expenditures relating to the Special Inspector General for the Troubled Asset Relief Program (SIGTARP).”

Source: Repayments data: Treasury, Transactions Report, 4/2/2010; all other data: Treasury, response to SIGTARP data call, 4/8/2010.					
 			
                                                                                                                                                                                                                                                                                                   174
Table D.1

 CPP Transaction Detail, as of 3/31/2010                                            (CONTINUED)

                                                                                           Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                       Capital           Capital       Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                            Investment         Investment   Repayment         Repayment          Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date         Institution                            Description           Amount         Date            Amount          Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury
             1st Constitution Bancorp,       Preferred Stock w/
12/23/2008                                                           $12,000,000                                                                                                    $7.90                   $35.7      $8.15        220,745               ($0.25)        OUT         $686,667
             Cranbury, NJ                              Warrants
             1st Enterprise Bank, Los
12/11/2009                                      Preferred Stock       $6,000,000
             Angeles, CA 2, 10a, c
                                                                                                                                                                                                                                                                                     $294,465
             1st Enterprise Bank, Los        Preferred Stock w/
02/13/2009                                                            $4,400,000
             Angeles, CA 2, c                Exercised Warrants
             1st FS Corporation,             Preferred Stock w/
11/14/2008                                                           $16,369,000                                                                                                    $2.15                   $10.8      $8.87        276,815               ($6.72)        OUT       $1,025,336
             Hendersonville, NC                        Warrants
           1st Source Corporation,           Preferred Stock w/
01/23/2009                                                          $111,000,000                                                                                                   $17.55                  $439.9     $19.87        837,947               ($2.32)        OUT       $5,889,167
           South Bend, IN                              Warrants
             1st United Bancorp, Inc.,       Preferred Stock w/
03/13/2009                                                           $10,000,000    11/18/2009       $10,000,000             $0    11/18/2009     R              $500,000                                                                                                            $370,903
             Boca Raton, FL 2, 4, 7          Exercised Warrants
           AB&T Financial                    Preferred Stock w/
01/23/2009                                                            $3,500,000                                                                                                    $2.65                     $7.1     $6.55         80,153               ($3.90)        OUT         $185,694
           Corporation, Gastonia, NC                   Warrants
                                             Preferred Stock w/
01/30/2009 Adbanc, Inc, Ogallala, NE 2                               $12,720,000                                                                                                                                                                                                     $722,125
                                             Exercised Warrants
             Alarion Financial Services,     Preferred Stock w/
01/23/2009                                                            $6,514,000                                                                                                                                                                                                     $376,737
                                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I april 20, 2010




             Inc., Ocala, FL 2               Exercised Warrants
             Alaska Pacific Bancshares,      Preferred Stock w/
02/06/2009                                                            $4,781,000                                                                                                    $6.00                     $3.9     $4.08        175,772                $1.92           IN        $245,026
             Inc., Juneau, AK                          Warrants
             Alliance Bancshares, Inc.,      Preferred Stock w/
06/26/2009                                                            $2,986,000                                                                                                                                                                                                     $103,502
             Dalton, GA 2                    Exercised Warrants
           Alliance Financial
                                             Preferred Stock w/
12/19/2008 Corporation, Syracuse,                                    $26,918,000    05/13/2009       $26,918,000             $0    06/17/2009     R              $900,000          $29.48                  $137.2                                                                    $538,360
                                                       Warrants
           NY 4
             Alliance Financial Services Subordinated Debentures
06/26/2009                                                           $12,000,000                                                                                                                                                                                                     $388,742
             Inc., Saint Paul, MN 8        w/ Exercised Warrants

             Allied First Bancorp, Inc.,     Preferred Stock w/
04/24/2009                                                            $3,652,000                                                                                                                                                                                                     $160,916
             Oswego, IL 2                    Exercised Warrants

           Alpine Banks of Colorado,         Preferred Stock w/
03/27/2009                                                           $70,000,000                                                                                                                                                                                                   $3,369,916
           Glenwood Springs, CO 2            Exercised Warrants
           AMB Financial Corp.,              Preferred Stock w/
01/30/2009                                                            $3,674,000                                                                                                                                                                                                     $208,604
           Munster, IN 2                     Exercised Warrants
           AmeriBank Holding                 Preferred Stock w/
03/06/2009                                                            $2,492,000                                                                                                                                                                                                     $127,926
           Company, Collinsville, OK 2       Exercised Warrants
           American Express                  Preferred Stock w/
01/09/2009                                                         $3,388,890,000   06/17/2009    $3,388,890,000             $0    07/29/2009     R          $340,000,000          $41.26               $49,287.9                                                                $74,367,308
           Company, New York, NY 4                     Warrants
             American Premier                Preferred Stock w/
05/29/2009                                                            $1,800,000                                                                                                                                                                                                      $69,760
             Bancorp, Arcadia, CA 2          Exercised Warrants
           American State
                                             Preferred Stock w/
01/09/2009 Bancshares, Inc., Great                                    $6,000,000                                                                                                                                                                                                     $359,700
                                             Exercised Warrants
           Bend, KS 2
           Ameris Bancorp, Moultrie,         Preferred Stock w/
11/21/2008                                                           $52,000,000                                                                                                    $9.03                  $125.8     $11.31        689,936               ($2.28)        OUT       $3,206,667
           GA                                          Warrants
           AmeriServ Financial, Inc,         Preferred Stock w/
12/19/2008                                                           $21,000,000                                                                                                    $1.67                   $35.4      $2.40      1,312,500               ($0.73)        OUT       $1,213,333
           Johnstown, PA                               Warrants
             AmFirst Financial Services, Subordinated Debentures
08/21/2009                                                            $5,000,000                                                                                                                                                                                                     $202,760
             Inc., McCook, NE 8            w/ Exercised Warrants
           Anchor BanCorp                    Preferred Stock w/
01/30/2009                                                          $110,000,000                                                                                                    $1.10                   $23.9      $2.23      7,399,103               ($1.13)        OUT                 $0
           Wisconsin Inc., Madison, WI                 Warrants
             Annapolis Bancorp, Inc.,        Preferred Stock w/
01/30/2009                                                            $8,152,000                                                                                                    $3.50                   $13.7      $4.08        299,706               ($0.58)        OUT         $424,583
             Annapolis, MD                             Warrants
             Associated Banc-Corp,           Preferred Stock w/
11/21/2008                                                          $525,000,000                                                                                                   $13.76                $2,388.9     $19.77      3,983,308               ($6.01)        OUT     $32,375,000
             Green Bay, WI                             Warrants
             Atlantic Bancshares, Inc.,      Preferred Stock w/
12/29/2009                                                            $2,000,000                                                                                                                                                                                                      $13,905
             Bluffton, SC 2, 10              Exercised Warrants
           Avenue Financial Holdings,        Preferred Stock w/
02/27/2009                                                            $7,400,000                                                                                                                                                                                                     $389,857
           Inc., Nashville, TN 2             Exercised Warrants
             BancIndependent, Inc.,          Preferred Stock w/
03/13/2009                                                           $21,100,000                                                                                                                                                                                                   $1,060,510
             Sheffield, AL 2                 Exercised Warrants
                                                                                                                                                                                                                                                                        Continued on next page
 CPP Transaction Detail, as of 3/31/2010                                          (CONTINUED)

                                                                                         Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                     Capital           Capital       Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                         Interest/
Purchase                                         Investment          Investment   Repayment         Repayment          Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of    Dividends Paid
Date         Institution                         Description            Amount         Date            Amount          Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e           to Treasury
             Bancorp Financial, Inc.,      Preferred Stock w/
07/10/2009                                                         $13,669,000                                                                                                                                                                                                      $430,209
             Oak Brook, IL 2, 10           Exercised Warrants
           Bancorp Rhode Island,           Preferred Stock w/
12/19/2008                                                         $30,000,000    08/05/2009       $30,000,000             $0    09/30/2009     R            $1,400,000          $27.35                  $126.3                                                                     $941,667
           Inc., Providence, RI 4                    Warrants

             BancPlus Corporation,         Preferred Stock w/
02/20/2009                                                         $48,000,000                                                                                                                                                                                                    $2,579,666
             Ridgeland, MS 2               Exercised Warrants

           BancStar, Inc., Festus,         Preferred Stock w/
04/03/2009                                                           $8,600,000                                                                                                                                                                                                     $406,207
           MO 2                            Exercised Warrants
           BancTrust Financial Group,      Preferred Stock w/
12/19/2008                                                         $50,000,000                                                                                                    $4.85                   $85.8     $10.26        730,994               ($5.41)        OUT        $2,888,889
           Inc., Mobile, AL                          Warrants
           Bank Financial Services,        Preferred Stock w/
08/14/2009                                                           $1,004,000                                                                                                                                                                                                      $27,502
           Inc., Eden Prairie, MN 2        Exercised Warrants
           Bank of America
                                           Preferred Stock w/
01/09/2009 Corporation, Charlotte,                              $10,000,000,000   12/09/2009   $10,000,000,000             $0    03/03/2010     A          $124,228,646
                                                     Warrants
           NC 1a, 1b, 4, c
                                                                                                                                                                                 $17.85             $179,074.1                                                                $1,293,750,000
           Bank of America
                                           Preferred Stock w/
10/28/2008 Corporation, Charlotte,                              $15,000,000,000   12/09/2009   $15,000,000,000             $0    03/03/2010     A          $186,342,969
                                                     Warrants
           NC 1a, 1b, 4, c
             Bank of Commerce              Preferred Stock w/
11/14/2008                                                         $17,000,000                                                                                                    $4.73                   $75.3      $6.29        405,405               ($1.56)        OUT        $1,064,861
             Holdings, Redding, CA                   Warrants
           Bank of Commerce,               Preferred Stock w/
01/16/2009                                                           $3,000,000                                                                                                                                                                                                     $176,671
           Charlotte, NC 2                 Exercised Warrants

           Bank of George, Las             Preferred Stock w/
03/13/2009                                                           $2,672,000                                                                                                                                                                                                     $134,331
           Vegas, NV 2                     Exercised Warrants

             Bank of Marin Bancorp,        Preferred Stock w/
12/05/2008                                                         $28,000,000    03/31/2009       $28,000,000             $0                                                    $33.08                  $173.2     $27.23        154,242                $5.85           IN         $451,111
             Novato, CA 4                            Warrants
           Bank of the Carolinas
                                           Preferred Stock w/
04/17/2009 Corporation, Mocksville,                                $13,179,000                                                                                                    $4.50                   $17.5      $4.16        475,204                $0.34           IN         $545,464
                                                     Warrants
           NC
             Bank of the Ozarks, Inc.,     Preferred Stock w/
12/12/2008                                                         $75,000,000    11/04/2009       $75,000,000             $0    11/24/2009     R            $2,650,000          $35.19                  $595.2                                                                   $3,354,167
             Little Rock, AR 4                       Warrants
           Bankers’ Bank of the West
                                           Preferred Stock w/
01/30/2009 Bancorp, Inc., Denver,                                  $12,639,000                                                                                                                                                                                                      $717,532
                                           Exercised Warrants
           CO 2
             BankFirst Capital             Preferred Stock w/
01/23/2009                                                         $15,500,000                                                                                                                                                                                                      $896,374
             Corporation, Macon, MS 2      Exercised Warrants

             BankGreenville, Greenville,   Preferred Stock w/
02/13/2009                                                           $1,000,000                                                                                                                                                                                                      $54,803
             SC 2                          Exercised Warrants
             Banner Corporation, Walla     Preferred Stock w/
11/21/2008                                                        $124,000,000                                                                                                    $3.84                   $86.4     $10.89      1,707,989               ($7.05)        OUT        $7,646,667
             Walla, WA                               Warrants
           Banner County Ban
                                           Preferred Stock w/
02/06/2009 Corporation, Harrisburg,                                   $795,000                                                                                                                                                                                                       $44,434
                                           Exercised Warrants
           NE 2
             Bar Harbor Bankshares,        Preferred Stock w/
01/16/2009                                                         $18,751,000    02/24/2010       $18,751,000             $0                                                    $30.50                  $115.1     $26.81         52,455                $3.69           IN       $1,036,514
             Bar Harbor, ME 5, b                     Warrants

             BB&T Corp., Winston-          Preferred Stock w/
11/14/2008                                                       $3,133,640,000   06/17/2009    $3,133,640,000             $0    07/22/2009     R           $67,010,402          $32.39               $22,397.8                                                                 $92,703,517
             Salem, NC 4                             Warrants

           BCB Holding Company,            Preferred Stock w/
04/03/2009                                                           $1,706,000                                                                                                                                                                                                      $80,558
           Inc., Theodore, AL 2            Exercised Warrants
           BCSB Bancorp, Inc.,             Preferred Stock w/
12/23/2008                                                         $10,800,000                                                                                                    $9.50                   $29.6      $8.83        183,465                $0.67           IN         $618,000
           Baltimore, MD                             Warrants
           Beach Business Bank,            Preferred Stock w/
01/30/2009                                                           $6,000,000                                                                                                                                                                                                     $177,125
           Manhattan Beach, CA 2           Exercised Warrants

           Berkshire Bancorp, Inc.,        Preferred Stock w/
06/12/2009                                                           $2,892,000                                                                                                                                                                                                     $106,414
           Wyomissing, PA 2                Exercised Warrants
                                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I april 20, 2010




             Berkshire Hills Bancorp,      Preferred Stock w/
12/19/2008                                                         $40,000,000    05/27/2009       $40,000,000             $0    06/24/2009     R            $1,040,000          $18.33                  $257.1                                                                     $877,778
             Inc., Pittsfield, MA 4                  Warrants

             Bern Bancshares, Inc.,        Preferred Stock w/
02/13/2009                                                            $985,000                                                                                                                                                                                                       $54,049
             Bern, KS 2                    Exercised Warrants
                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                                  175
 CPP Transaction Detail, as of 3/31/2010                                             (CONTINUED)


                                                                                                                                                                                                                                                                                                   176
                                                                                            Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                        Capital           Capital       Remaining         Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                                Investment      Investment   Repayment         Repayment          Capital   Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date          Institution                               Description        Amount         Date            Amount          Amount          Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury
           Birmingham Bloomfield
12/18/2009 Bancshares, Inc,                         Preferred Stock     $1,744,000
           Birmingham, MI 2, 10a, c
                                                                                                                                                                                                                                                                                      $85,854
           Birmingham Bloomfield
                                                 Preferred Stock w/
04/24/2009 Bancshares, Inc,                                             $1,635,000
                                                 Exercised Warrants
           Birmingham, MI 2, c
           Biscayne Bancshares,
                                            Subordinated Debentures
06/19/2009 Inc., Coconut Grove,                                         $6,400,000                                                                                                                                                                                                   $341,514
                                              w/ Exercised Warrants
           FL 8, 10
              Blackhawk Bancorp, Inc.,           Preferred Stock w/
03/13/2009                                                             $10,000,000                                                                                                                                                                                                   $502,611
              Beloit, WI 2                       Exercised Warrants

              Blackridge Financial, Inc.,        Preferred Stock w/
05/22/2009                                                              $5,000,000                                                                                                                                                                                                   $199,076
              Fargo, ND 2                        Exercised Warrants

           Blue Ridge Bancshares,                Preferred Stock w/
03/06/2009                                                             $12,000,000                                                                                                                                                                                                   $615,850
           Inc., Independence, MO 2              Exercised Warrants

           Blue River Bancshares,                Preferred Stock w/
03/06/2009                                                              $5,000,000                                                                                                                                                                                                   $256,605
           Inc., Shelbyville, IN 2               Exercised Warrants
           Blue Valley Ban Corp,                 Preferred Stock w/
12/05/2008                                                             $21,750,000                                                                                                  $8.50                   $24.0     $29.37        111,083             ($20.87)         OUT         $211,458
           Overland Park, KS                               Warrants
           BNB Financial Services
                                                 Preferred Stock w/
04/17/2009 Corporation, New York,                                       $7,500,000                                                                                                                                                                                                   $338,354
                                                 Exercised Warrants
           NY 2
                                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I april 20, 2010




              BNC Bancorp,                       Preferred Stock w/
12/05/2008                                                             $31,260,000                                                                                                  $7.90                   $58.0      $8.63        543,337               ($0.73)        OUT       $1,866,917
              Thomasville, NC                              Warrants
           BNC Financial Group, Inc.,            Preferred Stock w/
02/27/2009                                                              $4,797,000                                                                                                                                                                                                   $252,734
           New Canaan, CT 2                      Exercised Warrants

           BNCCORP, Inc., Bismarck,              Preferred Stock w/
01/16/2009                                                             $20,093,000                                                                                                                                                                                                   $909,542
           ND 2                                  Exercised Warrants

              BOH Holdings, Inc.,                Preferred Stock w/
03/06/2009                                                             $10,000,000                                                                                                                                                                                                   $513,208
              Houston, TX 2                      Exercised Warrants

              Boscobel Bancorp, Inc,        Subordinated Debentures
05/15/2009                                                              $5,586,000                                                                                                                                                                                                   $351,468
              Boscobel, WI 8                  w/ Exercised Warrants
           Boston Private Financial
                                                 Preferred Stock w/
11/21/2008 Holdings, Inc., Boston,                                    $154,000,000   01/13/2010       $50,000,000 $104,000,000                                                      $7.37                  $507.0      $8.00      2,887,500               ($0.63)        OUT       $9,274,444
                                                           Warrants
           MA 4
              Bridge Capital Holdings,           Preferred Stock w/
12/23/2008                                                             $23,864,000                                                                                                  $9.15                   $64.9      $9.03        396,412                $0.12           IN      $1,365,551
              San Jose, CA                                 Warrants
           Bridgeview Bancorp, Inc.,             Preferred Stock w/
12/19/2008                                                             $38,000,000                                                                                                                                                                                                 $2,393,156
           Bridgeview, IL 2                      Exercised Warrants
           Broadway Financial
12/04/2009 Corporation, Los Angeles,                Preferred Stock     $6,000,000
           CA 3, 10a, c
                                                                                                                                                                                                                                                                                     $622,917
           Broadway Financial
11/14/2008 Corporation, Los Angeles,                Preferred Stock     $9,000,000
           CA 3a, c - 11/24/2009
              Brogan Bankshares, Inc.,      Subordinated Debentures
05/15/2009                                                              $2,400,000                                                                                                                                                                                                   $151,020
              Kaukauna, WI 8                  w/ Exercised Warrants

           Brotherhood Bancshares,               Preferred Stock w/
07/17/2009                                                             $11,000,000                                                                                                                                                                                                   $346,378
           Inc., Kansas City, KS 2               Exercised Warrants

              Business Bancshares,               Preferred Stock w/
04/24/2009                                                             $15,000,000                                                                                                                                                                                                   $660,813
              Inc., Clayton, MO 2                Exercised Warrants

           Butler Point, Inc.,                   Preferred Stock w/
03/13/2009                                                               $607,000                                                                                                                                                                                                     $30,480
           Catlin, IL 2                          Exercised Warrants
           C&F Financial Corporation,            Preferred Stock w/
01/09/2009                                                             $20,000,000                                                                                                 $19.64                   $60.4     $17.91        167,504                $1.73           IN      $1,100,000
           West Point, VA                                  Warrants
           Cache Valley Banking                  Preferred Stock w/
12/23/2008                                                              $4,767,000
           Company, Logan, UT 2, c               Exercised Warrants
                                                                                                                                                                                                                                                                                     $334,026
           Cache Valley Banking
12/18/2009 Company, Logan, UT                       Preferred Stock     $4,640,000
              2, 10a, c


           Cadence Financial
                                                 Preferred Stock w/
01/09/2009 Corporation, Starkville,                                    $44,000,000                                                                                                  $1.83                   $21.8      $5.76      1,145,833               ($3.93)        OUT       $2,420,000
                                                           Warrants
           MS
              California Bank of                 Preferred Stock w/
02/27/2009                                                              $4,000,000                                                                                                                                                                                                   $210,733
              Commerce, Lafayette, CA 2          Exercised Warrants
                                                                                                                                                                                                                                                                        Continued on next page
  CPP Transaction Detail, as of 3/31/2010                                               (CONTINUED)

                                                                                               Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                           Capital           Capital       Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                                 Investment        Investment   Repayment         Repayment          Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date          Institution                                Description          Amount         Date            Amount          Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury

              California Oaks State Bank,         Preferred Stock w/
01/23/2009                                                                $3,300,000                                                                                                                                                                                                     $190,841
              Thousand Oaks, CA 2                 Exercised Warrants

           Calvert Financial                      Preferred Stock w/
01/23/2009                                                                $1,037,000                                                                                                                                                                                                      $59,985
           Corporation, Ashland, MO 2             Exercised Warrants

              CalWest Bancorp, Rancho             Preferred Stock w/
01/23/2009                                                                $4,656,000                                                                                                                                                                                                     $269,279
              Santa Margarita, CA 2               Exercised Warrants

              Capital Bancorp, Inc.,              Preferred Stock w/
12/23/2008                                                                $4,700,000                                                                                                                                                                                                     $293,150
              Rockville, MD 2                     Exercised Warrants
           Capital Bank Corporation,              Preferred Stock w/
12/12/2008                                                               $41,279,000                                                                                                    $4.46                   $50.9      $8.26        749,619               ($3.80)        OUT       $2,425,142
           Raleigh, NC                                      Warrants
           Capital Commerce
                                                  Preferred Stock w/
04/10/2009 Bancorp, Inc., Milwaukee,                                      $5,100,000                                                                                                                                                                                                     $235,486
                                                  Exercised Warrants
           WI 2
              Capital One Financial               Preferred Stock w/
11/14/2008                                                             $3,555,199,000   06/17/2009    $3,555,199,000             $0    12/03/2009     A          $148,731,030          $41.41               $18,898.4                                                               $105,174,638
              Corporation, McLean, VA 4                     Warrants

           Capital Pacific Bancorp,               Preferred Stock w/
12/23/2008                                                                $4,000,000                                                                                                                                                                                                     $249,489
           Portland, OR 2                         Exercised Warrants

           Cardinal Bancorp II, Inc.,        Subordinated Debentures
10/23/2009                                                                $6,251,000                                                                                                                                                                                                     $163,187
           Washington, MO 8                    w/ Exercised Warrants
           Carolina Bank Holdings,                Preferred Stock w/
01/09/2009                                                               $16,000,000                                                                                                    $3.50                   $11.9      $6.71        357,675               ($3.21)        OUT         $880,000
           Inc., Greensboro, NC                             Warrants
           Carolina Trust Bank,                   Preferred Stock w/
02/06/2009                                                                $4,000,000                                                                                                    $5.00                     $7.8     $6.90         86,957               ($1.90)        OUT         $205,000
           Lincolnton, NC                                   Warrants
              Carrollton Bancorp,                 Preferred Stock w/
02/13/2009                                                                $9,201,000                                                                                                    $5.26                   $13.5      $6.72        205,379               ($1.46)        OUT         $462,606
              Baltimore, MD                                 Warrants
              Carver Bancorp, Inc, New
01/16/2009                                           Preferred Stock     $18,980,000                                                                                                                                                                                                   $1,025,447
              York, NY 3
           Cascade Financial                      Preferred Stock w/
11/21/2008                                                               $38,970,000                                                                                                    $1.96                   $23.9      $6.77        863,442               ($4.81)        OUT       $1,428,900
           Corporation, Everett, WA                         Warrants
           Cathay General Bancorp,                Preferred Stock w/
12/05/2008                                                              $258,000,000                                                                                                   $11.62                  $912.2     $20.96      1,846,374               ($9.34)        OUT     $15,408,333
           Los Angeles, CA                                  Warrants
           Catskill Hudson Bancorp,               Preferred Stock w/
12/22/2009                                                                $3,500,000
           Inc, Rock Hill, NY 2, 10a, c           Exercised Warrants
                                                                                                                                                                                                                                                                                         $185,311
           Catskill Hudson Bancorp,               Preferred Stock w/
02/27/2009                                                                $3,000,000
           Inc, Rock Hill, NY 2, c                Exercised Warrants

              CB Holding Corp.,                   Preferred Stock w/
05/29/2009                                                                $4,114,000                                                                                                                                                                                                     $159,460
              Aledo, IL 2                         Exercised Warrants

              CBB Bancorp, Cartersville,
12/29/2009                                           Preferred Stock      $1,753,000
              GA 2, 10a, c
                                                                                                                                                                                                                                                                                         $153,279
              CBB Bancorp, Cartersville,          Preferred Stock w/
02/20/2009                                                                $2,644,000
              GA 2, c                             Exercised Warrants

              CBS Banc-Corp.,                     Preferred Stock w/
03/27/2009                                                               $24,300,000                                                                                                                                                                                                   $1,169,842
              Russellville, AL 2                  Exercised Warrants
           Cecil Bancorp, Inc.,                   Preferred Stock w/
12/23/2008                                                               $11,560,000                                                                                                    $4.20                   $15.5      $6.63        261,538               ($2.43)        OUT         $516,989
           Elkton, MD                                       Warrants
           CedarStone Bank,                       Preferred Stock w/
02/06/2009                                                                $3,564,000                                                                                                                                                                                                     $199,076
           Lebanon, TN 2                          Exercised Warrants

           Center Bancorp, Inc.,                  Preferred Stock w/
01/09/2009                                                               $10,000,000                                                                                                    $8.31                  $121.1      $8.65         86,705               ($0.34)        OUT         $550,000
           Union, NJ b                                      Warrants
           Center Financial
                                                  Preferred Stock w/
12/12/2008 Corporation, Los Angeles,                                     $55,000,000                                                                                                    $4.85                   $97.9      $9.54        432,390               ($4.69)        OUT       $3,231,250
                                                            Warrants
           CA b
                                                  Preferred Stock w/
05/01/2009 CenterBank, Milford, OH 2                                      $2,250,000                                                                                                                                                                                                      $96,773
                                                  Exercised Warrants
           Centerstate Banks of
                                                  Preferred Stock w/
11/21/2008 Florida Inc., Davenport,                                      $27,875,000    09/30/2009       $27,875,000             $0    10/28/2009     R              $212,000          $12.24                  $315.5                                                                  $1,196,303
                                                            Warrants
                                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I april 20, 2010




           FL 5, 9
              Centra Financial Holdings,          Preferred Stock w/
01/16/2009                                                               $15,000,000    03/31/2009       $15,000,000             $0    04/15/2009     R              $750,000                                                                                                            $172,938
              Inc., Morgantown, WV 2, 4, 7        Exercised Warrants
                                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                                       177
                                                                                       (CONTINUED)

                                                                                                                                                                                                                                                                                                     178
 CPP Transaction Detail, as of 3/31/2010
                                                                                              Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                          Capital           Capital       Remaining         Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                              Investment          Investment   Repayment         Repayment          Capital   Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date         Institution                              Description            Amount         Date            Amount          Amount          Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury

             Central Bancorp, Inc.,            Preferred Stock w/
02/27/2009                                                              $22,500,000                                                                                                                                                                                                  $1,185,375
             Garland, TX 2                     Exercised Warrants
           Central Bancorp, Inc.,              Preferred Stock w/
12/05/2008                                                              $10,000,000                                                                                                   $9.11                   $14.9      $6.39        234,742                $2.72           IN        $597,222
           Somerville, MA                                Warrants
             Central Bancshares, Inc.,         Preferred Stock w/
01/30/2009                                                               $5,800,000                                                                                                                                                                                                    $329,271
             Houston, TX 2                     Exercised Warrants

             Central Community                 Preferred Stock w/
02/20/2009                                                              $22,000,000                                                                                                                                                                                                  $1,182,347
             Corporation, Temple, TX 2         Exercised Warrants
           Central Federal                     Preferred Stock w/
12/05/2008                                                               $7,225,000                                                                                                   $1.19                     $4.9     $3.22        336,568               ($2.03)        OUT         $431,493
           Corporation, Fairlawn, OH                     Warrants
             Central Jersey Bancorp,           Preferred Stock w/
12/23/2008                                                              $11,300,000                                                                                                   $3.28                   $30.4      $6.31        268,621               ($3.03)        OUT         $646,611
             Oakhurst, NJ                                Warrants
             Central Pacific Financial         Preferred Stock w/
01/09/2009                                                             $135,000,000                                                                                                   $1.68                   $51.0     $12.77       1,585,748            ($11.09)         OUT       $2,362,500
             Corp., Honolulu, HI                         Warrants
           Central Valley Community            Preferred Stock w/
01/30/2009                                                               $7,000,000                                                                                                   $5.50                   $49.2      $6.64         79,067               ($1.14)        OUT         $364,583
           Bancorp, Fresno, CA b                         Warrants
           Central Virginia
                                               Preferred Stock w/
01/30/2009 Bankshares, Inc.,                                            $11,385,000                                                                                                   $3.43                     $9.0     $6.48        263,542               ($3.05)        OUT         $450,656
                                                         Warrants
           Powhatan, VA
           Centric Financial
                                               Preferred Stock w/
                                                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I april 20, 2010




12/18/2009 Corporation, Harrisburg,                                      $6,056,000                                                                                                                                                                                                     $50,537
                                               Exercised Warrants
           PA 2, 10
             Centrix Bank & Trust,             Preferred Stock w/
02/06/2009                                                               $7,500,000                                                                                                                                                                                                    $418,968
             Bedford, NH 2                     Exercised Warrants
           Centrue Financial                   Preferred Stock w/
01/09/2009                                                              $32,668,000                                                                                                   $3.45                   $20.8      $9.64        508,320               ($6.19)        OUT         $571,690
           Corporation, St. Louis, MO                    Warrants
           Century Financial Services
                                      Subordinated Debentures
06/19/2009 Corporation, Santa                                           $10,000,000                                                                                                                                                                                                    $550,011
                                        w/ Exercised Warrants
           Fe, NM 8
             Chambers Bancshares,         Subordinated Debentures
05/29/2009                                                              $19,817,000                                                                                                                                                                                                  $1,182,341
             Inc., Danville, AR 8           w/ Exercised Warrants

           Chicago Shore                       Preferred Stock w/
07/31/2009                                                               $7,000,000                                                                                                                                                                                                    $206,646
           Corporation, Chicago, IL 2          Exercised Warrants

             CIT Group Inc., New
12/31/2008                                 Contingent Value Rights    $2,330,000,000   02/08/2010   -$2,330,000,000             $0                                                                         $7,794.3                                                                $43,687,500
             York, NY 16

             Citigroup Inc., New York,         Common Stock w/
10/28/2008                                                           $25,000,000,000                                                                                                  $4.05             $115,663.6      $17.85     210,084,034            ($13.80)         OUT    $932,291,667
             NY 11                                    Warrants
           Citizens & Northern
                                               Preferred Stock w/
01/16/2009 Corporation, Wellsboro,                                      $26,440,000                                                                                                  $12.55                  $152.1     $20.36        194,794               ($7.81)        OUT       $1,428,494
                                                         Warrants
           PA
             Citizens Bancorp, Nevada          Preferred Stock w/
12/23/2008                                                              $10,400,000                                                                                                                                                                                                    $223,571
             City, CA 2                        Exercised Warrants

             Citizens Bancshares Co.,          Preferred Stock w/
05/29/2009                                                              $24,990,000                                                                                                                                                                                                    $628,033
             Chillicothe, MO 2                 Exercised Warrants

             Citizens Bancshares
03/06/2009                                        Preferred Stock        $7,462,000                                                                                                                                                                                                    $351,336
             Corporation, Atlanta, GA 3

           Citizens Bank & Trust               Preferred Stock w/
03/20/2009                                                               $2,400,000                                                                                                                                                                                                     $19,983
           Company, Covington, LA 2            Exercised Warrants
           Citizens Commerce
                                               Preferred Stock w/
02/06/2009 Bancshares, Inc.,                                             $6,300,000                                                                                                                                                                                                    $180,258
                                               Exercised Warrants
           Versailles, KY 2
             Citizens Community Bank,          Preferred Stock w/
12/23/2008                                                               $3,000,000                                                                                                                                                                                                    $187,117
             South Hill, VA 2                  Exercised Warrants
           Citizens First Corporation,         Preferred Stock w/
12/19/2008                                                               $8,779,000                                                                                                   $7.10                   $14.0      $5.18        254,218                $1.92           IN        $507,232
           Bowling Green, KY                             Warrants
           Citizens Republic Bancorp,          Preferred Stock w/
12/12/2008                                                             $300,000,000                                                                                                   $1.14                  $339.2      $2.56      17,578,125              ($1.42)        OUT     $13,875,000
           Inc., Flint, MI                               Warrants
             Citizens South Banking            Preferred Stock w/
12/12/2008                                                              $20,500,000                                                                                                   $6.15                   $46.3      $7.17        428,870               ($1.02)        OUT       $1,204,375
             Corporation, Gastonia, NC                   Warrants
             City National Bancshares
04/10/2009                                        Preferred Stock        $9,439,000                                                                                                                                                                                                    $281,859
             Corporation, Newark, NJ 3
                                                                                                                                                                                                                                                                          Continued on next page
 CPP Transaction Detail, as of 3/31/2010                                             (CONTINUED)

                                                                                            Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                        Capital           Capital       Remaining         Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                              Investment        Investment   Repayment         Repayment          Capital   Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date         Institution                              Description          Amount         Date            Amount          Amount          Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury

             City National Corporation,        Preferred Stock w/
11/21/2008                                                                           12/30/2009     $200,000,000 $200,000,000
             Beverly Hills, CA 4, c                      Warrants
                                                                     $400,000,000                                                                                                  $53.97                $2,819.2     $53.16      1,128,668                $0.81           IN    $23,916,667
           City National Corporation,          Preferred Stock w/
11/21/2008                                                                           03/03/2010     $200,000,000              $0
           Beverly Hills, CA 4, c                        Warrants
           Clover Community
                                               Preferred Stock w/
03/27/2009 Bankshares, Inc., Clover,                                   $3,000,000                                                                                                                                                                                                    $144,425
                                               Exercised Warrants
           SC 2
           Coastal Banking Company,            Preferred Stock w/
12/05/2008                                                             $9,950,000                                                                                                   $3.01                     $7.7     $7.26        205,579               ($4.25)        OUT         $594,236
           Inc., Fernandina Beach, FL                    Warrants
           CoastalSouth Bancshares,
                                               Preferred Stock w/
08/28/2009 Inc., Hilton Head Island,                                  $16,015,000                                                                                                                                                                                                    $391,499
                                               Exercised Warrants
           SC 2, 10
             CoBiz Financial Inc.,             Preferred Stock w/
12/19/2008                                                            $64,450,000                                                                                                   $6.23                  $228.9     $10.79        895,968               ($4.56)        OUT       $3,723,778
             Denver, CO                                  Warrants
           Codorus Valley Bancorp,             Preferred Stock w/
01/09/2009                                                            $16,500,000                                                                                                   $7.39                   $30.1      $9.38        263,859               ($1.99)        OUT         $907,500
           Inc., York, PA                                Warrants
           ColoEast Bankshares,                Preferred Stock w/
02/13/2009                                                            $10,000,000                                                                                                                                                                                                    $548,028
           Inc., Lamar, CO 2                   Exercised Warrants

             Colonial American Bank,           Preferred Stock w/
03/27/2009                                                               $574,000                                                                                                                                                                                                     $27,658
             West Conshohocken, PA 2           Exercised Warrants
           Colony Bankcorp, Inc.,              Preferred Stock w/
01/09/2009                                                            $28,000,000                                                                                                   $5.84                   $42.2      $8.40        500,000               ($2.56)        OUT       $1,540,000
           Fitzgerald, GA                                Warrants
           Columbia Banking System,            Preferred Stock w/
11/21/2008                                                            $76,898,000                                                                                                  $20.31                  $573.4     $14.49        398,023                $5.82           IN      $4,742,043
           Inc., Tacoma, WA b                            Warrants

           Columbine Capital Corp.,            Preferred Stock w/
02/27/2009                                                             $2,260,000                                                                                                                                                                                                    $119,064
           Buena Vista, CO 2                   Exercised Warrants

                                               Preferred Stock w/
11/14/2008 Comerica Inc., Dallas, TX 4                              $2,250,000,000   03/17/2010    $2,250,000,000             $0                                                   $38.04                $6,620.1     $29.40     11,479,592                $8.64           IN   $150,937,500
                                                         Warrants

             Commerce National Bank,           Preferred Stock w/
01/09/2009                                                             $5,000,000    10/07/2009        $5,000,000             $0                                                    $5.05                   $13.2      $8.60         87,209               ($3.55)        OUT          $36,111
             Newport Beach, CA 4                         Warrants
           Commonwealth
                                          Subordinated Debentures
05/22/2009 Bancshares, Inc.,                                          $20,400,000                                                                                                                                                                                                  $1,250,395
                                            w/ Exercised Warrants
           Louisville, KY 8
             Commonwealth Business             Preferred Stock w/
01/23/2009                                                             $7,701,000                                                                                                                                                                                                     $25,648
             Bank, Los Angeles, CA 2           Exercised Warrants

             Community 1st Bank,               Preferred Stock w/
01/16/2009                                                             $2,550,000                                                                                                                                                                                                    $104,265
             Roseville, CA 2                   Exercised Warrants

             Community Bancshares of           Preferred Stock w/
03/06/2009                                                               $500,000                                                                                                                                                                                                     $25,660
             Kansas, Inc., Goff, KS 2          Exercised Warrants
           Community Bancshares of
                                               Preferred Stock w/
09/11/2009 Mississippi, Inc., Brandon,                                $52,000,000                                                                                                                                                                                                  $1,212,322
                                               Exercised Warrants
           MS 2
             Community Bancshares,             Preferred Stock w/
07/24/2009                                                             $3,872,000                                                                                                                                                                                                    $113,922
             Inc., Kingman, AZ 2, 10           Exercised Warrants

             Community Bank of the
01/16/2009                                        Preferred Stock      $1,747,000                                                                                                                                                                                                     $21,838
             Bay, Oakland, CA 3
           Community Bank Shares
                                               Preferred Stock w/
05/29/2009 of Indiana, Inc., New                                      $19,468,000                                                                                                   $8.95                   $29.2      $7.56        386,270                $1.39           IN        $692,195
                                                         Warrants
           Albany, IN
           Community Bankers
                                               Preferred Stock w/
12/19/2008 Trust Corporation, Glen                                    $17,680,000                                                                                                   $2.91                   $62.5      $3.40        780,000               ($0.49)        OUT       $1,021,511
                                                         Warrants
           Allen, VA
           Community Business
                                               Preferred Stock w/
02/27/2009 Bank, West Sacramento,                                      $3,976,000                                                                                                                                                                                                    $209,486
                                               Exercised Warrants
           CA 2
             Community Financial               Preferred Stock w/
12/19/2008                                                            $12,643,000                                                                                                   $4.16                   $18.1      $5.40        351,194               ($1.24)        OUT         $730,485
             Corporation, Staunton, VA                   Warrants
           Community Financial
                                               Preferred Stock w/
05/15/2009 Shares, Inc., Glen                                          $6,970,000                                                                                                                                                                                                    $284,932
                                               Exercised Warrants
                                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I april 20, 2010




           Ellyn, IL 2
           Community First
                                               Preferred Stock w/
03/20/2009 Bancshares Inc., Union                                     $20,000,000                                                                                                                                                                                                    $984,028
                                               Exercised Warrants
           City, TN 2
           Community First
                                               Preferred Stock w/
04/03/2009 Bancshares, Inc.,                                          $12,725,000                                                                                                                                                                                                    $601,025
                                               Exercised Warrants
           Harrison, AR 2
                                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                                   179
 CPP Transaction Detail, as of 3/31/2010                                             (CONTINUED)


                                                                                                                                                                                                                                                                                                      180
                                                                                            Capital Repayment Details                                         Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                        Capital           Capital         Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                              Investment        Investment   Repayment         Repayment            Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date         Institution                              Description          Amount         Date            Amount            Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury

             Community First Inc.,             Preferred Stock w/
02/27/2009                                                            $17,806,000                                                                                                                                                                                                       $938,053
             Columbia, TN 2                    Exercised Warrants
           Community Holding
                                               Preferred Stock w/
02/06/2009 Company of Florida, Inc.,                                   $1,050,000                                                                                                                                                                                                        $58,426
                                               Exercised Warrants
           Miramar Beach, FL 2
           Community Investors
                                               Preferred Stock w/
12/23/2008 Bancorp, Inc., Bucyrus,                                     $2,600,000                                                                                                                                                                                                       $162,168
                                               Exercised Warrants
           OH 2
           Community Partners                  Preferred Stock w/
01/30/2009                                                             $9,000,000                                                                                                      $3.58                   $25.7      $4.54        297,116               ($0.96)        OUT         $468,750
           Bancorp, Middletown, NJ                       Warrants
           Community Pride Bank
                                          Subordinated Debentures
11/13/2009 Corporation, Ham Lake,                                      $4,400,000                                                                                                                                                                                                        $91,237
                                            w/ Exercised Warrants
           MN 8, 10
             Community Trust Financial         Preferred Stock w/
01/09/2009                                                            $24,000,000                                                                                                                                                                                                     $1,438,800
             Corporation, Ruston, LA 2         Exercised Warrants
           Community West                      Preferred Stock w/
12/19/2008                                                            $15,600,000                                                                                                      $2.95                   $17.4      $4.49        521,158               ($1.54)        OUT         $901,333
           Bancshares, Goleta, CA                        Warrants
           Congaree Bancshares,                Preferred Stock w/
01/09/2009                                                             $3,285,000                                                                                                                                                                                                       $152,159
           Inc., Cayce, SC 2                   Exercised Warrants

           Corning Savings and Loan            Preferred Stock w/
02/13/2009                                                               $638,000                                                                                                                                                                                                        $34,973
           Association, Corning, AR 2          Exercised Warrants
                                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I april 20, 2010




             Country Bank Shares, Inc.,        Preferred Stock w/
01/30/2009                                                             $7,525,000                                                                                                                                                                                                       $427,178
             Milford, NE 2                     Exercised Warrants
           Covenant Financial
                                               Preferred Stock w/
06/05/2009 Corporation, Clarksdale,                                    $5,000,000                                                                                                                                                                                                       $189,236
                                               Exercised Warrants
           MS 2
           Crazy Woman Creek
                                               Preferred Stock w/
02/20/2009 Bancorp, Inc., Buffalo,                                     $3,100,000                                                                                                                                                                                                       $166,603
                                               Exercised Warrants
           WY 2
             Crescent Financial                Preferred Stock w/
01/09/2009                                                            $24,900,000                                                                                                      $3.49                   $33.6      $4.48        833,705               ($0.99)        OUT       $1,369,500
             Corporation, Cary, NC                       Warrants
           Crosstown Holding                   Preferred Stock w/
01/23/2009                                                            $10,650,000                                                                                                                                                                                                       $615,944
           Company, Blaine, MN 2               Exercised Warrants

           CSRA Bank Corp., Wrens,             Preferred Stock w/
03/27/2009                                                             $2,400,000                                                                                                                                                                                                       $115,540
           GA 2                                Exercised Warrants

           CVB Financial Corp,                 Preferred Stock w/
12/05/2008                                                                           09/02/2009       $32,500,000               $0    10/28/2009     R            $1,307,000
           Ontario, CA 4, 9, c                           Warrants
                                                                     $130,000,000                                                                                                      $9.93                $1,055.4                                                                  $4,739,583
             CVB Financial Corp,               Preferred Stock w/
12/05/2008                                                                           08/26/2009       $97,500,000       $32,500,000
             Ontario, CA 4, c                            Warrants

             D.L. Evans Bancorp,               Preferred Stock w/
02/27/2009                                                            $19,891,000                                                                                                                                                                                                     $1,047,964
             Burley, ID 2                      Exercised Warrants
           Deerfield Financial
                                          Subordinated Debentures
05/15/2009 Corporation, Deerfield,                                     $2,639,000                                                                                                                                                                                                       $166,064
                                            w/ Exercised Warrants
           WI 8
             Delmar Bancorp, Delmar,           Preferred Stock w/
12/04/2009                                                             $9,000,000                                                                                                                                                                                                        $96,738
             MD 2                              Exercised Warrants

             DeSoto County Bank,
12/29/2009                                        Preferred Stock      $1,508,000
             Horn Lake, MS 2, 10a, c
                                                                                                                                                                                                                                                                                         $73,949
             DeSoto County Bank,               Preferred Stock w/
02/13/2009                                                             $1,173,000
             Horn Lake, MS 2, c                Exercised Warrants

             Diamond Bancorp, Inc.,       Subordinated Debentures
05/22/2009                                                            $20,445,000                                                                                                                                                                                                     $1,253,128
             Washington, MO 8               w/ Exercised Warrants
           Dickinson Financial
                                               Preferred Stock w/
01/16/2009 Corporation II, Kansas                                    $146,053,000                                                                                                                                                                                                     $2,631,197
                                               Exercised Warrants
           City, MO 2
           Discover Financial                  Preferred Stock w/
03/13/2009                                                          $1,224,558,000                                                                                                    $14.90                $8,102.3      $8.96     20,500,413                $5.94           IN    $56,465,729
           Services, Riverwoods, IL                      Warrants
           DNB Financial Corporation,          Preferred Stock w/
01/30/2009                                                            $11,750,000                                                                                                      $5.15                   $13.5      $9.46        186,311               ($4.31)        OUT         $611,979
           Downingtown, PA                               Warrants
           Duke Financial Group, Inc., Subordinated Debentures
06/19/2009                                                            $12,000,000                                                                                                                                                                                                       $408,316
           Minneapolis, MN 8             w/ Exercised Warrants

           Eagle Bancorp, Inc.,                Preferred Stock w/
12/05/2008                                                            $38,235,000    12/23/2009       $15,000,000       $23,235,000                                                   $11.85                  $232.6      $7.44        385,434                $4.41           IN      $2,175,146
           Bethesda, MD 5, b                             Warrants
                                                                                                                                                                                                                                                                           Continued on next page
 CPP Transaction Detail, as of 3/31/2010                                          (CONTINUED)

                                                                                         Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                     Capital           Capital       Remaining         Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                             Investment      Investment   Repayment         Repayment          Capital   Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date         Institution                             Description        Amount         Date            Amount          Amount          Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury
             East West Bancorp,               Preferred Stock w/
12/05/2008                                                         $306,546,000                                                                                                 $17.42                $1,925.0     $15.15      1,517,555                $2.27           IN    $18,307,608
             Pasadena, CA b                             Warrants
           Eastern Virginia
                                              Preferred Stock w/
01/09/2009 Bankshares, Inc.,                                        $24,000,000                                                                                                  $7.55                   $44.9      $9.63        373,832               ($2.08)        OUT       $1,320,000
                                                        Warrants
           Tappahannock, VA
             ECB Bancorp, Inc.,               Preferred Stock w/
01/16/2009                                                          $17,949,000                                                                                                 $12.29                   $35.0     $18.57        144,984               ($6.28)        OUT         $969,745
             Engelhard, NC                              Warrants
             Emclaire Financial Corp.,        Preferred Stock w/
12/23/2008                                                           $7,500,000                                                                                                 $14.51                   $20.8     $22.45         50,111               ($7.94)        OUT         $429,167
             Emlenton, PA                               Warrants
             Encore Bancshares Inc.,          Preferred Stock w/
12/05/2008                                                          $34,000,000                                                                                                  $9.47                   $99.4     $14.01        364,026               ($4.54)        OUT       $2,030,556
             Houston, TX                                Warrants
           Enterprise Financial
                                              Preferred Stock w/
12/19/2008 Services Corp., St.                                      $35,000,000                                                                                                 $11.06                  $164.3     $16.20        324,074               ($5.14)        OUT       $2,022,222
                                                        Warrants
           Louis, MO
           Enterprise Financial
                                              Preferred Stock w/
06/12/2009 Services Group, Inc.,                                     $4,000,000                                                                                                                                                                                                   $147,150
                                              Exercised Warrants
           Allison Park, PA 2
             Equity Bancshares, Inc.,         Preferred Stock w/
01/30/2009                                                           $8,750,000                                                                                                                                                                                                   $496,792
             Wichita, KS 2                    Exercised Warrants

           Exchange Bank, Santa               Preferred Stock w/
12/19/2008                                                          $43,000,000                                                                                                                                                                                                 $2,122,169
           Rosa, CA 2                         Exercised Warrants

             F & C Bancorp, Inc.,        Subordinated Debentures
05/22/2009                                                           $2,993,000                                                                                                                                                                                                   $183,488
             Holden, MO 8                  w/ Exercised Warrants

             F & M Bancshares, Inc.,
11/06/2009                                       Preferred Stock     $3,535,000
             Trezevant, TN 2, 10a, c
                                                                                                                                                                                                                                                                                  $310,221
           F & M Bancshares, Inc.,            Preferred Stock w/
01/30/2009                                                           $4,609,000
           Trezevant, TN 2, c                 Exercised Warrants
           F & M Financial
                                              Preferred Stock w/
02/06/2009 Corporation, Salisbury,                                  $17,000,000                                                                                                                                                                                                   $949,663
                                              Exercised Warrants
           NC 2
           F&M Financial
                                              Preferred Stock w/
02/13/2009 Corporation, Clarksville,                                $17,243,000                                                                                                                                                                                                   $944,950
                                              Exercised Warrants
           TN 2
             F.N.B. Corporation,              Preferred Stock w/
01/09/2009                                                         $100,000,000   09/09/2009     $100,000,000              $0                                                    $8.11                  $925.1     $11.52        651,042               ($3.41)        OUT       $3,333,333
             Hermitage, PA 4, b                         Warrants
           Farmers & Merchants
                                              Preferred Stock w/
03/06/2009 Bancshares, Inc.,                                        $11,000,000                                                                                                                                                                                                   $564,530
                                              Exercised Warrants
           Houston, TX 2
           Farmers & Merchants
                                              Preferred Stock w/
03/20/2009 Financial Corporation,                                     $442,000                                                                                                                                                                                                     $21,739
                                              Exercised Warrants
           Argonia, KS 2
             Farmers Bank, Windsor,           Preferred Stock w/
01/23/2009                                                           $8,752,000                                                                                                                                                                                                   $506,171
             VA 2                             Exercised Warrants
           Farmers Capital Bank               Preferred Stock w/
01/09/2009                                                          $30,000,000                                                                                                  $8.57                   $63.2     $20.09        223,992             ($11.52)         OUT       $1,650,000
           Corporation, Frankfort, KY                   Warrants
           Farmers Enterprises, Inc., Subordinated Debentures
06/19/2009                                                          $12,000,000                                                                                                                                                                                                   $660,016
           Great Bend, KS 8             w/ Exercised Warrants
           Farmers State
                                              Preferred Stock w/
03/20/2009 Bankshares, Inc., Holton,                                  $700,000                                                                                                                                                                                                     $34,847
                                              Exercised Warrants
           KS 2
             FBHC Holding Company,       Subordinated Debentures
12/29/2009                                                           $3,035,000                                                                                                                                                                                                    $31,466
             Boulder, CO 8, 10             w/ Exercised Warrants

             FC Holdings, Inc.,               Preferred Stock w/
06/26/2009                                                          $21,042,000                                                                                                                                                                                                   $156,090
             Houston, TX 2                    Exercised Warrants

             FCB Bancorp, Inc.,               Preferred Stock w/
12/19/2008                                                           $9,294,000                                                                                                                                                                                                   $585,347
             Louisville, KY 2                 Exercised Warrants

           FFW Corporation, Wabash,           Preferred Stock w/
12/19/2008                                                           $7,289,000                                                                                                                                                                                                   $458,999
           IN 2                               Exercised Warrants

             Fidelity Bancorp, Inc,      Subordinated Debentures
                                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I april 20, 2010




05/29/2009                                                           $3,942,000                                                                                                                                                                                                   $235,180
             Baton Rouge, LA 8             w/ Exercised Warrants
                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                                181
  CPP Transaction Detail, as of 3/31/2010                                                (CONTINUED)


                                                                                                                                                                                                                                                                                                       182
                                                                                                Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                            Capital           Capital       Remaining         Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                                  Investment        Investment   Repayment         Repayment          Capital   Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date          Institution                                 Description          Amount         Date            Amount          Amount          Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury
              Fidelity Bancorp, Inc.,              Preferred Stock w/
12/12/2008                                                                 $7,000,000                                                                                                   $4.90                   $14.9      $8.65        121,387               ($3.75)        OUT         $411,250
              Pittsburgh, PA                                 Warrants
              Fidelity Federal Bancorp,            Preferred Stock w/
11/13/2009                                                                 $6,657,000                                                                                                                                                                                                            $0
              Evansville, IN 2, 10                 Exercised Warrants

              Fidelity Financial                   Preferred Stock w/
12/19/2008                                                                $36,282,000                                                                                                                                                                                                  $2,284,949
              Corporation, Wichita, KS 2           Exercised Warrants

           Fidelity Resources                      Preferred Stock w/
06/26/2009                                                                 $3,000,000                                                                                                                                                                                                    $104,004
           Company, Plano, TX 2                    Exercised Warrants
           Fidelity Southern                       Preferred Stock w/
12/19/2008                                                                $48,200,000                                                                                                   $5.75                   $58.8      $3.11      2,323,689                $2.64           IN      $2,784,889
           Corporation, Atlanta, GA                          Warrants
              Fifth Third Bancorp,                 Preferred Stock w/
12/31/2008                                                              $3,408,000,000                                                                                                 $13.56               $10,778.1     $11.72     43,617,747                $1.84           IN   $213,000,000
              Cincinnati, OH                                 Warrants
              Financial Institutions, Inc.,        Preferred Stock w/
12/23/2008                                                                $37,515,000                                                                                                  $14.62                  $159.6     $14.88        378,175               ($0.26)        OUT       $2,146,692
              Warsaw, NY                                     Warrants
           Financial Security                      Preferred Stock w/
02/13/2009                                                                 $5,000,000                                                                                                                                                                                                    $274,014
           Corporation, Basin, WY 2                Exercised Warrants
           Financial Services of
                                              Subordinated Debentures
07/31/2009 Winger, Inc., Winger,                                           $3,742,000                                                                                                                                                                                                    $164,445
                                                w/ Exercised Warrants
           MN 8, 10
           First Advantage
                                                   Preferred Stock w/
05/22/2009 Bancshares Inc., Coon                                           $1,177,000                                                                                                                                                                                                     $46,872
                                                   Exercised Warrants
                                                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I april 20, 2010




           Rapids, MN 2
              First Alliance Bancshares,           Preferred Stock w/
06/26/2009                                                                 $3,422,000                                                                                                                                                                                                    $118,628
              Inc., Cordova, TN 2                  Exercised Warrants
           First American Bank
                                              Subordinated Debentures
07/24/2009 Corporation, Elk Grove                                         $50,000,000                                                                                                                                                                                                  $2,342,225
                                                w/ Exercised Warrants
           Village, IL 8
           First American
03/13/2009 International Corp.,                       Preferred Stock     $17,000,000                                                                                                                                                                                                    $783,889
           Brooklyn, NY 3
              First BanCorp, San                   Preferred Stock w/
01/16/2009                                                               $400,000,000                                                                                                   $2.41                  $223.0     $10.27      5,842,259               ($7.86)        OUT       $6,611,111
              Juan, PR                                       Warrants
                                                   Preferred Stock w/
01/09/2009 First Bancorp, Troy, NC                                        $65,000,000                                                                                                  $13.52                  $226.3     $15.82        616,308               ($2.30)        OUT       $3,575,000
                                                             Warrants
           First BancTrust                         Preferred Stock w/
02/20/2009                                                                 $7,350,000                                                                                                                                                                                                    $395,056
           Corporation, Paris, IL 2                Exercised Warrants

           First Bank of Charleston,               Preferred Stock w/
02/06/2009                                                                 $3,345,000                                                                                                                                                                                                    $186,837
           Inc., Charleston, WV 2                  Exercised Warrants

              First Bankers Trustshares,           Preferred Stock w/
01/16/2009                                                                $10,000,000                                                                                                                                                                                                    $588,903
              Inc., Quincy, IL 2                   Exercised Warrants

              First Banks, Inc., Clayton,          Preferred Stock w/
12/31/2008                                                               $295,400,000                                                                                                                                                                                                  $6,037,238
              MO 2                                 Exercised Warrants
           First Busey Corporation,                Preferred Stock w/
03/06/2009                                                               $100,000,000                                                                                                   $4.42                  $293.3     $13.07        573,833               ($8.65)        OUT       $4,708,333
           Urbana, IL b                                      Warrants
           First Business Bank, N.A.,
12/11/2009                                            Preferred Stock      $2,032,000
           San Diego, CA 2, 10a, c
                                                                                                                                                                                                                                                                                         $120,186
           First Business Bank, N.A.,              Preferred Stock w/
04/10/2009                                                                 $2,211,000
           San Diego, CA 2, c                      Exercised Warrants
           First California Financial
                                                   Preferred Stock w/
12/19/2008 Group, Inc, Westlake                                           $25,000,000                                                                                                   $2.64                   $68.7      $6.26        599,042               ($3.62)        OUT       $1,444,444
                                                             Warrants
           Village, CA
           First Capital Bancorp, Inc.,            Preferred Stock w/
04/03/2009                                                                $10,958,000                                                                                                   $8.13                   $24.2      $6.55        250,947                $1.58           IN        $474,847
           Glen Ellen, VA                                    Warrants
           First Choice Bank,                      Preferred Stock w/
02/13/2009                                                                 $2,200,000
           Cerritos, CA 2, c                       Exercised Warrants
                                                                                                                                                                                                                                                                                         $141,442
           First Choice Bank,
12/22/2009                                            Preferred Stock      $2,836,000
           Cerritos, CA 2, 10a, c
              First Citizens Banc Corp,            Preferred Stock w/
01/23/2009                                                                $23,184,000                                                                                                   $4.48                   $34.5      $7.41        469,312               ($2.93)        OUT       $1,230,040
              Sandusky, OH                                   Warrants
           First Colebrook Bancorp,                Preferred Stock w/
03/20/2009                                                                 $4,500,000                                                                                                                                                                                                    $221,406
           Inc., Colebrook, NH 2                   Exercised Warrants
                                                                                                                                                                                                                                                                            Continued on next page
 CPP Transaction Detail, as of 3/31/2010                                             (CONTINUED)

                                                                                            Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                        Capital           Capital       Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                                Investment      Investment   Repayment         Repayment          Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date          Institution                               Description        Amount         Date            Amount          Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury
           First Community
                                                 Preferred Stock w/
05/15/2009 Bancshares, Inc, Overland                                   $14,800,000                                                                                                                                                                                                    $604,950
                                                 Exercised Warrants
           Park, KS 2, b
           First Community Bank
                                                 Preferred Stock w/
12/23/2008 Corporation of America,                                     $10,685,000                                                                                                   $2.25                     $9.3     $7.02        228,312               ($4.77)        OUT         $611,420
                                                           Warrants
           Pinellas Park, FL
           First Community
                                                 Preferred Stock w/
11/21/2008 Bankshares Inc., Bluefield,                                 $41,500,000   07/08/2009       $41,500,000             $0                                                    $12.37                  $219.8     $35.26         88,273             ($22.89)         OUT       $1,308,403
                                                           Warrants
           VA 5
              First Community                    Preferred Stock w/
11/21/2008                                                             $11,350,000                                                                                                   $6.20                   $20.2      $8.69        195,915               ($2.49)        OUT         $699,917
              Corporation, Lexington, SC                   Warrants
           First Community Financial             Preferred Stock w/
12/11/2009                                                             $22,000,000                                                                                                                                                                                                    $213,156
           Partners, Inc., Joliet, IL 2          Exercised Warrants
           First Defiance Financial              Preferred Stock w/
12/05/2008                                                             $37,000,000                                                                                                  $10.12                   $82.2     $10.08        550,595                $0.04           IN      $2,209,722
           Corp., Defiance, OH                             Warrants
           First Eagle Bancshares,          Subordinated Debentures
09/11/2009                                                              $7,500,000                                                                                                                                                                                                    $269,180
           Inc., Hanover Park, IL 8           w/ Exercised Warrants

           First Express of Nebraska,            Preferred Stock w/
02/06/2009                                                              $5,000,000                                                                                                                                                                                                    $279,313
           Inc., Gering, NE 2                    Exercised Warrants
           First Federal Bancshares
                                                 Preferred Stock w/
03/06/2009 of Arkansas, Inc.,                                          $16,500,000                                                                                                   $3.65                   $17.7      $7.69        321,847               ($4.04)        OUT         $570,625
                                                           Warrants
           Harrison, AR
           First Financial Bancorp,              Preferred Stock w/
12/23/2008                                                             $80,000,000   02/24/2010       $80,000,000             $0                                                    $17.78                $1,028.1     $12.90        465,117                $4.88           IN      $4,677,778
           Cincinnati, OH 5, b                             Warrants

              First Financial Bancshares, Subordinated Debentures
06/12/2009                                                              $3,756,000                                                                                                                                                                                                    $205,744
              Inc., Lawrence, KS 8, 10      w/ Exercised Warrants

           First Financial Holdings              Preferred Stock w/
12/05/2008                                                             $65,000,000                                                                                                  $15.06                  $248.9     $20.17        241,696               ($5.11)        OUT       $3,881,944
           Inc., Charleston, SC b                          Warrants
           First Financial
                                                 Preferred Stock w/
01/09/2009 Service Corporation,                                        $20,000,000                                                                                                   $8.75                   $41.3     $13.89        215,983               ($5.14)        OUT       $1,100,000
                                                           Warrants
           Elizabethtown, KY
           First Freedom
                                                 Preferred Stock w/
12/22/2009 Bancshares, Inc.,                                            $8,700,000                                                                                                                                                                                                     $67,500
                                                 Exercised Warrants
           Lebanon, TN 2, 10
           First Gothenburg
                                                 Preferred Stock w/
02/27/2009 Bancshares, Inc.,                                            $7,570,000                                                                                                                                                                                                    $398,856
                                                 Exercised Warrants
           Gothenburg, NE 2
           First Guaranty
                                                 Preferred Stock w/
08/28/2009 Bancshares, Inc.,                                           $20,699,000                                                                                                                                                                                                    $523,104
                                                 Exercised Warrants
           Hammond, LA 2
              First Horizon National             Preferred Stock w/
11/14/2008                                                            $866,540,000                                                                                                  $14.05                $3,125.2      $9.32     13,954,779                $4.74           IN    $54,279,103
              Corporation, Memphis, TN                     Warrants
           First Independence
08/28/2009                                          Preferred Stock     $3,223,000                                                                                                                                                                                                     $74,756
           Corporation, Detroit, MI 2, 3

           First Intercontinental Bank,          Preferred Stock w/
03/13/2009                                                              $6,398,000                                                                                                                                                                                                    $321,579
           Doraville, GA 2                       Exercised Warrants
           First Litchfield Financial            Preferred Stock w/
12/12/2008                                                             $10,000,000                                                                                                  $14.95                   $35.2      $7.53        199,203                $7.42           IN        $587,500
           Corporation, Litchfield, CT                     Warrants
              First M&F Corporation,             Preferred Stock w/
02/27/2009                                                             $30,000,000                                                                                                   $3.15                   $28.8      $8.77        513,113               ($5.62)        OUT       $1,450,000
              Kosciusko, MS                                Warrants
              First Manitowoc Bancorp,           Preferred Stock w/
01/16/2009                                                             $12,000,000   05/27/2009       $12,000,000             $0    05/27/2009     R              $600,000                                                                                                            $237,983
              Inc., Manitowoc, WI 2, 4, 7        Exercised Warrants
           First Menasha
                                                 Preferred Stock w/
02/13/2009 Bancshares, Inc., Neenah,                                    $4,797,000                                                                                                                                                                                                    $262,902
                                                 Exercised Warrants
           WI 2
              First Merchants                    Preferred Stock w/
02/20/2009                                                            $116,000,000                                                                                                   $6.96                  $177.5     $17.55        991,453             ($10.59)         OUT       $5,719,444
              Corporation, Muncie, IN                      Warrants
           First Midwest Bancorp,                Preferred Stock w/
12/05/2008                                                            $193,000,000                                                                                                  $13.55                $1,003.1     $22.18      1,305,230               ($8.63)        OUT     $11,526,389
           Inc., Itasca, IL                                Warrants
           First National Corporation,           Preferred Stock w/
03/13/2009                                                             $13,900,000                                                                                                                                                                                                    $698,630
                                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I april 20, 2010




           Strasburg, VA 2                       Exercised Warrants
           First NBC Bank Holding
                                                 Preferred Stock w/
03/20/2009 Company, New Orleans,                                       $17,836,000                                                                                                                                                                                                    $877,572
                                                 Exercised Warrants
           LA 2
                                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                                    183
  CPP Transaction Detail, as of 3/31/2010                                             (CONTINUED)


                                                                                                                                                                                                                                                                                                     184
                                                                                             Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                         Capital           Capital       Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                                 Investment      Investment   Repayment         Repayment          Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date          Institution                                Description        Amount         Date            Amount          Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury

              First Niagara Financial             Preferred Stock w/
11/21/2008                                                             $184,011,000   05/27/2009     $184,011,000              $0    06/24/2009     R            $2,700,000          $14.23                $2,682.4                                                                  $4,753,618
              Group, Lockport, NY 5, 9                      Warrants
           First Northern Community               Preferred Stock w/
03/13/2009                                                              $17,390,000                                                                                                   $4.89                   $44.3      $7.39        352,977               ($2.50)        OUT         $801,872
           Bancorp, Dixon, CA                               Warrants
              First PacTrust Bancorp,             Preferred Stock w/
11/21/2008                                                              $19,300,000                                                                                                   $7.77                   $33.0     $10.31        280,795               ($2.54)        OUT       $1,190,167
              Inc., Chula Vista, CA                         Warrants
              First Place Financial Corp.,        Preferred Stock w/
03/13/2009                                                              $72,927,000                                                                                                   $3.99                   $67.7      $2.98      3,670,822                $1.01           IN      $3,362,744
              Warren, OH                                    Warrants
           First Priority Financial
12/18/2009                                           Preferred Stock     $4,596,000
           Corp., Malvern, PA 2, 10a, c
                                                                                                                                                                                                                                                                                       $282,479
              First Priority Financial            Preferred Stock w/
02/20/2009                                                               $4,579,000
              Corp., Malvern, PA 2, c             Exercised Warrants

              First Reliance Bancshares,          Preferred Stock w/
03/06/2009                                                              $15,349,000                                                                                                                                                                                                    $787,686
              Inc., Florence, SC 2                Exercised Warrants

           First Resource Bank,
12/11/2009                                           Preferred Stock     $2,417,000
           Exton, PA 2, 10a, c
                                                                                                                                                                                                                                                                                       $169,089
           First Resource Bank,                   Preferred Stock w/
01/30/2009                                                               $2,600,000
           Exton, PA 2, c                         Exercised Warrants
              First Security Group, Inc.,         Preferred Stock w/
01/09/2009                                                              $33,000,000                                                                                                   $2.16                   $35.5      $6.01        823,627               ($3.85)        OUT       $1,402,500
              Chattanooga, TN                               Warrants
                                                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I april 20, 2010




           First Sound Bank,                      Preferred Stock w/
12/23/2008                                                               $7,400,000                                                                                                   $0.49                     $1.0     $9.73        114,080               ($9.24)        OUT         $330,944
           Seattle, WA                                      Warrants
           First South Bancorp, Inc., Subordinated Debentures
07/17/2009                                                              $50,000,000                                                                                                                                                                                                  $2,423,777
           Lexington, TN 8              w/ Exercised Warrants

           First Southern Bancorp,                Preferred Stock w/
01/30/2009                                                              $10,900,000                                                                                                                                                                                                    $618,802
           Inc., Boca Raton, FL 2                 Exercised Warrants
           First Southwest
                                                  Preferred Stock w/
03/06/2009 Bancorporation, Inc.,                                         $5,500,000                                                                                                                                                                                                    $207,327
                                                  Exercised Warrants
           Alamosa, CO 2
              First State Bank of                 Preferred Stock w/
02/27/2009                                                                $731,000                                                                                                                                                                                                      $38,551
              Mobeetie, Mobeetie, TX 2            Exercised Warrants

              First Texas BHC, Inc., Fort         Preferred Stock w/
03/06/2009                                                              $13,533,000                                                                                                                                                                                                    $694,554
              Worth, TX 2                         Exercised Warrants

           First Trust Corporation,          Subordinated Debentures
06/05/2009                                                              $17,969,000                                                                                                                                                                                                  $1,046,896
           New Orleans, LA 8                   w/ Exercised Warrants

           First ULB Corp., Oakland,              Preferred Stock w/
01/23/2009                                                               $4,900,000   04/22/2009        $4,900,000             $0    04/22/2009     R              $245,000                                                                                                             $66,021
           CA 2, 4, 7                             Exercised Warrants
           First United Corporation,              Preferred Stock w/
01/30/2009                                                              $30,000,000                                                                                                   $6.00                   $36.9     $13.79        326,323               ($7.79)        OUT       $1,562,500
           Oakland, MD                                      Warrants
           First Vernon Bancshares,               Preferred Stock w/
06/12/2009                                                               $6,000,000                                                                                                                                                                                                    $217,384
           Inc., Vernon, AL 2, 10                 Exercised Warrants

              First Western Financial,
12/11/2009                                           Preferred Stock    $11,881,000
              Inc., Denver, CO 2, 10a, c
                                                                                                                                                                                                                                                                                       $583,740
              First Western Financial,            Preferred Stock w/
02/06/2009                                                               $8,559,000
              Inc., Denver, CO 2, c               Exercised Warrants
              Firstbank Corporation,              Preferred Stock w/
01/30/2009                                                              $33,000,000                                                                                                   $5.90                   $45.7      $8.55        578,947               ($2.65)        OUT       $1,718,750
              Alma, MI                                      Warrants
           FirstMerit Corporation,                Preferred Stock w/
01/09/2009                                                             $125,000,000   04/22/2009     $125,000,000              $0    05/27/2009     R            $5,025,000          $21.57                $1,875.4                                                                  $1,788,194
           Akron, OH 4                                      Warrants
           Flagstar Bancorp, Inc.,                Preferred Stock w/
01/30/2009                                                             $266,657,000                                                                                                   $0.60                  $837.0      $0.62     64,513,790               ($0.02)        OUT     $13,888,384
           Troy, MI                                         Warrants
              Florida Bank Group, Inc.,           Preferred Stock w/
07/24/2009                                                              $20,471,000                                                                                                                                                                                                    $622,938
              Tampa, FL 2                         Exercised Warrants
           Florida Business
                                                  Preferred Stock w/
02/20/2009 BancGroup, Inc., Tampa,                                       $9,495,000                                                                                                                                                                                                    $510,313
                                                  Exercised Warrants
           FL 2
           Flushing Financial
                                                  Preferred Stock w/
12/19/2008 Corporation, Lake                                            $70,000,000   10/28/2009       $70,000,000             $0    12/30/2009     R              $900,000          $12.66                  $394.4                                                                  $3,004,167
                                                            Warrants
           Success, NY 5, 9
              FNB Bancorp, South San              Preferred Stock w/
02/27/2009                                                              $12,000,000                                                                                                                                                                                                    $632,200
              Francisco, CA 2                     Exercised Warrants
                                                                                                                                                                                                                                                                          Continued on next page
  CPP Transaction Detail, as of 3/31/2010                                            (CONTINUED)

                                                                                            Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                        Capital           Capital       Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                                Investment      Investment   Repayment         Repayment          Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date           Institution                              Description        Amount         Date            Amount          Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury
               FNB United Corp.,                 Preferred Stock w/
02/13/2009                                                             $51,500,000                                                                                                   $1.21                   $13.8      $3.50      2,207,143               ($2.29)        OUT       $2,589,305
               Asheboro, NC                                Warrants
           Foresight Financial Group,            Preferred Stock w/
05/15/2009                                                             $15,000,000                                                                                                                                                                                                    $613,125
           Inc., Rockford, IL 2                  Exercised Warrants

           Fort Lee Federal Savings              Preferred Stock w/
05/22/2009                                                              $1,300,000                                                                                                                                                                                                     $51,760
           Bank, Fort Lee, NJ 2                  Exercised Warrants

               Fortune Financial                 Preferred Stock w/
04/03/2009                                                              $3,100,000                                                                                                                                                                                                    $146,424
               Corporation, Arnold, MO 2         Exercised Warrants
               FPB Bancorp, Inc., Port           Preferred Stock w/
12/05/2008                                                              $5,800,000                                                                                                   $1.22                     $2.5     $4.75        183,158               ($3.53)        OUT         $273,889
               St. Lucie, FL                               Warrants
           FPB Financial Corp.,                  Preferred Stock w/
01/23/2009                                                              $3,240,000   12/16/2009        $1,000,000       $2,240,000                                                                                                                                                    $179,177
           Hammond, LA 2, 4                      Exercised Warrants

               Franklin Bancorp, Inc.,           Preferred Stock w/
05/22/2009                                                              $5,097,000                                                                                                                                                                                                    $202,948
               Washington, MO 2                  Exercised Warrants

           Freeport Bancshares, Inc., Subordinated Debentures
05/08/2009                                                              $3,000,000                                                                                                                                                                                                    $193,668
           Freeport, IL 8               w/ Exercised Warrants

           Fremont Bancorporation,          Subordinated Debentures
06/26/2009                                                             $35,000,000                                                                                                                                                                                                  $1,867,955
           Fremont, CA 8                      w/ Exercised Warrants

               Fresno First Bank, Fresno,        Preferred Stock w/
01/23/2009                                                              $1,968,000                                                                                                                                                                                                     $80,415
               CA 2                              Exercised Warrants

               Frontier Bancshares, Inc., Subordinated Debentures
04/24/2009                                                              $3,000,000   11/24/2009        $1,600,000       $1,400,000                                                                                                                                                    $175,737
               Austin, TX 8, 4              w/ Exercised Warrants
           Fulton Financial
                                                 Preferred Stock w/
12/23/2008 Corporation, Lancaster,                                    $376,500,000                                                                                                  $10.20                $1,800.0     $10.25      5,509,756               ($0.05)        OUT     $21,544,167
                                                           Warrants
           PA
               Gateway Bancshares, Inc.,         Preferred Stock w/
05/08/2009                                                              $6,000,000                                                                                                                                                                                                    $251,608
               Ringgold, GA 2                    Exercised Warrants
           Georgia Commerce
                                                 Preferred Stock w/
02/06/2009 Bancshares, Inc., Atlanta,                                   $8,700,000                                                                                                                                                                                                    $486,004
                                                 Exercised Warrants
           GA 2
               Georgia Primary Bank,             Preferred Stock w/
05/01/2009                                                              $4,500,000                                                                                                                                                                                                            $0
               Atlanta, GA 2                     Exercised Warrants
           Germantown Capital
                                                 Preferred Stock w/
03/06/2009 Corporation, Inc.,                                           $4,967,000                                                                                                                                                                                                    $254,881
                                                 Exercised Warrants
           Germantown, TN 2
               Gold Canyon Bank, Gold            Preferred Stock w/
06/26/2009                                                              $1,607,000                                                                                                                                                                                                     $53,860
               Canyon, AZ 2, 10                  Exercised Warrants

           Goldwater Bank, N.A.,                 Preferred Stock w/
01/30/2009                                                              $2,568,000                                                                                                                                                                                                    $145,750
           Scottsdale, AZ 2                      Exercised Warrants

               Grand Capital Corporation,        Preferred Stock w/
04/24/2009                                                              $4,000,000                                                                                                                                                                                                    $176,217
               Tulsa, OK 2                       Exercised Warrants
           Grand Financial
                                     Subordinated Debentures
09/25/2009 Corporation, Hattiesburg,                                    $2,443,320                                                                                                                                                                                                     $79,710
                                       w/ Exercised Warrants
           MS 8
           Grand Mountain
                                                 Preferred Stock w/
05/29/2009 Bancshares, Inc., Granby,                                    $3,076,000                                                                                                                                                                                                            $0
                                                 Exercised Warrants
           CO 2
           GrandSouth
12/11/2009 Bancorporation,                          Preferred Stock     $6,319,000
           Greenville, SC 2, 10a, c
                                                                                                                                                                                                                                                                                      $595,719
           GrandSouth
                                                 Preferred Stock w/
01/09/2009 Bancorporation,                                              $9,000,000
                                                 Exercised Warrants
           Greenville, SC 2, c
               Great River Holding          Subordinated Debentures
07/17/2009                                                              $8,400,000                                                                                                                                                                                                    $407,195
               Company, Baxter, MN 8          w/ Exercised Warrants
           Great Southern Bancorp,               Preferred Stock w/
12/05/2008                                                             $58,000,000                                                                                                  $22.44                  $301.3      $9.57        909,091              $12.87            IN      $3,463,889
           Springfield, MO                                 Warrants
                                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I april 20, 2010




           Green Bankshares, Inc.,               Preferred Stock w/
12/23/2008                                                             $72,278,000                                                                                                   $8.16                  $107.5     $17.06        635,504               ($8.90)        OUT       $4,135,908
           Greeneville, TN                                 Warrants
               Green Circle Investments,         Preferred Stock w/
02/27/2009                                                              $2,400,000                                                                                                                                                                                                    $126,440
               Inc., Clive, IA 2                 Exercised Warrants

               Green City Bancshares,            Preferred Stock w/
02/27/2009                                                               $651,000                                                                                                                                                                                                      $34,336
               Inc., Green City, MO 2            Exercised Warrants
                                                                                                                                                                                                                                                                                                    185




                                                                                                                                                                                                                                                                         Continued on next page
 CPP Transaction Detail, as of 3/31/2010                                             (CONTINUED)


                                                                                                                                                                                                                                                                                                    186
                                                                                            Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                        Capital           Capital       Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                              Investment        Investment   Repayment         Repayment          Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date          Institution                             Description          Amount         Date            Amount          Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury

              Greer Bancshares                 Preferred Stock w/
01/30/2009                                                             $9,993,000                                                                                                                                                                                                     $567,344
              Incorporated, Greer, SC 2        Exercised Warrants

              Gregg Bancshares, Inc.,          Preferred Stock w/
02/13/2009                                                               $825,000                                                                                                                                                                                                      $45,190
              Ozark, MO 2                      Exercised Warrants

           Guaranty Bancorp, Inc.,             Preferred Stock w/
02/20/2009                                                             $6,920,000                                                                                                                                                                                                     $371,902
           Woodsville, NH 2                    Exercised Warrants
           Guaranty Capital
09/25/2009 Corporation, Belzoni,          Subordinated Debentures     $14,000,000                                                                                                                                                                                                     $419,216
           MS 3, 8
           Guaranty Federal
                                               Preferred Stock w/
01/30/2009 Bancshares, Inc.,                                          $17,000,000                                                                                                    $5.30                   $14.0      $5.55        459,459               ($0.25)        OUT         $885,417
                                                         Warrants
           Springfield, MO
              GulfSouth Private Bank,          Preferred Stock w/
09/25/2009                                                             $7,500,000                                                                                                                                                                                                     $312,724
              Destin, FL 10, 21                Exercised Warrants

              Gulfstream Bancshares,           Preferred Stock w/
06/26/2009                                                             $7,500,000                                                                                                                                                                                                     $260,010
              Inc., Stuart, FL 2               Exercised Warrants
           Hamilton State
                                               Preferred Stock w/
02/20/2009 Bancshares, Hoschton,                                       $7,000,000                                                                                                                                                                                                     $376,202
                                               Exercised Warrants
           GA 2
           Hampton Roads
                                               Preferred Stock w/
12/31/2008 Bankshares, Inc.,                                          $80,347,000                                                                                                    $1.56                   $34.1      $9.09      1,325,858               ($7.53)        OUT       $2,510,844
                                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I april 20, 2010




                                                         Warrants
           Norfolk, VA
           Harbor Bankshares
07/17/2009 Corporation, Baltimore,                Preferred Stock      $6,800,000                                                                                                                                                                                                     $111,444
           MD 2,3
           Hartford Financial
                                               Preferred Stock w/
06/26/2009 Services Group, Inc.,                                    $3,400,000,000   03/31/2010    $3,400,000,000             $0                                                    $28.42               $12,401.9      $9.79     52,093,973              $18.63            IN   $129,861,111
                                                         Warrants
           Hartford, CT 4
           Haviland Bancshares, Inc.,          Preferred Stock w/
03/13/2009                                                               $425,000                                                                                                                                                                                                      $21,341
           Haviland, KS 2                      Exercised Warrants
           Hawthorn Bancshares,                Preferred Stock w/
12/19/2008                                                            $30,255,000                                                                                                   $11.69                   $50.3     $17.78        255,261               ($6.09)        OUT       $1,748,067
           Inc., Lee’s Summit, MO                        Warrants
           HCSB Financial                      Preferred Stock w/
03/06/2009                                                            $12,895,000                                                                                                    $5.25                   $19.9     $21.09         91,714             ($15.84)         OUT         $607,140
           Corporation, Loris, SC                        Warrants
           Heartland Bancshares,               Preferred Stock w/
09/11/2009                                                             $7,000,000                                                                                                                                                                                                      $66,190
           Inc., Franklin, IN 2, 10            Exercised Warrants
           Heartland Financial USA,            Preferred Stock w/
12/19/2008                                                            $81,698,000                                                                                                   $15.97                  $261.1     $20.10        609,687               ($4.13)        OUT       $4,720,329
           Inc., Dubuque, IA                             Warrants
           Heritage Bankshares, Inc.,          Preferred Stock w/
09/25/2009                                                            $10,103,000                                                                                                                                                                                                     $207,052
           Norfolk, VA 2, 10                   Exercised Warrants
              Heritage Commerce                Preferred Stock w/
11/21/2008                                                            $40,000,000                                                                                                    $4.18                   $49.4     $12.96        462,963               ($8.78)        OUT       $1,466,667
              Corp., San Jose, CA                        Warrants
           Heritage Financial
                                               Preferred Stock w/
11/21/2008 Corporation, Olympia,                                      $24,000,000                                                                                                   $15.09                  $167.6     $13.04        138,037                $2.05           IN      $1,480,000
                                                         Warrants
           WA b
           Heritage Oaks Bancorp,              Preferred Stock w/
03/20/2009                                                            $21,000,000                                                                                                    $3.94                   $30.6      $5.15        611,650               ($1.21)        OUT         $947,916
           Paso Robles, CA                               Warrants
           HF Financial Corp., Sioux           Preferred Stock w/
11/21/2008                                                            $25,000,000    06/03/2009       $25,000,000             $0    06/30/2009     R              $650,000          $10.10                   $70.1                                                                    $666,667
           Falls, SD 4                                   Warrants
           Highlands Independent
                                               Preferred Stock w/
03/06/2009 Bancshares, Inc., Sebring,                                  $6,700,000                                                                                                                                                                                                     $343,850
                                               Exercised Warrants
           FL 2
              Highlands State Bank,
12/22/2009                                        Preferred Stock      $2,359,000
              Vernon, NJ 2, 10a, c
                                                                                                                                                                                                                                                                                      $147,016
              Highlands State Bank,            Preferred Stock w/
05/08/2009                                                             $3,091,000
              Vernon, NJ 2, c                  Exercised Warrants
           Hilltop Community
                                               Preferred Stock w/
01/30/2009 Bancorp, Inc., Summit,                                      $4,000,000                                                                                                                                                                                                     $227,083
                                               Exercised Warrants
           NJ 2
              HMN Financial, Inc.,             Preferred Stock w/
12/23/2008                                                            $26,000,000                                                                                                    $5.50                   $23.7      $4.68        833,333                $0.82           IN      $1,487,778
              Rochester, MN                              Warrants
              Home Bancshares, Inc.,           Preferred Stock w/
01/16/2009                                                            $50,000,000                                                                                                   $26.44                  $679.9     $26.03        144,065                $0.41           IN      $2,701,389
              Conway, AR b                               Warrants
                                                                                                                                                                                                                                                                         Continued on next page
 CPP Transaction Detail, as of 3/31/2010                                                 (CONTINUED)

                                                                                                Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                            Capital           Capital       Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                                  Investment        Investment   Repayment         Repayment          Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date          Institution                                 Description          Amount         Date            Amount          Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury
           Hometown Bancorp of
                                                   Preferred Stock w/
02/20/2009 Alabama, Inc., Oneonta,                                         $3,250,000                                                                                                                                                                                                     $174,710
                                                   Exercised Warrants
           AL 2
           Hometown Bancshares,                    Preferred Stock w/
02/13/2009                                                                 $1,900,000                                                                                                                                                                                                     $104,125
           Inc., Corbin, KY 2                      Exercised Warrants
           HomeTown Bankshares
                                                   Preferred Stock w/
09/18/2009 Corporation, Roanoke,                                          $10,000,000                                                                                                                                                                                                     $217,911
                                                   Exercised Warrants
           VA 2, 10
           HopFed Bancorp,                         Preferred Stock w/
12/12/2008                                                                $18,400,000                                                                                                   $12.01                   $43.2     $11.32        243,816                $0.69           IN      $1,081,000
           Hopkinsville, KY                                  Warrants
           Horizon Bancorp,                        Preferred Stock w/
12/19/2008                                                                $25,000,000                                                                                                   $19.30                   $63.5     $17.68        212,104                $1.62           IN      $1,444,444
           Michigan City, IN                                 Warrants
           Howard Bancorp, Inc.,                   Preferred Stock w/
02/27/2009                                                                 $5,983,000                                                                                                                                                                                                     $315,191
           Ellicott City, MD 2                     Exercised Warrants

           HPK Financial Corporation,              Preferred Stock w/
11/13/2009                                                                 $5,000,000
           Chicago, IL 2, 10a, c                   Exercised Warrants
                                                                                                                                                                                                                                                                                          $239,179
              HPK Financial Corporation,           Preferred Stock w/
05/01/2009                                                                 $4,000,000
              Chicago, IL 2, c                     Exercised Warrants
              Huntington Bancshares,               Preferred Stock w/
11/14/2008                                                              $1,398,071,000                                                                                                   $5.39                $3,862.8      $8.90     23,562,994               ($3.51)        OUT     $87,573,615
              Columbus, OH                                   Warrants
           Hyperion Bank,                          Preferred Stock w/
02/06/2009                                                                 $1,552,000                                                                                                                                                                                                      $86,736
           Philadelphia, PA 2                      Exercised Warrants

              IA Bancorp, Inc., Iselin,            Preferred Stock w/
09/18/2009                                                                 $5,976,000                                                                                                                                                                                                     $128,588
              NJ 2, 10                             Exercised Warrants

           IBC Bancorp, Inc.,
05/15/2009                                    Subordinated Debentures      $4,205,000                                                                                                                                                                                                     $242,839
           Chicago, IL 3, 8

           Iberiabank Corporation,                 Preferred Stock w/
12/05/2008                                                                $90,000,000    03/31/2009       $90,000,000             $0    05/20/2009     R            $1,200,000          $60.01                $1,604.7                                                                  $1,450,000
           Lafayette, LA 5, 9                                Warrants

              IBT Bancorp, Inc., Irving,           Preferred Stock w/
03/27/2009                                                                 $2,295,000                                                                                                                                                                                                     $110,505
              TX 2                                 Exercised Warrants
           IBW Financial Corporation,
03/13/2009 Washington, DC 2, 3a -                     Preferred Stock      $6,000,000                                                                                                                                                                                                     $288,067
              11/13/2009


                                                   Preferred Stock w/
03/06/2009 ICB Financial, Ontario, CA 2                                    $6,000,000                                                                                                                                                                                                     $307,925
                                                   Exercised Warrants

                                                   Preferred Stock w/
01/16/2009 Idaho Bancorp, Boise, ID 2                                      $6,900,000                                                                                                                                                                                                     $124,306
                                                   Exercised Warrants

              Illinois State Bancorp, Inc.,        Preferred Stock w/
12/29/2009                                                                 $4,000,000
              Chicago, IL 2, 10a, c                Exercised Warrants
                                                                                                                                                                                                                                                                                          $276,361
              Illinois State Bancorp, Inc.,        Preferred Stock w/
05/22/2009                                                                 $6,272,000
              Chicago, IL 2, c                     Exercised Warrants

              Independence Bank, East              Preferred Stock w/
01/09/2009                                                                 $1,065,000                                                                                                                                                                                                      $63,822
              Greenwich, RI 2                      Exercised Warrants

              Independent Bank Corp.,              Preferred Stock w/
01/09/2009                                                                $78,158,000    04/22/2009       $78,158,000             $0    05/27/2009     R            $2,200,000          $24.66                  $516.3                                                                  $1,118,094
              Rockland, MA 4                                 Warrants
              Independent Bank                     Preferred Stock w/
12/12/2008                                                                $72,000,000                                                                                                    $0.70                   $16.8      $3.12      3,461,538               ($2.42)        OUT       $2,430,000
              Corporation, Ionia, MI                         Warrants
           Indiana Bank Corp.,                     Preferred Stock w/
04/24/2009                                                                 $1,312,000                                                                                                                                                                                                      $57,829
           Dana, IN 2                              Exercised Warrants
           Indiana Community                       Preferred Stock w/
12/12/2008                                                                $21,500,000                                                                                                    $9.15                   $30.7     $17.09        188,707               ($7.94)        OUT       $1,263,125
           Bancorp, Columbus, IN                             Warrants
           Integra Bank Corporation,               Preferred Stock w/
02/27/2009                                                                $83,586,000                                                                                                    $0.62                   $13.0      $1.69      7,418,876               ($1.07)        OUT       $1,950,340
           Evansville, IN                                    Warrants
              Intermountain Community              Preferred Stock w/
12/19/2008                                                                $27,000,000                                                                                                    $2.02                   $17.0      $6.20        653,226               ($4.18)        OUT       $1,222,500
              Bancorp, Sandpoint, ID                         Warrants
              International Bancshares             Preferred Stock w/
12/23/2008                                                               $216,000,000                                                                                                   $23.01                $1,567.1     $24.43      1,326,238               ($1.42)        OUT     $12,360,000
              Corporation, Laredo, TX                        Warrants
                                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I april 20, 2010




           Intervest Bancshares
                                                   Preferred Stock w/
12/23/2008 Corporation, New                                               $25,000,000                                                                                                    $3.90                   $32.3      $5.42        691,882               ($1.52)        OUT       $1,118,056
                                                             Warrants
           York, NY
           Investors Financial
                                       Subordinated Debentures
05/08/2009 Corporation of Pettis                                           $4,000,000                                                                                                                                                                                                     $174,325
                                         w/ Exercised Warrants
           County, Inc., Sedalia, MO 8
                                                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                                                        187
 CPP Transaction Detail, as of 3/31/2010                                           (CONTINUED)

                                                                                          Capital Repayment Details                                         Final Disposition                                            Warrant and Market Data for Publicly Traded Companies                      188
                                                                                      Capital           Capital         Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                          Investment          Investment   Repayment         Repayment            Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date          Institution                         Description            Amount         Date            Amount            Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury

              JPMorgan Chase & Co.,         Preferred Stock w/
10/28/2008                                                       $25,000,000,000   06/17/2009   $25,000,000,000               $0    12/10/2009     A          $950,318,243          $44.75             $177,792.2                                                                $795,138,889
              New York, NY 4                          Warrants

              Katahdin Bankshares           Preferred Stock w/
01/30/2009                                                          $10,449,000                                                                                                                                                                                                       $593,156
              Corp., Houlton, ME 2          Exercised Warrants
                                            Preferred Stock w/
11/14/2008 KeyCorp, Cleveland, OH                                 $2,500,000,000                                                                                                     $7.75                $6,850.6     $10.64     35,244,361               ($2.89)        OUT    $156,597,222
                                                      Warrants
           Kirksville Bancorp, Inc.,        Preferred Stock w/
03/20/2009                                                             $470,000                                                                                                                                                                                                        $23,165
           Kirksville, MO 2                 Exercised Warrants

           KS Bancorp, Inc.,                Preferred Stock w/
08/21/2009                                                           $4,000,000                                                                                                                                                                                                       $105,367
           Smithfield, NC 2                 Exercised Warrants

           Lafayette Bancorp, Inc.,
12/29/2009                                     Preferred Stock       $2,453,000
           Oxford, MS 2, 10a, c
                                                                                                                                                                                                                                                                                      $123,059
              Lafayette Bancorp, Inc.,      Preferred Stock w/
02/20/2009                                                           $1,998,000
              Oxford, MS 2, c               Exercised Warrants
              Lakeland Bancorp, Inc.,       Preferred Stock w/
02/06/2009                                                          $59,000,000                                                                                                      $8.85                  $211.6      $9.32        949,571               ($0.47)        OUT       $3,023,750
              Oak Ridge, NJ                           Warrants
           Lakeland Financial               Preferred Stock w/
02/27/2009                                                          $56,044,000                                                                                                     $19.05                  $306.6     $21.20        198,269               ($2.15)        OUT       $2,708,793
           Corporation, Warsaw, IN b                  Warrants
                                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I april 20, 2010




              Layton Park Financial         Preferred Stock w/
12/18/2009                                                           $3,000,000                                                                                                                                                                                                        $25,888
              Group, Milwaukee, WI 2        Exercised Warrants

              LCNB Corp., Lebanon,          Preferred Stock w/
01/09/2009                                                          $13,400,000    10/21/2009       $13,400,000               $0                                                    $12.00                   $80.2      $9.26        217,063                $2.74           IN        $524,833
              OH 4                                    Warrants

           Leader Bancorp, Inc.,            Preferred Stock w/
12/23/2008                                                           $5,830,000                                                                                                                                                                                                       $363,682
           Arlington, MA 2                  Exercised Warrants

           Legacy Bancorp, Inc.,
01/30/2009                                     Preferred Stock       $5,498,000                                                                                                                                                                                                       $286,354
           Milwaukee, WI 3

              Liberty Bancshares, Inc.,     Preferred Stock w/
12/04/2009                                                           $6,500,000                                                                                                                                                                                                        $67,576
              Fort Worth, TX 2, 10          Exercised Warrants

           Liberty Bancshares, Inc.,        Preferred Stock w/
01/23/2009                                                          $57,500,000                                                                                                                                                                                                     $3,325,257
           Jonesboro, AR 2                  Exercised Warrants

           Liberty Bancshares, Inc.,        Preferred Stock w/
02/13/2009                                                          $21,900,000                                                                                                                                                                                                     $1,200,181
           Springfield, MO 2                Exercised Warrants

              Liberty Financial Services,
02/06/2009                                     Preferred Stock       $5,645,000                                                                                                                                                                                                       $289,306
              Inc., New Orleans, LA 3

              Liberty Shares, Inc.,         Preferred Stock w/
02/20/2009                                                          $17,280,000                                                                                                                                                                                                       $928,680
              Hinesville, GA 2              Exercised Warrants
           Lincoln National                 Preferred Stock w/
07/10/2009                                                         $950,000,000                                                                                                     $30.70                $9,279.4     $10.92     13,049,451              $19.78            IN    $28,368,054
           Corporation, Radnor, PA                    Warrants
              LNB Bancorp Inc.,             Preferred Stock w/
12/12/2008                                                          $25,223,000                                                                                                      $4.45                   $32.8      $6.74        561,343               ($2.29)        OUT       $1,481,852
              Lorain, OH                              Warrants
           Lone Star Bank, Houston,         Preferred Stock w/
02/06/2009                                                           $3,072,000                                                                                                                                                                                                               $0
           TX 2                             Exercised Warrants

              LSB Corporation, North        Preferred Stock w/
12/12/2008                                                          $15,000,000    11/18/2009       $15,000,000               $0    12/16/2009     R              $560,000          $12.50                   $56.3                                                                    $700,000
              Andover, MA 4                           Warrants

              M&F Bancorp, Inc.,
06/26/2009                                     Preferred Stock      $11,735,000                                                                                                                                                                                                       $373,238
              Durham, NC 2, 3, 10
           M&T Bank Corporation
                                            Preferred Stock w/
11/14/2008 (Provident Bancshares                                   $151,500,000                                                                                                     $79.38                $9,423.2     $55.76        407,542              $23.62            IN      $9,489,792
                                                      Warrants
           Corp.), Baltimore, MD d
              M&T Bank Corporation,         Preferred Stock w/
12/23/2008                                                         $600,000,000                                                                                                     $79.38                $9,423.2     $73.86      1,218,522                $5.52           IN    $34,333,333
              Buffalo, NY                             Warrants
           Mackinac Financial
                                            Preferred Stock w/
04/24/2009 Corporation, Manistique,                                 $11,000,000                                                                                                      $4.72                   $16.1      $4.35        379,310                $0.37           IN        $444,583
                                                      Warrants
           MI
           Madison Financial
                                            Preferred Stock w/
03/13/2009 Corporation, Richmond,                                    $3,370,000                                                                                                                                                                                                       $169,422
                                            Exercised Warrants
           KY 2
              Magna Bank, Memphis,          Preferred Stock w/
12/23/2008                                                          $13,795,000    11/24/2009        $3,455,000       $10,340,000                                                                                                                                                     $821,582
              TN 2-4                        Exercised Warrants
                                                                                                                                                                                                                                                                         Continued on next page
 CPP Transaction Detail, as of 3/31/2010                                               (CONTINUED)

                                                                                              Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                          Capital           Capital       Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                                Investment        Investment   Repayment         Repayment          Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date          Institution                               Description          Amount         Date            Amount          Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury

              Mainline Bancorp, Inc.,            Preferred Stock w/
12/29/2009                                                               $4,500,000                                                                                                                                                                                                      $31,338
              Ebensburg, PA 2                    Exercised Warrants
           MainSource Financial
                                                 Preferred Stock w/
01/16/2009 Group, Inc., Greensburg,                                     $57,000,000                                                                                                    $6.73                  $135.5     $14.95        571,906               ($8.22)        OUT       $3,079,583
                                                           Warrants
           IN
              Manhattan Bancorp, El              Preferred Stock w/
12/05/2008                                                               $1,700,000    09/16/2009        $1,700,000             $0    10/14/2009     R                $63,364          $6.75                   $26.9                                                                     $66,347
              Segundo, CA 4                                Warrants

           Manhattan Bancshares,            Subordinated Debentures
06/19/2009                                                               $2,639,000                                                                                                                                                                                                     $145,153
           Inc., Manhattan, IL 8              w/ Exercised Warrants
           Marine Bank & Trust
                                                 Preferred Stock w/
03/06/2009 Company, Vero Beach,                                          $3,000,000                                                                                                                                                                                                     $153,963
                                                 Exercised Warrants
           FL 2
           Market Bancorporation,                Preferred Stock w/
02/20/2009                                                               $2,060,000                                                                                                                                                                                                     $110,710
           Inc., New Market, MN 2                Exercised Warrants

              Market Street Bancshares, Subordinated Debentures
05/15/2009                                                              $20,300,000                                                                                                                                                                                                   $1,277,378
              Inc., Mt. Vernon, IL 8      w/ Exercised Warrants

           Marquette National                    Preferred Stock w/
12/19/2008                                                              $35,500,000                                                                                                                                                                                                   $2,235,712
           Corporation, Chicago, IL 2            Exercised Warrants
           Marshall & Ilsley
                                                 Preferred Stock w/
11/14/2008 Corporation, Milwaukee,                                    $1,715,000,000                                                                                                   $8.05                $4,241.3     $18.62     13,815,789             ($10.57)         OUT    $107,425,694
                                                           Warrants
           WI
           Maryland Financial Bank,              Preferred Stock w/
03/27/2009                                                               $1,700,000                                                                                                                                                                                                      $35,516
           Towson, MD 2                          Exercised Warrants

              MB Financial Inc.,                 Preferred Stock w/
12/05/2008                                                             $196,000,000                                                                                                   $22.53                $1,164.0     $29.05        506,024               ($6.52)        OUT     $11,705,556
              Chicago, IL b                                Warrants

              McLeod Bancshares, Inc.,           Preferred Stock w/
11/20/2009                                                               $6,000,000                                                                                                                                                                                                      $77,208
              Shorewood, MN 2                    Exercised Warrants

              Medallion Bank, Salt Lake          Preferred Stock w/
12/22/2009                                                               $9,698,000
              City, UT 2, 10a, c                 Exercised Warrants
                                                                                                                                                                                                                                                                                        $693,780
           Medallion Bank, Salt Lake             Preferred Stock w/
02/27/2009                                                              $11,800,000
           City, UT 2, c                         Exercised Warrants
           Mercantile Bank
                                                 Preferred Stock w/
05/15/2009 Corporation, Grand                                           $21,000,000                                                                                                    $3.97                   $34.1      $5.11        616,438               ($1.14)        OUT         $787,500
                                                           Warrants
           Rapids, MI
              Mercantile Capital Corp.,          Preferred Stock w/
02/06/2009                                                               $3,500,000                                                                                                                                                                                                     $195,518
              Boston, MA 2                       Exercised Warrants
           Merchants and
                                                 Preferred Stock w/
06/19/2009 Manufacturers Bank                                            $3,510,000                                                                                                                                                                                                     $125,434
                                                 Exercised Warrants
           Corporation, Joliet, IL 2
           Merchants and Planters
                                                 Preferred Stock w/
03/06/2009 Bancshares, Inc., Toone,                                      $1,881,000                                                                                                                                                                                                      $96,530
                                                 Exercised Warrants
           TN 2
              Meridian Bank, Devon,
12/11/2009                                          Preferred Stock      $6,335,000
              PA 2, 10a, c
                                                                                                                                                                                                                                                                                        $396,088
           Meridian Bank, Devon,                 Preferred Stock w/
02/13/2009                                                               $6,200,000
           PA 2, c                               Exercised Warrants

              Metro City Bank, Doraville,        Preferred Stock w/
01/30/2009                                                               $7,700,000                                                                                                                                                                                                     $437,136
              GA 2                               Exercised Warrants
              MetroCorp Bancshares,              Preferred Stock w/
01/16/2009                                                              $45,000,000                                                                                                    $2.83                   $31.2      $8.75        771,429               ($5.92)        OUT       $2,431,250
              Inc., Houston, TX                            Warrants
              Metropolitan Bank Group,           Preferred Stock w/
06/26/2009                                                              $71,526,000                                                                                                                                                                                                   $2,479,650
              Inc., Chicago, IL 2                Exercised Warrants
           Metropolitan Capital
11/20/2009 Bancorp, Inc., Chicago,                  Preferred Stock      $2,348,000
           IL 2, 10a, c
                                                                                                                                                                                                                                                                                        $121,914
           Metropolitan Capital
                                                 Preferred Stock w/
04/10/2009 Bancorp, Inc., Chicago,                                       $2,040,000
                                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I april 20, 2010




                                                 Exercised Warrants
           IL 2, c
              Mid Penn Bancorp, Inc.,            Preferred Stock w/
12/19/2008                                                              $10,000,000                                                                                                   $10.00                   $34.8     $20.52         73,099             ($10.52)         OUT         $577,778
              Millersburg, PA                              Warrants
           Middleburg Financial
                                                 Preferred Stock w/
01/30/2009 Corporation, Middleburg,                                     $22,000,000    12/23/2009       $22,000,000             $0                                                    $15.06                  $104.2     $15.85        104,101               ($0.79)        OUT         $986,944
                                                           Warrants
           VA 5, b
                                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                                      189
 CPP Transaction Detail, as of 3/31/2010                                                (CONTINUED)

                                                                                                                                                                                                                                                                                                       190
                                                                                               Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                           Capital           Capital       Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                                Investment         Investment   Repayment         Repayment          Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date          Institution                               Description           Amount         Date            Amount          Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury

              Midland States Bancorp,            Preferred Stock w/
01/23/2009                                                               $10,189,000    12/23/2009       $10,189,000             $0    12/23/2009     R              $509,000                                                                                                            $508,989
              Inc., Effingham, IL 2, 4, 7        Exercised Warrants

           MidSouth Bancorp, Inc.,               Preferred Stock w/
01/09/2009                                                               $20,000,000                                                                                                   $16.50                  $160.4     $14.37        104,384                $2.13           IN      $1,100,000
           Lafayette, LA b                                 Warrants

           Midtown Bank & Trust                  Preferred Stock w/
02/27/2009                                                                 $5,222,000                                                                                                                                                                                                    $275,104
           Company, Atlanta, GA 2                Exercised Warrants
                                              Mandatory Convertible
              Midwest Banc Holdings,
12/05/2008                                      Preferred Stock w/       $89,388,000                                                                                                                              $9.0     $2.97      4,282,020                                          $824,289
              Inc., Melrose Park, IL 20
                                                          Warrants
           Midwest Regional
                                                 Preferred Stock w/
02/13/2009 Bancorp, Inc., Festus,                                           $700,000    11/10/2009          $700,000             $0    11/10/2009     R                $35,000                                                                                                            $28,294
                                                 Exercised Warrants
           MO 2, 4, 7
           MidWestOne Financial                  Preferred Stock w/
02/06/2009                                                               $16,000,000                                                                                                   $11.79                  $101.5     $12.08        198,675               ($0.29)        OUT         $820,000
           Group, Inc., Iowa City, IA                      Warrants
           Mid-Wisconsin Financial
                                                 Preferred Stock w/
02/20/2009 Services, Inc., Medford,                                      $10,000,000                                                                                                                                                                                                     $537,431
                                                 Exercised Warrants
           WI 2
              Millennium Bancorp, Inc.,          Preferred Stock w/
04/03/2009                                                                 $7,260,000                                                                                                                                                                                                    $342,914
              Edwards, CO 2                      Exercised Warrants
           Mission Community
01/09/2009 Bancorp, San Luis Obispo,                Preferred Stock        $5,116,000                                                                                                                                                                                                    $281,380
                                                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I april 20, 2010




           CA 3
           Mission Valley Bancorp,
12/23/2008                                          Preferred Stock        $5,500,000                                                                                                                                                                                                    $314,722
           Sun Valley, CA 3

              Monadnock Bancorp, Inc.,           Preferred Stock w/
12/19/2008                                                                 $1,834,000                                                                                                                                                                                                    $115,532
              Peterborough, NH 2                 Exercised Warrants
           Monarch Community
                                                 Preferred Stock w/
02/06/2009 Bancorp, Inc., Coldwater,                                      $6,785,000                                                                                                    $2.16                     $4.4     $3.90        260,962               ($1.74)        OUT         $262,919
                                                           Warrants
           MI
           Monarch Financial
                                                 Preferred Stock w/
12/19/2008 Holdings, Inc.,                                               $14,700,000    12/23/2009       $14,700,000             $0    02/10/2010     R              $260,000           $7.79                   $44.4                                                                    $743,167
                                                           Warrants
           Chesapeake, VA 5, 9
              Moneytree Corporation,             Preferred Stock w/
03/13/2009                                                                 $9,516,000                                                                                                                                                                                                    $478,301
              Lenoir City, TN 2                  Exercised Warrants

              Monument Bank,                     Preferred Stock w/
01/30/2009                                                                 $4,734,000                                                                                                                                                                                                    $268,780
              Bethesda, MD 2                     Exercised Warrants

              Morgan Stanley, New                Preferred Stock w/
10/28/2008                                                            $10,000,000,000   06/17/2009   $10,000,000,000             $0    08/12/2009     R          $950,000,000          $29.29               $40,950.0                                                               $318,055,555
              York, NY 4                                   Warrants

           Morrill Bancshares, Inc.,             Preferred Stock w/
01/16/2009                                                               $13,000,000                                                                                                                                                                                                     $765,574
           Merriam, KS 2                         Exercised Warrants

           Moscow Bancshares, Inc.,              Preferred Stock w/
01/23/2009                                                                 $6,216,000                                                                                                                                                                                                    $359,494
           Moscow, TN 2                          Exercised Warrants
           Mountain Valley
                                                 Preferred Stock w/
09/25/2009 Bancshares, Inc.,                                               $3,300,000                                                                                                                                                                                                     $69,942
                                                 Exercised Warrants
           Cleveland, GA 2
              MS Financial, Inc.,                Preferred Stock w/
03/27/2009                                                                 $7,723,000                                                                                                                                                                                                    $371,786
              Kingwood, TX 2                     Exercised Warrants
           MutualFirst Financial, Inc.,          Preferred Stock w/
12/23/2008                                                               $32,382,000                                                                                                    $6.65                   $46.5      $7.77        625,135               ($1.12)        OUT       $1,852,970
           Muncie, IN                                      Warrants
              Naples Bancorp, Inc.,              Preferred Stock w/
03/27/2009                                                                 $4,000,000                                                                                                                                                                                                    $192,567
              Naples, FL 2                       Exercised Warrants

              Nara Bancorp, Inc., Los            Preferred Stock w/
11/21/2008                                                               $67,000,000                                                                                                    $8.76                  $331.3      $9.64        521,266               ($0.88)        OUT       $4,131,667
              Angeles, CA b                                Warrants

           National Bancshares, Inc.,            Preferred Stock w/
02/27/2009                                                               $24,664,000                                                                                                                                                                                                   $1,299,364
           Bettendorf, IA 2                      Exercised Warrants

           National Penn Bancshares,             Preferred Stock w/
12/12/2008                                                              $150,000,000                                                                                                    $6.90                  $868.9     $15.30        735,294               ($8.40)        OUT       $8,812,500
           Inc., Boyertown, PA b                           Warrants

           Nationwide Bankshares,           Subordinated Debentures
12/11/2009                                                                 $2,000,000                                                                                                                                                                                                     $29,831
           Inc., West Point, NE 8             w/ Exercised Warrants

              NC Bancorp, Inc.,                  Preferred Stock w/
06/26/2009                                                                 $6,880,000                                                                                                                                                                                                    $238,516
              Chicago, IL 2                      Exercised Warrants

              NCAL Bancorp, Los                  Preferred Stock w/
12/19/2008                                                               $10,000,000                                                                                                                                                                                                     $629,778
              Angeles, CA 2                      Exercised Warrants
                                                                                                                                                                                                                                                                            Continued on next page
 CPP Transaction Detail, as of 3/31/2010                                             (CONTINUED)

                                                                                            Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                        Capital           Capital       Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                              Investment        Investment   Repayment         Repayment          Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date          Institution                             Description          Amount         Date            Amount          Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury

              NEMO Bancshares Inc.,       Subordinated Debentures
06/19/2009                                                             $2,330,000                                                                                                                                                                                                     $128,198
              Madison, MO 8                 w/ Exercised Warrants
           New Hampshire Thrift
                                               Preferred Stock w/
01/16/2009 Bancshares, Inc.,                                          $10,000,000                                                                                                   $10.49                   $62.6      $8.14        184,275                $2.35           IN        $540,278
                                                         Warrants
           Newport, NH
           New York Private Bank &
                                               Preferred Stock w/
01/09/2009 Trust Corporation, New                                    $267,274,000                                                                                                                                                                                                 $16,023,106
                                               Exercised Warrants
           York, NY 2
              NewBridge Bancorp,               Preferred Stock w/
12/12/2008                                                            $52,372,000                                                                                                    $3.56                   $55.7      $3.06      2,567,255                $0.50           IN      $3,076,855
              Greensboro, NC                             Warrants
              Nicolet Bankshares, Inc.,        Preferred Stock w/
12/23/2008                                                            $14,964,000                                                                                                                                                                                                     $933,317
              Green Bay, WI 2                  Exercised Warrants
              North Central Bancshares,        Preferred Stock w/
01/09/2009                                                            $10,200,000                                                                                                   $14.30                   $19.3     $15.43         99,157               ($1.13)        OUT         $561,000
              Inc., Fort Dodge, IA                       Warrants
           Northeast Bancorp,                  Preferred Stock w/
12/12/2008                                                             $4,227,000                                                                                                   $14.00                   $32.5      $9.33         67,958                $4.67           IN        $248,337
           Lewiston, ME                                  Warrants
           Northern State Bank,
12/18/2009                                        Preferred Stock      $1,230,000
           Closter, NJ 2, 10a, c
                                                                                                                                                                                                                                                                                       $64,548
           Northern State Bank,                Preferred Stock w/
05/15/2009                                                             $1,341,000
           Closter, NJ 2, c                    Exercised Warrants
              Northern States Financial        Preferred Stock w/
02/20/2009                                                            $17,211,000                                                                                                    $3.30                   $13.4      $4.42        584,084               ($1.12)        OUT         $418,322
              Corporation, Waukegan, IL                  Warrants
           Northern Trust                      Preferred Stock w/
11/14/2008                                                          $1,576,000,000   06/17/2009    $1,576,000,000             $0    08/26/2009     R           $87,000,000          $55.26               $13,362.3                                                                $46,623,333
           Corporation, Chicago, IL 4                    Warrants

              Northway Financial, Inc.,        Preferred Stock w/
01/30/2009                                                            $10,000,000                                                                                                                                                                                                     $567,708
              Berlin, NH 2                     Exercised Warrants
           Northwest
                                               Preferred Stock w/
02/13/2009 Bancorporation, Inc.,                                      $10,500,000                                                                                                                                                                                                     $575,430
                                               Exercised Warrants
           Spokane, WA 2
              Northwest Commercial             Preferred Stock w/
02/13/2009                                                             $1,992,000                                                                                                                                                                                                     $109,203
              Bank, Lakewood, WA 2             Exercised Warrants
           Oak Ridge Financial
                                               Preferred Stock w/
01/30/2009 Services, Inc., Oak                                         $7,700,000                                                                                                    $4.73                     $8.5     $7.05        163,830               ($2.32)        OUT         $401,042
                                                         Warrants
           Ridge, NC
              Oak Valley Bancorp,              Preferred Stock w/
12/05/2008                                                            $13,500,000                                                                                                    $4.10                   $31.5      $5.78        350,346               ($1.68)        OUT         $806,250
              Oakdale, CA                                Warrants
           OceanFirst Financial                Preferred Stock w/
01/16/2009                                                            $38,263,000    12/30/2009       $38,263,000             $0    02/03/2010     R              $430,797          $11.36                  $213.8                                                                  $1,828,122
           Corp., Toms River, NJ 5, 9                    Warrants

           Ojai Community Bank,                Preferred Stock w/
01/30/2009                                                             $2,080,000                                                                                                                                                                                                     $118,083
           Ojai, CA 2                          Exercised Warrants

           Old Line Bancshares, Inc.,          Preferred Stock w/
12/05/2008                                                             $7,000,000    07/15/2009        $7,000,000             $0    09/02/2009     R              $225,000           $7.42                   $28.7                                                                    $213,889
           Bowie, MD 4                                   Warrants

              Old National Bancorp,            Preferred Stock w/
12/12/2008                                                           $100,000,000    03/31/2009     $100,000,000              $0    05/08/2009     R            $1,200,000          $11.95                $1,041.6                                                                  $1,513,889
              Evansville, IN 4                           Warrants
              Old Second Bancorp, Inc.,        Preferred Stock w/
01/16/2009                                                            $73,000,000                                                                                                    $6.59                   $91.9     $13.43        815,339               ($6.84)        OUT       $3,944,028
              Aurora, IL                                 Warrants
              Omega Capital Corp.,             Preferred Stock w/
04/17/2009                                                             $2,816,000                                                                                                                                                                                                      $50,310
              Lakewood, CO 2                   Exercised Warrants

              One Georgia Bank,                Preferred Stock w/
05/08/2009                                                             $5,500,000                                                                                                                                                                                                             $0
              Atlanta, GA 2                    Exercised Warrants

           OneFinancial Corporation, Subordinated Debentures
06/05/2009                                                            $17,300,000                                                                                                                                                                                                     $974,995
           Little Rock, AR 8, 10       w/ Exercised Warrants

              OneUnited Bank, Boston,
12/19/2008                                        Preferred Stock     $12,063,000                                                                                                                                                                                                      $93,823
              MA 3

              Oregon Bancorp, Inc.,            Preferred Stock w/
04/24/2009                                                             $3,216,000                                                                                                                                                                                                     $141,692
              Salem, OR 2                      Exercised Warrants
                                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I april 20, 2010




           OSB Financial Services,        Subordinated Debentures
05/01/2009                                                             $6,100,000                                                                                                                                                                                                     $147,848
           Inc., Orange, TX 8               w/ Exercised Warrants
           Pacific Capital Bancorp,            Preferred Stock w/
11/21/2008                                                           $180,634,000                                                                                                    $1.81                   $85.5     $17.92      1,512,003             ($16.11)         OUT       $2,107,397
           Santa Barbara, CA                             Warrants
                                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                                    191
  CPP Transaction Detail, as of 3/31/2010                                       (CONTINUED)


                                                                                                                                                                                                                                                                                                192
                                                                                       Capital Repayment Details                                        Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                   Capital           Capital         Remaining         Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                          Investment       Investment   Repayment         Repayment            Capital   Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date          Institution                         Description         Amount         Date            Amount            Amount          Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury
           Pacific City Financial
                                            Preferred Stock w/
12/19/2008 Corporation, Los Angeles,                              $16,200,000                                                                                                                                                                                                     $358,065
                                            Exercised Warrants
           CA 2
           Pacific Coast Bankers’
                                            Preferred Stock w/
12/23/2008 Bancshares, San                                        $11,600,000                                                                                                                                                                                                     $723,518
                                            Exercised Warrants
           Francisco, CA 2
           Pacific Coast National
                                            Preferred Stock w/
01/16/2009 Bancorp, San Clemente,                                  $4,120,000   02/11/2010       -$4,120,000               $0                                                                                                                                                      $18,088
                                            Exercised Warrants
           CA 2, 19
              Pacific Commerce Bank,        Preferred Stock w/
12/23/2008                                                         $4,060,000                                                                                                                                                                                                     $221,270
              Los Angeles, CA 2             Exercised Warrants
           Pacific International            Preferred Stock w/
12/12/2008                                                         $6,500,000                                                                                                    $4.00                     $8.0     $7.63        127,785               ($3.63)        OUT         $138,125
           Bancorp, Seattle, WA                       Warrants
           Park Bancorporation, Inc.,       Preferred Stock w/
03/06/2009                                                        $23,200,000                                                                                                                                                                                                   $1,190,643
           Madison, WI 2                    Exercised Warrants
           Park National Corporation,       Preferred Stock w/
12/23/2008                                                       $100,000,000                                                                                                   $62.31                  $927.4     $65.97        227,376               ($3.66)        OUT       $5,722,222
           Newark, OH                                 Warrants
           Parke Bancorp, Inc.,             Preferred Stock w/
01/30/2009                                                        $16,288,000                                                                                                    $9.12                   $36.8      $8.15        299,779                $0.97           IN        $848,333
           Sewell, NJ                                 Warrants
           Parkvale Financial
                                            Preferred Stock w/
12/23/2008 Corporation, Monroeville,                              $31,762,000                                                                                                    $7.46                   $41.1     $12.66        376,327               ($5.20)        OUT       $1,817,492
                                                      Warrants
           PA
                                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I april 20, 2010




           Pascack Bancorp, Inc.
           (Pascack Community               Preferred Stock w/
02/06/2009                                                         $3,756,000                                                                                                                                                                                                     $209,838
           Bank), Westwood, NJ 2,           Exercised Warrants
              13 - 2/10/2010


              Patapsco Bancorp, Inc.,       Preferred Stock w/
12/19/2008                                                         $6,000,000                                                                                                                                                                                                     $377,867
              Dundalk, MD 2                 Exercised Warrants
           Pathfinder Bancorp, Inc.,        Preferred Stock w/
09/11/2009                                                         $6,771,000                                                                                                    $7.85                   $19.5      $6.58        154,354                $1.27           IN        $144,824
           Oswego, NY                                 Warrants
           Pathway Bancorp, Cairo,          Preferred Stock w/
03/27/2009                                                         $3,727,000                                                                                                                                                                                                      $77,852
           NE 2                             Exercised Warrants

              Patriot Bancshares, Inc.,     Preferred Stock w/
12/19/2008                                                        $26,038,000                                                                                                                                                                                                   $1,639,826
              Houston, TX 2                 Exercised Warrants

              Patterson Bancshares,         Preferred Stock w/
04/17/2009                                                         $3,690,000                                                                                                                                                                                                      $15,645
              Inc, Patterson, LA 2          Exercised Warrants
           Peapack-Gladstone
                                            Preferred Stock w/
01/09/2009 Financial Corporation,                                 $28,685,000   01/06/2010        $7,172,000       $21,513,000                                                  $15.71                  $137.1     $28.63        150,296             ($12.92)         OUT       $1,538,827
                                                      Warrants
           Gladstone, NJ 4
              Peninsula Bank Holding        Preferred Stock w/
01/30/2009                                                         $6,000,000                                                                                                    $6.55                   $12.1     $11.02         81,670               ($4.47)        OUT                 $0
              Co., Palo Alto, CA                      Warrants
           Penn Liberty Financial           Preferred Stock w/
04/17/2009                                                         $9,960,000                                                                                                                                                                                                     $449,334
           Corp., Wayne, PA 2               Exercised Warrants
              Peoples Bancorp Inc.,         Preferred Stock w/
01/30/2009                                                        $39,000,000                                                                                                   $16.48                  $173.0     $18.66        313,505               ($2.18)        OUT       $2,031,250
              Marietta, OH                            Warrants
              Peoples Bancorp of North      Preferred Stock w/
12/23/2008                                                        $25,054,000                                                                                                    $5.95                   $33.0     $10.52        357,234               ($4.57)        OUT       $1,433,646
              Carolina, Inc., Newton, NC              Warrants
           Peoples Bancorp, Lynden,         Preferred Stock w/
02/13/2009                                                        $18,000,000                                                                                                                                                                                                     $986,450
           WA 2                             Exercised Warrants

              Peoples Bancorporation,       Preferred Stock w/
04/24/2009                                                        $12,660,000                                                                                                                                                                                                     $557,726
              Inc., Easley, SC 2            Exercised Warrants

              Peoples Bancshares of         Preferred Stock w/
03/20/2009                                                         $3,900,000                                                                                                                                                                                                     $191,885
              TN, Inc, Madisonville, TN 2   Exercised Warrants

           PeoplesSouth Bancshares,         Preferred Stock w/
03/06/2009                                                        $12,325,000                                                                                                                                                                                                     $632,508
           Inc., Colquitt, GA 2             Exercised Warrants

           PFSB Bancorporation,             Preferred Stock w/
09/11/2009                                                         $1,500,000                                                                                                                                                                                                      $34,817
           Inc., Pigeon Falls, WI 2, 10     Exercised Warrants

              PGB Holdings, Inc.,
02/06/2009                                     Preferred Stock     $3,000,000                                                                                                                                                                                                     $153,750
              Chicago, IL 3

           Pierce County Bancorp,           Preferred Stock w/
01/23/2009                                                         $6,800,000                                                                                                                                                                                                     $207,948
           Tacoma, WA 2                     Exercised Warrants
                                                                                                                                                                                                                                                                     Continued on next page
 CPP Transaction Detail, as of 3/31/2010                                                  (CONTINUED)

                                                                                                 Capital Repayment Details                                      Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                             Capital           Capital       Remaining         Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                                   Investment        Investment   Repayment         Repayment          Capital   Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date          Institution                                  Description          Amount         Date            Amount          Amount          Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury
           Pinnacle Bank Holding
                                                    Preferred Stock w/
03/06/2009 Company, Inc., Orange                                             $4,389,000                                                                                                                                                                                                   $225,209
                                                    Exercised Warrants
           City, FL 2
           Pinnacle Financial
                                                    Preferred Stock w/
12/12/2008 Partners, Inc., Nashville,                                       $95,000,000                                                                                                 $15.11                  $503.2     $26.64        267,455             ($11.53)         OUT       $5,581,250
                                                              Warrants
           TN b
              Plains Capital Corporation,           Preferred Stock w/
12/19/2008                                                                  $87,631,000                                                                                                                                                                                                 $5,518,853
              Dallas, TX 2                          Exercised Warrants

              Plato Holdings Inc., Saint      Subordinated Debentures
07/17/2009                                                                   $2,500,000                                                                                                                                                                                                   $119,754
              Paul, MN 8, 10                    w/ Exercised Warrants
           Plumas Bancorp,                          Preferred Stock w/
01/30/2009                                                                  $11,949,000                                                                                                  $2.74                   $13.1      $7.54        237,712               ($4.80)        OUT         $622,344
           Quincy, CA                                         Warrants
           Popular, Inc., San Juan,           Trust Preferred Securities
12/05/2008                                                                 $935,000,000                                                                                                  $2.91                $1,861.1      $6.70     20,932,836               ($3.79)        OUT     $42,984,028
           PR 12                                            w/ Warrants
           Porter Bancorp Inc.,                     Preferred Stock w/
11/21/2008                                                                  $35,000,000                                                                                                 $13.10                  $114.7     $16.68        314,820               ($3.58)        OUT       $2,158,333
           Louisville, KY                                     Warrants
           Prairie Star Bancshares,                 Preferred Stock w/
04/03/2009                                                                   $2,800,000                                                                                                                                                                                                   $132,253
           Inc., Olathe, KS 2                       Exercised Warrants

              Premier Bancorp, Inc.,
05/08/2009                                    Subordinated Debentures        $6,784,000                                                                                                                                                                                                   $401,933
              Wilmette, IL 3, 8
           Premier Bank Holding
                                                    Preferred Stock w/
03/20/2009 Company, Tallahassee,                                             $9,500,000                                                                                                                                                                                                   $467,412
                                                    Exercised Warrants
           FL 2
              Premier Financial Bancorp,            Preferred Stock w/
10/02/2009                                                                  $22,252,000                                                                                                  $8.62                   $68.4      $5.31        628,588                $3.31           IN        $411,044
              Inc., Huntington, WV                            Warrants
           Premier Financial Corp,            Subordinated Debentures
05/22/2009                                                                   $6,349,000                                                                                                                                                                                                   $389,108
           Dubuque, IA 8                        w/ Exercised Warrants

              Premier Service Bank,                 Preferred Stock w/
02/20/2009                                                                   $4,000,000                                                                                                                                                                                                           $0
              Riverside, CA 2                       Exercised Warrants
              PremierWest Bancorp,                  Preferred Stock w/
02/13/2009                                                                  $41,400,000                                                                                                  $0.45                   $11.1      $5.70      1,090,385               ($5.25)        OUT       $1,046,500
              Medford, OR                                     Warrants
              Presidio Bank, San                    Preferred Stock w/
11/20/2009                                                                  $10,800,000                                                                                                                                                                                                           $0
              Francisco, CA 2, 10                   Exercised Warrants
           Princeton National
                                                    Preferred Stock w/
01/23/2009 Bancorp, Inc., Princeton,                                        $25,083,000                                                                                                  $8.69                   $28.7     $24.27        155,025             ($15.58)         OUT       $1,330,792
                                                              Warrants
           IL
           Private Bancorporation,
12/29/2009 Inc., Minneapolis, MN                       Preferred Stock       $3,262,000
              2, 10a, b, c
                                                                                                                                                                                                                                                                                          $282,150
              Private Bancorporation,               Preferred Stock w/
02/27/2009                                                                   $4,960,000
              Inc., Minneapolis, MN 2, b, c         Exercised Warrants
              PrivateBancorp, Inc.,                 Preferred Stock w/
01/30/2009                                                                 $243,815,000                                                                                                 $13.70                  $977.3     $28.35        645,013             ($14.65)         OUT     $12,698,698
              Chicago, IL b                                   Warrants
           Providence Bank, Rocky                   Preferred Stock w/
10/02/2009                                                                   $4,000,000                                                                                                                                                                                                    $79,708
           Mount, NC 2, 10                          Exercised Warrants
           Provident Community
                                                    Preferred Stock w/
03/13/2009 Bancshares, Inc., Rock                                            $9,266,000                                                                                                  $2.50                     $4.5     $7.77        178,880               ($5.27)        OUT         $427,266
                                                              Warrants
           Hill, SC
              PSB Financial Corporation,            Preferred Stock w/
02/27/2009                                                                   $9,270,000                                                                                                                                                                                                   $488,418
              Many, LA 2                            Exercised Warrants

              Puget Sound Bank,                     Preferred Stock w/
01/16/2009                                                                   $4,500,000                                                                                                                                                                                                   $265,007
              Bellevue, WA 2                        Exercised Warrants
              Pulaski Financial Corp,               Preferred Stock w/
01/16/2009                                                                  $32,538,000                                                                                                  $6.70                   $70.7      $6.27        778,421                $0.43           IN      $1,757,956
              Creve Coeur, MO                                 Warrants
           QCR Holdings, Inc.,                      Preferred Stock w/
02/13/2009                                                                  $38,237,000                                                                                                  $8.90                   $40.8     $10.99        521,888               ($2.09)        OUT       $1,922,472
           Moline, IL                                         Warrants
           Randolph Bank & Trust                    Preferred Stock w/
10/30/2009                                                                   $6,229,000                                                                                                                                                                                                    $99,003
           Company, Asheboro, NC 2                  Exercised Warrants
                                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I april 20, 2010




           RCB Financial Corporation,               Preferred Stock w/
06/19/2009                                                                   $8,900,000                                                                                                                                                                                                   $307,534
           Rome, GA 2, 10                           Exercised Warrants

              Redwood Capital Bancorp,              Preferred Stock w/
01/16/2009                                                                   $3,800,000                                                                                                                                                                                                   $223,783
              Eureka, CA 2                          Exercised Warrants

              Redwood Financial Inc.,               Preferred Stock w/
01/09/2009                                                                   $2,995,000                                                                                                                                                                                                   $179,576
              Redwood Falls, MN 2                   Exercised Warrants
                                                                                                                                                                                                                                                                                                        193




                                                                                                                                                                                                                                                                             Continued on next page
                                                                                      (CONTINUED)

                                                                                                                                                                                                                                                                                                     194
 CPP Transaction Detail, as of 3/31/2010
                                                                                             Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                         Capital           Capital       Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                               Investment        Investment   Repayment         Repayment          Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date          Institution                              Description          Amount         Date            Amount          Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury

              Regent Bancorp, Inc.,             Preferred Stock w/
03/06/2009                                                              $9,982,000                                                                                                                                                                                                     $512,276
              Davie, FL 2                       Exercised Warrants

           Regent Capital                       Preferred Stock w/
02/27/2009                                                              $2,655,000                                                                                                                                                                                                     $139,896
           Corporation, Nowata, OK 2            Exercised Warrants

           Regents Bancshares, Inc.,            Preferred Stock w/
10/23/2009                                                             $12,700,000                                                                                                                                                                                                     $208,223
           Vancouver, WA 2, 10                  Exercised Warrants

              Regional Bankshares, Inc.,        Preferred Stock w/
02/13/2009                                                              $1,500,000                                                                                                                                                                                                      $82,204
              Hartsville, SC 2                  Exercised Warrants
           Regions Financial
                                                Preferred Stock w/
11/14/2008 Corporation, Birmingham,                                  $3,500,000,000                                                                                                   $7.85                $9,379.9     $10.88     48,253,677               ($3.03)        OUT    $219,236,111
                                                          Warrants
           AL
              Reliance Bancshares, Inc.,        Preferred Stock w/
02/13/2009                                                             $40,000,000                                                                                                                                                                                                   $2,192,111
              Frontenac, MO 2                   Exercised Warrants
           Ridgestone Financial
                                                Preferred Stock w/
02/27/2009 Services, Inc., Brookfield,                                 $10,900,000                                                                                                                                                                                                     $277,224
                                                Exercised Warrants
           WI 2
              Rising Sun Bancorp,               Preferred Stock w/
01/09/2009                                                              $5,983,000                                                                                                                                                                                                     $195,637
              Rising Sun, MD 2                  Exercised Warrants
           River Valley
                                           Subordinated Debentures
                                                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I april 20, 2010




06/12/2009 Bancorporation, Inc.,                                       $15,000,000                                                                                                                                                                                                     $849,488
                                             w/ Exercised Warrants
           Wausau, WI 8
              Riverside Bancshares,        Subordinated Debentures
05/15/2009                                                              $1,100,000                                                                                                                                                                                                      $69,218
              Inc., Little Rock, AR 8        w/ Exercised Warrants

           Rogers Bancshares, Inc.,             Preferred Stock w/
01/30/2009                                                             $25,000,000                                                                                                                                                                                                     $738,021
           Little Rock, AR 2                    Exercised Warrants
           Royal Bancshares of
                                                Preferred Stock w/
02/20/2009 Pennsylvania, Inc.,                                         $30,407,000                                                                                                    $2.47                   $51.9      $4.13      1,104,370               ($1.66)        OUT         $358,971
                                                          Warrants
           Narberth, PA
                                                Preferred Stock w/
01/16/2009 S&T Bancorp, Indiana, PA                                   $108,676,000                                                                                                   $20.90                  $580.1     $31.53        517,012             ($10.63)         OUT       $5,871,523
                                                          Warrants
           Saigon National Bank,                Preferred Stock w/
12/23/2008                                                              $1,549,000                                                                                                                                                                                                             $0
           Westminster, CA 2                    Exercised Warrants
           Salisbury Bancorp, Inc.,             Preferred Stock w/
03/13/2009                                                              $8,816,000                                                                                                   $24.80                   $41.8     $22.93         57,671                $1.87           IN        $406,516
           Lakeville, CT                                  Warrants
              Sandy Spring Bancorp,             Preferred Stock w/
12/05/2008                                                             $83,094,000                                                                                                   $15.00                  $346.6     $19.13        651,547               ($4.13)        OUT       $4,962,558
              Inc., Olney, MD                             Warrants
              Santa Clara Valley Bank,          Preferred Stock w/
02/13/2009                                                              $2,900,000                                                                                                                                                                                                     $158,928
              N.A., Santa Paula, CA 2           Exercised Warrants
           Santa Lucia Bancorp,                 Preferred Stock w/
12/19/2008                                                              $4,000,000                                                                                                    $7.50                   $15.0     $15.75         38,107               ($8.25)        OUT         $231,111
           Atascadero, CA                                 Warrants
           SBT Bancorp, Inc.,                   Preferred Stock w/
03/27/2009                                                              $4,000,000                                                                                                                                                                                                     $192,567
           Simsbury, CT 2                       Exercised Warrants
           SCBT Financial
                                                Preferred Stock w/
01/16/2009 Corporation, Columbia,                                      $64,779,000    05/20/2009       $64,779,000             $0    06/24/2009     R            $1,400,000          $37.04                  $472.1                                                                  $1,115,639
                                                          Warrants
           SC 4
           Seacoast Banking
                                                Preferred Stock w/
12/19/2008 Corporation of Florida,                                     $50,000,000                                                                                                    $1.69                   $99.5      $6.36        589,623               ($4.67)        OUT         $388,889
                                                          Warrants
           Stuart, FL b
              Seacoast Commerce                 Preferred Stock w/
12/23/2008                                                              $1,800,000                                                                                                                                                                                                     $112,270
              Bank, Chula Vista, CA 2           Exercised Warrants
           Security Bancshares
                                                Preferred Stock w/
02/13/2009 of Pulaski County, Inc.,                                     $2,152,000                                                                                                                                                                                                     $117,972
                                                Exercised Warrants
           Waynesville, MO 2
              Security Business                 Preferred Stock w/
01/09/2009                                                              $5,803,000                                                                                                                                                                                                     $347,876
              Bancorp, San Diego, CA 2          Exercised Warrants

           Security California                  Preferred Stock w/
01/09/2009                                                              $6,815,000                                                                                                                                                                                                     $408,585
           Bancorp, Riverside, CA 2             Exercised Warrants
           Security Capital
                                                Preferred Stock w/
06/26/2009 Corporation, Batesville,                                    $17,388,000                                                                                                                                                                                                     $582,919
                                                Exercised Warrants
           MS 2, 10
                                                                                                                                                                                                                                                                          Continued on next page
 CPP Transaction Detail, as of 3/31/2010                                            (CONTINUED)

                                                                                           Capital Repayment Details                                         Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                       Capital           Capital         Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                               Investment      Investment   Repayment         Repayment            Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date          Institution                              Description        Amount         Date            Amount            Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury
              Security Federal                  Preferred Stock w/
12/19/2008                                                            $18,000,000                                                                                                     $9.86                   $24.3     $19.57        137,966               ($9.71)        OUT       $1,040,000
              Corporation, Aiken, SC                      Warrants
           Security State
                                                Preferred Stock w/
02/20/2009 Bancshares, Inc.,                                          $12,500,000                                                                                                                                                                                                      $671,788
                                                Exercised Warrants
           Charleston, MO 2
           Security State Bank
                                           Subordinated Debentures
05/01/2009 Holding-Company,                                           $10,750,000                                                                                                                                                                                                      $486,075
                                             w/ Exercised Warrants
           Jamestown, ND 8
           Severn Bancorp, Inc.,                Preferred Stock w/
11/21/2008                                                            $23,393,000                                                                                                     $3.75                   $37.8      $6.30        556,976               ($2.55)        OUT       $1,442,569
           Annapolis, MD                                  Warrants
           Shore Bancshares, Inc.,              Preferred Stock w/
01/09/2009                                                            $25,000,000   04/15/2009       $25,000,000               $0                                                    $14.25                  $120.3     $21.68        172,970               ($7.43)        OUT         $333,333
           Easton, MD 4                                   Warrants

              Signature Bancshares,        Subordinated Debentures
06/26/2009                                                             $1,700,000                                                                                                                                                                                                       $90,729
              Inc., Dallas, TX 8             w/ Exercised Warrants

              Signature Bank, New               Preferred Stock w/
12/12/2008                                                           $120,000,000   03/31/2009     $120,000,000                $0    03/10/2010     A           $11,320,751          $37.05                $1,504.0                                                                  $1,816,667
              York, NY 4                                  Warrants

           Somerset Hills Bancorp,              Preferred Stock w/
01/16/2009                                                             $7,414,000   05/20/2009        $7,414,000               $0    06/24/2009     R              $275,000           $8.10                   $42.1                                                                    $127,686
           Bernardsville, NJ 4                            Warrants

              Sonoma Valley Bancorp,            Preferred Stock w/
02/20/2009                                                             $8,653,000                                                                                                                                                                                                      $347,164
              Sonoma, CA 2                      Exercised Warrants

              Sound Banking Company,            Preferred Stock w/
01/09/2009                                                             $3,070,000                                                                                                                                                                                                      $184,096
              Morehead City, NC 2               Exercised Warrants
           South Financial Group,               Preferred Stock w/
12/05/2008                                                           $347,000,000                                                                                                     $0.69                  $149.1      $5.15     10,106,796               ($4.46)        OUT     $16,386,111
           Inc., Greenville, SC                           Warrants
           SouthCrest Financial
                                                Preferred Stock w/
07/17/2009 Group, Inc., Fayetteville,                                 $12,900,000                                                                                                                                                                                                      $406,207
                                                Exercised Warrants
           GA 2
              Southern Bancorp, Inc.,
01/16/2009                                         Preferred Stock    $11,000,000                                                                                                                                                                                                      $594,306
              Arkadelphia, AR 3
           Southern Community
                                                Preferred Stock w/
12/05/2008 Financial Corp., Winston-                                  $42,750,000                                                                                                     $2.19                   $36.8      $3.95      1,623,418               ($1.76)        OUT       $2,553,125
                                                          Warrants
           Salem, NC
           Southern First
                                                Preferred Stock w/
02/27/2009 Bancshares, Inc.,                                          $17,299,000                                                                                                     $8.10                   $25.1      $7.85        330,554                $0.25           IN        $836,118
                                                          Warrants
           Greenville, SC
           Southern Heritage
                                                Preferred Stock w/
05/15/2009 Bancshares, Inc.,                                           $4,862,000                                                                                                                                                                                                      $198,728
                                                Exercised Warrants
           Cleveland, TN 2
              Southern Illinois Bancorp,        Preferred Stock w/
01/23/2009                                                             $5,000,000                                                                                                                                                                                                      $289,153
              Inc., Carmi, IL 2                 Exercised Warrants
           Southern Missouri
                                                Preferred Stock w/
12/05/2008 Bancorp, Inc., Poplar                                       $9,550,000                                                                                                    $14.20                   $29.6     $12.53        114,326                $1.67           IN        $570,347
                                                          Warrants
           Bluff, MO
              SouthFirst Bancshares,            Preferred Stock w/
06/12/2009                                                             $2,760,000                                                                                                                                                                                                      $101,534
              Inc., Sylacauga, AL 2             Exercised Warrants
              Southwest Bancorp, Inc.,          Preferred Stock w/
12/05/2008                                                            $70,000,000                                                                                                     $8.27                  $122.2     $14.92        703,753               ($6.65)        OUT       $4,180,556
              Stillwater, OK                              Warrants
              Sovereign Bancshares,             Preferred Stock w/
03/13/2009                                                            $18,215,000                                                                                                                                                                                                      $915,527
              Inc., Dallas, TX 2                Exercised Warrants

              Spirit BankCorp, Inc.,            Preferred Stock w/
03/27/2009                                                            $30,000,000                                                                                                                                                                                                    $1,444,250
              Bristow, OK 2                     Exercised Warrants

           St. Johns Bancshares,                Preferred Stock w/
03/13/2009                                                             $3,000,000                                                                                                                                                                                                      $150,783
           Inc., St. Louis, MO 2                Exercised Warrants

              Standard Bancshares,              Preferred Stock w/
04/24/2009                                                            $60,000,000                                                                                                                                                                                                    $2,643,250
              Inc., Hickory Hills, IL 2         Exercised Warrants
           State Bancorp, Inc.,                 Preferred Stock w/
12/05/2008                                                            $36,842,000                                                                                                     $7.87                  $129.8     $11.87        465,569               ($4.00)        OUT       $2,200,286
           Jericho, NY                                    Warrants
           State Bankshares, Inc.,              Preferred Stock w/
01/16/2009                                                            $50,000,000   08/12/2009       $12,500,000       $37,500,000                                                                                                                                                   $2,626,806
           Fargo, ND 2-4                        Exercised Warrants
                                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I april 20, 2010




              State Capital Corporation,        Preferred Stock w/
02/13/2009                                                            $15,000,000                                                                                                                                                                                                      $822,042
              Greenwood, MS 2                   Exercised Warrants
                                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                                     195
 CPP Transaction Detail, as of 3/31/2010                                                 (CONTINUED)

                                                                                                Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                            Capital           Capital       Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/   196
Purchase                                                Investment          Investment   Repayment         Repayment          Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date          Institution                               Description            Amount         Date            Amount          Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury

              State Street Corporation,          Preferred Stock w/
10/28/2008                                                              $2,000,000,000   06/17/2009    $2,000,000,000             $0    07/08/2009     R           $60,000,000          $45.14               $22,427.7                                                                $63,611,111
              Boston, MA 5, 9                              Warrants
           Stearns Financial
                                           Subordinated Debentures
06/26/2009 Services, Inc., St. Cloud,                                     $24,900,000                                                                                                                                                                                                   $1,328,906
                                             w/ Exercised Warrants
           MN 8
           Steele Street Bank
                                           Subordinated Debentures
09/25/2009 Corporation, Denver,                                           $11,019,000                                                                                                                                                                                                     $347,722
                                             w/ Exercised Warrants
           CO 8, 10
              StellarOne Corporation,            Preferred Stock w/
12/19/2008                                                                $30,000,000                                                                                                   $13.37                  $304.9     $14.87        302,623               ($1.50)        OUT       $1,733,333
              Charlottesville, VA                          Warrants
           Sterling Bancorp, New                 Preferred Stock w/
12/23/2008                                                                $42,000,000                                                                                                   $10.05                  $257.4     $12.19        516,817               ($2.14)        OUT       $2,403,333
           York, NY                                        Warrants
           Sterling Bancshares, Inc.,            Preferred Stock w/
12/12/2008                                                               $125,198,000    05/05/2009     $125,198,000              $0                                                     $5.60                  $574.3      $7.18      2,615,557               ($1.58)        OUT       $2,486,571
           Houston, TX 4                                   Warrants
           Sterling Financial                    Preferred Stock w/
12/05/2008                                                               $303,000,000                                                                                                    $0.57                   $29.7      $7.06      6,437,677               ($6.49)        OUT       $6,733,333
           Corporation, Spokane, WA                        Warrants
           Stewardship Financial
                                                 Preferred Stock w/
01/30/2009 Corporation, Midland                                           $10,000,000                                                                                                    $8.86                   $51.7     $11.24        133,475               ($2.38)        OUT         $520,833
                                                           Warrants
           Park, NJ
           Stockmens Financial
                                                 Preferred Stock w/
02/06/2009 Corporation, Rapid                                             $15,568,000                                                                                                                                                                                                     $869,631
                                                 Exercised Warrants
           City, SD 2
              Stonebridge Financial              Preferred Stock w/
                                                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I april 20, 2010




01/23/2009                                                                $10,973,000                                                                                                                                                                                                     $634,609
              Corp., West Chester, PA 2          Exercised Warrants

           Suburban Illinois Bancorp, Subordinated Debentures
06/19/2009                                                                $15,000,000                                                                                                                                                                                                     $825,020
           Inc., Elmhurst, IL 8         w/ Exercised Warrants
           Summit State Bank, Santa              Preferred Stock w/
12/19/2008                                                                 $8,500,000                                                                                                    $6.75                   $32.0      $5.33        239,212                $1.42           IN        $491,111
           Rosa, CA                                        Warrants
           Sun Bancorp, Inc.,                    Preferred Stock w/
01/09/2009                                                                $89,310,000    04/08/2009       $89,310,000             $0    05/27/2009     R            $2,100,000           $3.94                   $92.1                                                                  $1,103,971
           Vineland, NJ 4                                  Warrants
           SunTrust Banks, Inc.,                 Preferred Stock w/
11/14/2008                                                              $3,500,000,000                                                                                                                                     $44.15     11,891,280             ($17.36)         OUT
           Atlanta, GA                                     Warrants
                                                                                                                                                                                        $26.79               $13,452.1                                                               $315,381,944
           SunTrust Banks, Inc.,                 Preferred Stock w/
12/31/2008                                                              $1,350,000,000                                                                                                                                     $33.70      6,008,902               ($6.91)        OUT
           Atlanta, GA                                     Warrants
              Superior Bancorp Inc.,       Trust Preferred Securities
12/05/2008                                                                $69,000,000                                                                                                    $3.13                   $36.6      $5.38      1,923,792               ($2.25)        OUT       $4,120,833
              Birmingham, AL 17                          w/ Warrants

              Surrey Bancorp, Mount              Preferred Stock w/
01/09/2009                                                                 $2,000,000                                                                                                                                                                                                     $119,900
              Airy, NC 2                         Exercised Warrants
           Susquehanna Bancshares,               Preferred Stock w/
12/12/2008                                                               $300,000,000                                                                                                    $9.81                $1,216.2     $14.86      3,028,264               ($5.05)        OUT     $17,625,000
           Inc, Lititz, PA                                 Warrants
           SV Financial, Inc.,                   Preferred Stock w/
04/10/2009                                                                 $4,000,000                                                                                                                                                                                                     $184,694
           Sterling, IL 2                        Exercised Warrants

           SVB Financial Group,                  Preferred Stock w/
12/12/2008                                                               $235,000,000    12/23/2009     $235,000,000              $0                                                    $46.66                $1,930.4     $49.78        354,058               ($3.12)        OUT     $12,109,028
           Santa Clara, CA 5, b                            Warrants

           Sword Financial            Subordinated Debentures
05/08/2009                                                                $13,644,000                                                                                                                                                                                                     $880,786
           Corporation, Horicon, WI 8   w/ Exercised Warrants
           Synovus Financial Corp.,              Preferred Stock w/
12/19/2008                                                               $967,870,000                                                                                                    $3.29                $1,611.6      $9.36     15,510,737               ($6.07)        OUT     $55,921,378
           Columbus, GA                                    Warrants
           Syringa Bancorp,                      Preferred Stock w/
01/16/2009                                                                 $8,000,000                                                                                                                                                                                                     $253,122
           Boise, ID 2                           Exercised Warrants
           Taylor Capital Group,                 Preferred Stock w/
11/21/2008                                                               $104,823,000                                                                                                   $12.98                  $143.8     $10.75      1,462,647                $2.23           IN      $6,464,086
           Rosemont, IL                                    Warrants
           TCB Corporation,                Subordinated Debentures
08/28/2009                                                                 $9,720,000                                                                                                                                                                                                     $365,886
           Greenwood, SC 8, 10               w/ Exercised Warrants
           TCB Holding Company,
                                                 Preferred Stock w/
01/16/2009 Texas Community Bank,                                          $11,730,000                                                                                                                                                                                                     $690,832
                                                 Exercised Warrants
           The Woodlands, TX 2
              TCF Financial Corporation,         Preferred Stock w/
11/14/2008                                                               $361,172,000    04/22/2009     $361,172,000              $0    12/15/2009     A            $9,599,964          $15.94                $2,261.3                                                                  $7,925,719
              Wayzata, MN 4                                Warrants

              TCNB Financial Corp.,              Preferred Stock w/
12/23/2008                                                                 $2,000,000                                                                                                                                                                                                     $124,744
              Dayton, OH 2                       Exercised Warrants
           Tennessee Commerce                    Preferred Stock w/
12/19/2008                                                                $30,000,000                                                                                                    $7.55                   $42.6      $9.75        461,538               ($2.20)        OUT       $1,733,333
           Bancorp, Inc., Franklin, TN                     Warrants
                                                                                                                                                                                                                                                                             Continued on next page
  CPP Transaction Detail, as of 3/31/2010                                              (CONTINUED)

                                                                                              Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                          Capital           Capital       Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                              Investment          Investment   Repayment         Repayment          Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date            Institution                           Description            Amount         Date            Amount          Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury
           Tennessee Valley Financial
                                               Preferred Stock w/
12/23/2008 Holdings, Inc., Oak                                            $3,000,000                                                                                                                                                                                                    $146,242
                                               Exercised Warrants
           Ridge, TN 2
                Texas Capital Bancshares,      Preferred Stock w/
01/16/2009                                                              $75,000,000    05/13/2009       $75,000,000             $0    03/11/2010     A            $6,709,061          $18.99                  $686.6                                                                  $1,218,750
                Inc., Dallas, TX 4                       Warrants
           Texas National
                                               Preferred Stock w/
01/09/2009 Bancorporation,                                                $3,981,000                                                                                                                                                                                                    $238,657
                                               Exercised Warrants
           Jacksonville, TX 2
                The ANB Corporation,           Preferred Stock w/
08/07/2009                                                              $20,000,000                                                                                                                                                                                                     $569,222
                Terrell, TX 2                  Exercised Warrants

                The Bancorp, Inc.,             Preferred Stock w/
12/12/2008                                                              $45,220,000    03/10/2010       $45,220,000             $0                                                     $8.90                  $233.0      $3.46        980,203                $5.44           IN      $2,813,689
                Wilmington, DE 5, b                      Warrants

           The Bank of Currituck,              Preferred Stock w/
02/06/2009                                                                $4,021,000                                                                                                                                                                                                    $169,834
           Moyock, NC 2                        Exercised Warrants
           The Bank of Kentucky
                                               Preferred Stock w/
02/13/2009 Financial Corporation,                                       $34,000,000                                                                                                   $19.94                  $113.0     $18.56        274,784                $1.38           IN      $1,709,444
                                                         Warrants
           Crestview Hills, KY
           The Bank of New York
                                               Preferred Stock w/
10/28/2008 Mellon Corporation, New                                    $3,000,000,000   06/17/2009    $3,000,000,000             $0    08/05/2009     R          $136,000,000          $30.88               $37,315.3                                                                $95,416,667
                                                         Warrants
           York, NY 4
           The Baraboo
                                               Preferred Stock w/
01/16/2009 Bancorporation, Baraboo,                                     $20,749,000                                                                                                                                                                                                   $1,221,872
                                               Exercised Warrants
           WI 2
           The Connecticut Bank
                                               Preferred Stock w/
12/19/2008 and Trust Company,                                            $5,448,000                                                                                                    $4.50                   $16.1      $4.65        175,742               ($0.15)        OUT         $136,200
                                                         Warrants
           Hartford, CT
           The Elmira Savings Bank,            Preferred Stock w/
12/19/2008                                                               $9,090,000                                                                                                   $17.20                   $29.9     $11.70        116,538                $5.50           IN        $525,200
           FSB, Elmira, NY                               Warrants
           The First Bancorp, Inc.,            Preferred Stock w/
01/09/2009                                                              $25,000,000                                                                                                   $15.94                  $155.4     $16.60        225,904               ($0.66)        OUT       $1,375,000
           Damariscotta, ME                              Warrants
                The First Bancshares, Inc.,    Preferred Stock w/
02/06/2009                                                               $5,000,000                                                                                                    $9.45                   $28.5     $13.71         54,705               ($4.26)        OUT         $256,250
                Hattiesburg, MS                          Warrants
           The Freeport State Bank,            Preferred Stock w/
02/06/2009                                                                 $301,000                                                                                                                                                                                                        $8,610
           Harper, KS 2                        Exercised Warrants
           The Goldman Sachs
                                               Preferred Stock w/
10/28/2008 Group, Inc., New York,                                    $10,000,000,000   06/17/2009   $10,000,000,000             $0    07/22/2009     R        $1,100,000,000         $170.63               $89,897.0                                                               $318,055,555
                                                         Warrants
           NY 4
                The Landrum Company,           Preferred Stock w/
05/22/2009                                                              $15,000,000                                                                                                                                                                                                     $597,229
                Columbia, MO 2                 Exercised Warrants
           The Little Bank,
                                               Preferred Stock w/
12/23/2008 Incorporated, Kinston,                                         $7,500,000                                                                                                                                                                                                    $467,792
                                               Exercised Warrants
           NC 2
           The PNC Financial
                                               Preferred Stock w/
12/31/2008 Services Group Inc.,                                       $7,579,200,000   02/10/2010    $7,579,200,000             $0                                                    $59.70               $30,889.3     $67.33     16,885,192               ($7.63)        OUT    $421,066,667
                                                         Warrants
           Pittsburgh, PA 4
           The Private Bank of
                                               Preferred Stock w/
02/20/2009 California, Los Angeles,                                       $5,450,000                                                                                                                                                                                                    $292,944
                                               Exercised Warrants
           CA 2
                The Queensborough              Preferred Stock w/
01/09/2009                                                              $12,000,000                                                                                                                                                                                                     $719,400
                Company, Louisville, GA 2      Exercised Warrants

                The State Bank of Bartley, Subordinated Debentures
09/04/2009                                                                $1,697,000                                                                                                                                                                                                     $61,585
                Bartley, NE 8, 10            w/ Exercised Warrants
           The Victory Bancorp,
                                               Preferred Stock w/
02/27/2009 Inc. (The Victory Bank),                                        $541,000
                                               Exercised Warrants
           Limerick, PA 2, 13 - 12/4/2009, c
                                                                                                                                                                                                                                                                                         $42,420
                The Victory Bancorp, Inc.,     Preferred Stock w/
12/11/2009                                                                $1,505,000
                Limerick, PA 2, 10a, c         Exercised Warrants
           Three Shores
           Bancorporation, Inc.
                                               Preferred Stock w/
01/23/2009 (Seaside National Bank                                         $5,677,000                                                                                                                                                                                                    $328,319
                                               Exercised Warrants
           & Trust), Orlando, FL 2,
                                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I april 20, 2010




                13 - 12/4/2009


                TIB Financial Corp,            Preferred Stock w/
12/05/2008                                                              $37,000,000                                                                                                    $0.70                   $10.4      $5.02      1,106,389               ($4.32)        OUT       $1,284,722
                Naples, FL                               Warrants
           Tidelands Bancshares,               Preferred Stock w/
12/19/2008                                                              $14,448,000                                                                                                    $2.50                   $10.7      $3.79        571,821               ($1.29)        OUT         $834,773
           Inc, Mt. Pleasant, SC                         Warrants
                                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                                      197
                                                                                  (CONTINUED)

                                                                                                                                                                                                                                                                                                 198
 CPP Transaction Detail, as of 3/31/2010
                                                                                         Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                     Capital           Capital       Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                          Investment         Investment   Repayment         Repayment          Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date         Institution                          Description           Amount         Date            Amount          Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury

             Tifton Banking Company,        Preferred Stock w/
04/17/2009                                                          $3,800,000                                                                                                                                                                                                     $171,433
             Tifton, GA 2                   Exercised Warrants
           Timberland Bancorp, Inc.,        Preferred Stock w/
12/23/2008                                                         $16,641,000                                                                                                    $4.00                   $28.2      $6.73        370,899               ($2.73)        OUT         $952,236
           Hoquiam, WA                                Warrants
             Titonka Bancshares, Inc,       Preferred Stock w/
04/03/2009                                                          $2,117,000                                                                                                                                                                                                     $100,004
             Titonka, IA 2                  Exercised Warrants

             Todd Bancshares, Inc.,         Preferred Stock w/
02/06/2009                                                          $4,000,000                                                                                                                                                                                                     $223,450
             Hopkinsville, KY 2             Exercised Warrants
           TowneBank, Portsmouth,           Preferred Stock w/
12/12/2008                                                         $76,458,000                                                                                                   $13.96                  $390.4     $21.31        538,184               ($7.35)        OUT       $4,491,908
           VA                                         Warrants
           Treaty Oak Bancorp, Inc.,        Preferred Stock w/
01/16/2009                                                          $3,268,000                                                                                                                                                                                                     $192,415
           Austin, TX 2                     Exercised Warrants

           Triad Bancorp, Inc.,             Preferred Stock w/
03/27/2009                                                          $3,700,000                                                                                                                                                                                                     $178,124
           Frontenac, MO 2                  Exercised Warrants
           Tri-County Financial
                                            Preferred Stock w/
12/19/2008 Corporation, Waldorf,                                   $15,540,000                                                                                                                                                                                                     $978,675
                                            Exercised Warrants
           MD 2
             Trinity Capital Corporation,   Preferred Stock w/
03/27/2009                                                         $35,539,000                                                                                                                                                                                                   $1,710,911
             Los Alamos, NM 2               Exercised Warrants
                                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I april 20, 2010




             Tri-State Bank of Memphis,
04/03/2009                                     Preferred Stock      $2,795,000                                                                                                                                                                                                     $121,116
             Memphis, TN 2, 3

           TriState Capital Holdings,       Preferred Stock w/
02/27/2009                                                         $23,000,000                                                                                                                                                                                                   $1,215,893
           Inc., Pittsburgh, PA 2           Exercised Warrants

             TriSummit Bank,
12/22/2009                                     Preferred Stock      $4,237,000
             Kingsport, TN 2, 10a, c
                                                                                                                                                                                                                                                                                   $161,770
             TriSummit Bank,                Preferred Stock w/
04/03/2009                                                          $2,765,000
             Kingsport, TN 2, c             Exercised Warrants

             Trustmark Corporation,         Preferred Stock w/
11/21/2008                                                        $215,000,000    12/09/2009     $215,000,000              $0    12/30/2009     R           $10,000,000          $24.43                $1,556.0                                                                $11,287,500
             Jackson, MS 4                            Warrants

           Two Rivers Financial             Preferred Stock w/
05/29/2009                                                         $12,000,000                                                                                                                                                                                                     $465,067
           Group, Burlington, IA 2          Exercised Warrants

             U.S. Bancorp,                  Preferred Stock w/
11/14/2008                                                       $6,599,000,000   06/17/2009    $6,599,000,000             $0    07/15/2009     R          $139,000,000          $25.88               $49,563.6                                                               $195,220,417
             Minneapolis, MN 4                        Warrants

           U.S. Century Bank,               Preferred Stock w/
08/07/2009                                                         $50,236,000                                                                                                                                                                                                     $745,312
           Miami, FL 2                      Exercised Warrants

           UBT Bancshares, Inc.,            Preferred Stock w/
01/30/2009                                                          $8,950,000                                                                                                                                                                                                     $508,334
           Marysville, KS 2                 Exercised Warrants

             UCBH Holdings, Inc., San       Preferred Stock w/
11/14/2008                                                        $298,737,000                                                                                                    $0.04                     $4.3     $5.71      7,847,732               ($5.67)        OUT       $7,509,920
             Francisco, CA 14                         Warrants

             Umpqua Holdings Corp.,         Preferred Stock w/
11/14/2008                                                        $214,181,000    02/17/2010     $214,181,000              $0    03/31/2010     R            $4,500,000          $13.26                $1,265.5                                                                $13,475,555
             Portland, OR 5, 9                        Warrants
           Union Bank & Trust
12/18/2009 Company, Oxford, NC                 Preferred Stock      $2,997,000
             2, 10a, c
                                                                                                                                                                                                                                                                                   $161,072
             Union Bank & Trust             Preferred Stock w/
05/01/2009                                                          $3,194,000
             Company, Oxford, NC 2, c       Exercised Warrants
           Union Financial
                                            Preferred Stock w/
12/29/2009 Corporation, Albuquerque,                                $2,179,000                                                                                                                                                                                                      $14,669
                                            Exercised Warrants
           NM 2, 10
           Union First Market
           Bankshares Corporation
02/06/2009                                     Preferred Stock     $33,900,000                                                                                                                                                                                                   $1,893,739
           (First Market Bank, FSB),
           Bowling Green, VA 18
           Union First Market
           Bankshares Corporation
                                            Preferred Stock w/
12/19/2008 (Union Bankshares                                       $59,000,000    11/18/2009       $59,000,000             $0    12/23/2009     R              $450,000          $15.10                  $391.5                                                                  $2,695,972
                                                      Warrants
           Corporation), Bowling
           Green, VA 5, 9, 18
                                                                                                                                                                                                                                                                      Continued on next page
 CPP Transaction Detail, as of 3/31/2010                                           (CONTINUED)

                                                                                          Capital Repayment Details                                       Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                      Capital           Capital       Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                              Investment      Investment   Repayment         Repayment          Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date          Institution                             Description        Amount         Date            Amount          Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury

              United American Bank,            Preferred Stock w/
02/20/2009                                                            $8,700,000                                                                                                                                                                                                            $0
              San Mateo, CA 2                  Exercised Warrants
           United Bancorp, Inc.,               Preferred Stock w/
01/16/2009                                                           $20,600,000                                                                                                   $7.00                   $35.5      $9.92        311,492               ($2.92)        OUT       $1,112,972
           Tecumseh, MI                                  Warrants
              United Bancorporation of         Preferred Stock w/
12/23/2008                                                           $10,300,000                                                                                                   $4.95                             $14.56        106,131               ($9.61)        OUT         $589,389
              Alabama, Inc., Atmore, AL                  Warrants
              United Bank Corporation,    Subordinated Debentures
05/22/2009                                                           $14,400,000                                                                                                                                                                                                    $882,631
              Barnesville, GA 8             w/ Exercised Warrants

              United Community Banks,          Preferred Stock w/
12/05/2008                                                          $180,000,000                                                                                                   $4.41                  $415.0     $12.28      1,099,542               ($7.87)        OUT     $10,750,000
              Inc., Blairsville, GA b                    Warrants
           United Financial Banking
                                               Preferred Stock w/
01/16/2009 Companies, Inc., Vienna,                                   $5,658,000                                                                                                                                                                                                    $333,211
                                               Exercised Warrants
           VA 2
              Unity Bancorp, Inc.,             Preferred Stock w/
12/05/2008                                                           $20,649,000                                                                                                   $5.29                   $37.8      $4.05        764,778                $1.24           IN      $1,233,205
              Clinton, NJ                                Warrants
           Universal Bancorp,                  Preferred Stock w/
05/22/2009                                                            $9,900,000                                                                                                                                                                                                    $394,171
           Bloomfield, IN 2                    Exercised Warrants

              University Financial Corp,
06/19/2009                               Subordinated Debentures     $11,926,000                                                                                                                                                                                                    $601,998
              Inc., St. Paul, MN 3, 8

           US Metro Bank, Garden               Preferred Stock w/
02/06/2009                                                            $2,861,000                                                                                                                                                                                                    $159,818
           Grove, CA 2                         Exercised Warrants

           Uwharrie Capital Corp,              Preferred Stock w/
12/23/2008                                                           $10,000,000                                                                                                                                                                                                    $623,722
           Albemarle, NC 2                     Exercised Warrants

              Valley Commerce                  Preferred Stock w/
01/30/2009                                                            $7,700,000                                                                                                                                                                                                    $437,136
              Bancorp, Visalia, CA 2           Exercised Warrants

              Valley Community Bank,           Preferred Stock w/
01/09/2009                                                            $5,500,000                                                                                                                                                                                                    $329,726
              Pleasanton, CA 2                 Exercised Warrants
           Valley Financial                    Preferred Stock w/
12/12/2008                                                           $16,019,000                                                                                                   $4.45                   $20.8      $6.97        344,742               ($2.52)        OUT         $941,117
           Corporation, Roanoke, VA                      Warrants
           Valley Financial Group,
                                               Preferred Stock w/
12/18/2009 Ltd., 1st State Bank,                                      $1,300,000                                                                                                                                                                                                     $11,218
                                               Exercised Warrants
           Saginaw, MI 2
              Valley National Bancorp,         Preferred Stock w/
11/14/2008                                                                         06/03/2009       $75,000,000 $225,000,000
              Wayne, NJ 4, c                             Warrants

           Valley National Bancorp,            Preferred Stock w/
11/14/2008                                                          $300,000,000   09/23/2009     $125,000,000 $100,000,000                                                       $15.37                $2,353.8     $18.66      2,411,944               ($3.29)        OUT     $12,979,167
           Wayne, NJ 4, c                                Warrants

              Valley National Bancorp,         Preferred Stock w/
11/14/2008                                                                         12/23/2009     $100,000,000              $0
              Wayne, NJ 4, c                             Warrants
           Village Bank and Trust
                                               Preferred Stock w/
05/01/2009 Financial Corp, Midlothian,                               $14,738,000                                                                                                   $3.47                   $14.7      $4.43        499,029               ($0.96)        OUT         $581,332
                                                         Warrants
           VA
              Virginia Commerce                Preferred Stock w/
12/12/2008                                                           $71,000,000                                                                                                   $6.65                  $179.1      $3.95      2,696,203                $2.70           IN      $4,171,250
              Bancorp, Arlington, VA                     Warrants
           Virginia Company Bank,              Preferred Stock w/
06/12/2009                                                            $4,700,000                                                                                                                                                                                                    $167,312
           Newport News, VA 2, 10              Exercised Warrants

              Vision Bank - Texas,             Preferred Stock w/
04/24/2009                                                            $1,500,000                                                                                                                                                                                                     $66,082
              Richardson, TX 2                 Exercised Warrants
              VIST Financial Corp.,            Preferred Stock w/
12/19/2008                                                           $25,000,000                                                                                                   $8.97                   $52.5     $10.30        364,078               ($1.33)        OUT       $1,444,444
              Wyomissing, PA                             Warrants
           W.T.B. Financial
                                               Preferred Stock w/
01/30/2009 Corporation, Spokane,                                    $110,000,000                                                                                                                                                                                                  $6,244,791
                                               Exercised Warrants
           WA 2
           Wachusett Financial
                                               Preferred Stock w/
12/11/2009 Services, Inc., Clinton,                                  $12,000,000                                                                                                                                                                                                    $114,315
                                               Exercised Warrants
           MA 2, 10
              Wainwright Bank & Trust          Preferred Stock w/
12/19/2008                                                           $22,000,000   11/24/2009       $22,000,000             $0    12/16/2009     R              $568,700           $9.73                   $70.9                                                                  $1,023,611
              Company, Boston, MA 4                      Warrants
                                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I april 20, 2010




           Washington Banking
                                               Preferred Stock w/
01/16/2009 Company, Oak Harbor,                                      $26,380,000                                                                                                  $12.59                  $192.7      $8.04        246,082                $4.55           IN      $1,425,253
                                                         Warrants
           WA b
              Washington Federal, Inc.,        Preferred Stock w/
11/14/2008                                                          $200,000,000   05/27/2009     $200,000,000              $0    03/09/2010     A           $15,623,222          $20.32                $2,284.9                                                                  $5,361,111
              Seattle, WA 4                              Warrants
                                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                                  199
 CPP Transaction Detail, as of 3/31/2010                                                (CONTINUED)

                                                                                                                                                                                                                                                                                                         200
                                                                                               Capital Repayment Details                                         Final Disposition                                            Warrant and Market Data for Publicly Traded Companies


                                                                                           Capital           Capital         Remaining          Final                       Final    Stock Price   Market Capitalization    Current        Current     Amount “In the                        Interest/
Purchase                                               Investment          Investment   Repayment         Repayment            Capital    Disposition                 Disposition          as of      as of 3/31/2010         Strike   Outstanding   Money” or “Out of In or Out of   Dividends Paid
Date          Institution                              Description            Amount         Date            Amount            Amount           Date    Note15         Proceeds      3/31/2010              (in millions)    Price a    Warrants a        the Money” the Money e          to Treasury
              WashingtonFirst
              Bankshares, Inc.                   Preferred Stock w/
01/30/2009                                                                 $6,633,000
              (WashingtonFirst Bank),            Exercised Warrants
              Reston, VA 2, 13 - 10/30/2009, c                                                                                                                                                                                                                                             $476,373
           WashingtonFirst
10/30/2009 Bankshares, Inc., Reston,                Preferred Stock        $6,842,000
           VA 2, 10a, c
           Waukesha Bankshares,                  Preferred Stock w/
06/26/2009                                                                 $5,625,000                                                                                                                                                                                                      $188,581
           Inc., Waukesha, WI 2, 10              Exercised Warrants
           Webster Financial
                                                 Preferred Stock w/
11/21/2008 Corporation, Waterbury,                                      $400,000,000    03/03/2010     $100,000,000 $300,000,000                                                         $17.49                $1,371.6     $18.28       3,282,276              ($0.79)        OUT     $24,916,667
                                                           Warrants
           CT 4
              Wells Fargo & Company,             Preferred Stock w/
10/28/2008                                                            $25,000,000,000   12/23/2009   $25,000,000,000               $0                                                    $31.12             $161,454.6      $34.01     110,261,688              ($2.89)        OUT $1,440,972,222
              San Francisco, CA 4                          Warrants

           WesBanco, Inc., Wheeling,             Preferred Stock w/
12/05/2008                                                               $75,000,000    09/09/2009       $75,000,000               $0    12/23/2009     R              $950,000          $16.26                  $432.0                                                                  $2,854,167
           WV 4                                            Warrants
           West Bancorporation, Inc.,            Preferred Stock w/
12/31/2008                                                               $36,000,000                                                                                                      $6.58                  $114.5     $11.39        474,100               ($4.81)        OUT       $2,025,000
           West Des Moines, IA                             Warrants
           Westamerica
                                                 Preferred Stock w/
02/13/2009 Bancorporation, San                                                          09/02/2009       $41,863,000       $41,863,000
                                                           Warrants
           Rafael, CA 4, c
                                                                         $83,726,000                                                                                                     $57.65                $1,687.3     $50.92        246,640                $6.73           IN      $2,755,981
                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I april 20, 2010




           Westamerica
                                                 Preferred Stock w/
02/13/2009 Bancorporation, San                                                          11/18/2009       $41,863,000               $0
                                                           Warrants
           Rafael, CA 4, c
           Western Alliance
                                                 Preferred Stock w/
11/21/2008 Bancorporation, Las                                          $140,000,000                                                                                                      $5.69                  $415.4     $13.34        787,107               ($7.65)        OUT       $8,633,333
                                                           Warrants
           Vegas, NV b
           Western Community
                                                 Preferred Stock w/
12/23/2008 Bancshares, Inc., Palm                                          $7,290,000                                                                                                                                                                                                      $454,746
                                                 Exercised Warrants
           Desert, CA 2
           Western Illinois
12/29/2009 Bancshares Inc.,                         Preferred Stock        $4,567,000
           Monmouth, IL 2, 10a, c
                                                                                                                                                                                                                                                                                           $456,766
           Western Illinois
                                                 Preferred Stock w/
12/23/2008 Bancshares Inc.,                                                $6,855,000
                                                 Exercised Warrants
           Monmouth, IL 2, c
              Western Reserve Bancorp,           Preferred Stock w/
05/15/2009                                                                 $4,700,000                                                                                                                                                                                                      $192,112
              Inc, Medina, OH 2                  Exercised Warrants
           White River Bancshares
                                                 Preferred Stock w/
02/20/2009 Company, Fayetteville,                                        $16,800,000                                                                                                                                                                                                       $902,883
                                                 Exercised Warrants
           AR 2
           Whitney Holding
                                                 Preferred Stock w/
12/19/2008 Corporation, New                                             $300,000,000                                                                                                     $13.79                $1,330.1     $17.10       2,631,579              ($3.31)        OUT     $17,333,333
                                                           Warrants
           Orleans, LA
           Wilmington Trust
                                                 Preferred Stock w/
12/12/2008 Corporation, Wilmington,                                     $330,000,000                                                                                                     $16.57                $1,463.6     $26.66       1,856,714            ($10.09)         OUT     $19,387,500
                                                           Warrants
           DE
           Wilshire Bancorp, Inc., Los           Preferred Stock w/
12/12/2008                                                               $62,158,000                                                                                                     $11.03                  $324.5      $9.82        949,460                $1.21           IN      $3,651,782
           Angeles, CA                                     Warrants
           Wintrust Financial
                                                 Preferred Stock w/
12/19/2008 Corporation, Lake                                            $250,000,000                                                                                                     $37.21                $1,121.6     $22.82       1,643,295             $14.39            IN    $14,444,444
                                                           Warrants
           Forest, IL
           Worthington Financial
                                                 Preferred Stock w/
05/15/2009 Holdings, Inc., Huntsville,                                     $2,720,000                                                                                                                                                                                                      $111,180
                                                 Exercised Warrants
           AL 2
           WSFS Financial
                                                 Preferred Stock w/
01/23/2009 Corporation, Wilmington,                                      $52,625,000                                                                                                     $39.00                  $276.3     $45.08        175,105               ($6.08)        OUT       $2,792,049
                                                           Warrants
           DE
           Yadkin Valley Financial               Preferred Stock w/
01/16/2009                                                               $36,000,000                                                                                                                                        $13.99        385,990               ($9.69)        OUT
           Corporation, Elkin, NC c                        Warrants
                                                                                                                                                                                          $4.30                   $69.4                                                                  $2,316,627
           Yadkin Valley Financial               Preferred Stock w/
07/24/2009                                                               $13,312,000                                                                                                                                         $7.30        273,534               ($3.00)        OUT
           Corporation, Elkin, NC c                        Warrants

              York Traditions Bank,              Preferred Stock w/
04/24/2009                                                                 $4,871,000                                                                                                                                                                                                      $214,620
              York, PA 2                         Exercised Warrants
           Zions Bancorporation, Salt            Preferred Stock w/
11/14/2008                                                             $1,400,000,000                                                                                                    $21.84                $3,284.8     $36.27       5,789,909            ($14.43)         OUT     $87,694,444
           Lake City, UT                                   Warrants
                                                                                                                                                                                                                                                                              Continued on next page
     CPP Transaction Detail, as of 3/31/2010                                                    (CONTINUED)

                                                                                                         Capital Repayment Details                                                        Final Disposition                                                  Warrant and Market Data for Publicly Traded Companies


                                                                                                   Capital               Capital        Remaining                   Final                             Final   Stock Price     Market Capitalization       Current          Current        Amount “In the                           Interest/
Purchase                                               Investment             Investment        Repayment             Repayment           Capital             Disposition                       Disposition         as of        as of 3/31/2010            Strike     Outstanding      Money” or “Out of In or Out of      Dividends Paid
Date           Institution                             Description               Amount              Date                Amount           Amount                    Date     Note15              Proceeds     3/31/2010                (in millions)       Price a      Warrants a           the Money” the Money e             to Treasury
                                                                                                                                                                                Total
                                                                                                Total Capital
                                                                                                                                                                              Warrant
                                          Total Purchase Amount $204,899,330,320                 Repayment $135,829,721,000                                                           $4,377,690,148
                                                                                                                                                                                 Pro-
                                                                                                     Amount
                                                                                                                                                                               ceeds

                                                                                                Total Losses    ($2,334,120,000)

                                                         TOTAL TREASURY CPP INVESTMENT AMOUNT $66,735,489,320

Notes: Numbers affected by rounding. Data as of 3/31/2010. Numeric notes taken verbatim from Treasury’s 4/2/2010 Transactions Report. All amounts and totals reflect cumulative receipts since inception through 3/31/2010.
1a
   This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on 1/1/2009, and this transaction
under the CPP was funded on 1/9/2009.
1b
   The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total gross disposition proceeds from CPP warrants on 3/3/2010 was $310,571,615, consisting of $186,342,969 and $124,228,646. Proceeds
from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
2
  Privately held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
3
  To promote Community Development Financial Institutions (“CDFIs”), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
3a
   Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
4
  Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
5
  Redemption pursuant to a qualified equity offering.
6
  This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
7
  The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
8
  Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
9
  In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
10
   This institution participated in the expansion of CPP for small banks.
10a
    This institution received an additional investment through the expansion of CPP for small banks.
11
   Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in Fixed Rate Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for
dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to purchase shares of Series M. On 9/11/2009, Series M automatically converted to 7,692,307,692 shares of
common stock and the associated warrant terminated on receipt of certain shareholder approvals.
12
   On 8/24/2009, Treasury exchanged its Series C Preferred Stock issued by Popular, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
13
   This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
14
   As of the date of this report, this institution is in bankruptcy proceedings.
15
   For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.
16
   On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by Contingent Value Rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of common shares to holders
of CVRs were not met.
17
   On 12/11/2009, Treasury exchanged its Series A Preferred Stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
18
   On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended dividend rate equivalent to
those of Treasury’s original investment.
19
   On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
20
   On 3/8/2010, Treasury exchanged its $84,784,000 of Preferred Stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of Mandatory Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends. Subject to
the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
21
   On 3/30/2010, Treasury exchanged its $7,500,000 of Subordinated Debentures in GulfSouth Private Bank for an equivalent amount of Preferred Stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial institutions.
a
  According to Treasury, “if a Share Dividend is declared on a common stock of a bank in which Treasury holds outstanding warrants, Treasury is entitled to additional warrants. The ‘Update’ netted is the amount of new warrant shares that have been received as a result of the corporate action.” Thus, the strike price presented
reflects these adjustments provided by Treasury. It appears that Treasury also adjusts the number of shares based on corporate actions as well. Those adjustments are also presented in the current number of outstanding warrants. Amounts are presented as of 3/31/2010.
b
  According to Treasury, these institutions executed Qualified Equity Offerings which “reduce the number of outstanding warrants held by Treasury.”
c
  Treasury made more than one investment in these institutions. For purposes of this table, income (dividends and interest), is presented on a combined basis because it could not be split between the two transactions based on the data provided by Treasury.
d
  According to Treasury, M&T acquired Provident, therefore “warrant details changed as per the conversion ratio.” The previous investment in Provident now reflects M&T market data above.
e
  When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”

Sources: Treasury, Transactions Report, 4/2/2010; Treasury, responses to SIGTARP data call, 4/7/2010 and 4/8/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 4/6/2010.
                                                                                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I april 20, 2010
                                                                                                                                                                                                                                                                                                                                               201
Table D.2                                                                                                                                                                                                                                                                                                                                                202
    SSFI (AIG) Transaction Detail, as of 3/31/2010
                                        Seller               Purchase Details                                                                                                   Exchange Details                                                                      Warrants and Market Data

                                                                                                                                                                                                                                                                                                                                          Dividends/
                                                                                                                                                                                                                                             Stock         Market                    Outstanding   Amount “In the                            Interest
                                                             Transaction    Investment                          Investment     Pricing                         Transaction Investment              Investment              Pricing      Price as of Capitalization      Strike           Warrant Money” or “Out of                               Paid
                                                                                                                                                                                                                                                                                                                                     a
Note    Date             Institution    City         State   Type           Description                            Amount      Mechanism       Date            Type        Description             Amount                  Mechanism   3/31/2010      (in millions)      Price          Shares a     the Money” a         In/Out         to Treasury

                                                                            Preferred Stock w/                                                                              Preferred Stock w/
1       11/25/2008       AIG            New York     NY      Purchase                                    $40,000,000,000       Par             04/17/2009      Exchange                            $40,000,000,000 Par                     $34.14        $4,606.4      $50.00          2,689,938              ($15.86)    OUT                     $0
                                                                            Warrants                                                                                        Warrants
                                                                            Preferred Stock w/
2, 3    04/17/2009       AIG            New York     NY      Purchase                                    $29,835,000,000       Par                                                                                                         $34.14        $4,606.4 $0.00002                    150              $34.14     IN                      $0
                                                                            Warrants
                                                                            Total                      $69,835,000,000



Notes: Numbers affected by rounding. Data as of 3/31/2010. Numbered notes taken verbatim from Treasury’s 4/2/2010 Transactions Report.
1
  On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it has an additional obligation to Treasury of
$1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2
  The investment price reflects Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3
  This transaction does not include AIG’s commitment fee of an additional $165 million scheduled to be paid from its operating income in three equal installments over the five-year life of the facility.
a
  When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”

Sources: Treasury, Transactions Report, 4/2/2010; Treasury, responses to SIGTARP data call, 4/7/2010 and 4/8/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 4/6/2010.
                                                                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I april 20, 2010




Table D.3

    TIP Transaction Detail, as of 3/31/2010
                                                                                                                                                                     Treasury Investment
                                                                                                                                      Capital Repayment             Remaining After Capital
                               Seller                                                                                                       Details                      Repayment                               Final Disposition                                          Market and Warrants Data

                                                                                                                                                                                                                                                                                                          Amount “In                       Dividends/
                                                                                                                                         Capital      Capital   Remaining       Remaining Final                 Final                          Final      Stock         Market               Outstanding the Money”                           Interest
                                                     Transaction Investment                       Investment    Pricing               Repayment       Repayment   Capital       Capital     Disposition         Disposition              Disposition Price as of Capitalization     Strike       Warrant   or “Out of    In/                      Paid
                                                                                                                                                                                                                                                                                                                               a
Note Date       Institution     City           State Type        Description                         Amount     Mechanism                Amount       Date2       Amount        Description Date                Description               Proceeds 3/31/2010       (in millions)     Price        Shares the Money”a     Out              to Treasury

       12/31/                                                     Trust Preferred                                                                     12/23/
1      2008     Citigroup Inc. New York        NY    Purchase     Securities w/ Warrants    $20,000,000,000     Par            $20,000,000,000        2009                 $0   Warrants                                                                   $4.05       $115,664 $10.61 188,501,414             ($6.56)   OUT $1,568,888,889
                Bank of
       01/16/   America                                           Preferred Stock w/                                                                  12/09/
       2009     Corporation     Charlotte      NC    Purchase     Warrants                  $20,000,000,000     Par            $20,000,000,000        2009                 $0   Warrants      03/03/2010        Warrants        $1,255,639,099.00        $17.85        $179,074                                                    $1,435,555,556
                                                                                                                Total
                                                                                                                Capital
                                                                  Total Investment         $40,000,000,000      Repayment $40,000,000,000                                                        Total Warrant Proceeds        $1,255,639,099.00

                                                                                    Total Treasury TIP Investment Amount $0



Notes: Numbers affected by rounding. Data as of 3/31/2010. Numbered notes taken verbatim from Treasury’s 4/2/2010 Transactions Report.
1
  Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred Stock, Series I
(TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2
  Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
a
  When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”

Sources: Treasury, Transactions Report, 4/2/2010; Treasury, responses to SIGTARP data call, 4/7/2010 and 4/8/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 4/6/2010.
Table D.4

    AGP Transaction Detail, as of 3/31/2010
                                Initial Investment b                                    Premium                                Exchange/Transfer/Other Details                                      Payment or Disposition                                                Market and Warrants Data

                                                                                                                                                                                                                                                                                                    Amount
                                                                                                                                                                                                                                                                                                    “In the
                                                                                                                                                                                                                                                                                                    Money”                Dividends/
                                                                                                                                                                                                                     Remaining        Remaining              Market                     Outstanding or “Out               Interest
                  Institution       Transaction                           Guarantee                                                                                               Payment        Payment             Premium          Premium          Stock Capitalization Strike      Warrant     of the                Paid
                                                                                                                                                                                                                                                                                                                      a
Note Date         Name              Type        Description                    Limit    Description Amount          Date      Type          Description Amount           Date     Type           Amount              Desc             Amount           Price (in millions) Price        Shares      Money”a In/Out        to Treasury

                                                                                                                          Exchange                                            Partial
                                                                                                                                            Trust
                                                                                        Preferred                         preferred                                           cancellation                        Trust Preferred
        01/16/ Citigroup Inc.,                      Master                                                         06/09/                   Preferred                  12/23/
1,2,3                               Guarantee                        $5,000,000,000     Stock       $4,034,000,000        stock for                     $4,034,000,000        for early          ($1,800,000,000) Securities w/ $2,234,000,000 $4.05 $115,663.6               $10.61 66,531,728 ($6.56) OUT               $321,366,667
        2009   New York, NY                         Agreement                                                      2009                     Securities                 2009
                                                                                        w/ Warrants                       trust preferred                                     termination                         Warrants
                                                                                                                                            w/ Warrants
                                                                                                                          securities                                          of guarantee

        12/23/ Citigroup Inc.,                      Termination
3                                   Termination                   ($5,000,000,000)
        2009   New York, NY                         Agreement

                                                    Total                        $0

Notes: Numbers affected by rounding. Data as of 3/31/2010. Numbered notes taken verbatim from 4/2/2010 Transactions Report.
1
  In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
  Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred Stock
Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3
  On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion of the AGP Trust Preferred
Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the FDIC’s Temporary Liquidity Guarantee Program.
a
  When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”
b
  AGP transaction is a guarantee, not a purchase. Treasury received a premium including preferred stock and warrants as part of this transaction.

Sources: Treasury, Transactions Report, 4/2/2010; Treasury, responses to SIGTARP data call, 4/7/2010 and 4/8/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 4/6/2010.




 Table D.5

     TALF Transaction Detail, as of 3/31/2010
                                  Seller

                                                                          Transaction     Investment             Investment          Pricing
 Note      Date             Institution      City               State     Type            Description            Amount              Mechanism

                                                                                          Debt Obligation w/                         N/A
 1         03/03/2009       TALF LLC         Wilmington         DE        Purchase                               $20,000,000,000
                                                                                          Additional Note

 Note: Numbers affected by rounding. Data as of 3/31/2010. Numbered notes taken verbatim from Treasury’s 4/2/2010 Transactions Report.
 1
   The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York. The amount of
 $20,000,000,000 represents the maximum loan amount. The loan will be incrementally funded.

 Source: Treasury, Transactions Report, 4/2/2010.
                                                                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I april 20, 2010
                                                                                                                                                                                                                                                                                                                                         203
Table D.6



                                                                                                                                                                                                                                                                                                                                          204
    PPIP Transaction Detail, as of 3/31/2010
                                                                                                                                                                                                                                Investment after Capital
                                                                                                                                                                        3
                                             Seller                                                                                               Adjusted Investment                    Capital Repayment Details                    Repayment                              Distribution or Disposition
                                                                                                                                                                                                                                                                                                                              Interest/
                                                                                                                                                                                                                                                                                                                          Distributions
                                                                       Transaction Investment                  Investment    Pricing                                                    Repayment              Repayment                                                                                                        Paid to
Note Date             Institution                 City         State   Type        Description                    Amount     Mechanism Date                                 Amount           Date                 Amount              Amount     Description     Date           Description                   Proceeds        Treasury
                                                                                    Debt Obligation
                      AG GECC PPIF Master
2, 6   10/30/2009                                 Wilmington   DE      Purchase     w/ Contingent         $2,222,222,222     Par          03/22/2010            $2,542,675,000
                      Fund, L.P.
                                                                                    Proceeds                                                                                                                                                                                                                               $5,612,449
                      AG GECC PPIF Master                                           Membership
1, 6   10/30/2009                                 Wilmington   DE      Purchase                           $1,111,111,111     Par          03/22/2010            $1,271,337,500
                      Fund, L.P.                                                    Interest
                      AllianceBernstein Legacy                                      Debt Obligation
2, 6   10/02/2009     Securities Master Fund, Wilmington       DE      Purchase     w/ Contingent         $2,222,222,222     Par          03/22/2010            $2,488,875,000
                      L.P.                                                          Proceeds
                                                                                                                                                                                                                                                                                                                           $5,739,171
                      AllianceBernstein Legacy
                                                                                    Membership
1, 6   10/02/2009     Securities Master Fund, Wilmington       DE      Purchase                           $1,111,111,111     Par          03/22/2010            $1,244,437,500
                                                                                    Interest
                      L.P.
                                                                                    Debt Obligation
2, 6   10/02/2009     Blackrock PPIF, L.P.        Wilmington   DE      Purchase     w/ Contingent         $2,222,222,222     Par          03/22/2010            $2,488,875,000
                                                                                    Proceeds                                                                                                                                                                                                                               $2,690,844
                                                                                    Membership
1, 6   10/02/2009     Blackrock PPIF, L.P.        Wilmington   DE      Purchase                           $1,111,111,111     Par          03/22/2010            $1,244,437,500
                                                                                    Interest
                      Invesco Legacy Securities                                     Membership
1, 6   09/30/2009                               Wilmington     DE      Purchase                           $1,111,111,111     Par          03/22/2010            $1,244,437,500
                      Master Fund, L.P.                                             Interest
                                                                                                                                                                                                                                                 Debt                                                                      $5,075,052
                                                                                    Debt Obligation
                      Invesco Legacy Securities                                                                                                                                                                                                  Obligation w/
2, 6   09/30/2009                               Wilmington     DE      Purchase     w/ Contingent         $2,222,222,222     Par          03/22/2010            $2,488,875,000         02/18/2010               $4,888,718 $2,483,986,282
                      Master Fund, L.P.                                                                                                                                                                                                          Contingent
                                                                                    Proceeds
                                                                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I april 20, 2010




                                                                                                                                                                                                                                                 Proceeds
                      Marathon Legacy Securi-                                       Debt Obligation
2, 6   11/25/2009     ties Public-Private Invest- Wilmington   DE      Purchase     w/ Contingent         $2,222,222,222     Par          03/22/2010            $2,488,875,000
                      ment Partnership, L.P.                                        Proceeds
                                                                                                                                                                                                                                                                                                                             $180,296
                      Marathon Legacy Securi-
                                                                                    Membership
1, 6   11/25/2009     ties Public-Private Invest- Wilmington   DE      Purchase                           $1,111,111,111     Par          03/22/2010            $1,244,437,500
                                                                                    Interest
                      ment Partnership, L.P.
                                                                                    Debt Obligation
2, 6   12/18/2009     Oaktree PPIP Fund, L.P.     Wilmington   DE      Purchase     w/ Contingent         $2,222,222,222     Par          03/22/2010            $2,488,875,000
                                                                                    Proceeds                                                                                                                                                                                                                                  $16,720
                                                                                    Membership
1, 6   12/18/2009     Oaktree PPIP Fund, L.P.     Wilmington   DE      Purchase                           $1,111,111,111     Par          03/22/2010            $1,244,437,500
                                                                                    Interest
                                                                                    Debt Obligation
                      RLJ Western Asset Public/
2, 6   11/04/2009                               Wilmington     DE      Purchase     w/ Contingent         $2,222,222,222     Par          03/22/2010            $2,488,875,000
                      Private Master Fund, L.P.
                                                                                    Proceeds                                                                                                                                                                                                                               $3,235,572
                      RLJ Western Asset Public/                                     Membership
1, 6   11/04/2009                               Wilmington     DE      Purchase                           $1,111,111,111     Par          03/22/2010            $1,244,437,500
                      Private Master Fund, L.P.                                     Interest
                                                                                                                                                                                                                                                 Debt
                                                                                                                                                                                                                                                 Obligation w/
                                                                                                                                                                                       01/11/2010             $34,000,000      $166,000,000                                     N/A
                                                                                                                                                                                                                                                 Contingent
                                                                                    Debt Obligation                                                                                                                                              Proceeds
                      UST/TCW Senior Mort-
2, 4   09/30/2009                                Wilmington    DE      Purchase     w/ Contingent         $2,222,222,222     Par          01/04/2009              $200,000,000
                      gage Securities Fund, L.P.                                                                                                                                                                                                                 01/29/2010 Distribution 5                   $502,302
                                                                                    Proceeds
                                                                                                                                                                                                                                                 Contingent
                                                                                                                                                                                       01/12/2010            $166,000,000                   $0
                                                                                                                                                                                                                                                 Proceeds                                                                    $342,176
                                                                                                                                                                                                                                                                                           5
                                                                                                                                                                                                                                                                 02/24/2010 Distribution                       $1,223


                                                                                                                                                                                                                                                                 01/29/2010 Distribution 5                 $20,091,872
                      UST/TCW Senior Mort-                                          Membership                                                                                                                                                   Membership
1, 4   09/30/2009                                Wilmington    DE      Purchase                           $1,111,111,111     Par          01/04/2009              $156,250,000         01/15/2010            $156,250,000                   $0
                      gage Securities Fund, L.P.                                    Interest                                                                                                                                                     Interest 5
                                                                                                                                                                                                                                                                 02/24/2010 Distribution 5                    $48,922

                      Wellington Management                                         Debt Obligation
2, 6   10/01/2009     Legacy Securities PPIF      Wilmington   DE      Purchase     w/ Contingent         $2,222,222,222     Par          03/22/2010            $2,524,075,000
                      Master Fund, LP                                               Proceeds
                                                                                                                                                                                                                                                                                                                           $1,949,973
                      Wellington Management
                                                                                    Membership
1, 6   10/01/2009     Legacy Securities PPIF      Wilmington   DE      Purchase                           $1,111,111,111     Par          03/22/2010            $1,262,037,500
                                                                                    Interest
                      Master Fund, LP

                                                                                                                                                      Total
                                                                                                                                                Investment                               Total Capital                                                                                            Total
                                                                                                                                                   Amount $30,356,250,000                 Repayment         $361,138,718                                                                      Proceeds $20,644,319

Notes: Numbers affected by rounding. Data as of 3/31/2010. Numbered notes taken verbatim from Treasury’s 4/2/2010 Transactions Report.
1
  The equity amount may be incrementally funded. Investment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2
  The loan may be incrementally funded. Investment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
3
  Adjusted to show Treasury’s maximum obligations to a fund.
4
  On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement. The adjusted amount shows Treasury’s final investments in the fund. (See note 6.)
5
  Profit after capital repayments will be paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in respect of their membership interests.
6
  Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment
for the $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.

Sources: Treasury, Transactions Report, 4/2/2010; Treasury, responses to SIGTARP data call, 4/7/2010 and 4/8/2010.
Table D.7

  AIFP TRANSACTION DETAIL, AS OF 3/31/2010
                     Initial Investment                                                                   Exchange/Transfer/Other Details               Treasury Investment After Exchange/Transfer/Other                           Payment or Disposition1

                                                                                                                                                                                                                                                                         Remaining
                                                                                                                                                                                                                                                      Remaining         Investment         Dividends/
                          Transaction                                                                                                                                                            Amount/                                     Amount/ Investment           Amount/     Interest Paid to
Institution   Date        Type        Seller          Description               Amount Note Date          Type                            Amount Note Obligor       Note    Description          Equity % Date          Type                 Proceeds Description         Equity %           Treasury

              12/29/2008 Purchase         GMAC        Preferred Stock    $5,000,000,000      12/30/2009   Exchange for             $5,000,000,000     GMAC          21, 22 Convertible    $5,250,000,000
                                                      w/ Exercised                                        convertible preferred                                            Preferred
                                                      Warrants                                            stock                                                            Stock

              5/21/2009   Purchase        GMAC        Convertible        $7,500,000,000 22   12/30/2009   Partial exchange for     $3,000,000,000     GMAC          21, 22 Convertible    $4,875,000,000
                                                      Preferred Stock                                     common stock                                                     Preferred
                                                      w/ Exercised                                                                                                         Stock
                                                      Warrants

                                                                                                                                                      GMAC                  Common
                                                                                                                                                                            Stock
GMAC,                                                                                                                                                                                               56.3%
                                                                                                                                                                                                                                                                                     $1,010,171,736
Detroit, MI                                                                                                                                           GMAC          3       Common
                                                                                                                                                                            Stock

              12/30/2009 Purchase         GMAC        Trust Preferred    $2,540,000,000
                                                      Securities
                                                      w/ Exercised
                                                      Warrants

              12/30/2009 Purchase         GMAC        Convertible        $1,250,000,000 22
                                                      Preferred Stock
                                                      w/ Exercised
                                                      Warrants

              12/29/2008 Purchase         General     Debt Obligation     $884,024,131 2     5/29/2009    Exchange for equity       $884,024,131 3
                                          Motors                                                          interest in GMAC
                                          Corporation

              12/31/2008 Purchase         General     Debt Obligation   $13,400,000,000      7/10/2009    Exchange for preferred $13,400,000,000 7
                                          Motors      w/ Additional                                       and common stock in
                                          Corporation Note                                                New GM

              4/22/2009   Purchase        General     Debt Obligation    $2,000,000,000 4    7/10/2009    Exchange for preferred   $2,000,000,000 7   General Motors 10, 11 Preferred     $2,100,000,000
                                          Motors      w/ Additional                                       and common stock in                         Company               Stock
                                          Corporation Note                                                New GM

              5/20/2009   Purchase        General     Debt Obligation    $4,000,000,000 5    7/10/2009    Exchange for preferred   $4,000,000,000 7   General Motors 10, 11 Common                  60.8%
                                          Motors      w/ Additional                                       and common stock in                         Company               Stock
                                          Corporation Note                                                New GM

              5/27/2009   Purchase        General     Debt Obligation     $360,624,198 6     7/10/2009    Exchange for preferred    $360,624,198 7    General Motors 11, 12 Debt          $7,072,488,605 7/10/2009      Partial          $360,624,198 Debt          $6,711,864,407
                                          Motors      w/ Additional                                       and common stock in                         Holdings LLC          Obligation                                  repayment                     Obligation
General                                   Corporation Note                                                New GM
Motors,b,d                                                                                                                                                                                                                                                                             $524,198,730
Detroit, MI                                                                                                                                                                                                 12/18/2009 Partial         $1,000,000,000 Debt          $5,711,864,407
                                                                                                                                                                                                                       repayment                      Obligation

                                                                                                                                                                                                            1/21/2010   Partial           $35,084,421 Debt          $5,676,779,986
                                                                                                                                                                                                                        repayment                     Obligation

                                                                                                                                                                                                            3/31/2010   Partial        $1,000,000,000 Debt          $4,676,779,986
                                                                                                                                                                                                                        repayment                     Obligation

              6/3/2009    Purchase        General     Debt Obligation   $30,100,000,000 8    7/10/2009    Exchange for preferred $22,041,706,310 9
                                          Motors      w/ Additional                                       and common stock in
                                          Corporation Note                                                New GM

                                                                                             7/10/2009    Transfer of debt to      $7,072,488,605 9
                                                                                                          New GM

                                                                                             7/10/2009    Debt left at Old GM       $985,805,085 9    Motors                Debt            $985,805,085
                                                                                                                                                      Liquidation           Obligation
                                                                                                                                                      Company

                                                                                                                                                                                                                                                                               Continued on next page.
                                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I april 20, 2010
                                                                                                                                                                                                                                                                                                         205
Table D.7
                                                                                                                                                                                                                                                                                                         206
  AIFP TRANSACTION DETAIL, AS OF 3/31/2010
                     Initial Investment                                                                  Exchange/Transfer/Other Details             Treasury Investment After Exchange/Transfer/Other                              Payment or Disposition1

                                                                                                                                                                                                                                                                         Remaining
                                                                                                                                                                                                                                                      Remaining         Investment         Dividends/
                          Transaction                                                                                                                                                          Amount/                                       Amount/ Investment           Amount/     Interest Paid to
Institution   Date        Type        Seller           Description              Amount Note Date         Type                          Amount Note Obligor          Note   Description         Equity % Date          Type                   Proceeds Description         Equity %           Treasury

              1/16/2009   Purchase        Chrysler     Debt Obligation   $1,500,000,000 13                                                                                                                3/17/2009   Partial              $3,499,055 Debt          $1,496,500,945
                                          FinCo        w/ Additional                                                                                                                                                  repayment                       Obligation
                                                       Note                                                                                                                                                                                           w/
                                                                                                                                                                                                                                                      Additional
                                                                                                                                                                                                                                                      Note

                                                                                                                                                                                                          4/17/2009   Partial             $31,810,122 Debt          $1,464,690,823
                                                                                                                                                                                                                      repayment                       Obligation
                                                                                                                                                                                                                                                      w/
                                                                                                                                                                                                                                                      Additional
                                                                                                                                                                                                                                                      Note

Chrysler                                                                                                                                                                                                  5/18/2009   Partial             $51,136,084 Debt          $1,413,554,739
FinCo,                                                                                                                                                                                                                repayment                       Obligation
                                                                                                                                                                                                                                                                                          $7,405,894
Farmington                                                                                                                                                                                                                                            w/
Hills, MI                                                                                                                                                                                                                                             Additional
                                                                                                                                                                                                                                                      Note

                                                                                                                                                                                                          6/17/2009   Partial             $44,357,710 Debt          $1,369,197,029
                                                                                                                                                                                                                      repayment                       Obligation
                                                                                                                                                                                                                                                      w/
                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I april 20, 2010




                                                                                                                                                                                                                                                      Additional
                                                                                                                                                                                                                                                      Note

                                                                                                                                                                                                          7/14/2009   Repayment        $1,369,197,029 Additional               $0
                                                                                                                                                                                                                                                      Note

                                                                                                                                                                                                          7/14/2009   Repayment           $15,000,000    None                   —

              1/2/2009    Purchase        Chrysler     Debt Obligation   $4,000,000,000      6/10/2009   Transfer of debt to     $500,000,000 19   Chrysler         20     Debt          $3,500,000,000
                                          Holding      w/ Additional                                     New Chrysler                              Holding                 Obligation
                                                       Note

              4/29/2009   Purchase        Chrysler     Debt Obligation             $— 14
                                          Holding      w/ Additional
                                                       Note

              4/29/2009   Purchase        Chrysler     Debt Obligation    $280,130,642 15                                                                                                                 7/10/2009   Repayment          $280,130,642 Additional               $0
                                          Holding      w/ Additional                                                                                                                                                                                  Note
                                                       Note
Chrysler,c
              5/1/2009    Purchase        Chrysler LLC Debt Obligation   $1,888,153,580 16
Auburn                                                                                                                                                                                                                                                                                 $180,685,587
                                                       w/ Additional
Hills, MI
                                                       Note

              5/20/2009   Purchase        Chrysler LLC Debt Obligation             $— 17
                                                       w/ Additional
                                                       Note

              5/27/2009   Purchase        Chrysler     Debt Obligation   $6,642,000,000 18   6/10/2009   Issuance of equity in             $—      Chrysler Group 19       Debt          $7,142,000,000
                                          Group LLC    w/ Additional                                     New Chrysler                              LLC                     Obligation
                                                       Note, Equity

                                                                                                                                                   Chrysler Group          Common                 9.9%
                                                                                                                                                   LLC                     Equity

                                              Total Initial Investment                                                                                                                                                      Total
                                                                       $81,344,932,551                                                                                                                                                $4,190,839,261
                                                               Amount                                                                                                                                                   Payments

                                                                                                                                                                                                                    Total Treasury
                                                                                                                                                                                                                                   $77,154,093,290
                                                                                                                                                                                                               Investment Amount

                                                                                                                                                                                                                                                                               Continued on next page.
Table D.7

  AIFP TRANSACTION DETAIL, AS OF 3/31/2010
                      Initial Investment                                                                           Exchange/Transfer/Other Details                       Treasury Investment After Exchange/Transfer/Other                                   Payment or Disposition1

                                                                                                                                                                                                                                                                                                        Remaining
                                                                                                                                                                                                                                                                                 Remaining             Investment           Dividends/
                            Transaction                                                                                                                                                                                Amount/                                          Amount/ Investment               Amount/       Interest Paid to
Institution   Date          Type        Seller        Description                   Amount Note Date               Type                               Amount Note Obligor             Note     Description             Equity % Date            Type                    Proceeds Description             Equity %             Treasury

Notes: Numbers affected by rounding. Data as of 3/31/2010. Definitions and numbered notes taken verbatim from Treasury’s 4/2/2010 Transactions Report. See www.financialstability.gov to see Transactions Report including colored lines referred to by Treasury.
“GMAC” refers to GMAC Inc., formerly known as GMAC LLC.
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC”.
“Old Chrysler” refers to Chrysler LLC.
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.
1
   Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2
   Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3
   Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009. (See transactions marked
   by orange line in the table above and footnote 22.)
4
   This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5
   This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6
   This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by . On 7/10/2009, the principal amount was included in the $7.07 billion of debt assumed by the New GM,
   as explained in footnote 10.
7
   On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
8
   Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/9/2009, $30.1 billion of funds had been disbursed by
   Treasury.
9
   On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under the terms of a separate
   credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10
   In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11
   Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General Motors Company” on an
   equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12
   Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13
   The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14
   This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15
   The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16
   This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”). As of 6/30/2009,
   Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrylser DIP Loan.
17
   This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP Loan had terminated.
18
   This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up to $6.642 billion. The
   total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New Chrysler. When the sale to new Chrysler was
   completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19
   Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20
   Under the terms of an agreement dated 7/23/2009, Treasury agreed to hold the outstanding loans of Chrysler Holding in forbearance, and Chrysler Holding agreed to pay the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo in the event it receives proceeds from Chrysler FinCo.
21
   Amount of the Treasury investment after exchange includes the exercised warrants from Treasury’s initial investment.
22
   Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
a
   For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b
   According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c
   This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 4/2/2010; Treasury, responses to SIGTARP data call, 4/7/2010 and 4/8/2010.
                                                                                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I april 20, 2010
                                                                                                                                                                                                                                                                                                                                          207
                                                                                                                                                                                                                                                   208
Table D.8

 ASSP Transaction Detail, as of 3/31/2010
                                    Seller                                                                                                Adjustment Details                                     Repayment4

                                                                                                                                                                                                                                     Dividends/
                                                         Transaction Investment                 Investment   Pricing       Adjustment           Adjustment Adjusted Investment                                                  Interest Paid to
Note Date           Institution Name City          State Type        Description                   Amount Mechanism             Date 3             Amount              Amount            Date          Type            Amount          Treasury

2, 3 04/09/2009 Chrysler             Wilmington    DE     Purchase     Debt Obligation    $1,500,000,000             N/A 07/08/2009        ($500,000,000)       $1,000,000,000 03/09/2010 Repayment5 $123,076,734.86 $5,787,176.00
                Receivables                                            w/ Additional
                SPV LLC                                                Note

1, 3 04/09/2009 GM Supplier     Wilmington         DE     Purchase     Debt Obligation    $3,500,000,000             N/A 07/08/2009      ($1,000,000,000)       $2,500,000,000 11/20/2009             Partial $140,000,000.00 $9,087,808.00
                Receivables LLC                                        w/ Additional                                                                                                              repayment
                                                                       Note

1, 3 04/09/2009 GM Supplier     Wilmington         DE     Purchase     Debt Obligation                               N/A 07/08/2009                                               02/11/2010          Partial $100,000,000.00
                Receivables LLC                                        w/ Additional                                                                                                              repayment
                                                                       Note

1, 3 04/09/2009 GM Supplier     Wilmington         DE     Purchase     Debt Obligation                               N/A 07/08/2009                                               03/04/2010 Repayment5       $50,000,000.00
                Receivables LLC                                        w/ Additional
                                                                       Note

                                                                       Initial Total     $5,000,000,000                                     Adjusted Total     $3,500,000,000

Notes: Numbers affected by rounding. Data as of 3/31/2010. Numbered notes taken verbatim from Treasury’s 4/2/2010 Transactions Report.
1
  The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit
  agreement was fully executed on 4/9/2009, but was made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2
  The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was
                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I april 20, 2010




  fully executed on 4/9/2009, but was made effective as of 4/7/2009. Chyrsler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3
  Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4
  Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5
  All outstanding principal drawn under the credit agreement was repaid.

Sources: Treasury, Transactions Report, 4/2/2010; Treasury, responses to SIGTARP data call, 4/7/2010 and 4/8/2010.
Table D.9

 HAMP TRANSACTION DETAIL, AS OF 3/31/2010
             Servicer Modifying Borrowers’ Loans                                                      Cap of Incentive Payments                                                     Adjustment Details
                                                                                                      on Behalf of Borrowers and
                                                   Transaction                                           to Servicers & Lenders/ Pricing       Adjustment    Cap Adjustment           Adjusted Reason for Adjustment                                     Market Capitalization
             Name of Institution
Date                                               Type          Investment Description                          Investors (Cap) 1 Mechanism   Date                 Amount                Cap                                                                     (in Millions)

                                                                                                                                               6/12/2009      $284,590,000      $660,590,000 Updated portfolio data from servicer

                                                                                                                                               9/30/2009      $121,910,000      $782,500,000 Updated portfolio data from servicer & HPDP initial cap
             Select Portfolio Servicing,                         Financial Instrument for Home Loan
4/13/2009                                          Purchase                                                       $376,000,000 N/A
             Salt Lake City, UT                                  Modifications
                                                                                                                                               12/30/2009     $131,340,000      $913,840,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                                               3/26/2010     ($355,530,000)     $558,310,000 Updated portfolio data from servicer

                                                                                                                                               6/12/2009     ($991,580,000)    $1,079,420,000 Updated portfolio data from servicer

                                                                                                                                               9/30/2009     $1,010,180,000    $2,089,600,000 Updated portfolio data from servicer & HPDP initial cap
             CitiMortgage, Inc.,                                 Financial Instrument for Home Loan
4/13/2009                                          Purchase                                                     $2,071,000,000 N/A
             O’Fallon, MO                                        Modifications
                                                                                                                                               12/30/2009    ($105,410,000)    $1,984,190,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                                               3/26/2010     ($199,300,000)    $1,784,890,000 Updated portfolio data from servicer & 2MP initial cap

                                                                                                                                               6/17/2009     ($462,990,000)    $2,410,010,000 Updated portfolio data from servicer

                                                                                                                                               9/30/2009        $65,070,000    $2,475,080,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                                                               12/30/2009    $1,213,310,000    $3,688,390,000 Updated portfolio data from servicer & HAFA initial cap
             Wells Fargo Bank, NA,                               Financial Instrument for Home Loan
4/13/2009                                          Purchase                                                     $2,873,000,000 N/A             2/17/2010     $2,050,236,344    $5,738,626,344 Transfer of cap (from Wachovia) due to merger                          $161,455
             Des Moines, IA                                      Modifications
                                                                                                                                               3/12/2010            $54,767    $5,738,681,110 Transfer of cap (from Wachovia) due to merger

                                                                                                                                               3/19/2010      $668,108,890     $6,406,790,000 Initial 2MP cap

                                                                                                                                               3/26/2010      $683,130,000     $7,089,920,000 Updated portfolio data from servicer

                                                                                                                                               6/12/2009      $384,650,000     $1,017,650,000 Updated portfolio data from servicer

                                                                                                                                               9/30/2009     $2,537,240,000    $3,554,890,000 Updated portfolio data from servicer & HPDP initial cap
             GMAC Mortgage, Inc., Ft.                            Financial Instrument for Home Loan
4/13/2009                                          Purchase                                                       $633,000,000 N/A
             Washington, PA                                      Modifications
                                                                                                                                               12/30/2009   ($1,679,520,000)   $1,875,370,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                                               3/26/2010      $190,180,000     $2,065,550,000 Updated portfolio data from servicer

                                                                                                                                               6/17/2009      $225,040,000      $632,040,000 Updated portfolio data from servicer

                                                                                                                                               9/30/2009      $254,380,000      $886,420,000 Updated portfolio data from servicer & HPDP initial cap
             Saxon Mortgage Services, Inc.,                      Financial Instrument for Home Loan
4/13/2009                                          Purchase                                                       $407,000,000 N/A
             Irving, TX                                          Modifications
                                                                                                                                               12/30/2009     $355,710,000     $1,242,130,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                                               3/26/2010      ($57,720,000)    $1,184,410,000 Updated portfolio data from servicer

4/13/2009    Chase Home Finance, LLC,2             Purchase      Financial Instrument for Home Loan             $3,552,000,000 N/A             7/31/2009    ($3,552,000,000)                $0 Termination of SPA
             Iselin, NJ                                          Modifications

                                                                                                                                               6/12/2009     ($105,620,000)     $553,380,000 Updated portfolio data from servicer                                      $1,109

                                                                                                                                               9/30/2009      $102,580,000      $655,960,000 Updated portfolio data from servicer & HPDP initial cap
             Ocwen Financial Corporation, Inc.,                  Financial Instrument for Home Loan
4/16/2009                                          Purchase                                                       $659,000,000 N/A
             West Palm Beach, FL                                 Modifications
                                                                                                                                               12/30/2009     $277,640,000      $933,600,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                                               3/26/2010        $46,860,000     $980,460,000 Updated portfolio data from servicer

                                                                                                                                               6/12/2009         $5,540,000     $804,440,000 Updated portfolio data from servicer

                                                                                                                                               9/30/2009      $162,680,000      $967,120,000 Updated portfolio data from servicer & HPDP initial cap
4/17/2009
as amended   Bank of America, N.A.,                              Financial Instrument for Home Loan
                                                   Purchase                                                       $798,900,000 N/A             12/30/2009     $665,510,000     $1,632,630,000 Updated portfolio data from servicer & HAFA initial cap                $179,074
on           Simi Valley, CA                                     Modifications
1/26/2010
                                                                                                                                               1/26/2010      $800,390,000     $2,433,020,000 Initial 2MP cap

                                                                                                                                               3/26/2010     ($829,370,000)    $1,603,650,000 Updated portfolio data from servicer

                                                                                                                                               6/12/2009     $3,318,840,000    $5,182,840,000 Updated portfolio data from servicer

                                                                                                                                               9/30/2009     ($717,420,000)    $4,465,420,000 Updated portfolio data from servicer & HPDP initial cap
4/17/2009
as amended   Countrywide Home Loans                              Financial Instrument for Home Loan
                                                   Purchase                                                     $1,864,000,000 N/A             12/30/2009    $2,290,780,000    $6,756,200,000 Updated portfolio data from servicer & HAFA initial cap
on           Servicing LP, Simi Valley, CA                       Modifications
                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I april 20, 2010




1/26/2010
                                                                                                                                               1/26/2010      $450,100,000     $7,206,300,000 Initial 2MP cap

                                                                                                                                               3/26/2010      $905,010,000     $8,111,310,000 Updated portfolio data from servicer

                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                  209
                                                                                                                                                                                                                                                                             210
Table D.9

 HAMP TRANSACTION DETAIL, AS OF 3/31/2010
            Servicer Modifying Borrowers’ Loans                                                      Cap of Incentive Payments                                                 Adjustment Details
                                                                                                     on Behalf of Borrowers and
                                                  Transaction                                           to Servicers & Lenders/ Pricing       Adjustment   Cap Adjustment        Adjusted Reason for Adjustment                                     Market Capitalization
            Name of Institution
Date                                              Type          Investment Description                          Investors (Cap) 1 Mechanism   Date                Amount             Cap                                                                     (in Millions)

                                                                                                                                              6/12/2009     $128,300,000    $447,300,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009      $46,730,000    $494,030,000 Updated portfolio data from servicer & HPDP initial cap
            Home Loan Services, Inc.,                           Financial Instrument for Home Loan
4/20/2009                                         Purchase                                                       $319,000,000 N/A
            Pittsburgh, PA                                      Modifications
                                                                                                                                              12/30/2009    $145,820,000    $639,850,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                                              3/26/2010     ($17,440,000)   $622,410,000 Updated portfolio data from servicer

                                                                                                                                              6/12/2009      $87,130,000    $453,130,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009    ($249,670,000)   $203,460,000 Updated portfolio data from servicer & HPDP initial cap
            Wilshire Credit Corporation,                        Financial Instrument for Home Loan
4/20/2009                                         Purchase                                                       $366,000,000 N/A
            Beaverton, OR                                       Modifications
                                                                                                                                              12/30/2009    $119,700,000    $323,160,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                                              3/26/2010      $52,270,000    $375,430,000 Updated portfolio data from servicer

                                                                                                                                              6/17/2009     ($64,990,000)    $91,010,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009     $130,780,000    $221,790,000 Updated portfolio data from servicer & HPDP initial cap
            Green Tree Servicing LLC,                           Financial Instrument for Home Loan
4/24/2009                                         Purchase                                                       $156,000,000 N/A
            Saint Paul, MN                                      Modifications
                                                                                                                                              12/30/2009   ($116,750,000)   $105,040,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                                              3/26/2010      $13,080,000    $118,120,000 Updated portfolio data from servicer
                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I april 20, 2010




                                                                                                                                              6/17/2009     ($63,980,000)   $131,020,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009      $90,990,000    $222,010,000 Updated portfolio data from servicer & HPDP initial cap
            Carrington Mortgage Services, LLC,                  Financial Instrument for Home Loan
4/27/2009                                         Purchase                                                       $195,000,000 N/A
            Santa Ana, CA                                       Modifications
                                                                                                                                              12/30/2009     $57,980,000    $279,990,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                                              3/26/2010      $74,520,000    $354,510,000 Updated portfolio data from servicer

                                                                                                                                              6/17/2009    ($338,450,000)   $459,550,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009     ($11,860,000)   $447,690,000 Updated portfolio data from servicer & HPDP initial cap
            Aurora Loan Services, LLC,                          Financial Instrument for Home Loan
5/1/2009                                          Purchase                                                       $798,000,000 N/A
            Littleton, CO                                       Modifications
                                                                                                                                              12/30/2009     $21,330,000    $469,020,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                                              3/26/2010       $9,150,000    $478,170,000 Updated portfolio data from servicer

                                                                                                                                              6/12/2009      $16,140,000    $117,140,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009     $134,560,000    $251,700,000 Updated portfolio data from servicer & HPDP initial cap
            Nationstar Mortgage LLC,                            Financial Instrument for Home Loan
5/28/2009                                         Purchase                                                       $101,000,000 N/A
            Lewisville, TX                                      Modifications
                                                                                                                                              12/30/2009     $80,250,000    $331,950,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                                              3/26/2010      $67,250,000    $399,200,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009      ($1,860,000)    $17,540,000 Updated portfolio data from servicer & HPDP initial cap
            Residential Credit Solutions,                       Financial Instrument for Home Loan
6/12/2009                                         Purchase                                                        $19,400,000 N/A             12/30/2009     $27,920,000     $45,460,000 Updated portfolio data from servicer & HAFA initial cap
            Fort Worth, TX                                      Modifications
                                                                                                                                              3/26/2010      ($1,390,000)    $44,070,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009      $13,070,000     $29,590,000 Updated portfolio data from servicer & HPDP initial cap
                                                                Financial Instrument for Home Loan
6/17/2009   CCO Mortgage, Glen Allen, VA          Purchase                                                        $16,520,000 N/A             12/30/2009    $145,510,000    $175,100,000 Updated portfolio data from servicer & HAFA initial cap
                                                                Modifications
                                                                                                                                              3/26/2010    ($116,950,000)    $58,150,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009     ($11,300,000)    $45,700,000 Updated portfolio data from servicer & HPDP initial cap
            RG Mortgage Corporation,                            Financial Instrument for Home Loan
6/17/2009                                         Purchase                                                        $57,000,000 N/A             12/30/2009    ($42,210,000)     $3,490,000 Updated portfolio data from servicer & HAFA initial cap
            San Juan, PR                                        Modifications
                                                                                                                                              3/26/2010      $65,640,000     $69,130,000 Updated portfolio data from servicer

                                                                                                                                              12/30/2009      $2,020,000      $2,790,000 Updated portfolio data from servicer & HAFA initial cap
            First Federal Savings and Loan,                     Financial Instrument for Home Loan
6/19/2009                                         Purchase                                                           $770,000 N/A
            Port Angeles, WA                                    Modifications
                                                                                                                                              3/26/2010      $11,370,000     $14,160,000 Updated portfolio data from servicer

                                                                                                                                                                                                                                                   Continued on next page.
Table D.9

 HAMP TRANSACTION DETAIL, AS OF 3/31/2010
            Servicer Modifying Borrowers’ Loans                                                      Cap of Incentive Payments                                                     Adjustment Details
                                                                                                     on Behalf of Borrowers and
                                                  Transaction                                           to Servicers & Lenders/ Pricing       Adjustment    Cap Adjustment           Adjusted Reason for Adjustment                                     Market Capitalization
            Name of Institution
Date                                              Type          Investment Description                          Investors (Cap) 1 Mechanism   Date                 Amount                Cap                                                                     (in Millions)

                                                                                                                                              9/30/2009           $330,000          $870,000 Updated portfolio data from servicer & HPDP initial cap
            Wescom Central Credit Union,                        Financial Instrument for Home Loan
6/19/2009                                         Purchase                                                           $540,000 N/A             12/30/2009       $16,490,000       $17,360,000 Updated portfolio data from servicer & HAFA initial cap
            Anaheim, CA                                         Modifications
                                                                                                                                              3/26/2010      ($14,260,000)        $3,100,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009           ($10,000)          $20,000 Updated portfolio data from servicer & HPDP initial cap
            Citizens First Wholesale Mortgage                   Financial Instrument for Home Loan
6/26/2009                                         Purchase                                                            $30,000 N/A             12/30/2009          $590,000          $610,000 Updated portfolio data from servicer & HAFA initial cap
            Company, The Villages, FL                           Modifications
                                                                                                                                              3/26/2010         ($580,000)           $30,000 Updated portfolio data from servicer

6/26/2009   Technology Credit Union,              Purchase      Financial Instrument for Home Loan                    $70,000 N/A             12/30/2009        $2,180,000        $2,250,000 Updated portfolio data from servicer & HAFA initial cap
            San Jose, CA                                        Modifications
                                                                                                                                              3/26/2010         ($720,000)        $1,530,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009      $315,170,000      $610,150,000 Updated portfolio data from servicer & HPDP initial cap
                                                                Financial Instrument for Home Loan
6/26/2009   National City Bank, Miamisburg, OH    Purchase                                                       $294,980,000 N/A             12/30/2009       $90,280,000     $700,430,000 Updated portfolio data from servicer & HAFA initial cap
                                                                Modifications
                                                                                                                                              3/26/2010      ($18,690,000)     $681,740,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009      $723,880,000     $1,357,890,000 Updated portfolio data from servicer & HPDP initial cap

                                       3                                                                                                      12/30/2009     $692,640,000     $2,050,530,000 Updated portfolio data from servicer & HAFA initial cap
            Wachovia Mortgage, FSB,                             Financial Instrument for Home Loan
7/1/2009                                          Purchase                                                       $634,010,000 N/A
            Des Moines, IA                                      Modifications
                                                                                                                                              2/17/2010    ($2,050,236,344)         $293,656 Transfer of cap (to Wells Fargo Bank) due to merger

                                                                                                                                              3/12/2010           ($54,767)         $238,890 Transfer of cap (to Wells Fargo Bank) due to merger

                                                                                                                                              9/30/2009        $23,850,000       $68,110,000 Updated portfolio data from servicer & HPDP initial cap
            Bayview Loan Servicing, LLC,                        Financial Instrument for Home Loan
7/1/2009                                          Purchase                                                        $44,260,000 N/A             12/30/2009       $43,590,000     $111,700,000 Updated portfolio data from servicer & HAFA initial cap
            Coral Gables, FL                                    Modifications
                                                                                                                                              3/26/2010        $34,540,000     $146,240,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009           $150,000          $250,000 Updated portfolio data from servicer & HPDP initial cap
                                                                Financial Instrument for Home Loan
7/10/2009   Lake National Bank, Mentor, OH        Purchase                                                           $100,000 N/A             12/30/2009          $130,000          $380,000 Updated portfolio data from servicer & HAFA initial cap
                                                                Modifications
                                                                                                                                              3/26/2010            $50,000          $430,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009           ($10,000)         $860,000 Updated portfolio data from servicer & HPDP initial cap
            IBM Southeast Employees’ Federal                    Financial Instrument for Home Loan
7/10/2009                                         Purchase                                                           $870,000 N/A             12/30/2009          $250,000        $1,110,000 Updated portfolio data from servicer & HAFA initial cap
            Credit Union, Delray Beach, FL                      Modifications
                                                                                                                                              3/26/2010           ($10,000)       $1,100,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009        $18,530,000       $42,010,000 Updated portfolio data from servicer & HPDP initial cap
                                                                Financial Instrument for Home Loan
7/17/2009   MorEquity, Inc., Evansville, IN       Purchase                                                        $23,480,000 N/A             12/30/2009       $24,510,000       $66,520,000 Updated portfolio data from servicer & HAFA initial cap
                                                                Modifications
                                                                                                                                              3/26/2010        $18,360,000       $84,880,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009      ($36,240,000)       $18,230,000 Updated portfolio data from servicer & HPDP initial cap
            PNC Bank, National Association,                     Financial Instrument for Home Loan
7/17/2009                                         Purchase                                                        $54,470,000 N/A             12/30/2009       $19,280,000       $37,510,000 Updated portfolio data from servicer & HAFA initial cap                 $30,889
            Pittsburgh, PA                                      Modifications
                                                                                                                                              3/26/2010         $2,470,000       $39,980,000 Updated portfolio data from servicer

                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I april 20, 2010
                                                                                                                                                                                                                                                                                 211
                                                                                                                                                                                                                                                                                212
Table D.9

 HAMP TRANSACTION DETAIL, AS OF 3/31/2010
            Servicer Modifying Borrowers’ Loans                                                       Cap of Incentive Payments                                                   Adjustment Details
                                                                                                      on Behalf of Borrowers and
                                                   Transaction                                           to Servicers & Lenders/ Pricing       Adjustment   Cap Adjustment          Adjusted Reason for Adjustment                                     Market Capitalization
            Name of Institution
Date                                               Type          Investment Description                          Investors (Cap) 1 Mechanism   Date                Amount               Cap                                                                     (in Millions)

                                                                                                                                               9/30/2009         ($90,000)          $80,000 Updated portfolio data from servicer & HPDP initial cap
                                                                 Financial Instrument for Home Loan
7/17/2009   Farmers State Bank, West Salem, OH     Purchase                                                           $170,000 N/A             12/30/2009         $50,000          $130,000 Updated portfolio data from servicer & HAFA initial cap
                                                                 Modifications
                                                                                                                                               3/26/2010         $100,000          $230,000 Updated portfolio data from servicer

                                                                                                                                               9/30/2009         $890,000        $2,300,000 Updated portfolio data from servicer & HPDP initial cap
                                                                 Financial Instrument for Home Loan
7/17/2009   ShoreBank, Chicago, IL                 Purchase                                                         $1,410,000 N/A             12/30/2009      $1,260,000        $3,560,000 Updated portfolio data from servicer & HAFA initial cap
                                                                 Modifications
                                                                                                                                               3/26/2010         ($20,000)       $3,540,000 Updated portfolio data from servicer

                                                                                                                                               9/30/2009     ($53,670,000)   $1,218,820,000 Updated portfolio data from servicer & HPDP initial cap
            American Home Mortgage Servicing,                    Financial Instrument for Home Loan
7/22/2009                                          Purchase                                                     $1,272,490,000 N/A             12/30/2009    $250,450,000    $1,469,270,000 Updated portfolio data from servicer & HAFA initial cap
            Inc, Coppell, TX                                     Modifications
                                                                                                                                               3/26/2010     $124,820,000    $1,594,090,000 Updated portfolio data from servicer

                                                                                                                                               9/30/2009       $1,780,000        $5,990,000 Updated portfolio data from servicer & HPDP initial cap
                                                                 Financial Instrument for Home Loan
7/22/2009   Mortgage Center, LLC, Southfield, MI   Purchase                                                         $4,210,000 N/A             12/30/2009      $2,840,000        $8,830,000 Updated portfolio data from servicer & HAFA initial cap
                                                                 Modifications
                                                                                                                                               3/26/2010       $2,800,000       $11,630,000 Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I april 20, 2010




                                                                                                                                               9/30/2009        ($490,000)         $370,000 Updated portfolio data from servicer & HPDP initial cap
            Mission Federal Credit Union,                        Financial Instrument for Home Loan
7/22/2009                                          Purchase                                                           $860,000 N/A             12/30/2009      $6,750,000        $7,120,000 Updated portfolio data from servicer & HAFA initial cap
            San Diego, CA                                        Modifications
                                                                                                                                               3/26/2010      ($6,340,000)         $780,000 Updated portfolio data from servicer

                                                                                                                                               9/30/2009      ($1,530,000)       $4,930,000 Updated portfolio data from servicer & HPDP initial cap
                                                                 Financial Instrument for Home Loan
7/29/2009   First Bank, St. Louis, MO              Purchase                                                         $6,460,000 N/A             12/30/2009        $680,000        $5,610,000 Updated portfolio data from servicer & HAFA initial cap
                                                                 Modifications
                                                                                                                                               3/26/2010       $2,460,000        $8,070,000 Updated portfolio data from servicer

                                                                                                                                               9/30/2009         ($60,000)       $1,030,000 Updated portfolio data from servicer & HPDP initial cap
            Purdue Employees Federal                             Financial Instrument for Home Loan
7/29/2009                                          Purchase                                                         $1,090,000 N/A             12/30/2009      $1,260,000        $2,290,000 Updated portfolio data from servicer & HAFA initial cap
            Credit Union, West Lafayette, IN                     Modifications
                                                                                                                                               3/26/2010       $2,070,000        $4,360,000 Updated portfolio data from servicer

                                                                                                                                               9/30/2009     ($37,700,000)      $47,320,000 Updated portfolio data from servicer & HPDP initial cap
                                                                 Financial Instrument for Home Loan
7/29/2009   Wachovia Bank, N.A., Charlotte, NC     Purchase                                                        $85,020,000 N/A             12/30/2009     $26,160,000       $73,480,000 Updated portfolio data from servicer & HAFA initial cap
                                                                 Modifications
                                                                                                                                               3/26/2010       $9,820,000       $83,300,000 Updated portfolio data from servicer

                                                                                                                                               9/30/2009     ($14,850,000)   $2,684,870,000 Updated portfolio data from servicer & HPDP initial cap
            J.P.Morgan Chase Bank, NA,                           Financial Instrument for Home Loan
7/31/2009                                          Purchase                                                     $2,699,720,000 N/A             12/30/2009   $1,178,180,000   $3,863,050,000 Updated portfolio data from servicer & HAFA initial cap                $177,792
            Lewisville, TX                                       Modifications
                                                                                                                                               3/26/2010    $1,006,580,000   $4,869,630,000 Updated portfolio data from servicer & 2MP initial cap

                                                                                                                                               9/30/2009         ($10,000)    $707,370,000 Updated portfolio data from servicer & HPDP initial cap
            EMC Mortgage Corporation,                            Financial Instrument for Home Loan
7/31/2009                                          Purchase                                                       $707,380,000 N/A             12/30/2009    $502,430,000    $1,209,800,000 Updated portfolio data from servicer & HAFA initial cap
            Lewisville, TX                                       Modifications
                                                                                                                                               3/26/2010    ($134,560,000)   $1,075,240,000 Updated portfolio data from servicer & 2MP initial cap

                                                                                                                                               9/30/2009         $180,000          $600,000 Updated portfolio data from servicer & HPDP initial cap
                                                                 Financial Instrument for Home Loan
8/5/2009    Lake City Bank, Warsaw, IN             Purchase                                                           $420,000 N/A             12/30/2009       ($350,000)         $250,000 Updated portfolio data from servicer & HAFA initial cap
                                                                 Modifications
                                                                                                                                               3/26/2010          $20,000          $270,000 Updated portfolio data from servicer

                                                                                                                                               9/30/2009         $290,000          $430,000 Updated portfolio data from servicer & HPDP initial cap
            Oakland Municipal Credit Union,                      Financial Instrument for Home Loan
8/5/2009                                           Purchase                                                           $140,000 N/A             12/30/2009        $210,000          $640,000 Updated portfolio data from servicer & HAFA initial cap
            Oakland, CA                                          Modifications
                                                                                                                                               3/26/2010         $170,000          $810,000 Updated portfolio data from servicer

                                                                                                                                                                                                                                                      Continued on next page.
Table D.9

 HAMP TRANSACTION DETAIL, AS OF 3/31/2010
            Servicer Modifying Borrowers’ Loans                                                      Cap of Incentive Payments                                                   Adjustment Details
                                                                                                     on Behalf of Borrowers and
                                                  Transaction                                           to Servicers & Lenders/ Pricing       Adjustment   Cap Adjustment          Adjusted Reason for Adjustment                                     Market Capitalization
            Name of Institution
Date                                              Type          Investment Description                          Investors (Cap) 1 Mechanism   Date                Amount               Cap                                                                     (in Millions)

                                                                                                                                              9/30/2009    ($121,190,000)    $552,810,000 Updated portfolio data from servicer & HPDP initial cap
            HomEq Servicing,                                    Financial Instrument for Home Loan
8/5/2009                                          Purchase                                                       $674,000,000 N/A             12/30/2009    ($36,290,000)    $516,520,000 Updated portfolio data from servicer & HAFA initial cap
            North Highlands, CA                                 Modifications
                                                                                                                                              3/26/2010     $199,320,000     $715,840,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009     $313,050,000    $1,087,950,000 Updated portfolio data from servicer & HPDP initial cap
            Litton Loan Servicing LP,                           Financial Instrument for Home Loan
8/12/2009                                         Purchase                                                       $774,900,000 N/A             12/30/2009    $275,370,000    $1,363,320,000 Updated portfolio data from servicer & HAFA initial cap
            Houston, TX                                         Modifications
                                                                                                                                              3/26/2010     $278,910,000    $1,642,230,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009      ($1,200,000)       $5,010,000 Updated portfolio data from servicer & HPDP initial cap
            PennyMac Loan Services, LLC,                        Financial Instrument for Home Loan
8/12/2009                                         Purchase                                                         $6,210,000 N/A             12/30/2009     $30,800,000       $35,810,000 Updated portfolio data from servicer & HAFA initial cap
            Calasbasa, CA                                       Modifications
                                                                                                                                              3/26/2010      $23,200,000       $59,010,000 Updated portfolio data from servicer

                                                                                                                                              9/30/2009     ($25,510,000)       $4,220,000 Updated portfolio data from servicer & HPDP initial cap
                                                                Financial Instrument for Home Loan
8/12/2009   Servis One, Inc., Titusville, PA      Purchase                                                        $29,730,000 N/A             12/30/2009        $520,000        $4,740,000 Updated portfolio data from servicer & HAFA initial cap
                                                                Modifications
                                                                                                                                              3/26/2010       $4,330,000        $9,070,000 Updated portfolio data from servicer

                                                                                                                                              10/2/2009     $145,800,000     $814,240,000 HPDP initial cap
                                                                Financial Instrument for Home Loan
8/28/2009   OneWest Bank, Pasadena, CA            Purchase                                                       $668,440,000 N/A             12/30/2009   $1,355,930,000   $2,170,170,000 Updated portfolio data from servicer & HAFA initial cap
                                                                Modifications
                                                                                                                                              3/26/2010     $121,180,000    $2,291,350,000 Updated portfolio data from servicer

                                                                                                                                              10/2/2009          $70,000          $370,000 HPDP initial cap
            Stanford Federal Credit Union, Palo                 Financial Instrument for Home Loan
8/28/2009                                         Purchase                                                           $300,000 N/A             12/30/2009      $2,680,000        $3,050,000 Updated portfolio data from servicer & HAFA initial cap
            Alto, CA                                            Modifications
                                                                                                                                              3/26/2010         $350,000        $3,400,000 Updated portfolio data from servicer

                                                                                                                                              10/2/2009         $130,000          $700,000 HPDP initial cap
            RoundPoint Mortgage Servicing                       Financial Instrument for Home Loan
8/28/2009                                         Purchase                                                           $570,000 N/A             12/30/2009       ($310,000)         $390,000 Updated portfolio data from servicer & HAFA initial cap
            Corporation, Charlotte, NC                          Modifications
                                                                                                                                              3/26/2010       $2,110,000        $2,500,000 Updated portfolio data from servicer

                                                                                                                                              10/2/2009         $130,000          $690,000 HPDP initial cap
                                                                Financial Instrument for Home Loan
9/2/2009    Horicon Bank, Horicon, WI             Purchase                                                           $560,000 N/A             12/30/2009      $1,040,000        $1,730,000 Updated portfolio data from servicer & HAFA initial cap
                                                                Modifications
                                                                                                                                              3/26/2010      ($1,680,000)          $50,000 Updated portfolio data from servicer

                                                                                                                                              10/2/2009       $1,310,000        $7,310,000 HPDP initial cap
                                                                Financial Instrument for Home Loan
9/2/2009    Vantium Capital, Inc., Plano, TX      Purchase                                                         $6,000,000 N/A             12/30/2009     ($3,390,000)       $3,920,000 Updated portfolio data from servicer & HAFA initial cap
                                                                Modifications
                                                                                                                                              3/26/2010         $410,000        $4,330,000 Updated portfolio data from servicer

                                                                                                                                              10/2/2009         $280,000        $1,530,000 HPDP initial cap
            Central Florida Educators
                                                                Financial Instrument for Home Loan
9/9/2009    Federal Credit Union,                 Purchase                                                         $1,250,000 N/A             12/30/2009       ($750,000)         $780,000 Updated portfolio data from servicer & HAFA initial cap
                                                                Modifications
            Lake Mary, FL
                                                                                                                                              3/26/2010         $120,000          $900,000 Updated portfolio data from servicer

                                                                                                                                              10/2/2009      $24,920,000     $139,140,000 HPDP initial cap
            U.S. Bank National Association,                     Financial Instrument for Home Loan
9/9/2009                                          Purchase                                                       $114,220,000 N/A             12/30/2009     $49,410,000     $188,550,000 Updated portfolio data from servicer & HAFA initial cap
            Owensboro, KY                                       Modifications
                                                                                                                                              3/26/2010      $41,830,000     $230,380,000 Updated portfolio data from servicer

                                                                                                                                              10/2/2009         $950,000        $5,300,000 HPDP initial cap
            CUC Mortgage Corporation,                           Financial Instrument for Home Loan
9/9/2009                                          Purchase                                                         $4,350,000 N/A             12/30/2009      $5,700,000       $11,000,000 Updated portfolio data from servicer & HAFA initial cap
            Albany, NY                                          Modifications
                                                                                                                                              3/26/2010         $740,000       $11,740,000 Updated portfolio data from servicer
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I april 20, 2010




                                                                                                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                                                                                                               213
                                                                                                                                                                                                                                                                               214
Table D.9

 HAMP TRANSACTION DETAIL, AS OF 3/31/2010
             Servicer Modifying Borrowers’ Loans                                                       Cap of Incentive Payments                                                 Adjustment Details
                                                                                                       on Behalf of Borrowers and
                                                    Transaction                                           to Servicers & Lenders/ Pricing       Adjustment   Cap Adjustment        Adjusted Reason for Adjustment                                     Market Capitalization
             Name of Institution
Date                                                Type          Investment Description                          Investors (Cap) 1 Mechanism   Date                Amount             Cap                                                                     (in Millions)

                                                                                                                                                10/2/2009         $460,000      $2,530,000 HPDP initial cap
             ORNL Federal Credit Union,                           Financial Instrument for Home Loan
9/11/2009                                           Purchase                                                         $2,070,000 N/A             12/30/2009      $2,730,000      $5,260,000 Updated portfolio data from servicer & HAFA initial cap
             Oak Ridge, TN                                        Modifications
                                                                                                                                                3/26/2010      $13,280,000     $18,540,000 Updated portfolio data from servicer

                                                                                                                                                10/2/2009          $60,000        $310,000 HPDP initial cap
             Allstate Mortgage Loans &                            Financial Instrument for Home Loan
9/11/2009                                           Purchase                                                           $250,000 N/A             12/30/2009        ($80,000)       $230,000 Updated portfolio data from servicer & HAFA initial cap
             Investments, Inc., Ocala, FL                         Modifications
                                                                                                                                                3/26/2010         $280,000        $510,000 Updated portfolio data from servicer

                                                                                                                                                10/2/2009          $70,000        $350,000 HPDP initial cap
             Metropolitan National Bank,                          Financial Instrument for Home Loan
9/11/2009                                           Purchase                                                           $280,000 N/A             12/30/2009        $620,000        $970,000 Updated portfolio data from servicer & HAFA initial cap
             Little Rock, AR                                      Modifications
                                                                                                                                                3/26/2010         $100,000      $1,070,000 Updated portfolio data from servicer

                                                                                                                                                10/2/2009       $6,010,000     $33,520,000 HPDP initial cap
             Franklin Credit Management                           Financial Instrument for Home Loan
9/11/2009                                           Purchase                                                        $27,510,000 N/A             12/30/2009    ($19,750,000)    $13,770,000 Updated portfolio data from servicer & HAFA initial cap
             Corporation, Jersey City, NJ                         Modifications
                                                                                                                                                3/26/2010      ($4,780,000)     $8,990,000 Updated portfolio data from servicer
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I april 20, 2010




                                                                                                                                                10/2/2009          $90,000        $500,000 HPDP initial cap
             Bay Federal Credit Union,                            Financial Instrument for Home Loan
9/16/2009                                           Purchase                                                           $410,000 N/A             12/30/2009      $1,460,000      $1,960,000 Updated portfolio data from servicer & HAFA initial cap
             Capitola, CA                                         Modifications
                                                                                                                                                3/26/2010         $160,000      $2,120,000 Updated portfolio data from servicer

                                                                                                                                                10/2/2009         $960,000      $5,350,000 HPDP initial cap
                                                                  Financial Instrument for Home Loan
9/23/2009    AMS Servicing, LLC, Buffalo, NY        Purchase                                                         $4,390,000 N/A             12/30/2009     ($3,090,000)     $2,260,000 Updated portfolio data from servicer & HAFA initial cap
                                                                  Modifications
                                                                                                                                                3/26/2010         $230,000      $2,490,000 Updated portfolio data from servicer

                                                                                                                                                10/2/2009          $90,000        $480,000 HPDP initial cap
             Schools Financial Credit Union,                      Financial Instrument for Home Loan
9/23/2009                                           Purchase                                                           $390,000 N/A             12/30/2009        $940,000      $1,420,000 Updated portfolio data from servicer & HAFA initial cap
             Sacramento, CA                                       Modifications
                                                                                                                                                3/26/2010        ($980,000)       $440,000 Updated portfolio data from servicer

                                                                                                                                                10/2/2009          $60,000        $290,000 HPDP initial cap
             Glass City Federal Credit Union,                     Financial Instrument for Home Loan
9/23/2009                                           Purchase                                                           $230,000 N/A             12/30/2009        ($10,000)       $280,000 Updated portfolio data from servicer & HAFA initial cap
             Maumee, OH                                           Modifications
                                                                                                                                                3/26/2010         $130,000        $410,000 Updated portfolio data from servicer

                                                                                                                                                10/2/2009          $10,000         $40,000 HPDP initial cap
             Central Jersey Federal Credit Union,                 Financial Instrument for Home Loan
9/23/2009                                           Purchase                                                            $30,000 N/A             12/30/2009        $120,000        $160,000 Updated portfolio data from servicer & HAFA initial cap
             Woodbridge, NJ                                       Modifications
                                                                                                                                                3/26/2010          $10,000        $170,000 Updated portfolio data from servicer

                                                                                                                                                10/2/2009          $60,000        $300,000 HPDP initial cap
                                                                  Financial Instrument for Home Loan
9/23/2009    Yadkin Valley Bank, Elkin, NC          Purchase                                                           $240,000 N/A             12/30/2009        $350,000        $650,000 Updated portfolio data from servicer & HAFA initial cap                      $69
                                                                  Modifications
                                                                                                                                                3/26/2010       $1,360,000      $2,010,000 Updated portfolio data from servicer

                                                                                                                                                10/2/2009         $100,000        $540,000 HPDP initial cap
                                                                  Financial Instrument for Home Loan
9/25/2009    SEFCU, Albany, NY                      Purchase                                                           $440,000 N/A             12/30/2009         $20,000        $560,000 Updated portfolio data from servicer & HAFA initial cap
                                                                  Modifications
                                                                                                                                                3/26/2010        ($290,000)       $270,000 Updated portfolio data from servicer

                                                                                                                                                12/30/2009      $1,030,000      $1,600,000 Updated portfolio data from servicer & HAFA initial cap
             Great Lakes Credit Union,                            Financial Instrument for Home Loan
10/14/2009                                          Purchase                                                           $570,000 N/A
             North Chicago, IL                                    Modifications
                                                                                                                                                3/26/2010        ($880,000)       $720,000 Updated portfolio data from servicer

                                                                                                                                                12/30/2009     ($2,900,000)     $1,960,000 Updated portfolio data from servicer & HAFA initial cap
             Mortgage Clearing Corporation,                       Financial Instrument for Home Loan
10/14/2009                                          Purchase                                                         $4,860,000 N/A
             Tulsa, OK                                            Modifications
                                                                                                                                                3/26/2010      ($1,600,000)       $360,000 Updated portfolio data from servicer

                                                                                                                                                1/22/2010          $20,000        $430,000 Updated HPDP cap & HAFA initial cap
             United Bank Mortgage Corporation,                    Financial Instrument for Home Loan
10/21/2009                                          Purchase                                                           $410,000 N/A
             Grand Rapids, MI                                     Modifications
                                                                                                                                                3/26/2010         $400,000        $830,000 Updated portfolio data from servicer

                                                                                                                                                1/22/2010       $4,370,000     $98,030,000 Updated HPDP cap & HAFA initial cap
                                                                  Financial Instrument for Home Loan
10/23/2009   Bank United, Miami Lakes, FL           Purchase                                                        $93,660,000 N/A
                                                                  Modifications
                                                                                                                                                3/26/2010      $23,880,000    $121,910,000 Updated portfolio data from servicer

                                                                                                                                                                                                                                                     Continued on next page.
Table D.9

 HAMP TRANSACTION DETAIL, AS OF 3/31/2010
             Servicer Modifying Borrowers’ Loans                                                         Cap of Incentive Payments                                                Adjustment Details
                                                                                                         on Behalf of Borrowers and
                                                      Transaction                                           to Servicers & Lenders/ Pricing       Adjustment   Cap Adjustment       Adjusted Reason for Adjustment                  Market Capitalization
             Name of Institution
Date                                                  Type          Investment Description                          Investors (Cap) 1 Mechanism   Date                Amount            Cap                                                  (in Millions)

                                                                                                                                                  1/22/2010          $40,000       $800,000 Updated HPDP cap & HAFA initial cap
                                                                    Financial Instrument for Home Loan
10/23/2009   IC Federal Credit Union, Fitchburg, MA Purchase                                                             $760,000 N/A
                                                                    Modifications
                                                                                                                                                  3/26/2010        ($760,000)       $40,000 Updated portfolio data from servicer

             Harleysville National Bank & Trust                     Financial Instrument for Home Loan
10/28/2009                                            Purchase                                                         $1,070,000 N/A
             Company, Harleysville, PA                              Modifications

             Members Mortgage Company, Inc,                         Financial Instrument for Home Loan
10/28/2009                                            Purchase                                                           $510,000 N/A
             Woburn, MA                                             Modifications

                                                                                                                                                  1/22/2010          $10,000        $80,000 Updated HPDP cap & HAFA initial cap
                                                                    Financial Instrument for Home Loan
10/30/2009   DuPage Credit Union, Naperville, IL      Purchase                                                            $70,000 N/A
                                                                    Modifications
                                                                                                                                                  3/26/2010          $10,000        $90,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010          $40,000       $740,000 Updated HPDP cap & HAFA initial cap
             Los Alamos National Bank,                              Financial Instrument for Home Loan
11/6/2009                                             Purchase                                                           $700,000 N/A
             Los Alamos, NM                                         Modifications
                                                                                                                                                  3/26/2010          $50,000       $790,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010         $890,000    $19,850,000 Updated HPDP cap & HAFA initial cap
             Quantum Servicing Corporation,                         Financial Instrument for Home Loan
11/18/2009                                            Purchase                                                        $18,960,000 N/A
             Tampa, FL                                              Modifications
                                                                                                                                                  3/26/2010       $3,840,000    $23,690,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010          $80,000     $1,750,000 Updated HPDP cap & HAFA initial cap
             Hillsdale County National Bank,                        Financial Instrument for Home Loan
11/18/2009                                            Purchase                                                         $1,670,000 N/A
             Hillsdale, MI                                          Modifications
                                                                                                                                                  3/26/2010         $330,000     $2,080,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010               $0        $20,000 Updated HPDP cap & HAFA initial cap
                                                                    Financial Instrument for Home Loan
11/18/2009   QLending, Inc., Coral Gables, FL         Purchase                                                            $20,000 N/A
                                                                    Modifications
                                                                                                                                                  3/26/2010         ($10,000)       $10,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010         $950,000    $21,310,000 Updated HPDP cap & HAFA initial cap
                                                                    Financial Instrument for Home Loan
11/25/2009   Marix Servicing, LLC, Pheonix, AZ        Purchase                                                        $20,360,000 N/A
                                                                    Modifications
                                                                                                                                                  3/26/2010     ($17,880,000)    $3,430,000 Updated portfolio data from servicer

             Home Financing Center, Inc, Coral                      Financial Instrument for Home Loan
11/25/2009                                            Purchase                                                           $230,000 N/A
             Gables, FL                                             Modifications

                                                                                                                                                  1/22/2010          $50,000     $1,330,000 Updated HPDP cap & HAFA initial cap
                                                                    Financial Instrument for Home Loan
11/25/2009   First Keystone Bank, Media, PA           Purchase                                                         $1,280,000 N/A
                                                                    Modifications
                                                                                                                                                  3/26/2010       $1,020,000     $2,350,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010          $10,000       $390,000 Updated HPDP cap & HAFA initial cap
             Community Bank & Trust Company,                        Financial Instrument for Home Loan
12/4/2009                                             Purchase                                                           $380,000 N/A
             Clark Summit, PA                                       Modifications
                                                                                                                                                  3/26/2010         $520,000       $910,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010         $440,000     $9,870,000 Updated HPDP cap & HAFA initial cap
             Idaho Housing and Finance                              Financial Instrument for Home Loan
12/4/2009                                             Purchase                                                         $9,430,000 N/A
             Association, Boise, ID                                 Modifications
                                                                                                                                                  3/26/2010      $14,480,000    $24,350,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010          $10,000       $370,000 Updated HPDP cap & HAFA initial cap
             Spirit of Alaska Federal Credit Union,                 Financial Instrument for Home Loan
12/9/2009                                             Purchase                                                           $360,000 N/A
             Fairbanks, AK                                          Modifications
                                                                                                                                                  3/26/2010         $850,000     $1,220,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010          $70,000     $1,660,000 Updated HPDP cap & HAFA initial cap
             American Eagle Federal Credit Union,                   Financial Instrument for Home Loan
12/9/2009                                             Purchase                                                         $1,590,000 N/A
             East Hartford, CT                                      Modifications
                                                                                                                                                  3/26/2010        ($290,000)    $1,370,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010          $90,000     $1,970,000 Updated HPDP cap & HAFA initial cap
             Silver State Schools Credit Union,                     Financial Instrument for Home Loan
12/9/2009                                             Purchase                                                         $1,880,000 N/A
             Las Vegas, NV                                          Modifications
                                                                                                                                                  3/26/2010       $1,110,000     $3,080,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010         $140,000     $3,080,000 Updated HPDP cap & HAFA initial cap
             Fidelity Homestead Savings Bank,                       Financial Instrument for Home Loan
12/9/2009                                             Purchase                                                         $2,940,000 N/A
             New Orleans, LA                                        Modifications
                                                                                                                                                  3/26/2010       $6,300,000     $9,380,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010          $10,000       $240,000 Updated HPDP cap & HAFA initial cap
                                                                    Financial Instrument for Home Loan
12/9/2009    Bay Gulf Credit Union, Tampa, FL         Purchase                                                           $230,000 N/A
                                                                    Modifications
                                                                                                                                                  3/26/2010         $440,000       $680,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010         $290,000     $6,450,000 Updated HPDP cap & HAFA initial cap
             The Golden 1 Credit Union,                             Financial Instrument for Home Loan
12/9/2009                                             Purchase                                                         $6,160,000 N/A
             Sacramento, CA                                         Modifications
                                                                                                                                                  3/26/2010          $40,000     $6,490,000 Updated portfolio data from servicer
                                                                                                                                                                                                                                                             Transaction detail I Appendix D I april 20, 2010




                                                                                                                                                  1/22/2010         $100,000     $2,350,000 Updated HPDP cap & HAFA initial cap
                                                                    Financial Instrument for Home Loan
12/9/2009    Sterling Savings Bank, Spokane, WA       Purchase                                                         $2,250,000 N/A
                                                                    Modifications
                                                                                                                                                  3/26/2010        ($740,000)    $1,610,000 Updated portfolio data from servicer

                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                             215
                                                                                                                                                                                                                                                             216
Table D.9

 HAMP TRANSACTION DETAIL, AS OF 3/31/2010
             Servicer Modifying Borrowers’ Loans                                                         Cap of Incentive Payments                                                Adjustment Details
                                                                                                         on Behalf of Borrowers and
                                                      Transaction                                           to Servicers & Lenders/ Pricing       Adjustment   Cap Adjustment       Adjusted Reason for Adjustment                  Market Capitalization
             Name of Institution
Date                                                  Type          Investment Description                          Investors (Cap) 1 Mechanism   Date                Amount            Cap                                                  (in Millions)

                                                                                                                                                  1/22/2010          $20,000       $330,000 Updated HPDP cap & HAFA initial cap
             HomeStar Bank & Financial Services,                    Financial Instrument for Home Loan
12/11/2009                                            Purchase                                                           $310,000 N/A
             Manteno, IL                                            Modifications
                                                                                                                                                  3/26/2010         $820,000     $1,150,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010          $20,000       $390,000 Updated HPDP cap & HAFA initial cap
                                                                    Financial Instrument for Home Loan
12/11/2009   Glenview State Bank, Glenview, IL        Purchase                                                           $370,000 N/A
                                                                    Modifications
                                                                                                                                                  3/26/2010       $1,250,000     $1,640,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010          $30,000       $630,000 Updated HPDP cap & HAFA initial cap
                                                                    Financial Instrument for Home Loan
12/11/2009   Verity Credit Union, Seattle, WA         Purchase                                                           $600,000 N/A
                                                                    Modifications
                                                                                                                                                  3/26/2010         $400,000     $1,030,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010          $30,000       $660,000 Updated HPDP cap & HAFA initial cap
                                                                    Financial Instrument for Home Loan
12/11/2009   Hartford Savings Bank, Hartford, WI      Purchase                                                           $630,000 N/A
                                                                    Modifications
                                                                                                                                                  3/26/2010         $800,000     $1,460,000 Updated portfolio data from servicer

             The Bryn Mawr Trust Co.,                               Financial Instrument for Home Loan
12/11/2009                                            Purchase                                                           $150,000 N/A
             Bryn Mawr, PA                                          Modifications

                                                                                                                                                  1/22/2010          $30,000       $650,000 Updated HPDP cap & HAFA initial cap
             Citizens 1st National Bank,                            Financial Instrument for Home Loan
12/16/2009                                            Purchase                                                           $620,000 N/A
             Spring Valley, IL                                      Modifications
                                                                                                                                                  3/26/2010        ($580,000)       $70,000 Updated portfolio data from servicer
                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I april 20, 2010




                                                                                                                                                  1/22/2010          $10,000       $180,000 Updated HPDP cap & HAFA initial cap
             Golden Plains Credit Union,                            Financial Instrument for Home Loan
12/16/2009                                            Purchase                                                           $170,000 N/A
             Garden City, KS                                        Modifications
                                                                                                                                                  3/26/2010          $30,000       $210,000 Updated portfolio data from servicer

             First Federal Savings and Loan
                                                                    Financial Instrument for Home Loan
12/16/2009   Association of Lakewood,                 Purchase                                                         $3,460,000 N/A             1/22/2010         $160,000     $3,620,000 Updated HPDP cap & HAFA initial cap
                                                                    Modifications
             Lakewood, OH

                                                                                                                                                  1/22/2010          $20,000       $460,000 Updated HPDP cap & HAFA initial cap
                                                                    Financial Instrument for Home Loan
12/16/2009   Sound Community Bank, Seattle, WA        Purchase                                                           $440,000 N/A
                                                                    Modifications
                                                                                                                                                  3/26/2010       $1,430,000     $1,890,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010          $30,000       $730,000 Updated HPDP cap & HAFA initial cap
                                                                    Financial Instrument for Home Loan
12/16/2009   Horizon Bank, NA, Michigan City, IN      Purchase                                                           $700,000 N/A
                                                                    Modifications
                                                                                                                                                  3/26/2010       $1,740,000     $2,470,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010          $40,000       $800,000 Updated HPDP cap & HAFA initial cap
             Park View Federal Savings Bank,                        Financial Instrument for Home Loan
12/16/2009                                            Purchase                                                           $760,000 N/A
             Solon, OH                                              Modifications
                                                                                                                                                  3/26/2010         $140,000       $940,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010         $200,000     $4,430,000 Updated HPDP cap & HAFA initial cap
                                                                    Financial Instrument for Home Loan
12/23/2009   Iberiabank, Sarasota, FL                 Purchase                                                         $4,230,000 N/A
                                                                    Modifications
                                                                                                                                                  3/26/2010      ($1,470,000)    $2,960,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010          $20,000       $360,000 Updated HPDP cap & HAFA initial cap
             Grafton Suburban Credit Union,                         Financial Instrument for Home Loan
12/23/2009                                            Purchase                                                           $340,000 N/A
             North Grafton, MA                                      Modifications
                                                                                                                                                  3/26/2010        ($320,000)       $40,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010               $0        $60,000 Updated HPDP cap & HAFA initial cap
             Eaton National Bank & Trust Company,                   Financial Instrument for Home Loan
12/23/2009                                        Purchase                                                                $60,000 N/A
             Eaton, OH                                              Modifications
                                                                                                                                                  3/26/2010          $90,000       $150,000 Updated portfolio data from servicer

                                                                                                                                                  1/22/2010               $0       $110,000 Updated HPDP cap & HAFA initial cap
             Tempe Schools Credit Union,                            Financial Instrument for Home Loan
12/23/2009                                            Purchase                                                           $110,000 N/A
             Tempe, AZ                                              Modifications
                                                                                                                                                  3/26/2010         ($20,000)       $90,000 Updated portfolio data from servicer

             Fresno County Federal Credit Union,                    Financial Instrument for Home Loan
1/13/2010                                             Purchase                                                           $260,000 N/A             3/26/2010         $480,000       $740,000 Updated portfolio data from servicer
             Fresno, CA                                             Modifications

                                                                    Financial Instrument for Home Loan
1/13/2010    Roebling Bank, Roebling, NJ              Purchase                                                           $240,000 N/A             3/26/2010         $610,000       $850,000 Updated portfolio data from servicer
                                                                    Modifications

             First National Bank of Grant Park,                     Financial Instrument for Home Loan
1/13/2010                                             Purchase                                                           $140,000 N/A             3/26/2010         $150,000       $290,000 Updated portfolio data from servicer
             Grant Park, IL                                         Modifications

             Specialized Loan Servicing, LLC,                       Financial Instrument for Home Loan
1/13/2010                                             Purchase                                                        $64,150,000 N/A             3/26/2010     ($51,240,000)   $12,910,000 Updated portfolio data from servicer
             Highlands Ranch, CO                                    Modifications

             Greater Nevada Mortgage Services,                      Financial Instrument for Home Loan
1/13/2010                                             Purchase                                                           $770,000 N/A             3/26/2010       $8,680,000     $9,450,000 Updated portfolio data from servicer
             Carson City, NV                                        Modifications

             Digital Federal Credit Union, Marlbor-                 Financial Instrument for Home Loan
1/15/2010                                             Purchase                                                         $3,050,000 N/A             3/26/2010      $12,190,000    $15,240,000 Updated portfolio data from servicer
             ough, MA                                               Modifications

                                                                                                                                                                                                                                   Continued on next page.
Table D.9

  HAMP TRANSACTION DETAIL, AS OF 3/31/2010
               Servicer Modifying Borrowers’ Loans                                                           Cap of Incentive Payments                                                                     Adjustment Details
                                                                                                             on Behalf of Borrowers and
                                                       Transaction                                              to Servicers & Lenders/ Pricing          Adjustment             Cap Adjustment                Adjusted Reason for Adjustment                                      Market Capitalization
               Name of Institution
Date                                                   Type             Investment Description                          Investors (Cap) 1 Mechanism      Date                          Amount                     Cap                                                                      (in Millions)

               iServe Residential Lending, LLC, San                     Financial Instrument for Home Loan
1/29/2010                                              Purchase                                                                $960,000 N/A              3/26/2010                   ($730,000)             $230,000 Updated portfolio data from servicer
               Diego, CA                                                Modifications

                                                                        Financial Instrument for Home Loan
1/29/2010      United Bank, Griffin, GA                Purchase                                                                $540,000 N/A              3/26/2010                     $160,000             $700,000 Updated portfolio data from servicer
                                                                        Modifications

3/3/2010       Urban Trust Bank, Lake Mary, FL         Purchase         Financial Instrument for Home Loan                   $1,060,000 N/A
                                                                        Modifications

3/5/2010       iServe Servicing, Inc., Irving, TX      Purchase         Financial Instrument for Home Loan                  $28,040,000 N/A
                                                                        Modifications

3/10/2010      Navy Federal Credit Union, Vienna, VA   Purchase         Financial Instrument for Home Loan                  $60,780,000 N/A
                                                                        Modifications

3/10/2010      Vist Financial Corp, Wyomissing, PA     Purchase         Financial Instrument for Home Loan                     $300,000 N/A
                                                                        Modifications

                                                                        Total Initial Cap                             $23,755,130,000                    Total Cap        $16,131,418,890.00
                                                                                                                                                         Adjustments

                                                                                                                             TOTAL CAP                                    $39,886,548,890.00

Notes: Numbers affected by rounding. Data as of 3/31/2010. Numbered notes and definitions taken verbatim from Treasury’s 4/2/2010 Transactions Report.
1
  The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors. The Cap is subject to adjustment based on the total amount allocated
  to the program and individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2
  On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
3
  Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.  
“HAFA” means the Home Affordable foreclosure Alternatives program.
“HPDP” means the Home Price Decline Protection program.
“2MP” means the Second Lien Modification Program.

Sources: Treasury, Transactions Report, 4/2/2010; Treasury, responses to SIGTARP data call, 4/7/2010 and 4/8/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 4/6/2010.
                                                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I april 20, 2010
                                                                                                                                                                                                                                                                                                           217
Table D.10                                                                                                                                                                                                                                                                                                           218
  UCSB Transaction Detail, as of 3/31/2010
                                                                      Purchase Details1                                                                                          Settlement Details                                                                 Final Disposition

                                            Institution                            Original        Pricing       Initial Investment            Settlement        Final Investment                                  Senior Security                    Life-to-date            Current Face        Disposition
Trade Date       Investment Description     Name             CUSIP              Face Value      Mechanism                  Amount 2 TBA3       Date              Amount                   TBA3                     Proceeds4          Trade Date      Principal Received1     Value               Amount5

3/19/2010        Floating Rate SBA 7a       Coastal          83164KYN7         $4,070,000            107.75            $4,377,249     N        3/24/2010         $4,377,249                                        $2,184
                 security due 2025          Securities, Inc.

3/19/2010        Floating Rate SBA 7a       Coastal          83165ADC5         $7,617,617               109            $8,279,156 N            3/24/2010         $8,279,156                                        $4,130
                 security due 2022          Securities, Inc.

3/19/2010        Floating Rate SBA 7a       Coastal          83165ADE1         $8,030,000           108.875            $8,716,265 N            3/24/2010         $8,716,265                                        $4,348
                 security due 2022          Securities, Inc.

                                                                                                                                     Total Treasury SBA 7a                                Total Senior                                                                        Total Disposition
                 Total Orignal Face Value                                    $19,717,617                                             investment amount           $21,372,670              Security Proceeds        $10,661                                                    Proceeds             $—

Notes: Numbers affected by rounding. Data as of 3/31/2010. Numbered notes taken verbatim from Treasury’s 4/2/2010 Transactions Report.
1
  The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
2
  Investment Amount is stated after giving effect to factor and, if applicable, the purchase of accrued principal and interest.
3
  If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the actual Investment Amount will be adjusted within the variance permitted under the program terms.
4
  In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount
  equal to the product of (A) 0.05% and (B) the Final Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and condi-
  tions as set forth in the Master Purchase Agreement.
5
  Disposition Amount is stated after giving effect, if applicable, to sale of accrued principal and interest.

Source: Treasury, Transactions Report, 4/2/2010, accessed 4/6/2010.
                                                                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I april 20, 2010
                                                   Cross-Reference of Report to the Inspector General Act of 1978 I april 20, 2010 | Appendix E                        219




    Cross-Reference of Report to the Inspector General
    Act of 1978
    This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978
    (P.L. 95-452), as amended, 5 U.S.C. APP.

Section    Statute (Inspector General Act of 1978)                 SIGTARP Action                               Report Reference
Section    “Description of significant problems, abuses, and       List problems, abuses, and deficiencies      Section 1: “The Office of the SIGTARP”
5(a)(1)    deficiencies... ”                                       from SIGTARP audits and investigations.      Section 4: “SIGTARP Recommendations”
           “Description of recommendations for corrective ac-
Section                                                            List recommendations from SIGTARP            Section 1: “The Office of the SIGTARP”
           tion…with respect to significant problems, abuses,
5(a)(2)                                                            audits and investigations.                   Section 4: “SIGTARP Recommendations”
           or deficiencies... ”
           “Identification of each significant recommendation      List all instances of incomplete correc-
Section
           described in previous semiannual reports on which       tive action from previous semiannual         Section 4: “SIGTARP Recommendations”
5(a)(3)
           corrective action has not been completed...”            reports.
           “A summary of matters referred to prosecutive
Section                                                            List status of SIGTARP investigations
           authorities and the prosecutions and convictions                                                     Section 1: “The Office of the SIGTARP”
5(a)(4)                                                            referred to prosecutive authorities.
           which have resulted... ”
           “A summary of each report made to the [Treasury
                                                                   List TARP oversight reports by Treasury,
Section    Secretary] under section 6(b)(2)... ” (instances                                                     Appendix G: “Key Oversight Reports and
                                                                   FSOB, SEC, GAO, COP, OMB, CBO,
5(a)(5)    where information requested was refused or not                                                       Testimonies”
                                                                   Federal Reserve, FDIC, and SIGTARP.
           provided)
           “A listing, subdivided according to subject matter,
Section    of each audit report issued...” showing dollar value
                                                                   List SIGTARP audits.                         Section 1: “The Office of the SIGTARP”
5(a)(6)    of questioned costs and recommendations that
           funds be put to better use.
Section    “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                                Section 1: “The Office of the SIGTARP”
5(a)(7)    report... ”                                             SIGTARP audits.
                                                                                                                As detailed in Section 1: “The Office of the
           “Statistical tables showing the total number of audit   Provide statistical tables showing dollar
Section                                                                                                         SIGTARP,” SIGTARP has made significant findings
           reports and the total dollar value of questioned        value of questioned costs from SIGTARP
5(a)(8)                                                                                                         in its audit reports. However, to date SIGTARP’s
           costs... ”                                              audits.
                                                                                                                audits have not included questioned costs findings.
                                                                                                                As detailed in Section 1: “The Office of the
           “Statistical tables showing the total number of audit   Provide statistical tables showing dollar
Section                                                                                                         SIGTARP,” SIGTARP has made important findings in
           reports and the dollar value of recommendations         value of funds put to better use by
5(a)(9)                                                                                                         its audit reports. However, to date SIGTARP’s audits
           that funds be put to better use by management...”       management from SIGTARP audits.
                                                                                                                have not included funds put to better use findings.
           “A summary of each audit report issued before
           the commencement of the reporting period for
           which no management decision has been made by           Provide a synopsis of significant
Section                                                                                                         Section 1: “The Office of the SIGTARP”
           the end of reporting period, an explanation of the      SIGTARP audit reports in which recom-
5(a)(10)                                                                                                        Section 4: “SIGTARP Recommendations”
           reasons such management decision has not been           mendations by SIGTARP are still open.
           made, and a statement concerning the desired
           timetable for achieving a management decision...”
                                                                                                                As detailed in Section 1: “The Office of the
                                                                                                                SIGTARP,” and Section 4: “SIGTARP Recommenda-
                                                                   Explain audit reports in which significant   tions,” SIGTARP has made noteworthy recom-
Section    “A description and explanation of the reasons for
                                                                   revisions have been made to manage-          mendations in its audit reports, and the majority
5(a)(11)   any significant revised management decision...”
                                                                   ment decisions.                              of these recommendations have been agreed to.
                                                                                                                To date, no management decisions have been
                                                                                                                revised.
                                                                                                                See discussion of “Factors Affecting Implementa-
           “Information concerning any significant manage-
Section                                                            Provide information where management         tion of the Home Affordable Modification Program”
           ment decision with which the Inspector General is in
5(a)(12)                                                           disagreed with a SIGTARP audit finding.      in Section 1: “The Office of the SIGTARP,” and
           disagreement...”
                                                                                                                Section 4: “SIGTARP Recommendations.”
220           Appendix F I public announcements of audits I april 20, 2010




      PUBLIC ANNOUNCEMENTS OF                                                GAO2
                                                                             Ongoing Audits
      AUDITS                                                                 •	 AIG Financial Update tracks indicators through 4th quarter
      This appendix provides an announcement of new and                         2009.  April issuance.
      ongoing public audits by the agencies listed below. See                •	 Treasury’s Decision to Extend TARP.  Comment on process
      Appendix G: “Key Oversight Reports and Testimonies” for                   and criteria for making decision. Probable May [issuance].
      a listing of published reports. Italics style indicates narrative      •	 CPP Approval and Return Process:  Review Treasury’s
      taken as verbatim from the agencies’ responses to SIGTARP’s               process as well as regulators’ processes for approval, as well
      data call.                                                                as Treasury and regulators’ application of criteria for repay-
                                                                                ment. Probable June/July issuance.
      •	 U.S. Department of the Treasury Office of the Inspector
                                                                             •	 Partnering with SIGTARP on oversight of government 	
          General (“Treasury OIG”)
                                                                                management of formerly private sector entities.
      •	 Federal Reserve Board Office of Inspector General
                                                                             •	 Effect of TARP on Treasury’s Debt Management. Likely May
          (“Federal Reserve OIG”)                                               issuance.
      •	 Government Accountability Office (“GAO”)                            •	 Effectiveness of HAMP and oversight of servicers. Likely July
      •	 Federal Deposit Insurance Corporation Office of the                    issuance.
          Inspector General (“FDIC OIG”)                                     •	 Review of SCAP. Likely June/July issuance.

      Treasury OIG                                                           FDIC OIG
       Ongoing Audits                                                         Ongoing Audits
      •	 None provided                                                       •	 None provided

      Federal Reserve OIG1                                                   Endnotes
      Ongoing Audits                                                         	 Federal Reserve OIG, response to SIGTARP data call, 4/1/2010.
                                                                             1


      •	 Review of the Federal Reserve’s Lending Facilities and              	 GAO, response to SIGTARP data call, 3/31/2010.
                                                                             2


         Special Programs (report is being drafted)
                                                                             KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix g I april 20, 2010             221




KEY OVERSIGHT REPORTS AND TESTIMONIES
This list reflects TARP-related reports and testimonies published since SIGTARP’s last quarterly report. See prior SIGTARP
quarterly reports for lists of prior oversight reports and testimonies.			


U.S. DEPARTMENT OF THE TREASURY (Treasury)
ROLES AND MISSION
The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. government’s finances effectively;
promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury
advises the President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial
institutions.
OVERSIGHT REPORTS
Treasury, Transactions Report, 1/4/2010 -- 3/31/2010, www.financialstability.gov/latest/reportsanddocs.html, accessed 4/6/2010 (released weekly).
Treasury, Section 105(a) Report, 1/11/2010 -- 3/10/2010, www.financialstability.gov/latest/reportsanddocs.html, accessed 4/6/2010.
Treasury, Citizens’ Report on the Troubled Asset Relief Program, Fiscal Year 2009, 3/2/2010, www.financialstability.gov/docs/09%20OFS_
CitizensReport%20MAR2.pdf, accessed 4/6/2010.
Treasury, “Summary Response to GAO Report, November 2009,” 1/14/2010, www.financialstability.gov/docs/Summary%20Response%20to%20
GAO%20Auto%20Report%201%204%2010.pdf, accessed 4/6/2010.
Treasury, Warrant Disposition Report, 1/20/2010, www.financialstability.gov/docs/TARP%20Warrant%20Disposition%20Report%20v4.pdf, accessed
4/6/2010.
RECORDED TESTIMONY
Treasury, “Treasury Secretary Timothy F. Geithner Opening Statement -- As Prepared for Delivery, Senate Committee on Finance,” 2/2/2010, www.
financialstability.gov/latest/st_02022010.html, accessed 4/6/2010.
Treasury, “Treasury Secretary Timothy F. Geithner Written Testimony before the US Senate Budget Committee,” 2/4/2010, www.financialstability.gov/
latest/st_02042010.html, accessed 4/6/2010.
Treasury, “Special Master Kenneth Feinberg Testimony before the House Committee on Financial Services,” 2/25/2010, www.financialstability.gov/latest/
st_02252010.html, accessed 4/6/2010.
Treasury, “Written Testimony of Herbert M. Allison, Jr., Assistant Secretary for Financial Stability, before the Congressional Oversight Panel,” 3/4/2010,
www.financialstability.gov/latest/st_03042010.html, accessed 4/6/2010.
Treasury, “Secretary Timothy F. Geithner Written Testimony before the House Committee on Financial Services,” 3/23/2010, www.financialstability.gov/
latest/tg_03232010b.html, accessed 4/6/2010.
Treasury, “Foreclosure Prevention: Is the Home Affordable Modification Program Preserving Homeownership?” Testimony of Herbert M. Allison, Assistant
Secretary for Financial Stability, U.S. Department of the Treasury, before the House Committee on Oversight and Government Reform, 3/25/2010,
www.financialstability.gov/latest/tg_03252010.html, accessed 4/6/2010.
FINANCIAL STABILITY OVERSIGHT BOARD (FSOB)
ROLES AND MISSION
FSOB is responsible for reviewing the exercise of authority under programs developed in accordance with EESA, including:
• policies implemented by the Secretary and the Office of Financial Stability, including the appointment of financial agents, the designation of asset
  classes to be purchased, and plans for the structure of vehicles used to purchase troubled assets
• the effect of such actions in assisting American families in preserving home ownership, stabilizing financial markets, and protecting taxpayers
 In addition, FSOB is responsible for making recommendations to the Secretary on the use of the authority under EESA, as well as for reporting any
  suspected fraud, misrepresentation, or malfeasance to SIGTARP or the U.S. Attorney General.
OVERSIGHT REPORTS
None
RECORDED TESTIMONY
None
222           Appendix g I KEY OVERSIGHT REPORTS AND TESTIMONIES I april 20, 2010




      SECURITIES AND EXCHANGE COMMISSION (SEC)
      ROLES AND MISSION
      SEC administers the federal securities laws, requires disclosure by public companies, and brings enforcement actions against violators of securities law.
      While other federal and state agencies are legally responsible for regulating mortgage lending and the credit markets, SEC has taken these decisive
      actions to address the extraordinary challenges caused by the current credit crisis:
      • aggressively combating fraud and market manipulation through enforcement actions
      • taking swift action to stabilize financial markets
      • enhancing transparency in financial disclosure
      OVERSIGHT REPORTS
      None
      RECORDED TESTIMONY
      SEC, “Testimony Concerning the State of the Financial Crisis,” Chairman Mary L. Schapiro, before the Financial Crisis Inquiry Commission, 1/14/2010,
      sec.gov/news/testimony/2010/ts011410mls.htm, accessed 4/6/2010.
      GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
      ROLES AND MISSION
      GAO is tasked with performing ongoing oversight of TARP’s performance, including:
      • evaluating the characteristics of asset purchases and the disposition of assets acquired
      • assessing TARP’s efficiency in using the funds
      • evaluating compliance with applicable laws and regulations
      • assessing the efficiency of contracting procedures
      • auditing TARP’s annual financial statements and internal controls
      • submitting reports to Congress at least every 60 days
      OVERSIGHT REPORTS
      GAO, “Troubled Asset Relief Program, Treasury Needs to Strengthen Its Decision-Making Process on the Term Asset-Backed Securities Loan Facility,”
      2/28/2010, www.gao.gov/new.items/d1025.pdf, accessed 4/6/2010.
      GAO, “Troubled Asset Relief Program, Automaker Pension Funding and Multiple Federal Roles Pose Challenges for the Future,” 4/6/2010, www.gao.gov/
      new.items/d10492.pdf, accessed 4/6/2010.
      RECORDED TESTIMONY
      GAO, “Troubled Asset Relief Program, Home Affordable Modification Program Continues to Face Implementation Challenges,” Statement of Gene L.
      Dodaro, Acting Comptroller General of the United States, before the Committee on Oversight and Government Reform, U.S. House of Representatives,
      3/25/2010, www.gao.gov/new.items/d10556t.pdf, accessed 4/6/2010.
                                                                             KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix g I april 20, 2010         223




Congressional oversight panel (cop)
ROLES AND MISSION
COP is tasked with reviewing the current state of the financial markets and the regulatory system. As a by-product of these oversight activities, COP
is required to produce the following reports to Congress:
• regular reports every 30 days that cover a variety of issues, including administration of the program, the impact of purchases on the financial
  markets/financial institutions, market transparency, and the effectiveness of foreclosure mitigation, minimization of long-term costs, and maximiza-
  tion of benefits for taxpayers
• a special report on regulatory reform, published no later than January 20, 2009, analyzing the current state of the regulatory system and its effec-
  tiveness at overseeing the participants in the financial system and protecting consumers. The report is to provide recommendations for improve-
  ment regarding whether any participants in the financial markets that are currently outside the regulatory system should become subject to the
  regulatory system, the rationale underlying such recommendation, and whether there are any gaps in existing consumer protections.
OVERSIGHT REPORTS
COP, “Exiting TARP and Unwinding Its Impact on the Financial Markets,” 1/14/2010, http://cop.senate.gov/reports/library/report-011410-cop.cfm,
accessed 4/5/2010.
COP, “Commercial Real Estate Losses and the Risk to Financial Stability,”2/11/2010, http://cop.senate.gov/reports/library/report-021110-cop.cfm,
accessed 4/5/2010.
COP, “The Unique Treatment of GMAC Under TARP,” 3/11/2010, http://cop.senate.gov/reports/library/report-031110-cop.cfm, accessed
4/5/2010.
RECORDED TESTIMONY
COP, "Atlanta Field Hearing on Commercial Real Estate," 1/27/2010, http://cop.senate.gov/hearings/library/hearing-012710-atlanta.cfm, accessed
4/5/2010.
COP, “COP Hearing on GMAC Financial Services,” 2/25/2010, http://cop.senate.gov/hearings/library/hearing-022510-gmac.cfm, accessed
4/5/2010.
COP, "COP Hearing on Assistance Provided to Citigroup Under TARP," 3/4/2010, http://cop.senate.gov/hearings/library/hearing-030410-citi.cfm,
accessed 4/5/2010.
OFFICE OF MANAGEMENT AND BUDGET (OMB)
ROLES AND MISSION
OMB’s predominant mission is to assist the President in overseeing the preparation of the federal budget and to supervise its administration in Ex-
ecutive Branch agencies. In helping to formulate the President’s spending plans, OMB evaluates the effectiveness of agency programs, policies, and
procedures, assesses competing funding demands among agencies, and sets funding priorities. OMB ensures that agency reports, rules, testimony,
and proposed legislation are consistent with the President’s Budget and with Administration policies.

In addition, OMB oversees and coordinates the Administration’s procurement, financial management, information, and regulatory policies. In each of
these areas, OMB’s role is to help improve administrative management, to develop better performance measures and coordinating mechanisms, and
to reduce any unnecessary burdens on the public.
OVERSIGHT REPORTS
None
RECORDED TESTIMONY
None
224            Appendix g I KEY OVERSIGHT REPORTS AND TESTIMONIES I april 20, 2010




      CONGRESSIONAL BUDGET OFFICE (CBO)
      ROLES AND MISSION
      CBO’s mandate is to provide the Congress with objective, nonpartisan, and timely analyses to aid in economic and budgetary decisions on the wide array
      of programs covered by the Federal budget, and the information and estimates required for the Congressional budget process.

      CBO assists the House and Senate Budget Committees, and the Congress more generally, by preparing reports and analyses. In accordance with the
      CBO’s mandate to provide objective and impartial analysis, CBO’s reports contain no policy recommendations.
      OVERSIGHT REPORTS
      CBO, “Report on the Troubled Asset Relief Program,” 3/2010, http://cbo.gov/ftpdocs/112xx/doc11227/03-17-TARP.pdf, accessed on 4/5/2010.
      RECORDED TESTIMONY
      None
      FEDERAL RESERVE BOARD (Federal Reserve)
      ROLES AND MISSION
      Federal Reserve’s duties fall into four general areas:
      • conducting the nation’s monetary policy by influencing the monetary and credit conditions in the economy in pursuit of maximum employment, stable
        prices, and moderate long-term interest rates
      • supervising and regulating banking institutions to ensure the safety and soundness of the nation’s banking and financial system and to protect the
        credit rights of consumers
      • maintaining the stability of the financial system and containing systemic risk that may arise in financial markets
      • providing financial services to depository institutions, the U.S. government, and foreign official institutions, including playing a major role in operating
        the nation’s payments system
      OVERSIGHT REPORTS
      None
      RECORDED TESTIMONY
      Federal Reserve, “Commercial Real Estate,” Jon D. Greenlee, Associate Director, Division of Banking Supervision and Regulation, before the
      Congressional Oversight Panel Field Hearing, Atlanta, Georgia, 1/27/2010, http://federalreserve.gov/newsevents/testimony/greenlee20100127a.htm,
      accessed 4/6/2010.
      Federal Reserve, “Federal Reserve’s Exit Strategy,” Chairman Ben S. Bernanke, before the Committee on Financial Services, U.S. House of
      Representatives, 2/10/2010, http://federalreserve.gov/newsevents/testimony/bernanke20100210a.htm, accessed 4/6/2010.
      Federal Reserve, “Incentive Compensation,” Scott G. Alvarez, General Counsel, before the Committee on Financial Services, U.S. House of
      Representatives, 2/25/2010, http://federalreserve.gov/newsevents/testimony/alvarez20100225a.htm, accessed 4/6/2010.
      Federal Reserve, “Small Business Lending,” Governor Elizabeth A. Duke, before the Committee on Financial Services and Committee on Small Business,
      U.S. House of Representatives, 2/26/2010, http://federalreserve.gov/newsevents/testimony/duke20100226a.htm, accessed 4/6/2010.
      Federal Reserve, “The Federal Reserve’s Role in Bank Supervision,” Chairman Ben S. Bernanke, before the Committee on Financial Services, U.S. House
      of Representatives, 3/17/2010, http://federalreserve.gov/newsevents/testimony/bernanke20100317a.htm, accessed 4/6/2010.
      Federal Reserve, “Federal Reserve’s Exit Strategy,” Chairman Ben S. Bernanke, before the Committee on Financial Services, U.S. House of
      Representatives, 3/25/2010, http://federalreserve.gov/newsevents/testimony/bernanke20100325a.htm, accessed 4/6/2010.
                                                                                                KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix g I april 20, 2010                          225




  FEDERAL DEPOSIT INSURANCE CORPORATION (FDIC)
  ROLES AND MISSION
  FDIC is an independent agency created by Congress that maintains the stability and public confidence in the nation’s financial system by insuring depos-
  its, examining and supervising financial institutions, and managing receiverships.
  OVERSIGHT REPORTS
  None
  RECORDED TESTIMONY
  FDIC, Statement of Sheila C. Bair, Chairman, Federal Deposit Insurance Corporation, before the Financial Crisis Inquiry Commission, 1/14/2010, http://
  fdic.gov/news/news/speeches/chairman/spjan1410.html, accessed 4/6/2010.
  FDIC, Statement of Mitchell L. Glassman, Director, Division of Resolutions and Receiverships, Federal Deposit Insurance Corporation before the
  Subcommittee on Financial Institutions and Consumer Credit, House Committee on Financial Services, U.S. House of Representatives, 1/21/2010,
  http://fdic.gov/news/news/speeches/chairman/spjan2110.html, accessed 4/6/2010.
  FDIC, Statement of Martin J. Gruenberg, Vice Chairman, Federal Deposit Insurance Corporation before the Committee on Financial Services and
  Committee on Small Business, U.S. House of Representatives, 2/26/2010, http://fdic.gov/news/news/speeches/others/spfeb2610.html, accessed
  4/6/2010.


  FEDERAL DEPOSIT INSURANCE CORPORATION office of the inspector general (FDIC OIG)
  ROLES AND MISSION
  The Office of Inspector General promotes the economy, efficiency, and effectiveness of FDIC programs and operations, and protects against fraud,
  waste, and abuse, to assist and augment the FDIC’s contribution to stability and public confidence in the nation’s financial system.
  OVERSIGHT REPORTS
  None
  RECORDED TESTIMONY
  None
SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
ROLES AND MISSION
Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of
the purchase, management and sale of assets under the Troubled Asset Relief Program (“TARP”). SIGTARP’s mission is to advance economic stability by
promoting the efficiency and effectiveness of TARP management, through transparency, through coordinated oversight, and through robust enforcement
against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.
OVERSIGHT REPORTS
SIGTARP, Quarterly Report to Congress, 1/30/2010, www.sigtarp.gov/reports/congress/2010/January2010_Quarterly_Report_to_Congress.pdf,
accessed 4/6/2010.
SIGTARP, “Factors Affecting Implementation of The Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/Factors_
Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 4/6/2010.
RECORDED TESTIMONY
SIGTARP, “Statement of Neil Barofsky, Special Inspector General for the Troubled Asset Relief Program, before the House Committee on Oversight
and Government Reform,” 1/27/2010, www.sigtarp.gov/reports/testimony/2010/Testimony%20Jan%2027_2010_House%20Committee%20on%20
Oversight%20and%20Government%20Reform.pdf, accessed 4/6/2010.

 Note: Italics style indicates verbatim narrative taken from source documents.

 Sources: Treasury, www.treas.gov, accessed 4/6/2010; Treasury Inspector General, www.treas.gov, accessed 4/6/2010; FSOB, www.treas.gov, accessed 4/6/2010; SEC, www.sec.gov, accessed
 4/6/2010; GAO, www.gao.gov, accessed 4/6/2010; COP, www.cop.senate.gov, accessed 4/6/2010; OMB, www.whitehouse.gov, accessed 4/6/2010; CBO, www.cbo.gov, accessed 4/6/2010;
 Federal Reserve Board, www.federalreserve.gov, accessed 4/6/2010; FDIC, www.fdic.gov, accessed 4/6/2010; FDIC OIG, www.fdicoig.gov, accessed 4/6/2010; SIGTARP, www.sigtarp.gov, accessed
 4/6/2010.	
 		
 		
 		
 		
226           Appendix H I correspondence I april 20, 2010




      correspondence
      This appendix provides a copy of the following correspondence:

      Correspondence
      Date            From                To                 Regarding
      2/19/2010       SIGTARP             Treasury           Oversight of Small Business Lending Fund
                                                             Status Report on Recommendations in the SIGTARP Quarterly
      3/30/2010       Treasury            SIGTARP
                                                             Report
      4/17/2010       Treasury            SIGTARP            Response to SIGTARP Quarterly Report
correspondence I Appendix H I april 20, 2010   227
228   Appendix H I correspondence I april 20, 2010
                         The U.S. Department of the Treasury
             Summary Response to SIGTARP’s Outstanding Recommendations

                                          March 30, 2010

The Department of the Treasury (Treasury) welcomes the recommendations on the Troubled
Asset Relief Program (TARP) from the Office of the Special Inspector General for the Troubled
Asset Relief Program (SIGTARP). This summary response serves as a status report on
Treasury’s response to specific recommendations included in SIGTARP’s quarterly and audit
reports, which appear in the SIGTARP recommendation chart included in the January 2010
Quarterly Report to Congress.

Treasury has given careful consideration to all recommendations in SIGTARP’s quarterly and
audit reports when taking actions to stabilize the financial system and restore the flow of credit.
Treasury’s policies and programs currently address many of the issues raised in your
recommendations, and in many cases, Treasury has taken specific actions to implement your
recommendations. When we believe a particular recommendation would not help carry out
Treasury’s statutory duties under the Emergency Economic Stabilization Act (EESA), we have
developed alternative ways to address the underlying concerns SIGTARP has raised and have
explained the measures we are employing to do so to in our summary responses to SIGTARP
and to Congress. Finally, SIGTARP Recommendations 6, 7, 8, 9, 11 and 13 identified in this
summary response should be closed because Treasury has implemented the substance of the
recommendation, and believes that no further action is necessary or appropriate.

Specific Recommendations from SIGTARP’s Reports

SIGTARP Recommendation 1
Treasury should include language in new TARP agreements to facilitate compliance and
oversight. Specifically, each program participant should (1) acknowledge explicitly the
jurisdiction and authority of SIGTARP and other oversight bodies, as relevant, to oversee
compliance of the conditions contained in the agreement in question, (2) establish internal
controls with respect to that condition, (3) report periodically to the Compliance department of
the Office of Financial Stability (“OFS-Compliance”) regarding the implementation of those
controls and its compliance with the condition, and (4) provide a signed certification from an
appropriate senior official to OFS-Compliance that such report is accurate.

Treasury’s Response
Treasury continues to implement this recommendation with respect to new TARP programs
going forward, as appropriate.

The definitive documentation for the Community Development Capital Initiative (CDCI) will
expressly acknowledge the jurisdiction and authority of SIGTARP and other oversight bodies in
the TARP agreements.

                                                 1
                                                                                                      correspondence I Appendix H I april 20, 2010
                                                                                                      229
Treasury will also require Community Development Financial Institutions (CDFIs) participating         regulations/compliance. Two new employees began within the last six weeks, and an additional         230
in the CDCI to provide to OFS Compliance any assessments of internal controls (performed with         two employees will start in April 2010. Treasury continues to advertise for candidates with the
their own internal resources or by external auditors). CDFIs are generally small, mission driven      above experience to fill open positions.
institutions with limited resources. Therefore, Treasury believes that requiring that any internal
controls assessments performed by the CDFI (or an outside party) be given to Treasury, and not        As stated in prior responses, OFS-Compliance continues to receive assistance from other OFS
imposing a requirement on CDFIs to perform internal control assessments, accomplishes the             personnel, including those in the risk management, financial management, home ownership
spirit of this recommendation without being burdensome to these small, mission driven                 preservation and investment areas as well as engaged financial agents/contractors, specifically
institutions and, lessens the likelihood of deterrence to participate in the CDCI.                    for the Public Private Investment Program (PPIP) and the Home Affordability Modification
                                                                                                      Program (HAMP), to ensure that TARP participants are meeting their responsibilities under the
                                                                                                      investment agreements.
SIGTARP Recommendation 2
Treasury should require TARP recipients to report on the actual use of TARP funds.
                                                                                                      SIGTARP Recommendation 4
Treasury’s Response                                                                                   Treasury should require servicers in MHA to submit third-party verified evidence that the
As you know, Treasury has worked with SIGTARP to design a process that addresses this                 applicant is residing in the subject property before funding a mortgage modification.
recommendation, which includes a Use of Funds Survey. The scope of the annual Use of Funds
Survey will cover how each financial institution has employed the capital infusion of CPP funds       Treasury’s Response
from the date they initially received the funds until the end of the fourth quarter 2009.             Treasury ensures that borrowers reside in their HAMP-modified property in three ways. Two of
                                                                                                      these mechanisms occur prior to the funding of the modification.
Treasury will post all answers that are collected from each individual CPP recipient through the
Use of Funds Survey, and will publish the names of any financial institutions that fail to submit a   During evaluation for HAMP, servicers must obtain a credit report from an independent credit
                                                                                                                                                                                                           Appendix H I correspondence I april 20, 2010




survey response to Treasury, on the FinancialStability.gov website. Treasury will also post a         reporting agency for every borrower and joint-borrower. Servicers use this credit report to
summary of quantitative data on the categories provided in the overall Quarterly CPP Report for       confirm that the property securing the mortgage loan is the borrower’s principal residence. If the
each individual CPP recipient on the FinancialStability.gov website.                                  credit report is inconsistent with other information provided by the borrower, the servicer must
                                                                                                      reconcile the inconsistency.
Treasury sent the Use of Funds Survey to CPP participants on March 12, 2010. Financial
institutions will have 30 days to complete and submit their survey responses to Treasury.             Secondly, Treasury's Program Administrator, Fannie Mae, is establishing a fraud detection
                                                                                                      surveillance procedure using reported IR2 data that specifically focuses on verifying borrower
Additionally, under CDCI, participating CDFIs will be required to comply with the rules,              residency. When occupancy discrepancies or potential misrepresentations are identified,
regulations and guidance of the Treasury with respect to transparency, accountability and             servicers will be notified and will be required to take appropriate action to resolve the
monitoring, as published and in effect at the time of the investment closing. This will include       discrepancy prior to any incentive is paid.
participating in the annual use of funds survey described above.
                                                                                                      Finally, Treasury’s Compliance Agent, Freddie Mac, conducts loan file reviews of participating
                                                                                                      servicers. Freddie Mac selects a sample of loan files from servicers in order to identify non-
SIGTARP Recommendation 3                                                                              compliance, including cases where borrowers’ residency has not been adequately verified.
Treasury should significantly increase the staffing levels of OFS-Compliance and ensure the           Additionally, Freddie Mac will receive reporting from the above described Fannie Mae
timely development and implementation of an integrated risk management and compliance                 surveillance procedure and randomly sample loans to ensure the servicers have appropriately
program.                                                                                              resolved flagged items.

Treasury’s Response
Treasury continues to hire staff for OFS-Compliance with experience regarding conflicts of
interest, anti-fraud, audit, internal controls, and securities, banking and investment company

                                                 2
                                                                                                                                                      3
SIGTARP Recommendation 5                                                                                SIGTARP Recommendation 7
Additional anti-fraud protections should be adopted in MHA to verify the identity of the                In MHA, Treasury should defer payment of the $1,000 incentive to the servicer until after the
participants in the transaction and to address the potential for servicers to steal from individuals    homeowner has verifiably made a minimum number of payments under the mortgage
by receiving Government subsidies without applying them for the benefit of the homeowner.               modification program.

Treasury’s Response                                                                                     Treasury's Response
Treasury’s Program Administrator for HAMP, Fannie Mae, is establishing fraud detection                  Treasury has designed the HAMP program to address SIGTARP’s concern in this
surveillance procedures using data reported by servicers in the HAMP system of record (IR2),            recommendation. Under the HAMP program, servicers are not eligible to receive the $1,000
similar to that mentioned in response 4 that will specifically focuses on the borrower identity.        upfront incentive until the borrower has made three full payments under the modification and
When borrower identity discrepancies or potential misrepresentations are identified, servicers          submitted documentation verifying borrower income.
will be notified and will be required to take appropriate action to resolve the discrepancy prior to
any incentive being paid.                                                                               Treasury also has the ability to claw-back any servicer incentive if a permanent modification is
                                                                                                        deemed to be inappropriate. In such an event, incentives paid to date on loan modifications,
Freddie Mac, Treasury’s Compliance Agent for HAMP, has developed procedures to verify that              including any up front one-time incentives, monthly investor cost share reductions, or annual
incentives paid to servicers are accurately applied to the respective borrower participating in         incentives, will be recouped from the servicer.
HAMP during its servicer compliance reviews. Freddie Mac will select and review a sample of
serviced mortgage loans. Freddie Mac will then compare the source information from the loan             Furthermore, Treasury’s Compliance Agent, Freddie Mac, includes procedures in servicer
files to IR2 to validate existence. After the first anniversary date, Freddie Mac will assess           compliance reviews to verify that borrowers have made the required number of payments under
whether servicers’ controls and processes appropriately applied the borrowers’ reduction in             the trial modification. Freddie Mac’s loan file reviews ensure that all HAMP requirements were
principal, and for a selected sample of loans will assess whether the servicers reduced the             met in the modification of the loan.
borrowers’ principal amount of the loans appropriately. Freddie Mac also reviews on a sample
basis the investor payments remitted to the servicer to verify that servicers are not retaining these
incentives. Additionally, Freddie Mac will receive reporting from the above described Fannie            SIGTARP Recommendation 8
Mae surveillance procedure and randomly sample loans to ensure the servicers have                       Treasury should require its agents to keep track of the names and identifying information for
appropriately resolved flagged items.                                                                   each participant in each mortgage modification transaction and to maintain a database of such
                                                                                                        information.

SIGTARP Recommendation 6                                                                                Treasury's Response
Treasury should require that verifiable, third-party information be obtained to confirm an              Treasury already tracks the identity of servicers and borrowers involved in the mortgage
applicant’s income before any modification payments are made.                                           modification. Tracking of investors (both participating and non-participating) is being enhanced
                                                                                                        in Supplemental Directive 10-02.
Treasury's Response
Treasury has implemented this recommendation. Servicers are required to verify borrower                 Treasury requires Fannie Mae, Treasury’s Program Administrator for HAMP, to maintain
income using tax returns, credit reports and other third party data sources. This verification must     servicers’ and investors’ names and participating borrowers’ personally-identifiable information.
be retained by the servicer in the case file and provided to Treasury or its agent upon request or      The information collected is retained in a repository that facilitates analysis and allows for
during a compliance audit. Additionally, Supplemental Directive 10-1 will require servicers to          customized searches. Fannie Mae is also evaluating potential automated methods to validate
verify borrowers' income prior to offering a HAMP trial modification. This procedure will take          reported Social Security numbers for borrowers.
effect beginning with trial plans offered after April 15, 2010.
                                                                                                        Treasury does not, however, obtain the names of individual employees involved in each
                                                                                                        mortgage modification transaction because of feasibility, costs, and privacy issues. The names
                                                                                                        and identifying information of appraisers, mortgage brokers, and attorneys are not collected
                                                                                                        because these entities do not play a significant role in the mortgage modification process.


                                                  4                                                                                                     5
                                                                                                                                                                                                            correspondence I Appendix H I april 20, 2010
                                                                                                                                                                                                            231
SIGTARP Recommendation 9                                                                              Treasury’s Response                                                                                    232
Treasury should periodically disclose trading activity and require PPIF managers to disclose to       Treasury continues to develop appropriate metrics to monitor financial performance of the
SIGTARP, within seven days of the close of the quarter, all trading activity, holdings, and           PPIFs. Metrics are expected to include each PPIF’s actual cumulative returns on equity
valuations so that SIGTARP may disclose such information, subject to reasonable protections, in       investments in each PPIF relative to the total equity investment returns promised by each fund
its quarterly reports.                                                                                manager.

Treasury's Response                                                                                   Treasury also continues to develop internal controls policies and procedures specific to the
Treasury requires the PPIP fund managers (PPIFs) to submit the requested trading activity data        ongoing administration of the PPIP to ensure that the fund managers achieve Treasury’s
within 15 calendar days following month end. This period is needed because the month end              investment objectives while also protecting taxpayers from potential risks through robust
reporting process for fund managers is very involved, requiring numerous steps and multiple           oversight of the business, legal, operational, and compliance requirements of the PPIP.
parties to ensure accuracy, consistency, and data integrity. Treasury confirmed the need for the
15 calendar day timeframe with the recent publication of the initial quarterly report summarizing
PPIP capital activity, portfolio holdings and current pricing and fund performance for the quarter    SIGTARP Recommendation 11
ended on December 31, 2009.                                                                           Treasury should establish policies to guide any similar future decisions to take a substantial
                                                                                                      ownership position in financial institutions that would require an advance review so that
Each PPIF must disclose a report to Treasury and SIGTARP containing trading activity,                 Treasury can be reasonably aware of the obligations and challenges facing such institutions.
holdings, and valuations through the end of each quarter. The process for preparing these reports
takes significant time following the end of each month to validate the report for release to both     Treasury’s Response
Treasury and SIGTARP.                                                                                 As you know, Treasury has made very few decisions to take substantial ownership position in
                                                                                                      particular financial institutions under EESA. In those few cases where it was necessary to do so,
More specifically, each fund manager participates in a formal valuation process for determining       Treasury was acting to address situations where the financial distress at a company could have
                                                                                                                                                                                                             Appendix H I correspondence I april 20, 2010




the market value of portfolio investments at the end of each month. This process takes                significant repercussions for the financial system. Treasury assessed the obligations and
approximately six business days for fund managers and the valuation agent to complete. Upon           challenges of each situation as thoroughly as possible given the need to act quickly, often
completion, the collateral administrator authors a draft collateral administration report, which is   working in conjunction with federal banking regulators, and designed its interventions
delivered to each fund manager no later than seven business days after month end. The fund            accordingly.
manager reviews this report for accuracy and consistency, and incorporates the results of the
report into the discussion and analysis of the previous month’s fund performance. This                Going forward, Treasury does not anticipate taking a substantial percentage ownership position
validation review can take several days to complete before a final report is delivered to both        in any other financial institution pursuant to its EESA authority. Since the SIGTARP issued its
Treasury and SIGTARP.                                                                                 recommendation, Treasury has made clear its intentions in this regard. When Secretary Geithner
                                                                                                      sent letters to Congress on December 9, 2009, extending the statutory authority to purchase
As previously indicated in our prior correspondence, Treasury continues to believe that receiving     troubled assets to October 3, 2010, the Secretary stated Treasury’s plans regarding future TARP
the report within 15 calendar days following month end as required under the terms of the             purchases and said that future commitments of funds would be limited to three areas: (i) actions
definitive legal agreements that Treasury has entered into with each fund manager is a reasonable     to address the housing crisis and mitigate foreclosures, (ii) capital investment in small and
period to ensure that Treasury receives accurate and complete data from the fund managers for         community banks and other efforts to support small business lending, and (iii) potential
inclusion in the public report on PPIP capital activity.                                              additional support for the Term Asset Backed Securities Lending Facility (TALF). Treasury will
                                                                                                      not otherwise use remaining EESA funds unless necessary to respond to an immediate and
                                                                                                      substantial threat to the economy stemming from financial stability.
SIGTARP Recommendation 10
Treasury should have appropriate metrics defined and an evaluation should be in place to              Additionally, the Administration has proposed legislation to create a new regulatory regime that
monitor the effectiveness of the PPIF managers, both to ensure that they are fulfilling the terms     will allow for better monitoring, mitigation and responses to risks in the financial system so as to
of their agreements and to measure their performance against pre-established benchmarks and           avoid repeating the need for the types of actions that were taken under EESA. The proposed
against each other.                                                                                   regime would include “resolution authority” for major banks and bank-like entities. This

                                                 6                                                                                                     7
resolution authority would not constitute a permanent bailout fund, and neither the Senate nor           SIGTARP Recommendation 13
House versions provide authority to inject capital into financial institutions. Instead, the             Treasury should improve existing control systems to document the occurrence and nature of
legislation would give the government the ability to put an entity into receivership so that it can      external phone calls and in-person meetings about action and potential recipients of funding
be wound down safely, at less cost to the taxpayer and less risk to the financial system as a            under the CPP and other similar TARP-assistance programs to which they may be part of the
whole.                                                                                                   decision making.

Treasury believes these developments, which have occurred since the recommendation was                   Treasury’s Response
issued, may render this recommendation moot. Treasury will continue to monitor the progress of           Treasury has implemented this recommendation. Treasury issued guidance in September 2009
the proposed legislation, and will address the issues raised by the recommendation if it becomes         regarding communications with lobbyists and outside persons on the American Recovery and
necessary to make such an investment in the interim.                                                     Reinvestment Act and EESA. This guidance prohibits meetings and other oral communications
                                                                                                         with any party or entity concerning a pending application for funding under TARP-assisted
                                                                                                         programs. This guidance also requires the posting of all written communications from TARP
SIGTARP Recommendations 12                                                                               applicants or their representatives while the application is pending. In addition, the guidance
Treasury should establish policies to guide decision making in determining whether it is                 requires that Treasury employees disclose oral and written communications regarding EESA
appropriate to defer to another agency when making TARP programming decisions where more                 policy or applications with federally registered lobbyists. Treasury has conducted training
than one Federal agency is involved. To the extent that Treasury chooses to rely on another              presentations on the above guidance informing employees of the communication prohibitions
agency to provide oversight over TARP related activities, Treasury should establish controls to          and necessary reporting mechanisms.
ensure that effective communication takes place so that Treasury can carry out its own oversight
role.

Treasury’s Response
Treasury maintains broad oversight of all TARP programs. Treasury does not defer to another
agency when making TARP programming decisions. However, Treasury has coordinated with
other Federal agencies when executing or implementing programs and it may continue to do so
in the future. This is in order to leverage platforms that are currently in place at these agencies or
to otherwise utilize expertise or resources of another agency. Treasury will continue to work
closely with other federal agencies that are involved in TARP programs to ensure that Treasury
can carry out its oversight role.

For example, Treasury has worked closely with the Federal Reserve Board and the Federal
Reserve Bank of New York (FRBNY) to implement the TALF. Treasury provides a backstop in
the form of a $20 billion subordinated debt facility to TALF LLC for losses on loans. The
FRBNY provides the funds for all loans in the first instance and administers the program.
Treasury has broad oversight of the TALF, and has worked extensively with the Federal Reserve
and FRBNY to develop appropriate controls and oversight mechanisms over this TARP
program, including robust safeguards to assure measured, informed, and well thought out
decision making. Specifically, Treasury engages in daily phone conversations with the Federal
Reserve and FRBNY on TALF, requires multiple levels of approval for program amendments,
and coordinates all decision-making between its investment and legal departments. Treasury is
creating explicit policies and procedures for documenting its decision-making process. These
policies and procedures will codify already existing practice, and we expect these documents to
be approved and implemented shortly.


                                                  8
                                                                                                                                                        9
                                                                                                                                                                                                           correspondence I Appendix H I april 20, 2010
                                                                                                                                                                                                           233
234   Appendix H I correspondence I april 20, 2010
correspondence I Appendix H I april 20, 2010   235
                                                                                                                                                                                                                                                                         236



     organizational chart

                                                                                                                        Special Inspector General
                                                                                                                              Neil Barofsky


                                                                                                                                Deputy Special
                                                                                                                              Inspector General
                                                                                                                               Kevin Puvalowski

                                                                                           Chief of Staff                                                               Senior Policy Advisor
                                                                                       Christy Romero                                                                           Tim Lee
                                                                                                                                                                                                                                                                         Appendix i I organizational chart I April 20, 2010




                                                                                           Deputy Chief
                                                                                             of Staff
                                                                                            Cathy Alix




                           Deputy SIG–                                                           Deputy SIG–                                                    Deputy SIG–                                                              Chief Counsel
                          Investigations                                                            Audit                                                       Operations
                                                                                                                                                                                                                                         Bryan Saddler
                         Chris Sharpley                                                           Kurt Hyde                                                    Dr. Eileen Ennis




 Chief Investigative      Special Agent                                                                                                                                                                                   Communications             Director of
                            in Charge           Desk Officer -- SSA   Associate Director       Associate Director   Associate Director       Principal ADSIG     ADSIG -- HR              ADSIG -- CIO   ADSIG -- CFO        Director
      Counsel                                                                                                                                                                                                                                    Congressional Affairs
                           Scott Rebein               Paul Conlon       Mike Kennedy               Mark Little          Jim Shafer            Lynn Perkoski     Deborah Mason             AJ Germek      Deborah Mathis    Kristine Belisle
  Richard Rosenfeld                                                                                                                                                                                                                                  Lori Hayman


                                                 Hotline Supervisor
  Attorney Advisors       Investigators                                    Auditors                 Auditors              Auditors
                                                  Minh-Tu Nguyen


                                                       Analysts




Note: SIGTARP organizational chart as of 4/20/2010.
                                                                      UST/TCW Fund Holdings I Appendix j I april 20, 2010   237




UST/TCW Fund Holdings
The following is an excerpt from the UST/TCW Senior Mortgage Securities Fund, LP Monthly Report dated December
31, 2009.
238   Appendix j I UST/TCW Fund Holdings I april 20, 2010




                                                            Section 6.01(c)(i)(A) of Loan Agreement.
                                                            1
                        SIGTARP: Quarterly Report to Congress | April 20, 2010
                                                                                                            CT
                                                                                                       INSPE OR GE
                                                                                                AL                        N
                                                                                              CI




                                                                                                                          ER
                                                                                         E
                                                                                        SP




                                                                                                                             A L
                                                                                       TRO




                                                                                                                               M
                                                                                                                               RA
                                                                                        UB
                                                                                             LE




                                                                                                                          OG
                                                                                                  D
                                                                                                      ASS                 PR
                                                                                                            E T R ELIEF




SIGTARP
SIG-QR-10-02
                         Q2
                        2010
                                                                                 SIGTARP                                            Office of the Special Inspector General
                                                                                                                                    for the Troubled Asset Relief Program
                                                                                 Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                                Quarterly Report to Congress
SIGTARP@do.treas.gov                                                                                                                                               April 20, 2010
www.SIGTARP.gov
